<html>
<title> - DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 1999</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]


<DOC>
 
                 DEPARTMENT OF THE INTERIOR AND RELATED
                    AGENCIES APPROPRIATIONS FOR 1999

========================================================================

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             SECOND SESSION

                                ________

   SUBCOMMITTEE ON THE DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES

                      RALPH REGULA, Ohio, Chairman

 JOSEPH M. McDADE, Pennsylvania         SIDNEY R. YATES, Illinois
 JIM KOLBE, Arizona                     JOHN P. MURTHA, Pennsylvania
 JOE SKEEN, New Mexico                  NORMAN D. DICKS, Washington
 CHARLES H. TAYLOR, North Carolina      DAVID E. SKAGGS, Colorado
 GEORGE R. NETHERCUTT, Jr., Washington  JAMES P. MORAN, Virginia
 DAN MILLER, Florida                    
 ZACH WAMP, Tennessee                   

NOTE: Under Committee Rules, Mr. Livingston, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.

Deborah Weatherly, Loretta Beaumont, Joel Kaplan, and Christopher Topik,
                            Staff Assistants

                                ________

                                 PART 5
                                                                   Page
 Public Witnesses for Natural Resource Programs...................    1
 Additional Written Testimony.....................................  446
 Public Witnesses for Energy and Other Programs...................  613
 Additional Written Testimony--Energy............................. 1099
 Additional Written Testimony--Arts and Humanities................ 1219
 Additional Written Testimony--Other Programs..................... 1235

                              <snowflake>


                                ________

         Printed for the use of the Committee on Appropriations

                                ________

                     U.S. GOVERNMENT PRINTING OFFICE
47-313 O                    WASHINGTON : 1998
------------------------------------------------------------------------

             For sale by the U.S. Government Printing Office            
        Superintendent of Documents, Congressional Sales Office,        
                          Washington, DC 20402                          










                       COMMITTEE ON APPROPRIATIONS                      

                   BOB LIVINGSTON, Louisiana, Chairman                  

JOSEPH M. McDADE, Pennsylvania         DAVID R. OBEY, Wisconsin            
C. W. BILL YOUNG, Florida              SIDNEY R. YATES, Illinois           
RALPH REGULA, Ohio                     LOUIS STOKES, Ohio                  
JERRY LEWIS, California                JOHN P. MURTHA, Pennsylvania        
JOHN EDWARD PORTER, Illinois           NORMAN D. DICKS, Washington         
HAROLD ROGERS, Kentucky                MARTIN OLAV SABO, Minnesota         
JOE SKEEN, New Mexico                  JULIAN C. DIXON, California         
FRANK R. WOLF, Virginia                VIC FAZIO, California               
TOM DeLAY, Texas                       W. G. (BILL) HEFNER, North Carolina 
JIM KOLBE, Arizona                     STENY H. HOYER, Maryland            
RON PACKARD, California                ALAN B. MOLLOHAN, West Virginia     
SONNY CALLAHAN, Alabama                MARCY KAPTUR, Ohio                  
JAMES T. WALSH, New York               DAVID E. SKAGGS, Colorado           
CHARLES H. TAYLOR, North Carolina      NANCY PELOSI, California            
DAVID L. HOBSON, Ohio                  PETER J. VISCLOSKY, Indiana         
ERNEST J. ISTOOK, Jr., Oklahoma        ESTEBAN EDWARD TORRES, California   
HENRY BONILLA, Texas                   NITA M. LOWEY, New York             
JOE KNOLLENBERG, Michigan              JOSE E. SERRANO, New York           
DAN MILLER, Florida                    ROSA L. DeLAURO, Connecticut        
JAY DICKEY, Arkansas                   JAMES P. MORAN, Virginia            
JACK KINGSTON, Georgia                 JOHN W. OLVER, Massachusetts        
MIKE PARKER, Mississippi               ED PASTOR, Arizona                  
RODNEY P. FRELINGHUYSEN, New Jersey    CARRIE P. MEEK, Florida             
ROGER F. WICKER, Mississippi           DAVID E. PRICE, North Carolina      
MICHAEL P. FORBES, New York            CHET EDWARDS, Texas                 
GEORGE R. NETHERCUTT, Jr., Washington  ROBERT E. (BUD) CRAMER, Jr., Alabama
MARK W. NEUMANN, Wisconsin             
RANDY ``DUKE'' CUNNINGHAM, California  
TODD TIAHRT, Kansas                    
ZACH WAMP, Tennessee                   
TOM LATHAM, Iowa                       
ANNE M. NORTHUP, Kentucky              
ROBERT B. ADERHOLT, Alabama            

                 James W. Dyer, Clerk and Staff Director









DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 1999

                              ----------                              


 TESTIMONY OF MEMBERS OF CONGRESS AND OTHER INTERESTED INDIVIDUALS AND 
                             ORGANIZATIONS

                              ----------                              

                                            Tuesday, March 3, 1998.

                          U.S. FOREST SERVICE

                                WITNESS

ROLLIN D. SPARROWE, PRESIDENT, WILDLIFE MANAGEMENT INSTITUTE

    Mr. Regula. I call the meeting of the Interior Subcommittee 
to order. For all of you who are testifying, all statements 
will be made a part of the record. We have five minutes for 
each one and I am going to have to adhere very rigidly to the 
five minutes or we will never get through the day. Five minutes 
until 4 o'clock today, so, we have a full day for listening to 
testimony and all the statements will be evaluated by the 
staff.
    So, we will start out here with Green Farming Systems. Mr. 
Roddy.
    He has not checked in.
    Mr. Regula. Mr. Sparrowe. Thank you for coming.
    Mr. Sparrowe. Good morning, Mr. Chairman, thank you.
    Mr. Chairman, we, at the Wildlife Management Institute 
generally support the President's budget proposals.
    Mr. Regula. Is this a nonprofit organization?
    Mr. Sparrowe. Yes. We are a nonprofit organization located 
in Washington with a few field staff.
    Mr. Regula. With a membership across the country?
    Mr. Sparrowe. Yes. We are not primarily a membership 
organization. We are a very small organization that works to 
advance good wildlife management and pays particular attention 
to the public land agencies. We have worked with them 
extensively.
    I appeared last year representing the CARE group on behalf 
of the National Wildlife Refuge System and I want to thank you 
for your support and your staff 's support for the refuge 
program and their needs in maintenance and operation.
    I would just make the point that the operational needs of 
refuges need attention every bit as much as the maintenance 
needs. An example, I was on Desert National Wildlife Refuge 
just a few weeks ago. That is the largest refuge south of 
Alaska, 1.5 million acres, about 50 miles north of Las Vegas, 
the fastest growing city in North America, and they have no on-
site facilities or people to manage that refuge.
    They are managed from a satellite office in the city and 
they have three other field stations, all of which have 
endangered fish, the Desert Pup fish and other sorts of things. 
This is the example of the kind of things in some of these 
refuges.
    In order to cope with future public use that refuge really 
definitely needs operational funding. So, we would urge you to 
please do all you can, again, for the National Wildlife Refuge 
System.
    Endangered species funding is critically important and I 
want to just speak in general support of the large increase 
being requested by the Fish and Wildlife Service and note that 
a surprising array of disparate organizations have been talking 
to each other about the logic of supporting this kind of an 
increase.
    This includes everyone from commodity interests to 
environmental groups, people who usually are at war over these 
issues, but they believe that the administrative reforms put 
into place by the Department of the Interior----
    Mr. Regula. How do you feel about the camp fire bill?
    Mr. Sparrowe. As an organization, the Wildlife Management 
Institute believes that there is a lot to work with in the 
Kempthorne bill and that the opposition to it has been unduly 
harsh. We think there is a building block.
    The Biological Resources Division in USGS, I want to 
comment on just a minute. We are part of an organization called 
the BRD Watchers, Bird Watchers, who has been meeting with 
Interior to study them and understand how they have coped with 
all the changes. Obviously, they have been a point of 
considerable controversy and have lost some sizable portions of 
their budget.
    Our reading at this point is that they very much need the 
increases. We are concerned, however, that the Administration 
has changed the focus of a bunch of research and left out the 
cooperative research units for the coming year.
    There are 15 position vacancies in the unit and some of 
them have been open for many years. We would advocate that out 
of any budget increase there ought to be attention tofilling 
those positions so those units can do their job.
    Finally, the two other agencies, we work a good deal with 
includes the Forest Service. We are very supportive, 
particularly of their challenge, cost share and related 
activities, seeking common ground and these cooperative 
programs. Obviously again the Forest Service has been a real 
lightning rod and is receiving a lot of criticism.
    Mr. Regula. We have a lot of those.
    Mr. Sparrowe. And we support the President's budget for the 
Forest Service as well.
    The Bureau of Land Management seems, to us, to need a lot 
more attention than it gets. Massive development is going on in 
the Northern Rockies and I do not see it reflected in their 
budget proposals this year.
    Mr. Regula. You mean our attention for operations or 
attention for----
    Mr. Sparrowe. For operations, I think. Their staff have 
been cut back. They are facing a horrendous pace of development 
in Wyoming, for example, for oil and gas and they simply do not 
have the people to do the job. So, we support the modest 
increases that are listed for the Bureau, as well.
    Mr. Regula. Thank you.
    Mr. Sparrowe. Thank you very much.
    [The statement of Rollin Sparrowe follows:]

[Pages 4 - 11--The official Committee record contains additional material here.]


                                            Tuesday, March 3, 1998.

                       FISH AND WILDLIFE SERVICE

                                WITNESS

DAVID TOBIN, EXECUTIVE DIRECTOR, COOPERATIVE ALLIANCE FOR REFUGE 
    ENHANCEMENT

    Mr. Kolbe. Our next witness will be David Tobin from the 
Cooperative Alliance For Refuge Enhancement.
    David, good morning and welcome.
    Mr. Tobin. Good morning, thank you.
    My name is David Tobin, and I am Executive Director of the 
National Wildlife Refuge Association but I am here today to 
represent the Cooperative Alliance For Refuge Enhancement which 
is an unincorporated alliance of 17 national conservation and 
sportsmen's groups that comes together out of a mutual concern 
for the health and future of the refuge system.
    Last year this subcommittee provided the National Wildlife 
Refuge System with an unprecedented increase of $41 million for 
operations and maintenance. That appropriation was preceded by 
a request from the Cooperative Alliance for precisely that 
amount as the first year in a seven-year plan to restore the 
refuge system to a minimal level of funding that our analysis 
determined was necessary for the refuge system to fulfill its 
mandate, its responsibilities to Congress and to the American 
people.
    So, we are here again this year to request an increase in 
refuge operations and maintenance as the second year of this 
seven-year restoration effort.
    The appropriation that this committee provided last year 
not only put into place a seven-year process, and I will talk a 
little bit about what is going to be done by the Fish and 
Wildlife Service with that 1998 appropriation. But it also had 
a profound effect on the morale and the energy and the outlook 
of the men and women who work for the National Wildlife Refuge 
System and I want to share with you a few comments. We receive 
a great many letters from the Fish and Wildlife Service 
personnel responding to that appropriation.
    And some of these illustrate, I think, the change that is 
taking place and we hope to perpetuate. From San Francisco Bay 
the refuge manager wrote to us and said, ``You have no idea how 
much this means to us in the field. Please, come visit us to 
see the wetlands that will be restored, public access developed 
and environmental education programs established.''
    From the Yukon Delta in Alaska, a refuge manager commented, 
``I suspect that in the process of raising this money that the 
results may seem elusive. I want you to know that your efforts 
are going to have real, on-the-ground, tangible results on the 
refuge.'' And then he goes on to describe the many projects 
that they are going to put into place.
    For Fiscal Year 1999, Mr. Chairman, we are requesting an 
increase in refuge operations and maintenance to a total of 
$277 million, which exceeds the President's request by $30 
million and exceeds the 1998 appropriation by $57 million.
    As was detailed in a report that we provided to this 
committee last year and we are going to update for you later 
this year, we are working toward an annual operations and 
maintenance budget by the year 2003 of $495 million.
    Our job now is to watch closely as the Fish and Wildlife 
Service makes use of that 1998 appropriation and makes sure it 
is done so in a manner consistent with the needs that were 
identified and presented to this committee. That is going to 
include securing abandoned mine sites, rehabilitating 
grasslands, replacing equipment, providing access ramps for the 
disabled, and implementing volunteer programs and environmental 
education programs.
    Picking up on the comment that Rollin Sparrowe made 
earlier, on the difference between operations and maintenance, 
I have to point out that in the President's request for Fiscal 
Year 1999, the budget actually exceeds by $2 million the amount 
that we are requesting for maintenance, but falls short in the 
area of operations by $30 million.
    That is significant since the organic legislation, the 
Refuge System Improvement Act that was passed last year, 
actually increases the need in the operations area. It calls 
for increased planning activities, public use programs and 
other work that accentuates the need in the area of operations.
    So, we hope that this committee will be responsive to the 
operational need as well as the need in the area of 
maintenance.
    That is all I have to say this morning. We are looking 
forward to working with this committee and providing you with 
more information as we did last year. And also expect a lot of 
continued cooperation that we have received from the Service in 
the way of data and accountability for funds that have been 
spent.
    [The statement of David Tobin follows:]

[Pages 14 - 19--The official Committee record contains additional material here.]


    Mr. Kolbe. Thank you very much, Mr. Tobin.
    I think a lot of us will be very interested but it is going 
to take more than just a few months, obviously, to see the 
results of the added funding that we have provided last year, 
to see the beginnings of this seven year effort to see the 
restoration of wildlife habitat and the involvement of the 
public in this, but I appreciate very much getting this update 
and your request, which will obviously be considered very 
carefully by the committee.
    Mr. Tobin. Thank you.
    Mr. Kolbe. Thank you very much, Mr. Tobin.
                              ----------                              

                                            Tuesday, March 3, 1998.

                          U.S. FOREST SERVICE

                                WITNESS

BOB JENKS, NATIONAL WILD TURKEY FEDERATION
    Mr. Kolbe. Our next witness will be Bob Jenks from the 
National Wild Turkey Federation.
    Mr. Jenks. Good morning, Mr. Chairman.
    Mr. Kolbe. Good morning.
    Mr. Jenks. I am substituting for Dr. Kennamer, of the 
Federation, who regrets that he is not able to be here today 
and I am a former board member of the NWTF.
    The NWTF is an international nonprofit conservation 
organization. We have 150,000 members. They are spread amongst 
1,000 chapters throughout the U.S. and we work closely with the 
State and Federal conservation agencies to manage wildlife 
resources.
    We have a strong partnership with the Forest Service 
through the Making Tracks Program. Currently there are over 
three-quarters of a million dollars that are available for 
wildlife management partnerships through the Federation, but 
the Forest Service cannot fund the work force necessary to 
identify and implement these projects.
    Similarly, the loss of trained and experienced wildlife 
biologists on any forest has reduced the level of expertise to 
the point that there are simply not enough qualified people to 
do the field work. Their time is primarily spent doing office 
work such as legal appeals, threatened and endangered species 
work and land management planning.
    Despite the 1998 increase, the Forest Service budgets are 
still 17 percent below the 1993 agency request and the 
President's 1999 budget is only 48 percent of the estimated 
funds needed for minimum professional standards for wildlife 
habitat management.
    The reduction of the wildlife budget is so great the Forest 
Service can no longer be expected to do more with less. They 
are doing less with less and our national forests and their 
valuable timber and wildlife resources are beginning to show 
the strain, Mr. Chairman.
    For example, all forest level wildlife and fishery staff 
officer positions have been eliminated from the Southwestern 
Region; technicians, rather than biologists, now do most of the 
wildlife work in the Southeast; and much money in Challenge 
Cost Share funds are not reaching the ground.
    In 1998, the Congress and the Administration responded to 
this concern and they did increase the funding for wildlife 
habitat improvement projects. The NWTF applauds this action, 
however, we feel that wildlife resource and recreational users 
are being adversely impacted disproportionate to their value.
    The National Wild Turkey Federation urges Congress to 
increase the funding of wildlife habitat improvement budget to 
$38.5 million, a level near the 1994 funding without inflation. 
This money will be leveraged by cost-share funds from the 
private sector allowing for more and better habitats for wild 
turkeys and many other wildlife species, including some 
neotropical migrant birds of concern.
    Finally, Mr. Chairman, the National Wild Turkey Federation 
urges the committee to fund the President's request for noxious 
weed control programs to fight a real problem in many forests 
and rangelands.
    Thank you, Mr. Chairman, for the opportunity to speak this 
morning.
    Are there any questions, sir?
    [The statement of James Earl Kennamer follows:]

[Pages 22 - 24--The official Committee record contains additional material here.]


    Mr. Kolbe. Thank you very much, Mr. Jenks. I think this is 
a very good and thorough presentation. I was just making some 
notes as we went through here, and I appreciate very much your 
bringing this information to our attention.
    Thank you.
    Mr. Jenks. Sure, thank you.
                              ----------                              

                                            Tuesday, March 3, 1998.

                         FOREST LEGACY PROGRAM

                                WITNESS

ANDREA COLNES, DIRECTOR, THE NORTHERN FOREST ALLIANCE
    Mr. Kolbe. Our next witness will be Andrea Colnes, 
Director, Northern Forest Alliance. Andrea, good morning, thank 
you very much for being with us here.
    Ms. Colnes. Good morning.
    Mr. Kolbe. Obviously, as for all the speakers this morning, 
all the presenters, your entire statement is being put in the 
record, of course.
    Ms. Colnes. Thank you, thank you for being here this 
morning. It is a long day.
    I guess I have not spoken with you before. I have been here 
a couple of years speaking about the Northern forest so I will 
give you a brief sense of who we are and what it is.
    I am Andrea Colnes, the Director of the Northern Forest 
Alliance which is a coalition of some 35-plus recreation, 
forestry and conservation groups from across the Northeastern 
part of the U.S. And together, we represent probably more than 
a million people who live and/or visit that area.
    The Northern forest is the 26 million acres of forest land 
that stretches from Maine through Northern New Hampshire and 
Vermont, across the Adirondacks to New York out towards the 
Western part of the State. It is really the last wild forest in 
the Northeastern part of the Eastern part of the country and it 
is a place that is facing great change, it is a place that is 
at risk. It is almost completely privately held and the 
economics, the national economics and international economics 
of the timber industry have put the land base at risk. 
Essentially it is hitting the market to the highest bidder.
    This brought Congressional attention down to the region 
over the last eight years or so and there has been a major 
study and recommending body called the Northern Forest Lands 
Council, convened by Congress and the governors of the four 
States, to look at the region and come up with strategies for 
addressing its future and enabling the people of the region to 
take some action instead of simply sitting by.
    At this point there has been fairly strong recognition of 
the importance of this region. A little bit different from 
years past, I have some help in explaining why this region is a 
place of national importance.
    In the President's budget address this year, you can see on 
the top of your pile there, he identified three eco-systems 
across the country as a focus for 1999 and one of them is the 
Northern forest, recognizing that it is of immense economic, 
cultural and environmental importance to the country as a 
whole.
    That was backed up last week by the New England Governors 
Conference as a part of the National Governor's Conference. It 
passed two resolutions which they had never done before, 
recognizing the critical threats facing their region and asking 
specifically for this committee and Congress and the 
Administration to fund the Land and Water Conservation Fund, 
the State side of that program and also to fund the Forest 
Legacy Program.
    These two programs are critical to the future of the area. 
The Land and Water Conservation Fund is, as I am sure you well 
know, beneficial on both its Federal and State sides. The State 
side of that program is particularly important because this 
part of the country does not have a big Federal land base and 
if we are to find the kinds of creative highly leveraged 
investments that we need to make right now, where money is so 
scarce, the State side of that program is quite critical.
    The Forest Legacy is a program specifically designed to 
protect private forest lands from conversion to non-forest 
uses. And the USDA has estimated that about half a million 
acres annually of our important private forest lands, which are 
becoming increasingly important to the timber base, are going 
out of production and being converted to non-forest uses.
    So, both of these programs have a real role in addressing 
issues in the Northeast and across the country as a whole.
    Briefly, what we would very much like to see is full 
funding for the Land and Water Conservation Fund, as Congress 
did last year, at the $900 million level. With this funding, 
provide some funds within that $900 million for the State side 
of the program, because without it, it will not serve the 
interests of the Northeastern part of the country at all. Well, 
not at all, but it will not serve them adequately.
    Likewise, the Forest Legacy Program is a wonderful idea. It 
is a partnership between the public and private sector, the 
Federal and the State governments and it has been woefully 
under-funded since it was conceived in the 1990 farm bill. It 
would again be a highly leveraged, highly cost effective 
investment in this time of scarce Federal resources and scarce 
State resources.
    I guess I would just close by pointing out that also in 
your pile is a detailed listing of our priority projects, the 
most urgent needs for this year. I think one of those projects 
in particular speaks to the kind of need that we are facing 
just to give you a taste for it. Champion International has 
announced that they are selling out all of their holdings in 
the States of New York, New Hampshire and Vermont and their 
mill in New York. That is----
    Mr. Kolbe. Who is this?
    Ms. Colnes. Champion International. It is 325,000 acres of 
extremely high-valued land. In Vermont it is the Mohican Basin. 
It is the heart and soul of the Northeastern part of the State 
and the whole Northern part of our ecological base and cultural 
base. In the Adirondacks, it is the Northern flow of rivers 
that run in the Northwestern quadrant of the park and in New 
Hampshire it is a special tract known as the Blue Mountain 
tract. It is highly valued by recreationalists and for timber 
supply.
    That is just one of the kinds of examples that stands there 
as the kind of land that needs these creative, State-side 
funding mechanisms.
    So, thank you.
    [The statement of Andrea Colnes follows:]

[Pages 28 - 31--The official Committee record contains additional material here.]


    Mr. Kolbe. Thank you. Most of the pressures on the land up 
there, are they resource pressures or are they development 
pressures, population development pressures?
    Ms. Colnes. It is both. The changing economics of the 
timber industry have made it basically put pressure on for 
short-term quarterly returns. And there are two ways of 
servicing. As the lands are sold and debt load is increased, 
there are two ways of generating that short-term cash.
    One is in over-cutting the lands and there is intense 
attention in the States on the need to address large-scale 
over-cutting. The second and more fundamental issue, I think, 
is development pressure. Seventy million people live within one 
day's drive of this place and second-home-development pressure 
on lakes and rivers in high-value areas is quite strong.
    Mr. Kolbe. The Forest Legacy Program, that is not the State 
grants program, that is different?
    Ms. Colnes. Yes. Forest Legacy is a Federal program created 
in 1990 in the farm bill and it provides Federal matching funds 
to the States at a 75/25 percent match to help private land 
owners purchase or sell conservation easements on their land.
    Mr. Kolbe. It is conservation easements.
    Ms. Colnes. Yes. It also provides for a full fee. It can be 
used either way.
    Mr. Kolbe. Thank you very much. I appreciate the testimony.
    Ms. Colnes. Thank you.
    Mr. Kolbe. Has Mr. Roddy ever appeared?
    No? Well, okay, we will scratch him off of our list for the 
day.
                              ----------                              

                                            Tuesday, March 3, 1998.

                     CONSERVATION OF NATIVE PLANTS

                       FISH AND WILDLIFE SERVICE

                                WITNESS

C.W. ELIOT PAINE, CHAIRMAN, CENTER FOR PLANT CONSERVATION
    Mr. Kolbe. Our next person is Eliot Paine, Chairman of the 
Center for Plant Conservation.
    Mr. Paine, welcome, and thank you very much.
    Mr. Paine. Good morning.
    I am testifying this morning in my capacity as Volunteer 
Chairman of the Board of the Center for Plant Conservation, 
known as CPC, which is the only national organization in the 
U.S. dedicated exclusively to the conservation and recovery of 
native U.S. plants.
    The Center for Plant Conservation is a consortium of 28 
leading botanic gardens and arboreta located around the country 
including, by the way, the Desert Botanical Garden in Phoenix 
and the Flagstaff Arboretum.
    Our headquarters are located at the Missouri Botanical 
Gardens in St. Louis. Of the 2,000 or so very rare U.S. plants, 
553 are listed as endangered by the Federal Government 
representing 62 percent of all U.S. endangered species.
    While plants thus constitute the most imperiled of the 
major groups of organisms in the United States, they remain the 
least understood, the least protected and the least funded. In 
other words, plants represent about two-thirds of U.S. 
endangered species but, as a group, they receive less than 3 
percent of Federal expenditures on species conservation, in 
recovery in 1993, which was the latest year for which 
statistics are available.
    A single animal, a threatened salmon, alone, received more 
than three times the total amount expended on all listed plants 
in this country in 1993. Many critically endangered plants, 
down to single digits in the wild, receive no Federal funding 
at all.
    The CPC believes that our nation's plant heritage deserves 
better. Apart from their well-known aesthetic value, importance 
in the web of life and our obligation to pass them on to future 
generations, plants constitute the natural capital upon which 
our economy and our very lives depend.
    Our research has shown that 80 percent of the rare plants 
of the U.S. are closely related to plants with economic value 
somewhere in the world. In this age of bioengineering, the 
possible loss of so many native plants means we ultimately lose 
countless options to improve our lives in a highly 
unpredictable future world.
    Since its founding in 1984, the CPC has created a unique 
program of conservation, research, restoration and education 
within our framework of botanic gardens. With total attendance 
of over 5 million people a year, these gardens collect, store 
and grow the national collection of endangered plants, a living 
collection which today contains 507 of our nation's rarest 
species. About half of these plants are listed as endangered or 
threatened by the Federal Government.
    We maintain these species as security against extinction, 
as source material for recovery and as resources for research 
and education. Collectively, no other organization knows more 
about the horticulture of America's rare plants than the CPC. 
No other organization maintains a scientifically curated 
collection of endangered species of this size in such a cost-
effective manner.
    To permit the Center to resume the technical and leadership 
roles that have been identified for it by the Fish and Wildlife 
Service, the draft policy regarding controlled propagation of 
species listed under the Endangered Species Act, we request an 
appropriation of $1.2 million in the Fiscal Year 1999 
Appropriations for the Department of the Interior and Related 
Agencies.
    We ask that these funds come from one or more accounts 
managed by the land managing agency of the Interior Department 
or other appropriate accounts. The amount requests is the same 
amount as the Center anticipates receiving from private sources 
in 1999.
    We are, thus, asking the Federal Government to match in 
1999 what private citizens and organizations are contributing 
to our national program to conserve and restore rare U.S. 
plants.
    Doubling our annual budget in 1999 in this manner will 
permit the CPC to develop the relationships and the operational 
protocols with Federal agencies that are needed to implement 
the expanded role in recovery that is identified for the Center 
in its long-standing and now growing assistance to government.
    In addition, we request that the annual appropriations to 
Interior Department recovery accounts, like the recovery 
account of the Fish and Wildlife Service, be increased by very 
significant amounts beginning in 1999. We would like to see 
Congress exert its influence in ensuring substantially greater 
equity between plants and animals in the disbursements made by 
the Department of Interior agencies in their endangered species 
program.
    Thank you very much for this opportunity to testify.
    [The statement of C.W. Eliot Paine follows:]

[Pages 35 - 41--The official Committee record contains additional material here.]


    Mr. Kolbe. Thank you very much, Mr. Paine.
    You will be happy to know that on the property, the ranch 
where I grew up in Southern Arizona, we have one of those 553 
endangered plants and years ago, my siblings and I gave a 
conservation easement to the Nature Conservancy to help to 
protect that grass there.
    Mr. Paine. Well done.
    Mr. Kolbe. The statistics that you give are very 
interesting about the amount of attention that we give to 
endangered species that are animals as opposed to plants. I 
think it is something that Bambi catches our attention a lot 
more than grass does.
    But we certainly appreciate your helping to bring this to 
our attention.
    Mr. Paine. Thank you.
    Mr. Kolbe. Thank you very much.
                              ----------                              

                                            Tuesday, March 3, 1998.

                NORTH AMERICAN WATERFOWL MANAGEMENT PLAN

                                WITNESS

SCOTT SUTHERLAND, DIRECTOR OF GOVERNMENT AFFAIRS, DUCKS UNLIMITED, INC.
    Mr. Kolbe. Our next speaker is Scott Sutherland, Director 
of Government Affairs of the organization Ducks Unlimited, Inc.
    Good morning, Mr. Sutherland.
    Mr. Sutherland. Good morning, Mr. Chairman.
    We have had the opportunity to join you for this austere 
occasion a couple of years in a row and we thought we would try 
to do something a little different since you are going to spend 
a fair amount of your day here and others from the 
subcommittee, as well. We thought we would do something a 
little bit graphic this morning to help deliver our message.
    We appreciate your inviting Ducks Unlimited to testify this 
morning. We know that there is a huge demand for this 
opportunity. We have a number of programs that we are 
interested in under this bill. We are going to focus on one of 
those programs this morning, the North American Wetlands 
Conservation Act. And those familiar with Ducks Unlimited know 
that that is sort of--we do not work on very many programs up 
here, but this is one that we think is very, very important. It 
is achieving wonderful results and so we want to focus on that.
    This Act has only been around since 1990. As you can see, 
every year it racks up--part of the primary reason for this Act 
is to formulate partnerships between government and private 
entities, a variety of private entities. It seems like since 
last year when we were here, there have been about 70 
additional partners added to this list so that now there are 
nearly 700 partners. And, frankly, tomorrow the North American 
Wetlands Conservation Council will meet again, as they do three 
times a year, and this list will grow.
    Our partners include everybody from corporations, small 
business, State governments, nonprofit groups like ours, farm 
groups and private land owners. There are a significant number 
of private land owners willingly participating in this program 
by putting up their land to restore wetlands on low corners of 
farm fields where wetlands might have existed when they were 
children or their grandparents were children, bringing back a 
little bit at least on some of those private lands, some of 
those wetland values and wildlife values.
    There are 240 projects on the ground in this program in its 
first eight years in the United States. It does projects all up 
and down the flyways that migratory birds, not only water fowl 
but shore birds, neotropicals et cetera, use. So, it is doing 
work in Mexico and Canada. And there are 524 projects total on 
the continent now.
    Significant for the money that you folks have been kind 
enough to put up for this program, it is now $317 million in 
non-Federal, non-NAWCA funds that have been matched, to match 
the money that you folks have put up. That is a ratio 
continentally of about two-to-one. Here in the United States it 
is larger than that. It is even higher.
    And 47 States have NAWCA projects on the ground now. We 
thought of a way to try and make this a little more real, 
instead of just throwing all these statistics, is to focus on 
one State. Now, at random we chose a State that happened to be 
the State of Ohio. Do not ask me why. [Laughter.]
    Mr. Kolbe. You should have picked Arizona this morning. You 
did not know who was going to be chairing this morning, did 
you? [Laughter.]
    Mr. Kolbe. I can think of a couple in Arizona we could have 
worked on.
    Mr. Sutherland. Well, actually this has funded a project in 
Arizona and I will show you something on that. You know, in 
Ohio, just as an example, nine projects have been funded. And 
$3.3 million of Federal money under this program has been put 
up for those budgets; $6.9 million in the match there. So, a 
little over two-to-one in Ohio.
    And $3 million--you know, people always talk about how the 
things that we care about, your subcommittee and our 
organization care about compete with economic interests. Well, 
we pulled a statistic out of a Department of Interior document 
that demonstrates that 3 million people in Ohio have 
participated in wildlife related activities, and that is not 
even counting bird watching, by the way, but those 3 million 
people generated $2 billion in economic impacts in Ohio.
    A list of the projects in Ohio, the NAWCA money, the 
partner match, the acreage, the totals of these monies. So, 
that is where we get those statistics. Now, let us just look at 
one project in Ohio off this list. We are going to look at 
Metzger's Marsh.
    Chairman Regula has actually been to Metzger's Marsh. He 
helped dedicate this project earlier this year. The program 
here, the project here was to restore--this used to be a 
barrier beach across here for years and years and years. And 
behind that barrier beach--this is Lake Erie--there was a nice 
wetland area, a marsh area that provided food and shelter for a 
host of wildlife. And in the 1950s there were tremendous storms 
in Lake Erie, a series of winter storms that took this barrier 
beach out and what happened was it essentially made this marsh 
into just another finger of Lake Erie.
    There is still some marsh left back here along the back 
edge but in terms of productivity this area plunged. So, the 
NAWCA project that was funded sought to restore the barrier and 
that is what this dike is. This was one of the largest projects 
ever done under NAWCA in terms of infrastructure. This is quite 
an undertaking. We are going to see a closer picture of this in 
a moment.
    What they did was to restore the barrier and there is now a 
water control structure. This was the initial stage. There is a 
water control structure about right here that allows inflow and 
egress of water regimes and the goal was to bring the marsh 
vegetation back. So, it is 980 acres and the NAWCA program 
between the partners and the funding that came out of this was 
$1.4 million.
    There was other Federal money involved in it, too. This is 
a portion of the dike right here. And this is the water control 
structure and it is a fish egress and ingress structure. But 
the important thing in this photo is look behind it. That is 
the area that was all open water, that is the marsh vegetation 
coming back and that is what the wildlife like, that is what 
the fish eat, this is the key to the success right here. It 
really has made a difference.
    This wall has only been in place now for about two and a 
half years. And already the 980 acres is practically filled in 
with marsh vegetation. So, the program is making a tremendous 
difference and I have a list of two things that you might be 
interested in here.
    This is a list of the partners in the program.
    Mr. Kolbe. We are going to have to bring this to an end 
here.
    Mr. Sutherland. That is fine. And this is a list of the 
projects that have been funded under the program separated by 
State. And a breakout of matches and all that sort of thing. 
So, we thank you very much for your time.
    If you have any questions, I will be happy to answer them.
    [The statement of Scott Sutherland follows:]

[Pages 45 - 50--The official Committee record contains additional material here.]


    Mr. Kolbe. Thank you very much. That is certainly a very 
impressive demonstration of what can happen with a project like 
that.
    Mr. Sutherland. We hope you will support it.
    Thank you.
    Mr. Kolbe. Thank you very much, Mr. Sutherland.
                              ----------                              

                                            Tuesday, March 3, 1998.

                         EVERGLADES RESTORATION

                                WITNESS

RONALD J. TIPTON, DIRECTOR, U.S. ECOREGION CONSERVATION, WORLD WILDLIFE 
    FUND
    Mr. Kolbe. Our next speaker will be Ron Tipton, Director of 
U.S. Ecoregion Conservation for the World Wildlife Fund.
    Mr. Tipton. Thank you, Mr. Chairman.
    Mr. Chairman, thank you very much for the opportunity to 
testify today. I am not going to read my testimony. I am going 
to summarize a couple of the major points. Obviously our 
testimony, our written testimony, covers a range of programs in 
the Department of the Interior and the U.S. Forest Service that 
are in the budget that you consider and put together.
    It focuses primarily on restoration of the Everglades, the 
need to fund the Land and Water Conservation Fund, specific 
programs within the Fish and Wildlife Service, particularly 
those that relate to protecting a number of species in other 
countries, and finally, pieces of the Forest Service budget. 
But I am going to focus in my comments this morning on two 
things. The Everglades and the Land and Water Conservation 
Fund.
    At World Wildlife Fund, we went through an exercise this 
past year of identifying what we considered to be the most 
important and the most endangered or threatened ecoregions in 
the world. We picked out 25 that we were going to focus 
attention on during the next five years at least, and one of 
those is the Everglades.
    As has often been said, there is only one Everglades and it 
is in great jeopardy. But I think the prospects for its 
survival and its return to environmental health are improving 
greatly, for many reasons, not the least of which is that this 
subcommittee and the Congress in the last couple of years has 
become increasingly focused on the legitimate needs of the 
Federal Government's share of the cost of restoring the 
Everglades. And we were certainly prepared to thank the 
chairman and I want to thank the members here today, for the 
budget that you approved last year for the $136 million in the 
Department of the Interior for Everglades restoration.
    The request for this year, for the similar program, is a 
very slight increase over that amount. It is $144 million. We 
are generally in favor of that request. We will probably come 
to the subcommittee and talk with the staff about some minor, 
fairly modest changes in that request, but I would say that it 
is an excellent start.
    We do believe that this subcommittee needs to look, as do 
other members of Congress that have an interest in this, we 
have got to get on with the job of finishing the land 
acquisition in the South end of the Everglades and, 
specifically, the area called the East Everglades which was 
actually added to the park in 1990. There are no developed 
lands there. It is all undeveloped property.
    After seven years we have only acquired about half of it, 
and the problem is, we need to begin moving water from the West 
side of the Southern end of the Everglades over to the East 
side and you cannot do that until you control the land.
    It is just a matter of there being a very generous amount 
of money in Fiscal Year 1998 budget for this purpose, there is 
money in the requested budget, it is going to happen. But we 
may need to figure out a way to accelerate that so that we can 
actually begin to do the hydrologic restoration sooner than 
five years from now. The situation is pretty serious down 
there.
    We believe, just to summarize on the Everglades, that there 
are several major reasons why we are making the progress we are 
and we really encourage and urge the subcommittee to stand 
behind this problem. It is going to cost a lot of money and it 
is going to take another 5 or 10 years of a strong commitment 
by the Federal Government but the public support is high, and 
the bipartisan political support has never been stronger at 
either the Federal level or the State level.
    There is no partisan tinge to restoring the Everglades. I 
think everyone that has looked at this situation carefully--and 
I applaud the fact that Chairman Regula and Congressman Miller 
made a trip down there with some staff earlier this year. We 
have talked to them since they got back. I think they were 
impressed with what they saw. They pointed out some issues we 
need to address. We hope that kind of attention continues.
    But we are at last at the stage where we are beginning to 
make some specific water management decisions and initiate some 
projects that are actually going to begin to restore the 
natural timing flow and delivery of water through South 
Florida. So, it will benefit the entire Everglades and 
particularly, Everglades National Park in Florida Bay.
    We have a lot of hurdles ahead of us and a lot of tradeoffs 
with other water users, but I think that we are optimistic.
    The final thing I will say segues me over into the Land and 
Water Conservation Fund. We depend very heavily on the Land and 
Water Conservation Fund for the conservation and outdoor 
recreation needs of the entire country.
    The largest single beneficiary over the last several years, 
except for the two major land acquisition projects that the 
Administration had requested and an agreement was worked out 
last year, has been the Everglades. There is $81 million in the 
request this year for Everglades restoration, acquisition 
money. The State of Florida is matching that money virtually 
dollar-for-dollar. The State has the largest land acquisition 
conservation program in the United States. It needs it, given 
the pace of development and population growth in South Florida.
    But we really urge this subcommittee not only to continue 
to fund the Everglades portion of the Land and Water 
Conservation Fund but to sustain the funding interest it showed 
last year when we finally got back to the level of funding for 
the Land and Water Conservation Fund that we had started to 
attain in the late 1970s.
    This program is authorized at $900 million a year. It was 
authorized at that level almost 20 years ago. The buying power 
of $900 million today is about $350 million and as Will Rogers 
used to say, ``They ain't making any more land.'' And it is not 
getting any cheaper.
    And we need a long-term interest. We need a long-term 
sustained interest in funding this program at that level. I 
noted yesterday that the Senate increased transportation 
funding by 40 percent in their transportation bill. The 
Congress needs to look at the recreation and the outdoor 
conservation needs of the country and fund those needs.
    Thank you very much.
    [The statement of Ronald Tipton follows:]

[Pages 54 - --The official Committee record contains additional material here.]


    Mr. Kolbe. Thank you. I certainly appreciate your 
passionate plea here for the Everglades. It is one of the areas 
that I think this Congress has certainly been looking upon very 
favorably and it is very important.
    And we appreciate your bringing it to our attention.
                              ----------                                


                                            Tuesday, March 3, 1998.

                         FOREST LEGACY PROGRAM

                                WITNESS

JEAN HOCKER, PRESIDENT, LAND TRUST ALLIANCE
    Mr. Kolbe. Next we are going to hear from Jean Hocker, 
President, the Land Trust Alliance.
    Ms. Hocker. Good morning, Congressmen.
    I am happy to be here this morning to talk to you about two 
programs that are very much on the minds of the nation's land 
trusts and those who support voluntary land conservation. Let 
me tell you just a little bit about the Land Trust Alliance. 
The Land Trust Alliance promotes voluntary land conservation 
and provides the leadership and support for over a 1,000 
nonprofit land conservation organizations known as land trusts.
    These groups, ranging from fairly large organizations to 
several small all-volunteer organizations, are helping land 
owners conserve open spaces and green places all across the 
country. They are rapidly growing organizations in number and 
that includes the State of Arizona where there are now eight or 
nine land trust organizations and Virginia, as well. And all 
across the country land trust organizations are helping land 
owners save land through a variety of means.
    They also are increasingly working in partnership with 
local, State and Federal conservation agencies to help acquire 
and manage land that is valuable for conservation or frequently 
they hold conservation easements for the public benefit. And I 
was delighted to hear you say that you are very familiar with 
conservation easements from a landowner's standpoint.
    I want to talk about two programs that use Federal funds to 
leverage private voluntary land conservation in really cost-
effective ways. These are the Land and Water Conservation Fund, 
especially matching grants to States, and the Forest Legacy 
Program. You have heard something about both of those this 
morning.
    As you know, historically the State side of the Land and 
Water Conservation Fund has been tremendously successful in 
promoting community and nonprofit involvement in conservation. 
Grants have to be matched one-to-one. So, this part of the Land 
and Water Conservation Fund program fosters a real conservation 
partnership between communities and it is a really good deal 
for the Federal Treasury as well as for conservation.
    Unfortunately, as you know, the State side of the Land and 
Water Conservation Fund has suffered a dramatic reduction over 
the past five years. In fact, at this point, the State program 
is all but shut down.
    In an era when power and responsibility are being returned 
to the States it is really ironic that such a highly 
successful, highly leveraged grant program to States has been 
decimated.
    At one time $375 million out of a total of Land and Water 
Conservation Fund appropriation of $737 was appropriated to the 
States. That was 50 percent of the total. But in the past three 
years the appropriation for State grants has been zero and yet, 
these are leveraged and they provide money to help protect land 
and provide recreational opportunities close to where people 
live.
    We encourage the committee to increase the appropriation 
for the Land and Water Conservation Fund overall and we 
strongly urge you to include funding for State grants in the 
program as well as the equally important funding for Federal 
projects.
    I also want to talk about a much newer program, the Forest 
Legacy Program. You have heard from the Northern Forest 
Alliance about this program. It was authorized in the 1990 farm 
bill and it enables the purchase of conservation easements on 
environmentally sensitive timber land that is threatened with 
conversion to non-forest uses.
    It is a wonderful program, theoretically. It is voluntary. 
It is private. It is non-regulatory. It encourages partnerships 
among willing land owners, local, State and Federal agencies 
and nonprofit organizations. It is highly leveraged. It 
requires at least a 25 percent State match.
    It preserves the nation's privately owned forests, at the 
same time, improving water quality, air quality, protecting 
habitat, curbing sprawl, and promoting sustainable economic 
land uses. It is a pretty good use of Federal money. It is a 
program where everybody wins.
    Fifteen States, from Washington and California to Rhode 
Island and New York, have undertaken the really pretty complex 
process of qualifying to receive Forest Legacy funds. Four more 
States are working on it right now and over $50 million worth 
of projects are currently in the pipeline.
    And you know how much was appropriated last year for the 
entire nation--$4 million. That is about $266,000 for each 
eligible State, not including ones that are currently trying to 
become eligible.
    The President's budget this year has $6 million. Still, a 
paltry sum. It is a very effective, potentially very creative 
program that is a good use of Federal funds and it is doomed to 
failure because it does not, it has virtually no funding, or 
minuscule amounts.
    The Land Trust Alliance urges you, we actually implore you 
to increase the funding for the Forest Legacy Program to $50 
million.
    Now, I know that that is a really substantial increase as a 
percentage of what has been appropriated, but it is a minuscule 
amount when you think of the Federal budget and you think of 
what this highly leveraged investment can do for conservation 
and for the timber economy in States all across the country, 
and I think it is terribly important.
    We think it is very important that we have sufficient funds 
to make this program work. I believe that was the intent of 
Congress in enacting the program in the farm bill and we just 
wanted a chance to show what it can do.
    So, the Land and Water Conservation Fund, including a fair 
share for State side and Forest Legacy funded. They are two of 
the best deals I know for conservation and for the American 
public and I urge you to fund them both adequately.
    Thanks very much.
    [The statement of Jean Hocker follows:]

[Pages 83 - 88--The official Committee record contains additional material here.]


    Mr. Kolbe. Thank you very much, Ms. Hocker.
    You certainly make a very passionate plea for this program 
and we will take that into account.
                              ----------                              

                                            Tuesday, March 3, 1998.

                             FOREST HEALTH

                                WITNESS

FELICE PACE, EXECUTIVE DIRECTOR, KLAMATH FOREST ALLIANCE

    Mr. Kolbe. We will move on to Felice Pace, Executive 
Director of the Klamath Forest Alliance.
    Mr. Pace. Thank you, Mr. Chairman.
    Good morning. I would like to summarize my testimony this 
morning. Chairman Regula, Mr. Kolbe, and members of the 
committee, Klamath Forest Alliance appreciates the opportunity 
to testify before the Subcommittee. Our testimony will address 
two items--the U.S. Forest Service budget and U.S. Fish and 
Wildlife Service budget request for the Klamath River Basin.
    The Forest Service budget has been the subject of 
controversy for some time because of appropriations which 
subsidize private corporations and result in harm to the 
environment. We commend Chief Dombeck and the Clinton 
Administration for finally beginning the task of addressing 
these problems and urge Congress and this committee to get on 
board the reform train.
    Specifically, we support the intent of the Chief to address 
problems of a massive road system which is inadequately 
maintained and which, as a result, is causing irreparable harm 
to the environment and aquatic ecosystems in particular.
    Attached to our testimony is a report we have completed 
concerning road maintenance on the Klamath National Forest. Our 
analysis of the Klamath Forest road situation, which 
wassubmitted to the Forest Service folks at the Klamath and their 
engineers for peer review prior to publication, indicates that while 
funding appears adequate to maintain 75 percent of the road system, 
nothing near that amount of maintenance is being done. I might add, the 
monitoring report for the six rivers said they did 100 miles of road, 
of 3,000 or more miles they have, last year in road maintenance.
    This suggests that the engineering department may be over-
staffed, and that maintaining inappropriate staffing levels is 
requiring excessive overhead. We recommend Congress consider 
substantial cuts in Forest Service engineering staff at the 
supervisory level.
    In May 1997, we audited maintenance records for 36 Klamath 
National Forest roads, most of them in key salmon watersheds. 
We found that during the prior five years, 29 of these roads 
received no maintenance, whatsoever, and maintenance was 
minimal to inadequate on the other six roads. Details are in 
the report which is attached to the testimony. It looks like 
this.
    The Forest Service has requested funds this year to 
decommission 350 miles of roads during Fiscal Year 1999. This 
amounts to about 1 percent of a system, which according to the 
Chief, 60 percent of the roads are not being maintained in that 
system. That is not enough.
    We need to get to a National Forest road system which is 
environmentally safe and which we can afford to maintain and 
the people I represent all live, work and play in those 
forests. We like our roads but we got too many of them.
    So, in the Citizens Forest Appropriations Initiative, which 
will be presented formally later by the Western Ancient Forest 
Campaign--and it already has many organizational signatures 
including ours--we are asking for an additional $25 million for 
road decommissioning and an additional $25 million for road 
maintenance. There are cuts in there, too, that go up even 
further than that.
    We strongly recommend that these additional funds, as well 
as managers report language instruct the Forest Service to 
decommission roads which pose the greatest risk to aquatic 
resources. We should be aiming to get rid of about 25 percent 
of these roads by the year 2010 in order to begin to get to a 
road system we can afford to maintain.
    I want to just skip down and say this year the Clinton 
Administration announced a new clean water initiative. We 
support it. However, when we look at the Forest Service budget 
request's explanatory notes, we see that $3 million of the $60 
million supporting the initiative is for timber sale management 
and another $2.3 million is for forest land vegetation 
management. That usually means either cutting trees or spraying 
herbicides. And we do not understand how these things are going 
to get us to clean water. They do not look appropriate. They 
look like we are hiding some timber sales in there.
    I want to turn my attention now to one of the West's great 
and least known river systems, the Klamath River of Northern 
California and Southern Oregon and the Basin Six Wildlife 
Refuges, which the Fish and Wildlife Service management plan 
calls the greatest wildlife display in North America and some 
folks have called it the Everglades of the West. I threw in the 
Everglades of the West because you heard about the Everglades 
and everybody knows them.
    But 80 percent of the Pacific flyaway goes through the 
Klamath Basin and yet we cannot get the kind of money we need 
either to restore the salmon, to recover the endangered 
species, or to take care of the needs of these wildlife 
refuges. And we do not understand why we are not getting this.
    So, last year we began coordinating my organization and 
Appropriations Initiative for the Klamath Basin. This year we 
are working very closely with Senator Boxer and her staff on 
Senate appropriations on this and there is a specific request 
for increasing the salmon restoration funds pursuant to the 
Klamath Act of 1996, of $3.5 million, and for marsh restoration 
in the upper basin that we need to improve water quality. We 
had a fish kill in the Klamath last year that extended about 30 
miles and for about two to three weeks due to high water 
temperatures and poor water quality and marsh restoration can 
do a lot for that.
    So, the details of that particular initiative are still 
being, the sign-ons are still being put together but you will 
see that.
    [The statement of Felice Pace follows:]

[Pages 91 - 95--The official Committee record contains additional material here.]


    Mr. Kolbe. Thank you very much. We appreciate your 
testimony.
                              ----------                              

                                            Tuesday, March 3, 1998.

                     FOREST SERVICE--SALVAGE SALES

                                WITNESS

GWEN MARSHALL, PROTECT BIODIVERSITY IN PUBLIC FORESTS
    Mr. Kolbe. We will hear from Gwen Marshall, Protect 
Biodiversity in Public Forests.
    Gwen.
    Mr. Regula [presiding]. Thank you. Your testimony will be 
made a part of the record and you have five minutes.
    Ms. Marshall. Thank you.
    All right, the main topic that I am going to talk about is 
the relationship with the Forest Service budget. What you will 
see there is basically an increase in budget, decrease in 
returns and an ever decreasing percentage of returns in 
relation to expenditure.
    Mr. Regula. That is because it is the multiple uses driving 
this.
    Ms. Marshall. I am not really going to make a point of what 
it is or it is not. It is just that is the numbers.
    Mr. Regula. Yes. I understand.
    Ms. Marshall. But I did get them from the Congressional 
Quarterly which may or may not be the best resource.
    Mr. Regula. Yes. I understand. I am sure this is true.
    Ms. Marshall. Mostly what I am going to be talking about is 
what I call the slush fund. So, these are the ones, in 
particular, from the Forest Service budget. And also this is a 
letter from the Forest Service directed to its rangers a couple 
of years ago that I will be referencing. So, I wanted to make 
sure you had all that.
    Basically what I found in reading the Forest Service budget 
is that it did not seem all that interested in having us do the 
math. I will give you a copy of my intended oral so that you 
can kind of keep up with me a little bit.
    Basically the Forest Service tells us that it costs them 
$113 per thousand board feet to prepare a timber sale but when 
I did the math I found it was somewhere between $331 and $610. 
And the qualifying information on that is in the written 
testimony.
    The Forest Service told us that they planned to earn about 
$102 per thousand board feet but I have got a letter saying 
that they are charging $44 per thousand on mixed hardwoods and 
$9 for pines. So, it seems like they are going to have a hard 
time catching up to that.
    I also found in doing the math that the grazing program is 
losing 9.5 times what it is bringing in, mining is 1.7, and 
half of what they take in on recreation is going just to pay 
the costs of collection. Those are just numbers that I found in 
there.
    Mr. Regula. Is that money since the fee program was put in 
place or is this prior to that?
    Ms. Marshall. All I know is it was in this year's budget 
comparing expected income to expected expenses.
    Mr. Regula. On the fee program?
    Ms. Marshall. Yes. I mean I am just using their numbers. I 
have not used any other groups' numbers. Frankly, reading their 
book took me long enough.
    Okay, basically what I notice is the Forest Service expects 
to be able to spend their appropriations as well as any 
earnings from the commodity program and they are not returning 
money to us. And they are losing money based on the assumption 
that all the resources they are using actually have zero value. 
So keep that in mind that the only way they bring any money in 
is by assuming the trees were worth nothing.
    Of course, you know that I think it is time to end the 
commodity program. So, we have gone through that one before. 
The point that I am trying to make though is about the 25 
percent fund and the fact that the Forest Service, even though 
they have got all this money, still is having a hard time 
paying their taxes. And that is what that letter is about from 
the Forest Service is on the delinking idea or the problem with 
the fact that their employees have put so much money in KV and 
salvage and they specifically reference that that they did not 
have the money for their taxes.
    But they did promise their employees that they would come 
up with a long-term solution. And, again, I am quoting their 
letter.
    Last year, part of their long-term solution to the tax 
problem was trying to eliminate the purchaser road credit 
program, because they are paying 25 percent out on the 25 
percent fund on nonexistent money. And if you do not want to do 
that then that would be one way. This year they are proposing 
to eliminate the 25 percent fund.
    Okay. So, where does the money go? Why cannot the Forest 
Service pay 25 percent of its income on taxes? Most of us are 
doing that so why not them?
    Well, what I did was I tried to learn more about this stuff 
and so I read the CRS book on the special funds. And what I 
found when I was reading this is that what we really need is 
maybe a CRS book on Forest Service slush funds for dummies. And 
then I came to the conclusion that I was the dummy because I 
read the book and there is just a lot to it.
    And what we really need instead is a Forest Service budget 
for common sense that we tell the Forest Service here is your 
money, here is what we want done, you earn any money give it 
back. Do not worry if you do not earn money. You are not giving 
us anything back. But what I am looking for is a clean 
bookkeeping system. Not all this stuff that is described in 
this booklet. I will leave you a copy of that.
    That is the special copy with my handwritten notes and the 
updates from last year and the comparisons to the prior years 
so you can see the numbers. But anyway, what I think we need to 
do is stop playing the games with the bookkeeping system.
    So, where they hiding money? KV is the big account but my 
favorite is the salvage fund because that is the one that we 
are talking about more recently.
    The salvage fund has turned $43 million worth of 
appropriations from Congress into $160 million which sounds 
really good but the way they do it is they have written a rule 
in their own manual, and the specific number is 2435.12, that 
lets them keep their salvage earnings to build or maintain a 
fund equal to one and a half times their annual needs. So, that 
is why we are not seeing any of that money.
    Mr. Regula. You mean you are saying it goes into a fund and 
unless that fund is equal to one and a half times the total 
Forest budget or just that----
    Ms. Marshall. No, no, salvage. The national Forest Service 
has figured out how much money they think they need to do a 
salvage program next year. They have said that do not worry, 
any income----
    Mr. Regula. Preparing it for sale?
    Ms. Marshall. Right. Any income that they get from the 
salvaged sales they believe that they should be allowed by 
their own rule to keep one and a half times the need for next 
year which means that they are keeping all the money, which 
when the program was first set up was not as big a deal as it 
is now in terms of the 25 percent fund.
    But then in 1988, Congress started considering that income 
for the 25 percent fund. Meanwhile the Forest Service was still 
keeping all of their money in the salvage fund. So, then the 25 
percent taxes were paid out of other income.
    So, we are actually losing more money from salvage and 
instead of having that system, they cannot tell me how much 
money is earned in salvage and green anyway. Why pretend that 
there is a difference?
    Like I said, what we really need is to just totally clean 
up the bookkeeping system and you guys can be suggesting this 
because a lot of these slush funds were created in the Interior 
appropriations. What we need is, yes, we should pay 25 percent.
    I totally agree with that, totally agree with delinking. It 
should be a separate line item but it should be a straight in-
and-out budget. Congress tells the Forest Service what they 
want them to do and the Forest Service does it and returns any 
income.
    And if we do that we would have an open and honest 
bookkeeping system and it would stop this group from managing 
our resources for their benefit instead of be managing it for 
the benefit of all of us.
    [The statement of Gwen Marshall follows:]

[Pages 99 - 102--The official Committee record contains additional material here.]


    Mr. Regula. You have all of that information in here?
    Ms. Marshall. Yes, everything is in there.
    Mr. Regula. Okay.
    Ms. Marshall. And I would like you to keep that.
    Mr. Regula. Okay. Thank you.
    Ms. Marshall. And then the other promise I made you was 
that if we did it straight in-and-out, the budget would look 
like this instead of like this and it would save us hours and 
hours of reading. Now, is that not incentive for all of us?
    Mr. Regula. I am all for that.
    Okay. Thanks for coming in.
                              ----------                                


                                            Tuesday, March 3, 1998.

                             TIMBER PROGRAM

                                WITNESS

PAUL HOUGHLAND, JR., EXECUTIVE MANAGER, NATIONAL HARDWOOD LUMBER 
    ASSOCIATION
    Mr. Regula. Our next speaker is the National Hardwood 
Lumber Association, Mr. Paul Houghland.
    Mr. Houghland. Good morning, Mr. Chairman, I am Paul 
Houghland and I am the Executive Manager of the National 
Hardwood Lumber Association, in Memphis. We represent producers 
and users of hardwood products, ranging from the saw mill up to 
the finished product in furniture manufacturing.
    Mr. Regula. Is this just in the private sector or is this 
coming off of public lands?
    Mr. Houghland. In both, both.
    Mr. Regula. Okay, in both.
    Mr. Houghland. The statements today address three general 
areas of concern in the proposed Forest Service budget for 
Fiscal Year 1999 for the timber sale program, the forest roads 
program and research. If we look at the National Forest they 
grow approximately 22 billion board feet a year which is one 
quarter of what the country needs for wood products and paper 
products. Yet, the President's proposed budget would allow for 
only 3.4 billion board feet to be harvested in the National 
Forest.
    In other words, the National Forest could supply 25 percent 
of the annual needs of wood but, yet, it actually supplies only 
4.5 percent. So, there is 18 billion board feet of wood 
annually which goes unused and about twice as much as what is 
being harvested each year dies and rots.
    We consider that an unnecessary waste of renewable natural 
resource which we need to address.
    The NHLA strongly urges this subcommittee to support 
efforts to begin rebuilding and restoring a strong Forest 
Service timber sale program as originally provided for in the 
Organic Administration Act of 1897, 100 years ago and further 
supported in the Multiple Use and Sustained Yield Act in 1960.
    The Forest roads program as contained in the proposed 
budget and in the recently announced proposed moratorium on 
roads would further cripple the National Forest. The Forest 
road system is critical, not only for timber production, but 
recreation access, wildlife habitat management, wild fire 
control, as well. The proposed moratorium on road construction 
further threatens the health of much of our National Forest and 
the economies of small--yes, sir? One minute left? That was a 
fast five.
    Mr. Regula. Time goes quickly.
    Mr. Houghland. It sure did. Well, let me just very quickly 
on that last four minutes of my five, in Forest Research 
Service or the Research Service, we believe that a lot of the 
research that is being conducted ends up on the shelf and not 
being used. We think this subcommittee needs to address that 
waste and direct the Forest Service to make certain that the 
conducted research is put into the hands of small businesses 
both saw mills and producers. They can use this.
    [The statement of Paul Houghland follows:]

[Pages 105 - 110--The official Committee record contains additional material here.]


    Mr. Regula. Do you think that the Forest Service is not 
disseminating the information they are gaining from research?
    Mr. Houghland. That is correct.
    Mr. Regula. How would this be done? A mailing list or could 
people write and seek information?
    Mr. Houghland. If the people do not know the research has 
been conducted, they do not ask for it. I think that there 
needs to be a pipeline developed and our association could 
certainly sit with this subcommittee or the Forest Service and 
develop a dissemination process.
    Mr. Regula. The staff tells me that they do have an 
aggressive Web Site to disseminate this information.
    Mr. Houghland. And that is fine. But if you are looking at 
saw mill operator in Appalachia----
    Mr. Regula. They probably do not have a----
    Mr. Houghland. They do not have a Web Site or would not 
know how to access it. And it is like saying, I got a $50 bill 
out here under the table, if you pick it up, you can go but I 
will not tell you where it is.
    Mr. Regula. All right, good point. Okay.
    Mr. Houghland. I appreciate my five minutes.
    Mr. Regula. Yes, thank you.
    You just deal in hardwoods?
    Mr. Houghland. Yes, sir.
    Mr. Regula. So, you are in the Eastern part of the country?
    Mr. Houghland. Well, we are national. There are hardwoods 
on the West coast as well. Primarily East of the Mississippi 
and North of the line down through Tennessee or so.
    Mr. Regula. Is hardwood private, public, together, growing 
more than is being cut?
    Mr. Houghland. Yes. There is more hardwood in the United 
States today than there was at the turn of the century.
    Mr. Regula. Interesting.
    Mr. Houghland. And there is more grown each year than is 
harvested.
    Mr. Regula. We have a big basket company up our way and 
they use maple.
    Mr. Houghland. Yes.
    Mr. Regula. You know, they cut it and make it into the 
strips to make the baskets and they seem to have no problem 
getting it.
    Mr. Houghland. It might be accessible. If you look at the 
finest cherry and walnut in the country, you will find them in 
Appalachia and a lot in the National Forest are no longer 
accessible. You would not have this nice table.
    Mr. Regula. There is a shortage of those?
    Mr. Houghland. There is not a shortage of available timber, 
there is a shortage of what is being harvested because of the 
restrictions that have been placed primarily in the Forest 
Service.
    Mr. Regula. Thank you very much.
    Mr. Houghland. Thank you.
                                            Tuesday, March 3, 1998.

                         HISTORIC PRESERVATION

                                WITNESS

EDWARD M. NORTON, JR., VICE PRESIDENT FOR LAW AND PUBLIC POLICY, 
    NATIONAL TRUST FOR HISTORIC PRESERVATION
    Mr. Regula. National Trust for Historic Preservation, Mr. 
Norton.
    Mr. Norton. Thank you, Mr. Chairman.
    Good morning, Mr. Chairman, my name is Edward Norton. I am 
the Vice President for Law and Public Policy at the National 
Trust for Historic Preservation. Thank you very much for the 
opportunity to appear this morning to testify on the Fiscal 
Year 1999 Interior Appropriations.
    As you know, Mr. Chairman, this is the first time that the 
National Trust appears not seeking general appropriation for 
the National Trust from the Historic Preservation Fund. So, I 
appear here this morning as an unfettered, unencumbered 
advocate for historic preservation generally.
    The point I would really like to make is----
    Mr. Regula. You are a statesman today?
    Mr. Norton. Right. No, I am an advocate actually.
    An advocate for historic preservation but not for the 
National Trust's appropriation.
    The principal point I want to make is to thank you for 
allowing us to have a three-year period of withdrawing from the 
Federal appropriation and specifically to thank you for your 
strong advocacy in defense of that agreement both in this 
subcommittee and in the full committee and on the floor of the 
House. We appreciate that. We think that, in the long run, this 
will work out for the betterment of all of us.
    That being said, we are here as an advocate for funding for 
historic preservation and specifically we would like to ask 
that our $3.5 million that we have received over the last three 
years go specifically to the State historic preservation 
offices, not as the total appropriation, but for an increase 
that is very much needed by the state historic preservation 
offices for $10 million.
    Mr. Regula. Well, let me ask this. The State budgets are in 
better condition than ours. They have surpluses in most of the 
States because the economy has been very strong and most of 
them have had historically balanced budget requirements. Why 
cannot the States do their own financing?
    Mr. Norton. Well, I think there are a couple of answers to 
that. First of all, I think it is very important to understand 
exactly what the State historic preservation offices do in the 
Federal partnership set up under the Historic Preservation Act. 
They play a very important role, but the Federal Historic 
Preservation program could not take place without the Federal 
Partnership.
    Mr. Regula. Are you saying they are partners?
    Mr. Norton. They are partners. They are full partners and, 
in fact, you could say they are mandated partners, in the 
administration of the Federal tax credits, for example.
    I think that they should receive Federal funding for their 
partnership in their Federal role in that Federal/State 
partnership.
    Secondly, of course, they match their funds. I think that 
States should increase their funding for historic preservation, 
but I think that the Federal role played by the State historic 
preservation offices should receive adequate Federal funding. 
We should take into account the fact that that funding has 
declined in real terms over the last 10 years.
    [The statement of Edward Norton follows:]

[Pages 114 - 120--The official Committee record contains additional material here.]


    Mr. Regula. Okay. Thank you.
    Mr. Norton. Thank you.
    Mr. Regula. Do you appear before State finance committees 
urging them to give more?
    Mr. Norton. Well, I certainly would if I were asked.
    Mr. Regula. Well, we will suggest that to them, at least in 
Ohio.
    Mr. Norton. Thank you, Mr. Chairman.
    The only other program that I wanted to specifically 
mention this morning was the millennium program. That is Saving 
America's Treasures Program----
    Mr. Regula. Yes.
    Mr. Norton [continuing]. Which we strongly support and hope 
you will, too.
    Mr. Regula. Well, we are interested. We want to make sure 
that that money is used wisely, though.
    Mr. Norton. So do we and we have suggested some specific 
priorities and made some recommendations to the White House on 
that so that that will happen.
    Mr. Regula. Very good. Thank you very much.
                              ----------                                


                                            Tuesday, March 3, 1998.

                       HISTORIC PRESERVATION FUND

                                WITNESS

ERIC HERTFELDER, EXECUTIVE DIRECTOR, NATIONAL CONFERENCE OF STATE 
    HISTORIC PRESERVATION OFFICERS
    Mr. Regula. National Conference of State Historic 
Preservation Officers. Mr. Eric Hertfelder.
    You are going to tell us you get plenty of money in the 
States, right?
    Mr. Hertfelder. Mr. Chairman, there is plenty of 
preservation that needs to be done.
    Mr. Regula. I will agree with that.
    Mr. Hertfelder. This is a very rich----
    Mr. Regula. Both Federal and State.
    Mr. Hertfelder [continuing]. This is a very rich country in 
terms of historic properties.
    I brought an aide today. Thank you. My name is Eric 
Hertfelder. I am the Director of the National Conference of 
State Historic Preservation Officers, and in order to save time 
I am going to refer to them as SHPOs from now on if that is 
okay. That will cut my testimony in half.
    On behalf of the 57 State and Territorial SHPOs first I 
want to thank you, Mr. Chairman, and members of the 
subcommittee for your steady support over the years for the 
State Historic Preservation Officers and the Historic 
Preservation Fund. These programs pay dividends in property 
saved every day, every year.
    The State Historic Preservation Officers have been saving 
America's treasures since 1966 and are very proud to be a part 
of the Historic Preservation Fund Partnership with the Federal 
Government and local governments. We think of the States as the 
infrastructure of the National Historic Preservation program. 
They actually are the 57 regional or field offices for the 
National Park Service and the Advisory Council in the historic 
preservation actually delivering the services of the national 
program to the public.
    For this year, we are requesting $40 million from the 
Historic Preservation Fund for States and certified local 
governments and for Fiscal Year 1999 we also support the 
special $50 million appropriation for millennium grants 
requested by the President, $22 million of which is proposed 
for the States.
    There are many significant cultural and historic properties 
at risk and the preservation community will find the matching 
funds to ensure that some of the most important sites in each 
State will survive in good shape into the next millennium.
    Our request for the base program for the States is more 
than requested in the Administration budget, although it is 
within the overall totals and reflects our difference over the 
funding priorities with the National Park Service which has 
tended to create new programs rather than reinvesting and 
boosting existing successful programs.
    The proposed 1999 level will be the sixth year in a row 
that the States have had decreasing or level funding. This is 
very discouraging as the workload on the States grows and it is 
even more serious if you acknowledge that over time level 
funding is actually losing ground.
    I have done two little houses here to illustrate that. The 
one on your left is the Historic Preservation Fund 
appropriation to the States in relative size in 1981 and this 
is in 1998 in 1981 dollars proportionally.
    Mr. Regula. I understand. But our allocation has also been 
shrinking in real dollars. So, what are we supposed to do?
    Mr. Hertfelder. No. I understand. I am making a proposal 
within the bounds of what the President proposed.
    Mr. Regula. But his proposal is a billion and a half over 
last year's allocation, and I think that it is unlikely that is 
going to happen----
    Mr. Hertfelder. Yes.
    Mr. Regula [continuing]. Unless he has a billion and a half 
that we do not know about.
    Mr. Hertfelder. In his back pocket.
    Mr. Regula. Yes, right.
    Mr. Hertfelder. I am sure you are right, but the point I 
want to make is that level funding over time is actually losing 
ground.
    Mr. Regula. Well, I understand that very well.
    Mr. Hertfelder. And States in the face of this are losing 
positions to service the Federal side of the program.
    Mr. Regula. Well, how are the States' appropriations going? 
Are they keeping pace with inflation? Or most of them, I would 
think.
    Mr. Hertfelder. They are basically level funded except for 
special grants programs. The States, in 1981, the Historic 
Preservation Fund was cut by almost two-thirds.
    Mr. Regula. So, the States are shrinking in real dollars 
also, is that what you are saying?
    Mr. Hertfelder. If I could finish what I was going to say.
    Mr. Regula. Yes.
    Mr. Hertfelder. In 1981, there was a very large cut from 
$60 million down to about $20 million----
    Mr. Regula. In the States?
    Mr. Hertfelder [continuing]. For the States. And what 
happened was that the States lost virtually all ability to give 
bricks and mortar grants to provide assistance. They were 
carrying on the demand functions like the rehab tax credits, 
environmental review of the National Registry which they still 
are. But what the States have done mainly since that time is to 
rebuild some of the grants programs. Some of them have gambling 
money, some of them have special taxes and so we find that some 
of that ground has been made up in terms of being able to help 
properties with grants.
    But the basic core functions, staffing and so forth, have 
been pretty level and the States generally appropriate to match 
the Federal appropriation as part of the State/Federal 
partnership.
    So, in closing, we recommend and hope that the committee 
will continue to invest and reinvest funds as they become 
available in these existing programs because I think we are 
very successful. You will find in my written testimony, for 
example, last year, Fiscal Year 1997, the States certified 
$1.73 billion worth of construction activities under the rehab 
tax credits. That was one of the best years ever.
    Now, granted that was in part because the economy is 
booming but if that infrastructure was not in place and the 
staffs there ready to handle all the developers when they came 
in, that would not have been possible and that is a tremendous 
private sector contribution to the national program.
    [The statement of Eric Hertfelder follows:]

[Pages 124 - 128--The official Committee record contains additional material here.]


    Mr. Regula. Well, thank you very much.
    Mr. Hertfelder. Thank you.
    Mr. Regula. We, in this committee, are blessed with so many 
good things that need to be done and with an amount not 
adequate to do it.
    Mr. Hertfelder. Right.
    Mr. Regula. And we are going to do the best we can in terms 
of national priorities to meet the needs of all these great 
programs, all of which are productive and good.
    Thank you for coming.
    Mr. Hertfelder. Thank you.
    Mr. Regula. I hope you all understand if I interrupt you I 
am trying to get this information and I have only five minutes 
to do it. I do not want to be rude but I want to get as many 
facts as I can. And, so, I hope you realize that that is what 
we are trying to do and thank you.
    Mr. Hertfelder. I would rather have a conversation.
    Mr. Regula. Okay.
                              ----------                              

                                            Tuesday, March 3, 1998.

                         HISTORIC PRESERVATION

                                WITNESS

MANUEL GOMEZ, VICE PRESIDENT, UNIVERSITY OF PUERTO RICO
    Mr. Regula. Okay. The University of Puerto Rico, Mr. Manuel 
Gomez, Vice President.
    You have an interest in what is happening this week, do you 
not?
    Mr. Gomez. Yes.
    Mr. Regula. You are going to hold me to the five minutes, 
right.
    Mr. Gomez. Yes, I will be taking my five minutes.
    Mr. Regula. Did the alarm go off?
    Mr. Gomez. No, I will keep the time.
    Thank you, Mr. Chairman, for the opportunity to address 
you. I am the Vice President of the University of Puerto Rico 
and with me is Andres Gomez, who is the President of the UPR 
Foundation who is helping out for the project I am going to 
talk about.
    Mr. Regula. Is this a State University?
    Mr. Gomez. It is a State University.
    Mr. Regula. How many do you have?
    Mr. Gomez. 68,000----
    Mr. Regula. No. Do you have one main university?
    Mr. Gomez. It is a system of all the----
    Mr. Regula. Satellite areas?
    Mr. Gomez. We have 12 campuses and 68,000 students. It is 
the major Hispanic-serving institution in the United States.
    Mr. Regula. Do you have a football team?
    Mr. Gomez. No. We do not. We have basketball. We do not 
have football.
    Mr. Regula. I am just curious.
    Mr. Gomez. That is okay.
    Mr. Regula. Because it is such a big deal at our Big Ten 
schools.
    Mr. Gomez. I know, I know.
    Mr. Regula. I happen to be a football fan. So, go ahead.
    Mr. Gomez. The purpose of my presence in this committee is 
to talk about the preservation of a historic site----
    Mr. Regula. A site?
    Mr. Gomez. A site. The University of Puerto Rico Theater. 
The Puerto Rico Theater is part of the quadrangle which is a 
historic----
    Mr. Regula. Okay. How much money do you need?
    Mr. Gomez. We need $5 million.
    Mr. Regula. How much can you raise locally?
    Mr. Gomez. Ten.
    Mr. Regula. So, is it $15 million total?
    Mr. Gomez. It is $15 million total.
    Mr. Regula. And you would like to get $5 million from us 
and the 10 you will raise?
    Mr. Gomez. We are raising the following form. The 
University of Puerto Rico puts $5 million from its sources and 
the private sources--this is an alliance--the private source 
will raise from three from the foundation and another $5 
million.
    The significance of the Theater of the University of Puerto 
Rico is as a landmark, it is a symbol and an icon.
    Mr. Regula. My staff tells me historically we have not 
funded brick and mortar. That is what you are talking about, I 
assume.
    Mr. Gomez. No. We are restoring it. It is not a 
construction.
    Mr. Regula. Is this a free-standing building?
    Mr. Gomez. It is a free-standing building, part of the 
University quadrangle, which is a historical site as certified 
as a historical site.
    Mr. Regula. And it is a theater?
    Mr. Gomez. It is a theater. To give you an idea of size it 
compares with the Kennedy Center. It is 2,088 seat capacity. It 
is a big building. It has a long history. Pablo Casals 
Festivals were initiated in that theater.
    Mr. Regula. Is it being used now?
    Mr. Gomez. It is--that is the problem. It is not being used 
because it has deteriorated and needs renovation.
    That is the crux. It is a symbol and I think that I want to 
emphasize that because as you may know Puerto Rico did not have 
a higher education system or an educational system K-12 during 
the Spanish time. So, this is a very appropriate time because 
of the centennial of the Spanish-American War.
    Mr. Regula. Do you offer a full range, do you offer law, 
medical?
    Mr. Gomez. We offer all those, law, engineering.
    Mr. Regula. The works.
    Mr. Gomez. To give you an idea, the University of Puerto 
Rico is the sixteenth largest in the nation, not minority, the 
sixteenth largest in the nation. We have engineers in NASA, and 
the university has graduated 225,000 people. And that 225,000 
are the leaders of Puerto Rico.
    Mr. Regula. I would be interested, do you get the students 
that come from out of your country?
    Mr. Gomez. We are getting more from Latin America and from 
the mainland that come down to study in the UPR. We are making 
a special effort with New Mexico. I am sorry, the scheme will 
work out because we have an alliance with the New Mexico 
universities to join forces to exchange Hispanics. We have a 
Hispanic tradition that we share with them. So, we are working 
in all kinds of these directions.
    The other importance of the theater is that it has been the 
meeting place for Latin American exiles, Spanish exiles, and 
victims of dictatorships. So, it has been a forum for freedom 
and democracy.
    Mr. Regula. Now, it is closed.
    Mr. Gomez. Now, it is closed. We cannot do that, we cannot 
use it, and it is depriving us of a cultural facility. It is 
part of a unique history which could be a symbol; it should be 
a symbol of the country and the United States' education in the 
island of Puerto Rico.
    [The statement of Manuel Gomez follows:]

[Pages 132 - 138--The official Committee record contains additional material here.]


    Mr. Regula. Okay. Thank you very much. Your testimony will 
be made a part of the record.
                              ----------                              

                                            Tuesday, March 3, 1998.

                           LAND CONSERVATION

                                WITNESS

BRUCE RUNNELS, CHIEF CONSERVATION OFFICER, THE NATURE CONSERVANCY
    Mr. Regula. The Nature Conservancy, Bruce Runnels, Chief 
Conservation Officer.
    Mr. Runnels. Good morning, Mr. Chairman.
    Mr. Regula. Good morning.
    Mr. Runnels. My name is Bruce Runnels. And I am the Chief 
Conservation Officer of the Nature Conservancy. We appreciate 
the opportunity to offer our comments on next year's 
appropriations.
    As background, and I think you know, the Nature Conservancy 
is an international nonprofit organization dedicated to the 
conservation of biological diversity. We have 900,000 members, 
and we protected 9 million acres in the last 48 years of our 
work.
    It is really on the strength of that foundation, and in the 
spirit of doing the best we can for future generations, that we 
offer the following comments.
    Mr. Regula. Do you go onto private lands as well as public?
    Mr. Runnels. Yes, sir.
    Mr. Regula. And you work with private land holders in 
conservation practices?
    Mr. Runnels. Yes. The Big Darby project is a good example 
of how we work with private land owners and other stakeholders 
in communities to foster a community based approach to 
conservation.
    Mr. Regula. Right.
    Mr. Runnels. But we own and manage almost two million acres 
in 1,600 preserves.
    Mr. Regula. It will turn over as appropriate to a public 
agency?
    Mr. Runnels. As appropriate, but we do that on a case-by-
case basis.
    Mr. Regula. What do you do? Do you have a lump sum of money 
to work with that contributors have built up for your 
organization?
    Mr. Runnels. We have a revolving loan fund and then we 
raise money for each of the projects as we undertake them and 
repay the loans on an ongoing basis.
    Mr. Regula. It is some good work.
    Mr. Runnels. Thank you very much.
    In terms of Interior appropriations we strongly support and 
urge continued use of land and water conservation funds to 
support land acquisition and maintenance of high priority 
areas. We cited 36 projects that we think we support 
particularly----
    Mr. Regula. Is that in your testimony?
    Mr. Runnels. It is in the testimony--in 21 States totaling 
about----
    Mr. Regula. The real problem is that you have such a 
backlog of maintenance that if we add land and/or buildings it 
just contributes to that difficulty in keeping things up to 
date.
    Mr. Runnels. I appreciate the point because once acquired, 
it is critical that we provide adequate maintenance to sustain 
these sites----
    Mr. Regula. And development, too.
    Mr. Runnels [continuing]. Over the future. And it needs to 
be balanced, I think, with land acquisition.
    Mr. Regula. Are you familiar with Big Darby?
    Mr. Runnels. Yes, sir.
    Mr. Regula. Well, somebody raised a question with me that 
the adjacent land owners were not happy about having their 
lands taken for this purpose. Does that ring a bell with you at 
all?
    Mr. Runnels. My understanding of the project is, in fact, 
the private land owners, including the farming community, are 
supportive of a program to establish a refuge here, which would 
include land acquisition, but also the purchase of development 
rights to achieve, I think, the community vision for it.
    Mr. Regula. So, this would be more than a greenway, it 
would be an area for wildlife conservation, is that correct?
    Mr. Runnels. Yes. The main focus of that project is the 
river----
    Mr. Regula. Right.
    Mr. Runnels [continuing]. And the biological elements that 
are in the river but it is more than a greenway and is an 
integrated effort to include the lands and waters in order to 
conserve them long-term.
    Mr. Regula. And this would be operated by the State?
    Mr. Runnels. Right now it is really a partnership involving 
the local park department.
    Mr. Regula. Local, meaning the city of Columbus?
    Mr. Runnels. Yes. I believe it is the city of Columbus.
    Mr. Regula. Probably, yes.
    Mr. Runnels. The metro park area.
    Mr. Regula. That is right.
    Mr. Runnels. The university, the Department of Agriculture, 
the Fish and Wildlife Service. I think the management of the 
refuge would be under the jurisdiction of the Fish and Wildlife 
Service but that is not the entire area.
    Mr. Regula. I believe that is correct.
    Mr. Runnels. So, that would be one part of a patchwork of 
partners that would conserve this area.
    So, we support continued use of land and water and I just 
would cite other programs and initiatives that we have included 
in our testimony. Mainly because they represent high-leverage 
use of Federal funds through public/private partnerships and 
matching funds and I want to mention particularly the National 
Fish and Wildlife Foundation.
    That organization has been in existence 12 years and they 
have made over 2,400 grants. It attracts $3 for every $1 of 
Federal funds. So, over that 12 years, they have attracted $195 
million of outside money from the 82 invested in Federal funds. 
And I think that is the kind of high-leverage program that we 
think deserves continued support.
    [The statement of Bruce Runnels follows:]

[Pages 141 - 144--The official Committee record contains additional material here.]


    Mr. Regula. Well, thank you for your testimony.
    Mr. Runnels. Thank you.
                              ----------                              

                                            Tuesday, March 3, 1998.

                 CARTER BARRON AMPHITHEATRE RESTORATION

                                WITNESS

GLORIA J. HIGHTOWER, CO-FOUNDER AND PRESIDENT, BOARD OF DIRECTORS, 
    FRIENDS OF CARTER BARRON FOUNDATION OF THE PERFORMING ARTS
    Mr. Regula. Ms. Hightower for the Friends of the Carter 
Barron.
    We are running behind schedule so that anything you can do 
to keep it tight, we will appreciate.
    Ms. Hightower. Thank you, sir.
    I would like to say, good morning, and thank you for the 
opportunity for me to speak here on behalf of the Friends of 
Carter Barron. We established our 501(c)(3) in 1991 to form a 
partnership with the National Park Service to preserve and 
interpret the Carter Barron Amphitheater. Being that I am a 
professional artist I got involved and when I began to start 
performing at the facility I----
    Mr. Regula. This is in Chicago?
    Ms. Hightower. No. This is in DC, on 16th Street.
    Mr. Regula. Oh, okay.
    Ms. Hightower. So, when I went up to perform I began to 
look at the structure, how it was definitely demising. It is in 
such a roofless state----
    Mr. Regula. Well, who owns this structure?
    Ms. Hightower. The National Park Service.
    Mr. Regula. It is a part of the----
    Ms. Hightower. Yes. Park Service, yes, sir.
    Mr. Regula [continuing]. Part of the Rock Creek Park?
    Ms. Hightower. Yes, sir.
    Mr. Regula. Okay.
    Ms. Hightower. So, what the Friends--what I said I wanted 
to form a community group so that we can identify funds to 
restore and revitalize Carter Barron so that it can continue to 
serve as a facility.
    Mr. Regula. Tell me what is Carter Barron? Is it an 
auditorium or what is it?
    Ms. Hightower. Sir, it is an amphitheater that is an 
outdoor facility that seats 4,200 people. Shakespeare comes 
every year to kick off the free-for-all, the National Symphony 
Orchestra comes and performs.
    Mr. Regula. So, it is operating right now?
    Ms. Hightower. Absolutely but it is in a state of demise. 
It is in total----
    Mr. Regula. Okay.
    Ms. Hightower. So, what it is, is that two years ago we 
recruited Mr. Arthur C. Moore, who is a renowned architect. He 
has prepared a sketch to restore the facility. And we have 
presented that to the National Park Service.
    Mr. Regula. How much?
    Ms. Hightower. It is approximately $1.5 million.
    Mr. Regula. To do the whole job?
    Ms. Hightower. To do the whole job. But, sir, we are not 
asking the Park Service to give us the money. We are saying 
that give us the opportunity to renovate it and we can do it.
    Mr. Regula. You can do it with private funds?
    Ms. Hightower. We can do it with private funds. We have 
Mark Touhey from the Board of Trade and we have Jack Evans.
    Mr. Regula. Why would anybody object to your doing it?
    Ms. Hightower. Well, counsel.
    Mr. Pope. That is a good question.
    Mr. Regula. The Park Service is being an impediment?
    Ms. Hightower. It is a bureaucracy, sir. Absolutely, 
absolutely.
    Mr. Regula. At the moment?
    Well, I will get their story. That does not seem to add up.
    Mr. Pope. I think that, you know, in all candor, I think it 
takes another session probably to go over some of the finer 
details as to some of the rough waters that we have been over. 
And there is a lot of undercurrent that is involved in this.
    Mr. Regula. Well, if you have time, you can visit with 
Debbie Weatherly on it at some other time and give her more 
background.
    Mr. Pope. That is very good.
    Mr. Regula. But we will question the Park Service.
    Mr. Pope. We have had problems with communication with them 
trying to resolve whatever misunderstandings and communications 
that exist between the nonprofit organizations board and the 
bureaucracy.
    Mr. Regula. You normally do. Does your nonprofit lease it 
or do you just use it?
    Ms. Hightower. Absolutely. Let me tell you what happened. 
In 1993, we kicked off our first outreach program to children. 
We have a two-fold mission. We work to preserve the facility 
and we provide education initiatives to the District of 
Columbia youth in the field of the arts.
    So, this is our fifth arts summer season coming up. 
Shakespeare comes in, the National Symphony Orchestra, they 
love it. We service each consecutive summer 50 to 100 children. 
So, I am saying that I do not know what the problem is.
    All we want to do is----
    Mr. Regula. Well, let us try to find out.
    Mr. Pope. We do have a management agreement with the----
    Ms. Hightower. Memorandum of agreement.
    Mr. Regula. But you are the only ones that use it.
    Mr. Pope. No, no.
    Ms. Hightower. No, we are not.
    Mr. Regula. Are there other organizations that----
    Ms. Hightower. Yes, it is but not to the capacity of what 
we do. No one is offering to restore the facility. No one has 
offered the pro bono----
    Mr. Regula. Except your group?
    Ms. Hightower. Exactly! What we get is a lot of barriers 
and we wanted to come before the Interior Committee so that we 
could be heard and at least some kind of collaborative effort 
can be examined.
    [The statement of Gloria Hightower follows:]

[Pages 148 - 152--The official Committee record contains additional material here.]


    Mr. Regula. Okay. We will check into it.
    Ms. Hightower. Thank you, sir.
    Mr. Regula. Thank you for coming.
    Ms. Hightower. And you said we could meet with Debbie?
    Mr. Regula. Yes, right.
    Ms. Hightower. Oh, okay. Yes, okay, that is great.
    Thank you, sir.
    Mr. Regula. Not today, maybe in the future.
    Ms. Hightower. Thank you.
                              ----------                              

                                            Tuesday, March 3, 1998.

                       FISH AND WILDLIFE SERVICE

                                WITNESS

NEAL SIGMON, SENIOR ADVISOR, NATIONAL FISH AND WILDLIFE FOUNDATION
    Mr. Regula. National Fish and Wildlife Foundation, Mr. 
Sigmon.
    We are happy to have you.
    Mr. Sigmon. We are both grateful for that.
    Mr. Regula. Go ahead.
    Mr. Sigmon. Thank you, Mr. Chairman.
    Mr. Regula. You know the rules better than most here, Neal.
    Mr. Sigmon. I do and I hope I can do this quickly.
    Thank you. It is good to be back in this room especially to 
see how well you have redecorated it.
    Mr. Regula. You like it, do you?
    Mr. Sigmon. Yes, sir.
    Mr. Regula. Those of you that have not been here before, we 
just got new carpet and drapes after about 40 years and Neal 
was the staff director here for many years. He can appreciate 
it.
    Okay. Sorry.
    Mr. Sigmon. I returned to testify on behalf of the National 
Fish and Wildlife Foundation about which you have some 
familiarity. First, we want to thank you for your generous 
appropriations to the Foundation. They are the cornerstone upon 
which the National Fish and Wildlife Foundation is built. So, 
we thank you.
    Your appropriation makes possible our challenge grants, it 
attracts the paying partners and it is the catalyst for 
bringing disparate interests together to create solutions to 
natural resource problems. We believe that over a 12-year 
period the Foundation has proven its worth.
    Federal appropriations have been leveraged so that for each 
dollar appropriated more than $3 go out to work for 
conservation. This is possible because of our partners and due 
to the fact that we raise our operating expenses privately.
    We think that we could use more money effectively.
    Mr. Regula. I am sure you could.
    Mr. Sigmon. And from the Fish and Wildlife Service we are 
requesting an increase to $10 million or an amount that is in 
line with any increases you can provide the Fish and Wildlife 
Service. The increase can be used for a dam removal initiative, 
to address maintenance needs on refuges, and to address keeping 
species off the endangered list.
    We could productively use $3 million each from BLM and the 
Forest Service for innovative cooperative programs such as 
Bring Back the Natives, to restore fisheries, seeking common 
ground to solve grazing and wildlife conflicts, and two other 
initiatives, native plant conservation and pulling together, 
which work to keep range lands healthy with native plants and 
free of invasive exotic weeds.
    We believe we could be more effective for BLM if we are 
given leeway to select projects that not only benefit BLM 
lands, but also attract more paying partners and address 
broader issues. With the Forest Service we want to continue our 
partnership with its Challenge Cost Share program while also 
expanding to cover larger scale forest health issues.
    To close, I would like to tell you about one grant that 
allowed the removal of the Quaker Neck Dam on the Neuse River 
in Eastern North Carolina. This one action reopened spawning 
grounds for striped bass, herring, sturgeon and shad----
    Mr. Regula. Is this a power-producing dam?
    Mr. Sigmon. No. It was used for cooling water to provide a 
steady supply of cooling water for the utility. This action 
opened up 75 miles on the main stem of the river and 925 miles 
of tributaries. As a result, we expect to see the fishery 
expand rapidly. A boost to commercial and recreational 
fishermen, alike.
    This partnership involved the U.S. Fish and Wildlife 
Service, the Corps of Engineers, the State of North Carolina, 
the North Carolina Coastal Federation, and Carolina Power and 
Light, the utility involved.
    Quaker Neck Dam was removed without litigation and without 
any regulatory action.
    Mr. Regula. Was it earthen or concrete?
    Mr. Sigmon. It was a concrete dam.
    Mr. Regula. What did you do with it?
    Mr. Sigmon. It was a low-head--the contractor moved the 
debris over to a landfill that was nearby. I have an article 
from the Raleigh News and Observer which I can share with you.
    Mr. Regula. Yes.
    Mr. Sigmon. It explains everything about that part of it.
    Mr. Regula. The reason I was asking these questions is we 
have had a number of proposals for removing dams because of the 
impact on salmon and various other things. I am curious, Neal, 
I was just looking over the list, we have any number of groups, 
Nature Conservancy, National Fish and Wildlife Foundation, on 
and on and on. Is there any other country in the world where 
they are so well organized in such a variety of groups to 
protect the natural habitat and species and so on?
    Mr. Sigmon. I am not aware of another country that is so 
well organized. And we have, for example, we, at the 
Foundation, with money that we get from the foreign aid 
appropriation bill, are working with Latin American countries 
specifically to build organizations there that can help us in 
the rehabilitation of habitat for neotropical migratory birds, 
which also use habitat here.
    Mr. Regula. So, to the best of your knowledge, this is 
certainly a unique American phenomenon to have so many 
groupsthat are all doing very constructive things, in terms of our 
natural environment.
    Mr. Sigmon. Yes, sir.
    Mr. Regula. That is interesting. And you are trying to do 
some outreach with the program you have?
    Mr. Sigmon. Yes, sir.
    [The statement of Neal Sigmon follows:]

[Pages 156 - 159--The official Committee record contains additional material here.]


    Mr. Regula. Well, thank you very much.
    Mr. Sigmon. Thanks for a view from this side of the table.
    Mr. Regula. Well, you can leave and I have to stay.
                              ----------                              

                                            Tuesday, March 3, 1998.

                   BACK BAY, NATIONAL WILDLIFE REFUGE

                                WITNESS

MOLLY BROWN, PRESIDENT, FRIENDS OF THE BACK BAY
    Mr. Regula. Next we will have the organization Friends of 
the Back Bay, Molly Brown.
    Mr. Pickett. Good morning, Mr. Chairman.
    Mr. Regula. Good morning.
    Mr. Pickett. I have a pleasant job annually to come here 
with Molly who is a very long time supporter and loyal worker 
on behalf of the Back Bay National Wildlife Refuge. They have a 
land acquisition program that they have been pursuing for 
almost 10 years now. And she is here to urge you to do your 
best. So, Molly Brown.
    Mr. Regula. Well, we always try to do our best. You need to 
talk to the budgeteers.
    Ms. Brown. And you have been for our project and I would 
like to thank you for what you have done in the appropriations.
    Mr. Regula. Let me ask you, do you get public usage in 
terms of coming to look at it and----
    Ms. Brown. Oh, absolutely.
    Mr. Regula. School groups?
    Ms. Brown. Yes, sir, and that is what I wanted to tell you 
about. I want to show you pictures of what land was acquired 
last year, this 17-acre tract, so, you could actually see where 
your money has gone. There is a house on this that is going to 
be turned into an educational site to use for schoolchildren.
    The house just needs to have a little bit of work done and 
it is being done by volunteers. Partnerships are being formed. 
And, in addition to that, it puts the schoolchildren about 40 
minutes closer because it is on the Western side of the bay, 
which is, as you know, very important as far as field trip 
times that they are closer.
    Mr. Regula. So, this is a horseshoe around a bay, is that 
correct?
    Ms. Brown. Yes, yes, it is. And it will add, in addition to 
the refuge, it already has a visitor's center, but again, this 
is on the Western side which is closer to the students and, so, 
they will be able to come.
    This is a result of the money that you have appropriated 
and you can actually see where it has gone.
    Mr. Regula. Do you get private contributions and all?
    Ms. Brown. We get private contributions from organizations 
and like our organization is all volunteer. We volunteer our 
time and energy to do a lot of the projects that need to be 
done. The State has provided some and the city of Virginia 
Beach also, toward protecting the Back Bay watershed.
    So, the Back Bay is--a lot of people use it, and a lot of 
people love it and are willing to do work for it.
    Mr. Regula. This is off the Chesapeake?
    Ms. Brown. No.
    Mr. Regula. I do not know your geography that well.
    Ms. Brown. No. This is down--if you were coming across the 
Chesapeake Bay----
    Mr. Regula. What does the bay open into, what major----
    Mr. Pickett. Pimlico Sound down towards the North Carolina 
area.
    Ms. Brown. Right. So, the entire watershed of Back Bay is 
in the city of Virginia Beach. And we are the first really 
undeveloped area south of the mouth of the Chesapeake Bay. So, 
when birds are migrating and they have crossed the Chesapeake 
Bay, Back Bay provides them a resting area and habitat for 
them.
    Mr. Regula. It serves migratory birds?
    Ms. Brown. Yes. And neotropical birds also. It is a very 
unique area.
    Mr. Regula. You have land areas where you have other types 
of species of wildlife?
    Deer, for example?
    Ms. Brown. Right. There are deer----
    Mr. Regula. Turkey, wild turkey?
    Ms. Brown. Yes. And then also we have the Atlantic Ocean so 
that there is an area for a Piping Plovers to rest and also 
Loggerhead Sea Turtles.
    Mr. Regula. Some of the Bay frontage that is part of the 
Fish and Wildlife facilities is on the Atlantic, is it not?
    Ms. Brown. Yes. If you read my testimony there is a map and 
if you refer to that, you will be able to see the Atlantic 
Ocean and what is in blue is the original refuge that was 
established in 1938 and then the area that is shaded in green 
is what has been acquired since 1990 through appropriations.
    Mr. Regula. You are trying to fill-in some of the in-
holdings.
    Ms. Brown. Well, we are filling in the property, exactly, 
and what you see in yellow is what we are hoping to acquire in 
1998 and 1999 is in red.
    Mr. Regula. What kind of prices do you have to pay for 
that?
    Ms. Brown. Well, the prices vary because some of the 
property had been zoned for development and some of the 
property is agricultural and some of the property is wetlands. 
And so the price varies.
    But we have always had more willing sellers than we had 
money available. I think the Fish and Wildlife Service has done 
a commendable job in working with the land owners and 
negotiating their prices.
    And, so, we are just----
    Mr. Regula. I am sure this is a great asset for what is 
probably a fast growing area.
    Mr. Pickett. That is correct, Mr. Chairman.
    Mr. Regula. The population base must be expanding there 
quite rapidly.
    Ms. Brown. Virginia Beach now is 425,000 citizens.
    Mr. Regula. It is that large. Wow.
    Ms. Brown. And I think the metropolitan area is about 1.5 
million.
    Mr. Regula. You do not even represent all of it.
    Mr. Pickett. No, no. Mr. Sisisky and Mr. Scott and Mr. 
Bateman, all of us come together there in Southeastern 
Virginia.
    Mr. Regula. You have a city with the rural area then.
    Mr. Pickett. This Southern part of the city is in my 
district since it is a rural area, with about 35,000 acres are 
still farmed in this area.
    Ms. Brown. But there is a growing need to realize how 
important it is to protect this area.
    Mr. Regula. Well, now is the time to preserve open space or 
it will not be there.
    Ms. Brown. Well, our project, thanks to the appropriations, 
has moved forward and we would just ask you for continued 
support for 1999.
    And, thank you.
    [The statement of Molly Brown follows:]

[Pages 163 - 169--The official Committee record contains additional material here.]


    Mr. Regula. Okay. You have a great champion there.
    Mr. Pickett. Thank you, Mr. Chairman.
    Ms. Brown. Thank you.
    Mr. Regula. Thank you.
                              ----------                              

                                            Tuesday, March 3, 1998.

                           ENDANGERED SPECIES

                                WITNESS

 MARY BETH BEETHAM, LEGISLATIVE ASSOCIATE, DEFENDERS OF WILDLIFE
    Mr. Regula. Defenders of Wildlife, Mary Beth Beetham.
    Ms. Beetham. Thank you, Mr. Chairman.
    I am Mary Beth Beetham, and I work for the Defenders of 
Wildlife and thank you for allowing us to appear here to 
discuss our appropriations priorities.
    The first thing I wanted to do is to thank you for two 
items in last year's bill. I would like to thank you for the 
money for the feasibility studies on restoration of wolves to 
Olympic National Park and I would also very wholeheartedly like 
to thank you for the very generous and unprecedented funding 
increase for the National Wildlife Refuge System operation and 
maintenance.
    This was the first step that really anyone has taken to 
address that chronic funding need and we deeply appreciate it. 
We are a member of the CARE Coalition whose testimony you heard 
earlier today and as you know CARE has a five-year plan to 
restore the refuges to try to bring them into a state of health 
by the 100th anniversary of the refuge system. And it is going 
to require continued increases of about $55 million a year and 
we are hoping for the subcommittee's continued support and, 
again, we tremendously appreciate what you and the subcommittee 
did last year for the refuge system.
    I would also like to take this opportunity to let you know 
that for the second year in a row a large and organized 
coalition of groups is working very aggressively and very 
diligently to try to get your 302(b) allocation increased 
because we know the kinds of funding constraints you are under 
and we know that you always do the right thing with the money 
and that the amount of money you have is one of the biggest 
concerns.
    And more and more people have become involved in that 
effort and we are really doing our best to try and get the 
money you need for these programs.
    Mr. Regula. We appreciate that. It is a problem.
    Ms. Beetham. Well, I actually feel like in some sense it is 
more important than even coming in and lobbying on our 
individual concerns. So----
    Mr. Regula. Well, as you know, we have been pretty much 
flat funded in our allocation. And, of course, with the growing 
needs in parks and forests and everywhere we look there is an 
unmet need.
    Ms. Beetham. Yes. And the more we learn about it, too, the 
more we feel the same way. And just to let you know we went in 
yesterday to meet with Jim Dyer to talk to him about CARE and 
to talk to him about the subcommittee's allocation.
    I would like to draw your attention to one other priority, 
big priority for Defenders in addition to the refuge system. 
And that is the Fish and Wildlife Service endangered species 
accounts. As you know, the President has requested a 
significant increase this year, probably the most significant 
increase I would imagine that the Administration has ever 
requested for ESA.
    And this is another program that is critically under-funded 
as the refuge system is under-funded. In 1990 there was a 
Department of Interior Inspector General report which said that 
the Fish and Wildlife Service was unable to carry out its ESA 
mission because of its funding needs. And since that time, the 
number of listed species has doubled. The Fish and Wildlife 
Service also in the last few years has undertaken a number of 
reforms to try to address the concerns of regulated interests 
under the Act.
    And, so, the funding increases that the President's has 
requested this year would go a long way to help address both 
the species conservation needs and some of the needs of the 
private land owners.
    Mr. Regula. He sent his request, he did not send the money. 
That is the only problem.
    Ms. Beetham. Well, I know. I know that.
    Mr. Regula. Touting a balanced budget and we can hardly do 
that and increasing just this committee a billion and a half 
dollars. I have not figured out how that all works. But maybe 
they have a magic formula.
    Ms. Beetham. Well, and that is one of the reasons why we 
intend to spend a lot of time up here on the Hill and just 
really try to raise the awareness of the funding needs.
    I mean we look at it as a national interest issue and, you 
know, what does America have? We have our national heritage and 
it is important to invest.
    Mr. Regula. I understand that we have to preserve it and 
take care of it. That is one of our problems, too.
    Ms. Beetham. Yes.
    Mr. Regula. We have neglected maintenance severely and you 
should not only be looking for acquisitions, but look for 
maintenance of what you have.
    Ms. Beetham. Well, yes, and that is why we do support the 
Land and Water Conservation Fund, but that is also why we are 
supporting these other efforts and trying to get the 
subcommittee more money.
    Mr. Regula. Okay. Well, thank you very much and stay with 
it.
    Ms. Beetham. I would just like to mention a couple of other 
programs. The Forest Service's threatened and endangered 
sensitive species programs are very important and I have a 
couple of reports here. One is on habitat conservation plans 
under the ESA which Defenders thinks has a lot of potential but 
also a lot of flaws and they need proper funding.
    The other one is on the National Forest Systems threatened 
and endangered and sensitive species program and we are really 
just, Defenders is really just beginning to understand some of 
the funding needs in those programs and for Forest Service 
research in these programs as well.
    [The statement of Mary Beth Beetham follows:]

[Pages 172 - 177--The official Committee record contains additional material here.]


    Mr. Regula. Thank you very much.
    Ms. Beetham. Okay, thank you.
                              ----------                              --
--------

                                            Tuesday, March 3, 1998.

             ENVIRONMENTAL IMPROVEMENT AND RESTORATION FUND

                                WITNESS

 JAMES A. BECK, PRESIDENT, SENECA RESOURCES CORPORATION
    Mr. Regula. Seneca Resources Corporation, James A. Beck, 
President.
    Good morning, again. I think I know the story, but go 
ahead.
    Mr. Beck. Thank you, Mr. Chairman.
    Well, I have a few other pieces of information for you.
    Mr. Regula. All right, tell me just the part that is new.
    Mr. Beck. Okay. What I would like to do is to just to give 
you a brief overview of the real history and then talk about 
some of the options available to us. Essentially what I would 
like to do is give you a map that really shows what the 
situation was in our West Delta area. This will give you an 
overview of exactly what happened in the West Delta area.
    Mr. Regula. Is West Delta an area in the Gulf?
    Mr. Beck. Yes, it is.
    Mr. Regula. In which you are drilling?
    Mr. Beck. Right. This is in the boundary between State 
waters and Federal waters in offshore Louisiana and it is about 
50 miles Southeast of New Orleans.
    And the map there shows you the drainage situation that 
occurred between the Federal and the State leases. And you can 
see that the proportional amount of reserves that were on the 
State lease versus the Federal lease. And, so, it was there 
that we had this little conflict that we needed to get 
resolved. This was where the independent fact finder went in, 
evaluated this, determined that the State was drained by the 
Federal lease and that there was a disparity there and 
recommended----
    Mr. Regula. Is it common place in the Gulf leases just 
looking at them generally to go within 500 feet of the line?
    Mr. Beck. Normally you will drill as close as you can to 
the top of the----
    Mr. Regula. Because you unitize?
    Mr. Beck. Right.
    Mr. Regula. Are most of the wells part of unitization 
projects?
    Mr. Beck. Where there is a difference in a royalty, then 
there is a unitization hearing. In the Federal leases, where 
the Government owns both sides of the leases they do not 
require unitization because the Government gets the same amount 
no matter how it works out. But where you have a conflict 
between the State and the Federal royalties, then we had over 
100 cases where the State and Federal Government got together 
and worked out the unitization. And in this case this was one 
of the few exceptions where it did not occur.
    Mr. Regula. How far do they get beyond the three-mile line 
before they stop unitizing?
    Mr. Beck. Basically what they will do is the geology from 
the seismic and determine how much is on both sides and as long 
as there is some on both sides of the line you would do 
unitization.
    It is only where it does not cross the lease lines.
    Mr. Regula. Like those deep water wells are pretty much 
outside of that?
    Mr. Beck. Right. So, there would be no unitization. It is 
really right along the three-mile.
    Mr. Regula. You get oil as well as gas out of the Gulf?
    Mr. Beck. Yes. This was a gas deal. But there is a 
tremendous amount of oil and actually most of the deep water is 
oil.
    Mr. Regula. Oh, it is?
    Mr. Beck. Yes.
    Mr. Regula. Do you get both in some wells?
    Mr. Beck. Oh, yes. You will get what you call associated 
gas that comes out of the oil. When it comes to the surface gas 
breaks out and you get gas and oil.
    Mr. Regula. In your opinion, what percentage of the total 
reserves are you getting?
    Mr. Beck. It usually in a very good recovery in a gas 
reservoir you might get 80 percent of the gas. In the case of 
oil, you may only get 10 percent to 20 percent of the reserves.
    Mr. Regula. Tertiary, or do you use----
    Mr. Beck. You use water, flood and all of that. It is very 
difficult to get the oil out. Gas is a lot easier and, so, you 
tend to get more of that.
    So, one of the things----
    Mr. Regula. Is the technology improving to allow you to get 
a greater percentage of the oil?
    Mr. Beck. Yes. What you will end up doing is you do a water 
flood which will up the recovery and you can get up to 50 
percent is probably the best you will do offshore.
    Now, in California, we have gotten as much as 70 percent.
    Mr. Regula. Do you have to frac these wells at all?
    Mr. Beck. No. These flow naturally.
    Mr. Regula. Okay. So, you use sands rather than----
    Mr. Beck. In fact, if anything, the sand flows into the 
well. You have to stop it from flowing in so they do what they 
call a gravel pack.
    Mr. Regula. Do you case them?
    Mr. Beck. Yes. You case them.
    Mr. Regula. How far down?
    Mr. Beck. All the way to the total depth usually. If you 
will drill to 15,000 feet, you will run casing all the way down 
there.
    Mr. Regula. What size are they usually?
    Mr. Beck. It tends to run usually most productions are 
about seven and seven and a half inches in diameter. And then 
you will run another liner inside that of about five inches and 
then you will run a three-inch tubing to bring the fluid to the 
surface. So, it is a very expensive operation to go ahead and 
do all that.
    Now, one of the ideas--we wanted to propose three different 
ideas in here--one was to use the environmental fund as already 
appropriated. The two other options that are available to us 
and one is a direct appropriation for the full $32.6 million. 
And the last one is to look at royalty relief. What we had done 
in the past, Seneca paid $21.2 million to the MMS last year.
    Mr. Regula. In other words, to take a credit on that until 
you catch up.
    Mr. Beck. Right. Well, because we are very active in the 
Federal offshore. We are currently drilling out there and have 
two--
    Mr. Regula. You market then to the refineries?
    Mr. Beck. Right.
    Mr. Regula. You market your product to the refineries?
    Mr. Beck. We sell into the pipelines. And using the Royalty 
Relief Act we could run a credit against that to off-set----
    Mr. Regula. You do not do any refining then?
    Mr. Beck. No. We are a small company and----
    Mr. Regula. You are just a production company?
    Mr. Beck. We sell to Shell or Exxon or Tenneco or whoever 
happens to have the closest pipeline to when we find something.
    Mr. Regula. How deep do you go once you hit the bottom, 
until you hit earth after you are through the water? How deep 
do you normally go beyond that?
    Mr. Beck. We have prospects that will drill down--we have 
got one prospect at 20,000 feet. We have drilled down 10,000 
and over 7,000. So, we have gone----
    Mr. Regula. On slant drilling?
    Mr. Beck. Slant drilling. So, we have, you know, and those 
wells would run you anywhere between $10 and $15 million to 
drill one of those wells.
    Mr. Regula. I would think so.
    Mr. Beck. It is a very expensive operation.
    Mr. Regula. You would have a problem if you lost your 
string down there, would you not?
    Mr. Beck. Well, we have done that, too. [Laughter.]
    [The statement of James Beck follows:]

[Pages 181 - 184--The official Committee record contains additional material here.]


    Mr. Regula. Okay. Well, I am aware of your situation.
    Mr. Beck. Okay. Thank you very much, I appreciate it.
    Mr. Regula. Well, thank you. An interesting technology.
                              ----------                              

                                            Tuesday, March 3, 1998.

                       FISH AND WILDLIFE SERVICE

                                WITNESS

R. MAX PETERSON, EXECUTIVE VICE PRESIDENT, INTERNATIONAL ASSOCIATION OF 
    FISH & WILDLIFE AGENCIES
    Mr. Regula. The International Association of Fish and 
Wildlife Agencies. Mr. Max Peterson.
    Well, how are you, Max? Nice to see you.
    Mr. Peterson. Good to see you and Debbie hanging in here.
    Mr. Regula. Do you agree with Neal that it is unique 
phenomenon of groups like yours kind of to the United States?
    Mr. Peterson. Yes. Ours is real unique since we represent 
the 50 State Fish and Wildlife agencies and also we have 
members of the provinces of Canada and Mexico.
    Mr. Regula. Oh, do you?
    Mr. Peterson. And we also work with the Fish and Wildlife 
Foundation. In fact, we support both their reauthorization and 
funding because of the leverage that they provide by getting 
private funding. So, we work with a large number of those kind 
of organizations and they do good work.
    Trying to figure out, Mr. Chairman, how to summarize 
testimony on five agencies. I decided it was impossible so I am 
going to file it for the record and will just hit a few high 
spots and maybe I can come up and talk to your staff.
    Mr. Regula. Okay.
    So, that is fine.
    Mr. Peterson. There are a few obvious inequities in the 
President's budget that we mention. Sometimes there is an 
increase in one agency and not in the other, you know, and you 
wonder how it kind of went through the OMB process.
    Mr. Regula. Well, that is our job to make sure it turns out 
fair when it comes out the other end.
    Mr. Peterson. None of these, we are saying, are not 
warranted but there are some, for example, the National Park 
Service has a large increase in reducing the backlog, there is 
a little bit in the Fish and Wildlife Service, both of which we 
support. But then neither the BLM or the Forest Service have 
any kind of increases to do that.
    So, if you are going to try to eliminate the backlog across 
Federal agencies, it is very inconsistent.
    Mr. Regula. We are trying to address that problem for all 
the agencies.
    Mr. Peterson. Right. Then one of the things that we do 
support, too, is the increase that the Fish and Wildlife 
Service receive for endangered species. But there is no 
increase for the State side of that and the States have a large 
role in endangered species responsibility. In fact, in most 
cases, it is the States that have the data. The States that 
have zoning authority and other kinds of things that would help 
out in doing ECP. So, there is an inequity there which we 
wonder how it got into the system.
    Third there are many agencies that receive increased land 
acquisition money, as you have noted already but the State 
side, again, was zeroed out. And the States, as you know, have 
a major role in recreation, particularly close to home.
    Mr. Regula. But let me say the State budgets are better off 
than ours.
    Mr. Peterson. Yes. And I know that, but I think there is 
again an equity question that if you provide a little bit of 
money to your State of Ohio for outdoor recreation they will 
use some State money to go with it, some private money and they 
will multiply it. And that is one of the things that your 
committee has been quite good at, I think, is looking at 
multipliers.
    Mr. Regula. Oh, yes. We have tried hard to make it work 
that way.
    Mr. Peterson. Yes. I remember when we undertook the 
Challenge Cost Share program in the Forest Service, for 
example, that is now up to over $20 million that is being 
matched. And nobody ever thought of that kind of private sector 
money that could be----
    Mr. Regula. Well, that is the only way we could make it 
stretch.
    Mr. Peterson. Right. Now, we are working very hard to get 
your share of the pie increased which you mentioned earlier. 
Unless we can get your share of the pie increased we continue 
to argue about smaller and smaller numbers.
    Mr. Regula. Right.
    Mr. Peterson. This afternoon, Mr. Chairman, we are going to 
testify on the reauthorization of the Wallop-Breaux Fund, 
which, as you know, uses----
    Mr. Regula. That will be over in the other committee.
    Mr. Peterson. Yes. It uses fishing tackle and so on. It is 
very important that the funding for that continue because of 
the sportsmen's dollars that go into that. So, with that, I 
will give you back a couple of minutes and I will look forward 
to coming up and talking to your staff.
    [The statement of Max Peterson follows:]

[Pages 187 - 192--The official Committee record contains additional material here.]


    Mr. Regula. Well, thank you for the testimony and I 
appreciate that.
    Mr. Peterson. Thank you.
                              ----------                              

                                            Tuesday, March 3, 1998.

                       FISH AND WILDLIFE SERVICE

                                WITNESS

CHRISTINE STEVENS, SECRETARY, SOCIETY FOR ANIMAL PROTECTIVE LEGISLATION
    Mr. Regula. The Society for Protective Legislation.
    Christine Stevens.
    Ms. Stevens. Thank you, Mr. Chairman.
    I am happy to be here and I would just submit my written 
testimony which is very specific.
    Mr. Regula. Right. All of this will be made a part of the 
record.
    Ms. Stevens. And I want to present you, if I may, with a 
copy of a book very recently published by our companion 
organization the Animal Welfare Institute, that goes into the 
fact on my testimony which is to increase the amount going to 
law enforcement division of the Fish and Wildlife Service by 
over $11 million. That is very much needed because of the 
severe criminal--I mean wildlife has kind of become a really 
enormous thing.
    Mr. Regula. Poaching is what you are referring to?
    Ms. Stevens. And smuggling. And also there is in the live 
animal trade. I mean the reptile and the amphibian trade has 
more or less substituted for the terrible bird trade that 
Operation Renegade so effectively cut down. Of course, it is 
still----
    Mr. Regula. You are interested in our stronger support for 
the law enforcement of the Fish and Wildlife Service?
    Ms. Stevens. That is what is desperately needed.
    Mr. Regula. You mean for your organization, to some extent.
    Ms. Stevens. Right. I have in my testimony, you will see, 
the different places, the amounts and the additional people 
that need to be hired in order to make it really efficient.
    This is really an extremely modest request. I know it is 
$11 million and that is not, does not sound, modest but it 
really is because they cover the whole United States and 
beyond. A lot of this is animals coming into the United States 
where the biggest consumer of wild animals and also of parts 
and products. There is a terrible, we have the rhino and tiger 
bill coming up, I think, in Congress and they are going to have 
to stop both in and out. It is shocking to say that there is 
more rhino and tiger products to be found, if you go seeking 
for them, in New York City than in Beijing.
    So, that has become a target that we certainly have to do 
something about.
    Mr. Regula. I understand.
    Ms. Stevens. And also, of course, there is just the plain 
economic question because they are ripping the United States 
off. They are not paying any income taxes on what they are 
selling.
    Mr. Regula. Well, we are trying to help that. We have money 
in here to help other countries to police their wildlife, 
rhinos and tigers, I think.
    Ms. Stevens. Yes. That is important but we have got to be 
the tough folks.
    Mr. Regula. If there is no market the poachers would be 
stymied. I mean, the market is here, that is part of the 
problem.
    Ms. Stevens. Yes. That is the problem. And also in Europe 
there is a lot of market unfortunately.
    Mr. Regula. Oh, yes.
    Ms. Stevens. And it has grown enormously. The largest 
amount that we are asking for is for the forensics laboratory 
which must add to its size because the USDA wants to be sure 
that there will not be any wildlife diseases or diseases caught 
by domestic animals because people ship----
    Mr. Regula. Imports.
    Ms. Stevens. That is it.
    So, that is a substantial amount that is being asked for 
but it is extremely important, too.
    Mr. Regula. I can understand that.
    Ms. Stevens. Yes.
    [The statement of Christine Stevens follows:]

[Pages 195 - 199--The official Committee record contains additional material here.]


    Mr. Regula. Thank you very much.
    Ms. Stevens. Well, thank you, Mr. Chairman. I hope you can 
really take the bit in your teeth.
    Mr. Regula. Well, I need money instead of a bit. 
[Laughter.]
    Mr. Regula. But we need a better allocation.
    Thank you for coming.
                              ----------                              

                                            Tuesday, March 3, 1998.

                   FISH AND WILDLIFE HABITAT IN MAINE

                                WITNESS

JAMES J. ESPY, JR., PRESIDENT, MAINE COAST HERITAGE TRUST
    Mr. Regula. The Maine Coast Heritage Trust.
    Mr. James Espy, President.
    Mr. Espy. Thank you, Mr. Chairman.
    I am James Espy and I am the President of the Maine Coast 
Heritage Trust. We are a state-wide land trust in the State of 
Maine, I am grateful to be here today representing 70 local 
land trusts in the State of Maine that have more than 50,000 
members now.
    I would also have to confess right here that although I am 
banished to the State of Maine, I am actually a native of Ohio, 
born and raised there. It is a good State to come from.
    Mr. Regula. That is good for me.
    Mr. Espy. I would like to speak about some of the 
successful partnerships that have been forged in Maine to 
protect nationally significant fish and wildlife habitat.
    Mr. Regula. You are like the National Trust in the sense 
you have a pot of money that you can buy lands that are 
threatened?
    Mr. Espy. We raise private dollars to try to--most of our 
work is done in partnership with other organizations.
    Mr. Regula. And then hopefully some of it will be picked up 
by Federal or State agencies. So, you have a revolving fund.
    Mr. Espy. We have a revolving fund. And we do not do a 
great deal of pre-acquisition for the Federal Government. 
Generally we are looking for ways that we can contribute toward 
their acquisition in some ways, so, that it----
    Mr. Regula. And information on alerting them to the 
critical areas?
    Mr. Espy. Actually with one program that I am going to 
speak about, the Gulf of Maine Coastal Ecosystem Program, they 
provide information.
    Mr. Regula. Okay.
    Mr. Espy. So, we have been working with the Nature 
Conservancy, local trusts, land owners, and the Department of 
the Interior on a number of acquisitions in the State over the 
last few years. And through those, we have been able to 
leverage Federal dollars, more than two-to-one, protecting 
nearly 12,000 acres now throughout the State.
    I want to talk specifically about four programs. The North 
American Wetlands Conservation Grant is a program that, in the 
last few years, has allowed 5,000 acres of vital habitat to be 
protected. And, so, I ask you to, please, do what you can to 
try to increase their funding to the $15 million annual level.
    The National Fish and Wildlife Foundation has been an 
essential partner in Maine. Through them we have protected over 
5,700 acres at this point. They helped us establish a small 
grants program so that we can work at the local level through 
land trusts to try to leverage additional funding.
    And I would ask you to, please, consider a $10 million U.S. 
Fish and Wildlife Service fund for them before it is too late 
in that arena.
    The Gulf of Maine Coastal Ecosystems Program, again of U.S. 
Fish and Wildlife Service, and I mentioned this before. They 
operate in Maine providing information, biological information 
doing geographic information services for us. They have really 
helped us target what is important. They, at this point, have a 
very small budget. A million dollars to them each year would 
provide a tremendous leverage, all across the State. They are 
only able to work in a couple of areas right now and their 
mission is to work State-wide.
    Finally, the Land and Water Conservation Fund, Acadia 
National Park and Petit Manan National Wildlife Refuge have a 
tremendous backlog of acquisitions they have been trying to do 
for the last few years, quite a few years. The Fiscal Year 1999 
proposed budget, in addition to the Fiscal Year 1998 
supplemental, would provide Acadia with $2.4 million and the 
Pitit Manan with $1.95 million. That is not quite enough but it 
goes a long way.
    Mr. Regula. How is their maintenance situation?
    Mr. Espy. Their maintenance budget I am not familiar with. 
I know that they have been able to do more with less over the 
few years that I have been associated with Acadia. But I know 
their acquisition budget, they have many willing sellers. They 
have over 220 properties in their designated boundary.
    Mr. Regula. Well, we always reach a point of how much land 
should the Federal Government have. I mean we are sort of like 
farmers and I am one, all you want to own is what you have and 
what is next to it. It gets difficult, you know, because it 
costs money to take care of it once you have it, and we are on 
a fairly tight budget in this committee.
    Mr. Espy. There are two properties, in particular, close to 
Acadia. One that is right in the downtown Bar Harbor area 
adjacent to a lot of lands that are used heavily by the public, 
the last remaining stretch of shore front that needs to be 
protected. In addition, there are two islands that are in a 
grouping of islands. The Park owns all the other islands and 
right in the middle are two islands that are not protected and 
are not owned by the park. This money would go to those two 
islands.
    Mr. Regula. You know, in-holdings are a problem for us in a 
lot of areas and that is what these are.
    Mr. Espy. That is what these are.
    [The statement of James Espy follows:]

[Pages 202 - 206--The official Committee record contains additional material here.]


    Mr. Regula. Thank you very much. You know we have a tight 
budget and we will do the best we can.
    Mr. Espy. I know that you will.
    Thank you.
                              ----------                              

                                            Tuesday, March 3, 1998.

                         NATIONAL TRAILS SYSTEM

                                WITNESS

GARY WERNER, CHAIRMAN, THE PARTNERSHIP FOR THE NATIONAL TRAILS SYSTEM
    Mr. Regula. The Partnership for the National Trails System, 
Gary Werner.
    Mr. Werner. Good afternoon, Mr. Chairman.
    I thought that the spring was coming early to the Midwest 
but it is wonderful here in Washington. As you know, I am from 
Wisconsin.
    Mr. Regula. It is snowing in Ohio.
    Mr. Werner. Yes. Well, it has been fickle that way.
    Mr. Regula. The first time this winter though.
    Mr. Werner. Well, as you know, I do not need to tell you 
about the details of the National Trail System.
    Mr. Regula. You are preaching to the choir on that one.
    Mr. Werner. What I am here to do is to thank you for the 
level of support that you have been giving for the funding for 
the National Trail System and frankly also to thank you for the 
innovative ways that you have directed that funding, such as, 
for instance, the Challenge Cost Share funding for the National 
Parks Service.
    We have routinely been leveraging those dollars that you 
have been giving us at $2.50 to $1 for projects and in 1997 
have accomplished so far 88 separate projects on the trails 
across the country.
    The thing about it is that the $600,000 each year you have 
been able to give us, for every project we fund, there is at 
least one more that is waiting out there for, you know, for 
more leverage.
    Mr. Regula. Yes, I understand.
    Mr. Werner. So, I just think that is a marvelous program.
    I am also here to happily report that we continue to 
maintain our high level of support in the partnerships for the 
trail system. Again, last year we have documented about 450,000 
hours of volunteer labor that have been poured into the trails 
and the value of that labor, plus additional monetary 
contributions, contributed by the various trail organizations 
equals nearly $10 million.
    This is significant because I am here, and in the testimony 
that I prepared, to ask you to make a significant funding 
increase for the National Trail System, a total of $5.2 million 
for the National Park Service administered trails, 15 trails; 
$2.8 million for the Forest Service trails; and $1.36 million 
for the Bureau of Land Management administered trails.
    If you add those three numbers up it comes to about $9.5 
million. So, I am basically saying we would like to match our 
contribution level with a contribution level from the Federal 
Government in these partnerships.
    The money can be used in several, I think, innovative ways 
to continue what I would say is the wonderful track record of 
this committee in guiding money in ways that have strengthened 
partnerships and have leveraged it.
    One of the things I want to point out is that one of the 
difficulties we have is that there are eight of the National 
Park Service administered trails that have been stuck at a very 
low funding level. Their average annual funding is about 
$46,000, which is barely enough to do anything.
    Mr. Regula. A lot of our programs are stuck because we are 
stuck with an allocation.
    Mr. Werner. We understand that and we have worked with 
others in the conservation community to carry the message to 
your colleagues in the budget committees about the needs for 
the programs that you are most concerned about.
    Some of the money--and it is detailed in my testimony--
would go to improving the funding for these trails. One of the 
other things that we are trying to promote is better 
collaboration between the Federal agencies, the Park Service, 
the Forest Service, and the Bureau of Land Management. The 
North Country Trail, with which you are quite familiar, is a 
good case in point where with the Wayne National Forest and 
others in five of the other trail States----
    Mr. Regula. They should be coordinated.
    Mr. Werner. Well, unfortunately, the funding level for both 
agencies does not seem to enable them to do it the way it 
should happen. I am asking that you give some more guidance in 
that regard and funding to go with it.
    Secondly, in general for the trails that are administered 
by the Forest Service, the Florida Trail, the Continental 
Divide Trail, the Pacific Crest Trail and the Nez Perce Trail, 
these are all trails that are at least a 1,000 miles in length, 
each one of them. Several, the Continental Divide and the 
Pacific Crest Trail, are well over 2,000 miles, crossing many 
jurisdictions and involving literally hundreds of thousands of 
acres of land that they cross through.
    The point I am getting to is that they are as complex in 
their management administration as any of the National Forests 
and, yet, the Forest Service treats them as sort of an 
ancillary aspect of their administration.
    You did an important thing last year in directing money 
specifically for those trails and we would like you to continue 
it. We would like you to encourage the Forest Service to treat 
these as separate management units.
    Lastly, I would like to repeat what I suggested last year 
and that is an innovative way to use some of the Land and Water 
Conservation Fund money. I know, I am hoping that with the 
supplemental Fiscal Year 1998 money, you will be able to 
complete the Appalachian Trial project over the next couple of 
years.
    Mr. Regula. I would like to.
    Mr. Werner. There are critical resources on some of the 
other National scenic and historic trails, like the North 
Country Trail, that several of the States are working to try to 
protect. I am urging you to consider a grant to the States of 
Michigan, New York, Florida and Wisconsin, which have programs 
to support the North Country, Ice Age and Florida Trails, from 
the Land and Water Conservation Fund to match State and private 
monies to help the States acquire rights-of-way and critical 
sites for those Trails.
    So, those are several ways in which you could continue the 
kind of support and innovative ways of, I think, strengthening 
the partnerships between the Federal Government and private 
citizens to make these Trails a reality.
    [The statement of Gary Werner follows:]

[Pages 210 - 215--The official Committee record contains additional material here.]


    Mr. Regula. Okay. Thank you very much. We will do as well 
as we can given our resources.
    Mr. Werner. Thanks.
                              ----------                              

                                            Tuesday, March 3, 1998.

                        NATIONAL HERITAGE AREAS

                                WITNESS

DANIEL M. RICE, EXECUTIVE DIRECTOR, OHIO & ERIE CANAL CORRIDOR 
    COALITION
    Mr. Regula. Dan Rice, from the great State of Ohio.
    Mr. Rice. Thank you very much, Mr. Regula.
    Mr. Regula. I know your story, Dan, so, please keep it 
short. [Laughter.]
    Mr. Rice. Well, if I am preaching to the choir you 
certainly are the choir director, sir, when it comes to 
heritage areas and we certainly appreciate the opportunity for 
us to share some information with you about not only the Ohio 
and Erie Canal National Heritage Corridor but also the other 
heritage areas across the country, the Alliance of National 
Heritage Areas.
    Mr. Regula. Well, do not encourage too many more though, 
because we do not have the funding to take care of them. Let us 
take care of what we have.
    Mr. Rice. Absolutely. And actually that is a very good 
point. I mean the Alliance of National Heritage Areas is not 
about creating new heritage areas. It is making the ones that 
already exist successful, as you well know. And our mission, as 
I outline in my testimony, is to ensure the mutual success of 
all the National Heritage Areas.
    And if I can just give you a couple of examples. You talked 
about leveraging, and along the Ohio and Erie Canal National 
Heritage Corridor, right in Stark County, just about $125,000 
of Federal funds will be used to leverage over $600,000 of 
private, local and State funding.
    Mr. Regula. Yes. That has been a real success story so far.
    Mr. Rice. Exactly and another good example would be in 
Pittsburgh, Pennsylvania, with the work the Rivers of Steel 
Heritage Corridor, in which they are renovating a historic 
building using about $500,000 of Federal funds which are 
leveraging over $10.6 million of local, private and State 
funding.
    Mr. Regula. Is this a corridor along the Ohio River?
    Mr. Rice. Actually it is along the Monogahela, and the 
Allegheny River right there in Pittsburgh, Pennsylvania.
    Mr. Regula. Steel-making corridor at one time, is that it?
    Mr. Rice. Exactly. It is one of the heritage areas located 
in Pittsburgh called Rivers of Steel.
    Mr. Regula. How long is that one?
    Mr. Rice. It is about a five-county project and it has been 
around for about eight years or more and it is, again, very 
successful. It is very similar.
    Mr. Regula. Is there hiking?
    Mr. Rice. Hiking and recreational resources, and historic 
resources.
    Mr. Regula. It follows the rivers?
    Mr. Rice. Exactly, it follows the rivers and has a lot to 
do with the steel industry.
    Mr. Regula. Right.
    Mr. Rice. And the history of labor in that particular 
region of the country. That is what is really neat about the 
different Alliance members. Each of the 16 National Heritage 
Areas is unique to our American heritage. By building 
partnerships at the local, State and Federal level we can 
really provide greater leverage support, financial as well as 
technical assistance.
    Mr. Regula. Okay.
    Mr. Rice. Just two key points, though. In 1997, $4.5 
million was appropriated for the Heritage Areas and the 
President's budget is asking for $5.5 million. Each of the 
Heritage Areas is going to approach you as well as their 
members are going to approach you about their individual areas.
    The Alliance is not going to take a position on any 
particular area. We want to support our individual Heritage 
Areas because, as we know, each one is at a different stage of 
development. The only area that we would like to emphasize is 
in terms of technical assistance. Last year $850,000 was 
appropriated. We are working with the Park Service on how that 
is to be spent.
    Because Shenandoah was added last year, we would like, if 
possible, to see an increase to $987,000. It is just a small 
increase but, again, it would provide technical assistance 
which is very valuable for the folks.
    Mr. Regula. I understand your concern.
    Mr. Rice. And more than anything else, I mean truly the 
Heritage Areas represent the way in which we can leverage 
partnerships at the local level and preserve our nation's 
heritage.
    [The statement of Daniel Rice follows:]

[Pages 218 - 222--The official Committee record contains additional material here.]


    Mr. Regula. Okay. Thank you, Dan.
    Mr. Rice. Thank you very much, Mr. Regula.
    Mr. Regula. The committee will be in recess until 1:30 p.m.
                              ----------                              

                                            Tuesday, March 3, 1998.

                       HISTORIC PRESERVATION FUND

                                WITNESS

NELLIE L. LONGSWORTH, PRESIDENT, PRESERVATION ACTION
    Mr. Regula. Our first witness this afternoon is----
    Ms. Longsworth. Nellie.
    Mr. Regula [continuing]. Preservation Action. Nellie.
    Nice to see you again.
    Ms. Longsworth. Thank you. It is nice to see you.
    I am Nellie Longsworth, president of Preservation Action, 
and I have been doing this for 23 years. I have to, first of 
all, say that when I looked at the President's budget and I 
looked at the Historic Preservation Fund, I could not believe 
that there were six figures there. I mean, it was a huge shock. 
We worked for a lot of years.
    Mr. Regula. Well, the President had the luxury of sending 
up a budget without the revenues. I mean, he is asking for a 
billion-and-a-half more dollars in our committee, but he says 
he is going to balance the budget, and the two do not really 
fit. I do not know where the billion-and-a-half is coming from.
    I suspect when we get our allocation from the Budget 
Committee, it will be a billion-and-a-half under what the 
President is talking about, just so you can understand.
    So it does create expectations. He knows better. That is a 
little game they play down at the White House. I can tell my 
wife, ``Spend a thousand dollars, and put $500 in the checking 
account,'' and that is reality. That is the kind of game that 
gets played in this town.
    Ms. Longsworth. Well, and we know that, but, still, it has 
never happened in historic preservation before. We have always 
had to look at other places that were even getting the 
attention----
    Mr. Regula. Well, I think the----
    Ms. Longsworth [continuing]. The White House, no matter who 
is there.
    Mr. Regula [continuing]. First Lady is very interested in 
historic preservation. That may be part of it, and I am taking 
your time here. So you are going to have to be brief. Digest 
what you have there.
    Ms. Longsworth. Okay. Well, I just wanted to say that we 
think that there have been some basically very fine increases 
in the program, increases for the tribes, increases--in fact, 
it is increases all across the line.
    I did want to note that we did like the President's 
millennium program, the Save Our Treasures program, and we do 
think that being directed towards the restoration or rehab of 
buildings, monuments, artifacts, and collections, that the $25 
million to Federal agencies, $25 million to States and tribes 
would be excellent, but we think there is more than that. We 
think this is a tremendous opportunity to, number one, 
electrify Americans and give rise to the fixing up of the 
landmarks at the local level. And we think there is a great 
potential that we will work for to leverage private and 
corporate funds.
    Mr. Regula. Why don't you give me a list of the ones you 
think ought to be done.
    Ms. Longsworth. Guess what?
    Mr. Regula. You have one with you?
    Ms. Longsworth. I have all of these that have been sent in 
to Preservation Action by people who heard that this had 
happened, and they are everything from theaters to Ellis 
Island.
    Mr. Regula. Well, you pick out the good ones and give them 
to me.
    Ms. Longsworth. I will pick them out, and I send them up to 
you.
    Mr. Regula. Seriously, because $50 million does not go very 
far.
    Ms. Longsworth. No, but if we can get private sector 
involved----
    Mr. Regula. That is the key. It is to leverage.
    Ms. Longsworth [continuing]. And leverage, yes.
    Mr. Regula. Absolutely.
    Ms. Longsworth. And I say I think this will bring the 
country together in a celebration of our past.
    So, as I say it, quickly I will move on and applaud other 
increases, but our biggest disappointment in the President's 
budget was the level of funding for the States, and we think 
somewhere it is not recognized that the States are the real 
workhorses of the infrastructure for historic preservation.
    This is an ideal Federalism program where the States are 
carrying out the Federal mandates on a matching-grant basis, 
and we think it is important to have decisions made by 
professionals close to the location of the National Register 
nomination site, tax certification, or 106 agreement. It does 
not seem fair when there are increases for new programs that 
there is none for the State programs.
    Mr. Regula. But the States are prosperous. In Ohio, we have 
surplus. Most of the States have a surplus. They have had 
balanced budgets for a long time, and I have to raise the 
question. Why don't the States do their own stuff? Maybe we 
ought to get a grant from the States to the Federal Government.
    Basically, it is all one set of taxpayers, same people 
paying in Ohio that pay for this. So there is no magic to 
Federal funding going to the States. It is still coming from 
the same taxpayers, and they have a surplus.
    Ms. Longsworth. I think our point is that these States are 
carrying out federally mandated activities; that if the States 
were not doing this, this would all come back to Washington, 
D.C., to one little office, the National Park Service.
    Mr. Regula. But it might not come back anywhere.
    Ms. Longsworth. Well, that is what--we do not want that at 
all.
    Mr. Regula. Well, I know, but I think that groups like 
yours ought to make a greater effort to get the States moving 
on these things.
    Ms. Longsworth. Well, we are doing that. We are working on 
it.
    Mr. Regula. Well, I am not being critical. I am just saying 
the States have good budgets, in many instances much better 
than ours, and, yet, they come here for money.
    Ms. Longsworth. But aren't we supposed to be pushing a 
surplus this year----
    Mr. Regula. Well, that----
    Ms. Longsworth [continuing]. That we will also be like our 
fellows in the States?
    Mr. Regula [continuing]. Surplus, it is the eye of the 
beholder, but there is no surplus. That is because we take the 
money out of the Social Security fund. If we did not do that, 
there would be a deficit of about a hundred billion dollars. So 
we are kidding ourselves, and we are cheating the baby-boomers 
that are coming down the road, but you are not here to talk 
economics.
    Ms. Longsworth. I have some of those baby-boomers, and I 
want some protection.
    Mr. Regula. Well, yes, you do. Okay.
    Ms. Longsworth. But, anyway, I just want to add one thing. 
We ask the committee to look carefully at this, and we ask you 
to prioritize the funding of federally mandated programs before 
these new programs because there are quite a few new programs 
in this particular area.
    We have supported a balanced program, and we think it is 
the best interest for the Congress to fund the States for the 
work they do for these Federal programs.
    Mr. Regula. Well, when you----
    Ms. Longsworth. We are not saying fund the States for what 
the States do. This is not a State giveaway. This is not a 
pass-through. The States match the monies 50/50. So I am saying 
they are doing the work of the Federal Government, but they are 
doing it closer to the site. They are making it--they are doing 
it efficiently, and it is just something I would like to call 
your attention to, to give an extra look.
    Mr. Regula. Okay.
    Ms. Longsworth. It will not cost $1.5 billion.
    Mr. Regula. Well, no, but the total budget they sent up all 
across the board is about that much more, $1.1 billion.
    Ms. Longsworth. And I will pick out some of these.
    Mr. Regula. Yes. We would be interested----
    Ms. Longsworth. We will send them up to you.
    Mr. Regula [continuing]. Because if we do the millennium 
program, we are not going to just ship money around willy-
nilly. It is going to have to be for things that have a great 
national significance, and we need to know what those are. We 
are trying in this committee, at least in my stewardship, to 
manage the people's money carefully and get as much result as 
possible.
    Ms. Longsworth. And can I add that I think this committee 
has done an excellent job.
    Mr. Regula. We have been trying, really.
    Ms. Longsworth. We appreciate it.
    Mr. Regula. Thank you very much.
    Ms. Longsworth. Thank you.
    [The statement of Nellie Longsworth follows:]

[Pages 227 - 230--The official Committee record contains additional material here.]


                                            Tuesday, March 3, 1998.

              GRAND STAIRCASE, ESCALANTE NATIONAL MONUMENT

                               WITNESSES

JOE JUDD, COMMISSIONER, KANE COUNTY, UTAH
KAREN ALVEY, MAYOR OF KANAB CITY
    Mr. Regula. Kane County Commissioner Joe Judd and--oh, 
Chris--oh, there you are. And the Mayor of----
    Mr. Cannon. Can I submit an opening statement for the 
record?
    Mr. Regula. Sure.
    Mr. Cannon. And also a statement by Commissioner Louise 
Liston from Garfield County, one of the counties affected by 
the----
    Mr. Regula. I think you have been here before.
    Mr. Cannon. Then, with no further ado, let me turn the 
table over to my friend----
    Mr. Regula. Okay.
    Mr. Cannon [continuing]. Joe Judd, followed by Karen Alvey 
who is the mayor of Kanab.
    Mr. Regula. Right.
    Mr. Judd. Thank you.
    Mr. Chairman, thank you for inviting me to testify today. I 
am Commissioner Joe Judd, representing Kane County Commission. 
I have been accompanied here by the Honorable Karen Alvey, 
mayor of Kanab City. She will cover the expanding role of the 
local communities and the monument planning and the management 
process.
    I thank you for accepting my testimony last year, listening 
to it, and helping to establish Kane County as a sanctioned 
participant in the program. We are working with the Department 
of the Interior, working with the BLM, to build a true 
partnership, and the citizens of the county are contributing 
their time and expertise to make this monument a great 
monument.
    I would like to thank the Utah Congressional Delegation, 
and particularly Representative Cannon for his time and advice 
through this last year for keeping the monument issues before 
the Congress. My written statement----
    Mr. Regula. You have done that very well.
    Mr. Judd. We are very proud of him.
    My written statement will explain why we need to begin 
funding certain facilities this year.
    First, we must have a visitor's center to provide both 
basic and interpretative programs. This area is a large area, 
3,000----
    Mr. Regula. Doesn't the----
    Mr. Judd. Grand Staircase National Monument.
    Mr. Regula. Yes, I understand. Doesn't the Federal--what is 
it? BLM, the agency of jurisdiction do the interpretive 
programs, or do you do some of that?
    Mr. Judd. Not just yet. We are in the process of a plan, 
Congressman, and it is a 3-year planning process.
    Mr. Regula. And you are involved as a county.
    Mr. Judd. And we are involved in that, naturally, because 
we hope that we will put together a plan that we can all live 
with. It is 3,125 square miles, and there is no food or water. 
It is really a primitive area, as you know.
    It is a very unforgiving country, and the people outside of 
Southern Utah really do not have much knowledge of it.
    The plans call for a campground to be located in this same 
place where this interpretative center would be. The campground 
would have drinking water and showers and rest rooms.
    Mr. Chairman, the planning and design must begin as soon as 
possible. I wish that we could start right now, but the funds, 
at least $650,000, have to be included in the FY 1999 bill.
    Mr. Regula. And $250,000 in 1998, right?
    Mr. Judd. There is $250,000, correct, and we need more than 
that to do what is necessary.
    Second, there is a similar need for information in the two 
peripheral entry locations at Big Water and Glendale. It will 
be simple information interpretative centers, with drinking 
water----
    Mr. Regula. But won't the Federal agencies build those?
    Mr. Judd. We are hoping that they will.
    Mr. Regula. It would seem to me that much of what you are 
talking about is the responsibility of the agency----
    Mr. Judd. I could not agree more.
    Mr. Regula [continuing]. In charge.
    Mr. Judd. Calling to your attention the fact that in the 
planning process, that has not been called for just as yet.
    The money that we had, because of this committee's action, 
allowed us to put a planning process in action. Part of that 
planning process drew focus on the fact that there are certain 
transportation needs.
    Mr. Regula. Well, it is my understanding you had safety----
    Mr. Judd. Yes.
    Mr. Regula [continuing]. And health was your concern, a 
major concern.
    Mr. Judd. Yes. Law enforcement and all those things----
    Mr. Regula. Law enforcement, yes.
    Mr. Judd [continuing]. Would make sure that we do those 
things necessary, and these interpretative centers, on a 
periphery of the monument itself, hopefully we will be able to 
warn them of the ruggedness of the area, inform visitors of the 
accessible scenic sights, and the total cost of these two 
centers, we would feel, would cost $440,000. We need that to be 
an add-on to the appropriation.
    Mr. Regula. Was BLM underway in doing this? It is their 
function.
    Mr. Judd. They are just in a study, Congressman, just in a 
study of the area as to how to put the plan together.
    Mr. Regula. It seems to me they should have responsibility 
for that.
    Mr. Judd. I agree, and we have drawn this to their 
attention through you, hopefully, and we are working together 
with the Interior and the BLM.
    Now, the third level of participation and responsibility, 
the country grows each year with a coming implementation, and 
the first elements of the plan, sharing with the local 
communities, and the requirements will be $500,000 for the next 
year. That is $250,000 over the reported, included for us in 
the President's budget. We ask that that be an add-on for that 
amount.
    Finally, I would like to mention that, really, our number-
one priority, you will be pleased to hear, no funding is 
involved. In connection with this priority is the BLM monument 
headquarters, after the 1996 proclamation by the President, the 
agency entered into a 3-year lease for headquarters space in 
Cedar City, 80 miles from the monument. At that time, the 
agency----
    Mr. Regula. Outside the monument?
    Mr. Judd. Yes, 80 miles away. They found a location that 
would meet their needs, and we all agreed amicably that it was 
fine for a 3-year period during the time of the planning.
    At that time, the agency said a permanent location for the 
headquarters would be adjacent to the monument. There is now 
1\1/2\ years left on the lease. We are working with an agency 
to find an appropriate site, close to the monument, one that is 
adequate, community amenities for their full-time staff, and 
our plan is to finance the building and then lease it back to 
the agency. We ask only that there be some expression of 
expectation by the committee, and the agency will continue to 
work with us and not sign another lease, referring to our 
opportunity to help house them.
    Mr. Regula. Yes, I can understand that.
    Mr. Judd. I will now let Mayor Alvey address the community 
involvement.
    Mr. Regula. We are about out of time. I hate to say that, 
but----
    Ms. Alvey. I am quick.
    Mr. Regula. Okay.
    Ms. Alvey. Thank you, Mr. Chairman, for allowing me to say 
a few things.
    I have been working very closely with the mayors from the 
Gateway communities of the monument. We are now in the process 
of adopting a resolution, which details an agreement between 
the communities. A copy of the resolution is included in my 
written statement.
    We are determined to bring the permanent monument 
headquarters to Kanab. The Kanab City Council has adopted a 
resolution in making this a reality. We are willing to finance 
the construction of a new facility through grants and revenue 
bonds, leasing back the facility to----
    Mr. Regula. How close is that to the boundary?
    Ms. Alvey. We are about 10 miles.
    Mr. Regula. Okay.
    Ms. Alvey. If not even a little bit closer.
    Mr. Regula. Okay.
    Ms. Alvey. So, someday, we hope to make this monument a 
real showcase, and so, to do that, we think that we need the 
monument headquarters.
    Mr. Regula. How big is Kanab?
    Ms. Alvey. It is about 5,000.
    Mr. Regula. It is a county seat?
    Ms. Alvey. It is.
    Mr. Judd. Correct.
    Ms. Alvey. Yes.
    Mr. Regula. Okay. Well----
    Ms. Alvey. We would like to invite you to come out and see 
us sometime.
    Mr. Regula. Well, I would like to get there. Yes, it would 
be interesting.
    You have been out there, haven't you, Debbie?
    Mr. Judd. Yes, she has.
    Ms. Weatherly. It was all snowed in, though.
    Mr. Cannon. Let me say, Mr. Chairman, what these two 
representatives of the area are suggesting is that this is an 
unprecedented situation, and all of the towns and the two 
counties that are involved are coming together on a 
complementary plan with what the BLM is doing. They would like 
to have the ability to actually do some of those things and 
make the monument a really great experience.
    Mr. Regula. That sounds like it is a good effort of working 
together.
    Mr. Judd. Trying very hard. With your help so far, 
Congressman, we have done a pretty good job with Joel. We have 
really appreciated being able to work with you.
    Mr. Regula. Okay. Well, thank you very much for coming.
    Ms. Alvey. Thank you.
    Mr. Judd. Thank you.
    [The statement of Joe Judd and Karen Alvey follows:]

[Pages 235 - 243--The official Committee record contains additional material here.]


                                            Tuesday, March 3, 1998.

                         FOREST LEGACY PROGRAM

                                WITNESS

CHARLES R. NIEBLING, SENIOR POLICY DIRECTOR SOCIETY FOR THE PROTECTION 
    OF NEW HAMPSHIRE FORESTS

    Mr. Regula. Society for the Protection of New Hampshire 
Forests. Mr. Niebling?
    Mr. Niebling. Thank you, Mr. Chairman.
    I appreciate----
    Mr. Regula. If you summarize, this will help.
    Mr. Niebling. Yes, I will. Yes. I am not going to read my 
statement.
    I appreciate very much the opportunity to appear before you 
this afternoon. The Forest Society was founded in 1901 to 
protect the White Mountains of Northern New Hampshire. We led a 
10-year effort to pass the Weeks Act, which Congress approved 
in 1911. We have a long history of involvement and association 
with the Forest Service and with our national forest.
    We also very much support and promote good forestry on both 
public and private lands, and we practice what we preach. We 
are unique among State-based conservation organizations in that 
we own----
    Mr. Regula. The New Hampshire Forest, is that private as 
well as public, or just the Federal?
    Mr. Niebling. Private as well as public, yes.
    Mr. Regula. It covers the whole area?
    Mr. Niebling. Yes. We own 30,000 acres of lands ourselves 
which we sustainably manage for timber and other purposes, yes.
    I am going to touch on three items this afternoon, as 
quickly as I can; first, the Land and Water Conservation Fund 
and, particularly, the restoration of some funding to the 
Stateside Program; secondly, the Forest Legacy Program within 
the State and private budget of the Forest Service. I will 
briefly touch on a few other programs within the State and 
private budget.
    I do also want to mention a few brief comments about the 
Forest Service research budget, and if I have time, I would 
like to philosophize, I guess, a bit on the National Forest 
System and some of the concerns that we have.
    Mr. Regula. You can have a few minutes.
    Mr. Niebling. Okay, thank you.
    We support a full appropriation or authorize appropriation 
to the Land and Water Conservation Fund for fiscal 1999. If 
failing that, we hope that at least a third of what is 
appropriated will be committed to the Stateside fund. We think 
that the program has worked well. It has helped 126 communities 
in New Hampshire. There have been over 600 projects. It is 
efficiently administered, and we are very eager to see some 
modest funding to the Stateside program restored in fiscal 
1999.
    Our Governor and the other five New England Governors 
recently adopted a resolution relative to this, which is part 
of--attached to my testimony.
    The President in his fiscal 1999 budget proposed $1.8 
million from the Land and Water Conservation Fund for 
acquisition of lands within the Lake Umbagog National Wildlife 
Refuge, and I also did want to express our support for the 
President's request relative to that particular refuge within 
both the State of New Hampshire and Maine.
    On Forest Legacy, Mr. Chairman, the Forest Society has a 
long history of working with conservation easements on private 
lands.
    Mr. Nethercutt [presiding]. Sorry. You have 2 minutes left.
    Mr. Niebling. Do I get a little additional time?
    Mr. Nethercutt. I do not know. Two minutes, is what I am 
told.
    Mr. Niebling. All right. Fair enough.
    Mr. Nethercutt. So do your best.
    Mr. Niebling. We are eager to see Legacy given the 
opportunity to work. It was authorized in the 1990 farm bill. 
Since then, it has been funded at what I would call sort of a 
life-support level, and we favor seeing the appropriation to 
Legacy increased substantially. We are requesting $25 million 
for that program in fiscal 1999.
    Within the Forest Service research budget, I wanted to 
express our very strong support for the Forest Inventory and 
Analysis Program. I have appeared before this subcommittee in 
past years expressing strong support for FIA, as it is called, 
and I do understand that the President has proposed some 
increased funding for the Forest Inventory and Analysis 
Program, and we strongly support that. It is the absolute 
foundation of good forest policy in our State, if not all 
States.
    Currently, New Hampshire is at a 15-year inventory cycle. 
We support funding to get that cycled down to 10 years.
    Finally, Mr. Chairman, I just wanted to say a few words 
about the national forest system and its current troubled state 
of affairs. As I mentioned to Chairman Regula, our organization 
promoted the passage of the Weeks Act in the early part of this 
century. We have 97 years of history advocating for the 
national forest system, and we are deeply concerned by the 
agency's increasing inability to meet its multiple-use mandate 
and to fully implement, economically implement our forest plan 
adopted in 1986.
    This committee sent a very strong message last year when it 
included language in the fiscal 1998 conference committee 
report imposing a moratorium on forest planning. We are being 
asked to go into an exhaustive process of forest planning, with 
no expectation that what comes out on the other end will be 
implemented. I want you to understand that we understand your 
frustration. We would like to work very closely with our 
congressional delegation to explore some creative alternatives 
to the current structure of the way our national forests are 
managed.
    To that end, I would urge support from this committee for 
perhaps some pilot funding for various alternative models that 
are being proposed by groups like the Thoreau Institute, the 
Forest Options Group, and I think that we are at a time where 
we need to begin evaluating some different approaches that give 
a greater variety of people, more of a direct say in how the 
lands are managed.
    It seems to me that, more and more, the professionals on 
the ground in our national forests do not have the authority 
and the privilege of being held--I should not say the 
privilege--the right to be held accountable to their decisions. 
Everything seems to be coming from the administration these 
days, and that is terribly frustrating to us.
    So, with that, I will conclude my testimony and be pleased 
to answer any questions if you have any.
    [The statement of Charles R. Niebling follows:]

[Pages 247 - 251--The official Committee record contains additional material here.]


    Mr. Nethercutt. We appreciate your being here before the 
subcommittee, and we will make sure your testimony is a part of 
the record. We appreciate your coming.
    Mr. Niebling. Thank you.
    Mr. Nethercutt. Thank you so much.
                              ----------                              

                                            Tuesday, March 3, 1998.

                         FOREST LEGACY PROGRAM

                                WITNESS

MICHAEL A. FRANCIS, DIRECTOR, NATIONAL FORESTS PROGRAM
    Mr. Nethercutt. The next witness will be The Wilderness 
Society, Michael Francis, Director of the National Forests 
Program.
    Welcome, sir.
    Mr. Francis. Thank you, Mr. Chairman.
    Mr. Nethercutt. You are very welcome.
    If you have a prepared statement, it will become part of 
the record, and we are delighted to have you summarize it in 
the 5-minute time allotment that you have.
    Mr. Francis. I think I can handle it, 5 minutes, I hope.
    Mr. Nethercutt. Thank you.
    Mr. Francis. On behalf of the 206,000 members of The 
Wilderness Society, I appreciate the opportunity to present our 
views on the values and funding needs of the natural resource 
of programs of the Interior Department and the USDA Forest 
Service. A summary of our recommendations are as follows.
    For the National Park Service, The Wilderness Society 
recommends an added $630 million to meet the operational and 
safety needs of the Nation's park system in FY 1999.
    The Bureau of Land Management, The Wilderness Society 
recommends an increase of $125 million to support BLM.
    Fish and Wildlife Service, The Wilderness Society urges you 
to appropriate $275 million for refuge operations and 
maintenance in FY 1999. This is a $55-million increase that we 
are requesting over 1998 funding.
    For the Land and Water Conservation Fund, this is a 
visionary program that has produced an extraordinary gift of 
conservation, open spaces, outdoor recreation for our Nation. 
The Wilderness Society supports full funding of the $900 
million for FY 1999.
    The Biological Resource Division of the U.S. Geological 
Survey, The Wilderness Society believes there is a need for a 
minimum of $185 million in new appropriations for BRD, and for 
my favorite topic, the Forest Service.
    Since its creation, the national forest system has been 
subject to intense and conflicting pressures. The Nation's 
forests provide less than 4 percent of the timber harvested in 
this country, but they offer the greatest land area for 
wildlife habitat, recreational opportunity, and water supply 
for use by all Americans.
    The Congress should de-fund environmentally damaging 
subsidized activities of the Forest Service in FY 1999 in 
passing an appropriation bill that focuses on conservation of 
our forest resources. To this end, The Wilderness Society 
recommends the following changes in the Forest Service 
appropriation for FY 1999.
    First, eliminate the subsidized funding of forest logging 
roads for a savings of $37 million.
    Second, eliminate the appropriated subsidy for Forest 
Service's commercial timber program by reducing funding for the 
forest land management account by $110 million, leaving $147 
million in that account. The $147 million that would be saved 
by these reductions should be added to other Forest Service 
programs, along with additional funding that is needed.
    In particular, for forest roads, The Wilderness Society 
recommends an additional $100 million for a total of $207 
million in road maintenance. This will greatly enhance the 
Forest Service's ability to establish a 5-year goal of 
obliterating 40,000 miles of unneeded and unnecessary roads.
    There is an estimated 433,000 miles of roads in the 
national forest system, including 60,000 miles of unplanned and 
unmanaged roads. The agency has requested $107 million to 
maintain the existing roads and obliterate 3,500 miles. The 
Forest Service should establish a more aggressive road 
obliteration maintenance bridge and culvert repair schedule.
    For forest research, we recommend a total of $250 million.
    For the conservation and recreation programs, The 
Wilderness Society specifically singles out a recommendation 
for $120 million in wilderness management for the fiscal year 
1999.
    For wildlife and fish habitat management, the Society 
recommends an appropriation of $200 million for these wildlife 
and fish programs in the Forest Service.
    For Forest Legacy Program, The Wilderness Society 
recommends $15 million in order for the program to function 
more effectively as a national program. Funding at this level 
will enable this chronically underfunded program to complete 
projects more rapidly, expand the program to more States, and 
respond more effectively to the needs of timberland owners and 
to save a significant amount of threatened timberland
    Thank you, Mr. Chairman.
    Mr. Nethercutt. Thank you very much for being here today.
    [The statement of Michael Francis follows:]

[Pages 254 - 258--The official Committee record contains additional material here.]


                                            Tuesday, March 3, 1998.

                         NATIONAL PARK SERVICE

                                WITNESS

DAVID R. MOSENA, PRESIDENT, MUSEUM OF SCIENCE AND INDUSTRY
WARD QUAALS, RETIRED PRESIDENT, TRIBUNE BROADCASTING COMPANY

    Mr. Nethercutt. The next witness is the Museum of Science 
and Industry, David R. Mosena.
    Mr. Yates. Mr. Chairman, if I may?
    Mr. Nethercutt. Yes, sir.
    Mr. Yates. I would like to present Mr. Mosena by saying 
that he heads the Museum of Science and Industry, which is one 
of the great educational and cultural forces in the City of 
Chicago.
    I was there almost every Sunday with--my son, and they are 
creative. They are imaginative. They have a coal mine in the 
center of the museum, and you go down into the coal mine as 
though you were a miner. They have other exhibitions that are 
incredible.
    It is a privilege to present him today, Mr. Chairman, 
because it is such an outstanding museum, and, of course, he 
himself is an outstanding person.
    I believe he is testifying in favor of an appropriation by 
the Federal Government for a submarine that was captured in 
World War II, and he will tell you all about it. It is a heroic 
story, and I am sure you would like to hear it.
    Mr. Mosena.
    Mr. Nethercutt. With that great introduction from Mr. 
Yates, you are very welcome here, sir, and we are delighted to 
have you. Your testimony will be made a part of the record and 
we are happy to have you testify here today.
    Mr. Mosena. Maybe I should say thank you and stop right 
there.
    Mr. Nethercutt. That is great. There is nothing more to 
say, right?
    Mr. Yates. It would be wise. [Laughter.]
    Mr. Mosena. Congressman Yates, thank you very much. Mr. 
Chairman--Nethercutt--thank you for providing us the 
opportunity to testify here today.
    With me is Ward Quaals who is the retired chairman of the 
Tribune Broadcasting Company in Chicago, who is leading up the 
private fund-raising side for this effort. We are here seeking 
half of the funds from the Federal Government.
    As Congressman Yates said, I serve as the president of the 
museum, and first opening our doors in 1933, we are the oldest 
science museum of our kind in the western world. We attract 
roughly 2 million people a year, and we are one of the top 
cultural destinations in the City of Chicago and among the 
seven most visited museums in the United States.
    In 1954, we acquired a World War II-captured German 
submarine, the only Man of War to be captured by the U.S. Navy 
since the War of 1812.
    The capture of the U-505, 2 days before D-Day, enabled the 
allies to break the German code, and within 60 days, all German 
U-boats were disabled hastening the end of the battle of the 
Atlantic.
    Since coming to the museum, the submarine has been viewed 
by over 20 million people and has served as a monument to the 
55,000 Americans killed at sea during World Wars I and II.
    The Museum of Science and Industry was the first museum in 
North America to develop the idea of hands-on interactive 
exhibits, and during a 20-minute guided tour of the submarine 
and adjacent galleries, visitors get a taste of life on board 
the submarine, while also hearing about the science of World 
War II submarine warfare.
    Unfortunately, the U-505 was not designed to be out of 
water and certainly not designed by the Germans to be in the 
Chicago winters all these years. It has been outside the museum 
exposed to----
    Mr. Yates. I would say neither were we. [Laughter.]
    Mr. Mosena. It has been exposed to both drastic temperature 
changes and humidity changes over the years, and the interior, 
the hull and the deck of the submarine are deteriorating at a 
very alarming rate.
    Due to the national significance of this artifact, the 
museum launched a plan in 1996 to restore the U-505 and to 
relocate it to a climate-controlled facility, thereby 
protecting it for future generations.
    We also plan to connect the submarine to a $5-million 
exhibit, which opened in 1994, called Navy Technology at Sea.
    Last October, we held a private fund-raising kickoff. This 
is a point that the Congressman referred to, a fund-raising 
kickoff event, which was attended by numerous veterans of World 
War II, some having served on the U-505 itself at the time of 
its capture. In fact, a fascinating story about that event was 
that one of the German sailors on board the boat as it was 
being captured pull the plug to scuttle the boat and sink it, 
and one of the American sailors who had never been on a 
submarine before dove down the tower, found the plug, and stuck 
it back in and saved it. Both of these gentlemen are still 
alive, and both came to our fund-raising party as we kicked off 
the effort to raise the funds, which shows that we not only 
exhibit--do great exhibits and great education at the museum, 
but we can also bring old enemies together as friends.
    Mr. Chairman, in 1989, the U-505 was designated a national 
historic landmark. It has since been placed on the National 
Park Service's Priority One list of distressed objects. In 
fiscal year 1999, the museum is seeking the remaining Federal 
share of half the cost of restoring and relocating the U-505. 
That is $2.1 million.
    We have been solely responsible for the vessel ourselves 
since 1954 and have never requested before Federal funds to 
restore or maintain it. We ask the subcommittee to consider 
funding the remaining Federal share of the restoration of this 
Priority One artifact with the National Park Service's historic 
preservation fund account in fiscal year 1999.
    The total cost of the project is $6 million, and $3 million 
will be raised by private sources led by the Tribune Company 
and Mr. Quaals and his colleagues.
    Since we began our fund-raising effort in October, we have 
already raised on the private side. Mr. Chairman, the Museum of 
Science and Industry thanks you for this opportunity to speak 
to you and present this testimony, and we very much thank 
Congressman Yates for all his support over the years.
    Mr. Nethercutt. You are very welcome, and it is interesting 
to acknowledge that you have approached it on a public-private 
arrangement relationship, which I think has proven to be 
successful in this atmosphere of tough budgets and trying to 
balance things and prioritize our spending. So we will 
certainly give it all consideration.
    You have a champion here on your side. I yield to Mr. Yates 
for any comments he has.
    Mr. Yates. I really have no questions. I think he has 
covered everything.
    Ward, how successful is your drive getting to be?
    Mr. Quaals. It is going to be very successful. We will 
deliver as soon--we will deliver. The Tribune Company will 
commit a minimum of a half-million dollars. That is the minimum 
from our company. We will also champion the project, Mr. Yates, 
on radio, television, and in the newspaper. We are willing to 
do anything we can to stimulate additional civic campaigns on 
behalf of the fund. We will get the job done.
    Mr. Yates. I am sure you will. Thank you very much.
    Thanks, Mr. Chairman.
    Mr. Mosena. Thank you, Mr. Chairman.
    Mr. Nethercutt. Thank you both for coming.
    [The statement of David R. Mosena follows:]

[Pages 262 - 266--The official Committee record contains additional material here.]


                                            Tuesday, March 3, 1998.

                  COOPERATIVE FIRE PROTECTION PROGRAMS

                                WITNESS

ALLEN KIGHTLINGER, NATIONAL VOLUNTEER FIRE COUNCIL
    Mr. Nethercutt. The next witness will be the National 
Volunteer Fire Council, Allen--Kightlinger?
    Mr. Kightlinger. Very good.
    Mr. Nethercutt. Good. ``Nethercutt'' is hard, too. So I can 
relate to long names. Welcome, sir, and as I stated to the 
other witnesses, your testimony will become part of the record, 
and we are delighted to have you here.
    Mr. Kightlinger. Thank you.
    My name is Allen Kightlinger. I am the Nevada director for 
the National Volunteer Fire Council and deputy chief for the 
City of Elk Fire Department. Prior to that, I was a rural 
volunteer fireman, and in 24 years in fire management helping 
to administer the Rural Community Fire Protection Act.
    I am here representing the National Volunteer Fire Council 
to recommend the increased appropriation, up to $10 million, to 
what has now been changed to the Rural Volunteer Assistance Act 
as part of the USDA Forest Service.
    We have presented our facts in our prepared testimony there 
and wanted to just expound on them a little bit. Rural fire 
protection in America is primarily provided by the volunteer 
fire service in, adjacent to Federal lands, communities, and 
large metropolitan areas. The Volunteer Assistance Act funds 
directly affect the delivery of those services, directly affect 
the viability of the volunteer fire service, and directly 
affect the viability of protecting Federal lands with 
volunteers.
    Throughout all the previous testimony, it has been very 
significant that you and Congress are looking towards a 
partnership. Of all of the programs that Congress does, we 
happen to be prejudiced that this is one of the best, and that 
it is a guaranteed, mandated pass-through of funds through the 
Forest Service, with no administrative fees allowed to be taken 
out at State and Federal levels. It has to be matched dollar 
for dollar or more, usually 2 to 1 on the State and Federal 
levels, and directly goes to the health, safety, welfare, and 
the ability to deliver the services by the volunteer fire 
service of America. That is some 800,000-people strong in the 
United States, over 26,000 volunteer fire departments in the 
United States, and as we said, most of those adjacent to 
Federal lands and directly fighting fire on Federal lands 
without the proper equipment, without the proper training, 
without the proper FEPP surplus equipment, properly equipped. 
This Volunteer Assistance Program Act does that.
    In our handout, we have shown that over the course of the 
years how the declining budget in that is done. I can tell you 
right now that in fiscal year 1997, the total appropriation for 
the State of Nevada was $13,000. $13,000 does not buy squat, 
plain and simple. They did not even accept the money because it 
was so meager with only a $1.2-million appropriate and the 
deviser on the share into that program.
    We as the National Volunteer Fire Council, representing 
those departments that need this the most, that will guarantee 
through fund-raisers, through cake sales, through any way we 
can make that money out there and match it, will do it. We are 
committed to that.
    A study was done a couple of years ago on Congress' behalf 
through the U.S. Forest Service called Fire Protection in Rural 
America. The study took place for 5 years. It identified three 
primary areas of concern, personal, protective clothing for the 
volunteers; the lack of communications equipment to communicate 
among themselves or with their neighbors; and the third one was 
the development of rural fire protection, fire water locations 
throughout America.
    This increase in funds can directly start attacking those 
problems. Those are real problems. They have been identified by 
a real live study that was concluded. We have left them here on 
the side table for the committee and Congress' benefit, and we 
ask, please, that every consideration be made towards a $10 
million appropriation to the Volunteer Assistance Act.
    Mr. Nethercutt. We will do what we can.
    I can tell you that before I got this job, I was a lawyer 
in Eastern Washington and was the secretary for two rural fire 
protection districts, Lincoln County--8 and Grant County--6, 
and so what you say is true. These are really volunteer 
efforts.
    They need Scott air packs. They need communication 
assistance, and it is a 50/50 match. At least some money comes 
through our State and then to the local district, but it is the 
life blood of rural America in terms of the need for that 
volunteer fire assistance, and the resources to just do the 
job. So we will do our best. I appreciate your testimony 
because I know something about it.
    Mr. Kightlinger. Very good. Thank you.
    Mr. Nethercutt. Mr. Yates.
    Mr. Yates. Thank you.
    Mr. Nethercutt. Thank you very much for testifying.
    [The statement of Allen Kightlinger follows:]

[Pages 269 - 271--The official Committee record contains additional material here.]


                                            Tuesday, March 3, 1998.

                         ENDANGERED SPECIES ACT

                                WITNESS

WAYNE PACELLE, THE HUMANE SOCIETY OF THE UNITED STATES
    Mr. Nethercutt. The Humane Society of the United States, 
Wayne Pacelle?
    Mr. Pacelle. Thank you, Mr. Chairman.
    Mr. Nethercutt. Did I say that right?
    Mr. Pacelle. Pacelle, yes.
    Mr. Nethercutt. Thank you, sir. Welcome. As I stated, your 
testimony will become part of the record.
    Mr. Pacelle. Thank you, and good afternoon to you and Mr. 
Yates.
    I will summarize, of course. I just want to point to a few 
highlights for The Humane Society of the U.S., which is the 
Nation's largest animal protection group representing 5.8 
million members and constituents in the United States.
    First, I would comment just very briefly that we support 
the administration's budget request of $112.9 million for 
implementation of the Endangered Species Act. On that same 
subject of threatened and endangered species, I do want to make 
a couple of comments about the African Elephant Conservation 
Act. The African Elephant Conservation Act is a law that we 
have supported since 1988 when African elephants were imperiled 
by massive poaching across the continent of Africa. Elephant 
populations declined from 1.3 million in 1979 to just 600,000 
in 1989. There is much good that is being done through the 
passage of this act and the appropriation of generally very 
limited funds.
    We are concerned about the Fish and Wildlife Service 
awarding grants to some parties for activities that we believe 
are inconsistent with public attitudes. Money has been used, 
and we have documented it in the testimony. I would just point 
to that, and if you would like any additional information, we 
would be happy to provide, to promote the ivory trade, which 
the U.S. Government has strongly opposed since 1988 and 1989. 
We think that language should be included in the report urging 
the Fish and Wildlife Service not to permit any use of funds in 
promoting the ivory trade.
    Second, it is also clear that money is being used to 
promote the trophy hunting of African elephants, and some have 
likened shooting elephants for trophy to shooting a parked car. 
It is not very difficult, and 84 percent of the American 
public, according to a poll done by Penn and Schoen, opposes 
the trophy hunting of this threatened species.
    The Safari Group International has been awarded repeated 
grants through the African Elephant Conservation Act to promote 
trophy hunting in Zimbabwe through the Campfire program which 
Mr. Yates knows well. We troubled him and bothered him during 
the USAID and the foreign operations budget, and we appreciated 
your support on that, sir.
    So, in short, we are concerned about the use of tax 
dollars, Americans' hard-earned tax dollars going to promote 
the ivory trade and trophy hunting, and we do not think that 
Americans supported the passage of the African Elephant Act for 
those specific purposes. If the activities go on, they should 
go on with private funds, not with public dollars.
    I want to reserve the balance of my time to speak about the 
wild horse and burro program. The Wild Horse and Free-Roaming 
Burro Act was passed in 1971, an outpouring of public concern 
about the destruction of horses and burros on America's public 
lands in the West.
    The Bureau of Land Management has been severely criticized 
for mismanagement of this program. We have worked with the 
Bureau of Land Management. We think there are many fine people 
in the BLM who are trying to do a good job. Problems remain, 
however.
    Too many horses are being taken from the range without 
adequate scientific support to justify those removals. The 
adoption program that is in place costs more than $1,000 for 
each wild horse removed from the public lands. Too many horses 
are being removed. The BLM is too severe in its judgment about 
how many horses should be on the range. We urge that the funds 
that are appropriated be shifted away from the removal and the 
adoption program to more on-the-ground management of horses in 
the range, especially wild horse monitoring, range monitoring, 
and habitat restoration.
    Also, the HSUS is pioneering work in immunocontraception, 
contracepting wildlife to alleviate conflicts between people 
and wildlife and also conflicts between wildlife and the range.
    There has been excellent work done through fiscal year 
appropriations 1993 to 1998 that has brought 
immunocontraception very close to practical application for 
wild horses in the West.
    A field test in 1992 and 1995 led to a one-shot immuno- 
contraceptive vaccine that reduced pregnancy rates and treated 
animals for one year by at least 85 percent. This is a 
tremendous investment for this Congress. If we can put monies 
into contraception, we can obviate the need for range removals, 
and then obviate the need for this $1,000-plus expenditure for 
each removal of animals from the range.
    So we are requesting $250,000 to support further research 
in wild horse immunocontraception as a very modest investment 
for the future to protect the range, to protect horses, and 
ultimately to save the taxpayers thousands and thousands and 
ultimately millions of dollars.
    I think I will just close there by simply saying that the 
Horse and Burro Act is a very important one. We urge strong 
funding for it, $18.6 million, but we would like to see this 
committee direct the BLM to use the resources more efficiently 
and more wisely.
    Thank you.
    [The statement of Wayne Pacelle follows:]

[Pages 274 - 279--The official Committee record contains additional material here.]


    Mr. Nethercutt. Thank you very much for your testimony.
    Mr. Yates. How do you know that it costs BLM $1,000 a horse 
in order to remove them?
    Mr. Pacelle. That is the BLM's estimate.
    Mr. Yates. Is it----
    Mr. Pacelle. Yes. And, in fact, the Park Service, as a 
consequence of the California Desert Protection Act, is 
removing burros from the Mojave National Reserve right now, and 
they are trying to sidestep the BLM, in some ways, I believe to 
not endure that very high cost.
    We think there should be costs in the adoption program. One 
of the concerns is that the horses and the burros are being 
adopted, and then they are being sent to slaughter for human 
consumption overseas. We are troubled by that. We would like 
safeguards, but the best safeguard is to keep the horses on the 
range, and if we can have fertility control to limit the 
population growth of the herds on the range, we do not need to 
have all of the safeguards built into the adoption process.
    Mr. Nethercutt. How many horses can you treat with that 
$250,000 that you request?
    Mr. Pacelle. Well, this is really for work with specific 
herds. There has been a lot of work with herds in Nevada, and, 
again, the progress has been just extraordinary, and the 
Congress' support of these projects has been critical and very 
important.
    Ultimately, if the one-shot vaccine is developed, it will 
be not a very large cost for each horse, and obviously far, far 
less than the removal cost would be, and it will stop 
reproduction for an entire year, which means that the foals 
will not be produced.
    Mr. Nethercutt. Thank you very much.
    Mr. Pacelle. Thank you.
                              ----------                                


                                            Tuesday, March 3, 1998.

                        LOWER RIO GRANDE VALLEY

                                WITNESS

FAITH THOMPSON CAMPBELL, Ph.D., FRONTERA AUDUBON SOCIETY
    Mr. Nethercutt. The next witness is the Frontera Audubon 
Society, Faith Thompson Campbell, Ph.D. Welcome, ma'am. We will 
make your testimony a part of the record, and we are delighted 
to have you here.
    Ms. Campbell. Thank you, Mr. Chairman and Mr. Yates.
    I am here as Faith Thompson Campbell to represent Frontera 
Audubon Society, which is based in the four southeastern 
counties of Texas, including the towns of Brownsville, 
Harlingen, McGalin, and West Waco.
    Frontera Audubon Society requests that Congress ensure an 
appropriation totaling $10 million in fiscal 1999 for land 
acquisition at the lower Rio Grande Valley National Wildlife 
Refuge. The reason I say totaling $10 million is that we are 
not sure at this time how much of the $4.8 million from the 
Land and Water Conservation Fund's special appropriation last 
year, the refuge will be allowed to spend over the course of 
the next several months.
    Mr. Yates. Dr. Campbell, is that the place where the cougar 
is endangered?
    Ms. Campbell. Ocelot and jaguarundi.
    Mr. Yates. Yes.
    Ms. Campbell. Yes. It has----
    Mr. Yates. Oh, the ocelots.
    Ms. Campbell. Yes, yes.
    Mr. Yates. Your Congressman was----
    Ms. Campbell. It was de la Garza. Now it is Hinojosa and 
Ortiz, right.
    The Santa Ana Refuge that is pictured in the office there, 
that is part of the lower Rio Grande Valley National Wildlife 
Refuge.
    The lower Rio Grande is a very high national priority 
refuge for acquisition. It has a greater variety of wildlife 
and plant species than any other similar-sized area in the 
country, including half of the bird species that live in or 
migrate through the United States.
    Completing the refuge is also an urgent task. The two 
metropolitan areas in the valley are among the 10 listed in the 
Washington Post a month or so ago as having the highest and 
most rapid economic development in the entire country, and, 
therefore, with this rapid development, the cost of land will 
rise, the cost of water rights rises, and, of course, important 
lands are converted to other uses and are no longer available.
    For these reasons, both the high biodiversity level and the 
rapid economic development in the valley, the Lower Rio Grande 
Valley National Wildlife Refuge has always ranked for 20 years 
in the top 10 priorities on the Fish and Wildlife Service list.
    I would add that the refuge is entirely a willing seller 
program, and there are now more than 20 land owners who have 
made offers to the refuge, which lack of funding has prevented 
the refuge from following up on.
    Expansion of the Lower Rio Grande Valley National Wildlife 
Refuge will benefit the region's economy by encouraging tourism 
and spreading the revenue to additional towns. Already, nearly 
100,000 birders visit the lower Rio Grande Valley every year. 
They spend $34.5 million there because it is a birding hot 
spot, and for these reasons, the Valley Chamber of Commerce and 
the Chambers of Commerce of Brownsville, Harlingen, and McGalin 
sponsor birding, butterfly, and other festivals.
    As the refuge is expanded and other sites become accessible 
to visitors and famous for their birding resources, that kind 
of economic benefit can spread up the valley into Star County 
as well.
    As I mentioned, Representatives Hinojosa and Ortiz are full 
supporters and have frequently asked this committee for 
additional funding for the refuge, and the refuge is also 
supported by a number of environmental organizations that I 
have listed in my testimony.
    I would be pleased to take any questions either of you may 
have.
    [The statement of Faith T. Campbell follows:]

[Pages 282 - 285--The official Committee record contains additional material here.]


    Mr. Nethercutt. It is nice of you to testify today. We 
thank you very much.
    Ms. Campbell. Thank you.
    Mr. Nethercutt. I do not have a question.
    Mr. Yates.
    Mr. Yates. I just wonder how your ranchers like the 
ocelots.
    Ms. Campbell. Well, I gather they have lived with them for 
these last 200 years. They recognize the economic benefit of 
tourist dollars in the valley, and that is why they come.
    Mr. Yates. Sure. We have that problem with the wolves at 
the Yellowstone and a few other things.
    Ms. Campbell. Ocelots are a little smaller. They probably 
take a lot--only chickens or something like that. I would doubt 
they would take anything much bigger than that.
    Mr. Yates. Right. Thank you very much.
    Ms. Campbell. Thank you.
    Mr. Nethercutt. Thank you very much.
                              ----------                                


                                            Tuesday, March 3, 1998.

                         FOREST SERVICE BUDGET

                                WITNESS

NANCY A. WOLF, PRESIDENT, ALLIANCE FOR COMMUNITY TREES
    Mr. Nethercutt. The next witness will be the Alliance for 
Community Trees, Nancy A. Wolf, President. Welcome, Ms. Wolf.
    Ms. Wolf. I am Nancy Wolf, president of Alliance for 
Community Trees, and I appreciate greatly the opportunity to 
give my remarks here and also to thank Mr. Yates personally for 
his long, valued support of urban and community forestry and to 
say do not retire.
    Mr. Yates. Well, thank you very much. I am not very 
retiring.
    I think you should thank Mr. Regula as well.
    Ms. Wolf. Oh, absolutely.
    Mr. Yates. He was a supporter for it. Canton is in his 
district.
    Ms. Wolf. We have felt that this committee has been a great 
supporter, and we count the Alliance for Community Trees as 
being one of the stalwart supporting nongovernmental groups for 
urban and community forestry, and we have given testimony each 
year to the committee's record, continuing to support this 
successful program. It is always a pleasure to come and testify 
on behalf of what is considered I think by most people who know 
a very, very great success involving perhaps the largest 
numbers of Americans ever in forestry issues, both at the urban 
level, but also understanding the total forestry picture 
through their efforts in urban and community forestry. So we 
are once again saying that we are really very, very supportive.
    One of the things that we would like to bring to your 
attention--and, of course, it is in my testimony--is that we 
would like to help you and have you help us make sure that the 
quality of the program continues to grow. It is a program that 
has so many demands on it that sometimes it is easy for the 
quality to be outpaced, and we are particularly happy that the 
standards have now been put in place, and, hopefully, you have 
had an opportunity to review those standards. Instead of 
guidelines, they are now standards.
    We commented last year, extensively, on those standards. We 
are very, very eager to see all the States be urged and helped 
and given incentives to come up to the exemplar States, and we 
are going to be spending time this year identifying those 
programs that we consider to be really exemplar.
    I was reviewing some of them the other day, and it is 
exciting to see what the States that have really gotten into it 
have been able to do. We want to see all States come up to more 
uniform quality.
    Our organizations have been involved, of course, at the 
grass-roots level. That is the group that we represent. We have 
more than 40 grass-roots independent and local organizations, 
and we are in touch, of course, with literally thousands of 
volunteers, many of whom are your constituents here on the 
committee.
    So we are urging attention not only to the success of the 
program, but how we can continue to do a quality delivery. We 
are hoping that the committee will urge the Forest Service to 
urge its regional forestry staff to make certain that the 
States deliver quality across the board, and we will be 
pointing, as I said, to various exemplar States that we think 
are doing a particularly good job. We would like to see all 
States come up to that level.
    We are asking for $35 million, or even more. This year, I 
understand that the President's budget has asked for 30. We 
think there should be more because this is a growing program, 
and it is a program where a lot of inventive ideas are being 
put together.
    On the base of the State-Federal partnership now are many 
extra programs. Some of them have come from the Washington, 
D.C., office. Some are coming from the regional offices. Some 
are coming from the ground level where people have come up with 
very creative ideas, but as good as they are, each one of them, 
if it is taken off the base that is there now, the base of 
funding, it is going to eventually affect one way or the other 
what I call the entree of the program, and that is the State 
and Federal partnership which delivers most of the programs.
    So we are going to be working hard to make sure that is 
safe, and we urge your attention to the fact that this program, 
which is successful and growing, really needs to have more 
funding, and we are suggesting $35 million this year.
    Last, but not least, we always make a special case for the 
Urban Forestry Research Staff, which we have supported very 
strongly now every year. Some of it is based in Chicago. Some 
of them are based in David, California, at the university 
there, and some at Syracuse, New York, at the State university 
there.
    We are very anxious to make sure that they stay in 
business. Their work is known not only throughout this country, 
but worldwide they are considered to be really in the forefront 
of air pollution research and energy conservation research. We 
use their research all the time at the local level. So you 
imagine being in front of a city council. If you have that kind 
of research with you, of course you are in a stronger position, 
and we have already asked Mr. Walsh to give to the committee 
the language that he and Mr. Fazio have supported over the past 
few years. So, hopefully, you will be receiving that.
    [The statement of Nancy A. Wolf follows:]

[Pages 289 - 293--The official Committee record contains additional material here.]


    Mr. Regula [presiding]. Thank you very much.
    Ms. Wolf. So, if you have questions, I would be happy to 
answer any.
    Mr. Regula. Thank you.
    Ms. Wolf. Okay, thank you.
                              ----------                              

                                            Tuesday, March 3, 1998.

            UPPER MISSISSIPPI RIVER WILDLIFE AND FISH REFUGE

                                WITNESS

HON. JIM NUSSLE, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF IOWA
    Mr. Regula. Our next witness is from the Mississippi River 
Museum. I understand, Mr. Nussle, you are going to introduce 
your constituents.
    Mr. Nussle. Mr. Chairman, nice to see you.
    Mr. Regula. Nice to have you here.
    Mr. Nussle. I want to thank you, Mr. Chairman, for the 
opportunity to come and introduce my constituents to this 
committee. I want to first thank you for your leadership.
    Mr. Regula. Is your district on the Mississippi?
    Mr. Nussle. How about that?
    Mr. Regula. I did not know that.
    Mr. Nussle. In fact, the entire eastern border of the 
district is on the Mississippi River. So----
    Mr. Regula. Is that right? You did not get flooded, though.
    Mr. Nussle. Actually, we did a few years back. So that is 
exactly right.
    What we are proposing--and I would like to ask the mayor of 
Dubuque to give a presentation. He has a number of other people 
as well. It is just to give you an idea of an interpretive 
center that is being proposed that is underway and, in fact, is 
going to be processed. We are looking for a partnership. We 
believe that the significance of the upper Mississippi River, 
in particular, has not only past significance, certainly 
current significance, but also a future significance that needs 
to be told, needs to be studied, needs to be interpreted, and 
needs to be shared with the rest of the country.
    As a member of the Budget Committee, you know I do not come 
here very often, knowing how very tight things are, but I 
thought this was an important project that we ought to at least 
talk about.
    Mr. Regula. Well, you said it was underway. How much of it 
is underway?
    Mr. Nussle. Why don't I let the experts share that 
information with you.
    Mr. Regula. Yes.
    Mr. Nussle. It is a neat idea.
                                            Tuesday, March 3, 1998.

            UPPER MISSISSIPPI RIVER WILDLIFE AND FISH REFUGE

                               WITNESSES

TERRY DUGGAN, MAYOR OF DUBUQUE, IOWA
JERRY ENZLER, DIRECTOR, MISSISSIPPI RIVER MUSEUM AND NATIONAL RIVERS 
    HALL OF FAME
    Mr. Duggan. Good afternoon. I am Mayor Terry Duggan from 
the City of Dubuque, and, Mr. Chairman and Mr. Yates, thank you 
for having us here today.
    I would like to ask at this time if I could have the 
constituency of the upper Mississippi River that came with us 
today, if they would please rise.
    Mr. Regula. You have got more people than that.
    Mr. Duggan. Well, we probably do. Thank you very much.
    Mr. Regula. How big is Dubuque?
    Mr. Duggan. We are 60,000. The metro area would be a 
population of about 90- to 100,000 people, and we thank 
Congress for the floodwall that we did have during 1993 that 
did keep us dry. We were saved from that. So we want to thank 
all of you for that.
    We come to you today, business executives, elected leaders, 
foundation board members, and private citizens, and some 
students from the University of Dubuque, to present a bold new 
partnership between the Fish and Wildlife Service and the 
people of the five States of the upper Mississippi to create a 
national interpretive center.
    As a private citizen, business owner, and as mayor, I have 
never seen such a dramatic project with such strong multi-State 
support and such a long-term national impact.
    I introduce Jerry Enzler, director of the Mississippi River 
Museum and the National River Hall of Fames.
    Mr. Enzler. Thank you, Mayor Duggan, and thank you, 
Congressman Nussle.
    The Mississippi River, some people call it America's river, 
and the Upper Mississippi National Wildlife and Fish Refuge 
certainly is a very significant refuge, established in 1924, 
really at the urging--established by Congress, but established 
at the urging of people from Chicago and Northern Illinois.
    It is the longest refuge that the Fish and Wildlife Service 
maintains.
    Mr. Regula. Is it right along the river?
    Mr. Enzler. It is right along the river from Wabasha, 
Minnesota, down to Rock Island, Illinois.
    Mr. Regula. How far is that?
    Mr. Enzler. 261 miles in length.
    Mr. Yates. What do you mean by a refuge?
    Mr. Enzler. Well, it is the upper----
    Mr. Yates. You say the longest refuge.
    Mr. Enzler. Well, it is the longest in length. It is the 
longest that we have been working with, Region 3 of the Fish 
and Wildlife Service, and they are very proud of this refuge 
and note that it is the longest in terms of its length, and it 
has 194,000 acres.
    Mr. Yates. Oh, I see.
    Mr. Enzler. Right. It is not the longest length.
    Mr. Yates. I am thinking of a building. I am sorry.
    Mr. Enzler. No. This is the refuge itself.
    Mr. Yates. Okay.
    Mr. Regula. Does it border on the river?
    Mr. Enzler. Yes. It borders on the Mississippi River and 
the States of Minnesota, Iowa, Illinois, and Wisconsin.
    Mr. Regula. So the flood plain essentially is the refuge?
    Mr. Enzler. That is right, and these are acres that have 
been purchased by the Federal Government and are held in trust 
and are habitat for wildlife.
    It is the most visited refuge that the Fish and Wildlife 
Service maintains. In fact, it has 3 to 3\1/2\ million visitors 
a year, which is the equivalent of Yellowstone National Park.
    The significant factor is there is no major interpretative 
center. There is no interpretative center for this refuge, and 
what we propose is a partnership to address this national need.
    Now, the citizens and the local units of government in the 
five States are putting forth $13 million to establish this 
center, and it is a $26-million total cost. We are obligating 
ourselves to handle all of the operating costs. So there will 
be no ongoing operations and maintenance costs to the Federal 
Government.
    Mr. Regula. That would be the State or the local community?
    Mr. Enzler. It would be the local community, yes.
    We have a 20-year history of operating a museum. Our museum 
currently exists in this building here.
    Mr. Regula. Oh, so this is an expansion.
    Mr. Enzler. It is an expansion, yes. We are in this 
building, and we are on this steamboat. It is a national 
landmark steamboat, the William Black.
    Over half of these private funds have been raised so far. 
We have over $6 million raised, and we have spent 7 years so 
far in planning. We have worked with some of the top national 
experts in the country, historians and conservationists and 
educators and scientists and biologists. We have a signed 
partnership agreement with the U.S. Fish and Wildlife Service, 
Region 3, and the partnership agreement says that we will work 
together to interpret this refuge.
    We are developing right now the final language for a signed 
partnership with the U.S. Army Corps of Engineers, the 
Mississippi Valley Division and all six districts.
    Mr. Regula. I was thinking, wouldn't the Corps of Engineers 
have exhibits in this?
    Mr. Enzler. They certainly should, yes.
    Well, this is a Corps dredge, and the Ice Harbor was 
created by the U.S. Army Corps of Engineers.
    Mr. Regula. Would they contribute to the cost of this?
    Mr. Enzler. We believe they will. In fact, in this year's 
water resources bill--or last year's water resources bill, the 
Corps was instructed to provide dredge material to create this 
outdoor wetland, so significant partnerships with the Corps.
    Also, the Environmental Management Program which is at 
Onalaska, Wisconsin, for 10 years now, they have expended over 
$100 million researching and monitoring the upper Mississippi 
River, and, yet, there is no outlet for the public.
    Mr. Regula. Yes.
    Mr. Enzler. And we are working collectively with them now 
to create exhibits to bring this research to the public.
    Mr. Regula. Well, maybe, Jim, have you explored getting 
some from the Energy and Water Subcommittee?
    Mr. Nussle. We have, Mr. Chairman. We are exploring 
everywhere that we can explore, as you might guess.
    Mr. Regula. Okay.
    Mr. Nussle. This is just the latest stop on our 
exploration.
    Mr. Regula. Good. Good luck on the rest of them.
    Well, it seems to me, this logically--a portion should be 
borne by the Corps since I would assume that it is going to 
tell part of the story of their operation in the Mississippi.
    Mr. Enzler. That is correct.
    Mr. Regula. Okay. Well, we are out of time. Thank you very 
much.
    Mr. Enzler. Thanks for having us today.
    [The statement of Terry Duggan and Jerome A. Enzler 
follow:]

[Pages 298 - 303--The official Committee record contains additional material here.]


                                            Tuesday, March 3, 1998.

                    FOREST APPROPRIATIONS INITIATIVE

                                WITNESS

STEVE HOLMER, CAMPAIGN COORDINATOR, WESTERN ANCIENT FOREST CAMPAIGN
    Mr. Regula. Next is the Western Ancient Forest Campaign, 
Steve Holmer.
    Mr. Holmer. Thank you for this opportunity to testify, 
Chairman Regula and Representative Yates.
    The national forests continue to suffer mismanagement, and 
much of it stems from the funds that are appropriated by 
Congress and the internal budget incentives and a lack of 
financial accountability we see with the agency. We would like 
to propose a forest appropriations initiative that would 
address these problems and cut what we view as environmentally 
destructive subsidies and, instead, offer some increase that we 
think would actually support real restoration of our national 
forests.
    I do not know if you have a copy of my testimony available.
    Mr. Regula. Yes, we do, and it will be in the record.
    Mr. Holmer. Okay, great.
    Well, the key points that I would like to raise, one deals 
with timber roads. We believe that given the current backlog of 
over $10 billion dealing with the road system, that building 
new roads does not make sense. So we would like to urge you to 
fund no money for new logging roads.
    In addition, the President's budget has proposed an 
elimination of purchaser credits, and we would like to urge you 
to support elimination of purchaser credits.
    And there has also been a Forest Service proposal to 
institute an 18-month moratorium on road-building in some 
national forest roadless areas, and we would like to urge your 
committee to support that moratorium and to not entertain any 
riders that would stop it.
    Mr. Yates. Why do you want to eliminate purchaser credits?
    Mr. Holmer. Well, purchaser credits have been identified by 
the administration as an administrative burden on their ability 
to carry out the roads program, and there is also a subsidy 
that is linked to that. There is a profit margin that is built 
into the credit system, and in our view, the credits have 
allowed for the logging of marginal areas that otherwise would 
not be economically to enter.
    The next point I would like to raise has to do with logging 
and road-building on unstable slopes. We would urge you to at 
least include report language urging the Forest Service to stay 
off the steep and unstable slopes just because of the damage 
that has been broad and the lives cost in recent years.
    We are also very concerned about the off-budget funds, such 
as the K-V and salvage fund. The Forest Service is currently 
under a lawsuit for illegally diverting funds from 
reforestation into their salaries and overhead, and the salvage 
fund has also been identified to create incentives, bad 
incentives for forest management where the agency would choose 
revenue-generating activities over other activities that might 
be more appropriate.
    We are also very concerned about a new off-budget fund 
proposed in the Smith forest health bill, H.R. 2515, that would 
perpetuate this same kind of misguided incentives, and we would 
urge the appropriators to weigh in and stop that proposed fund.
    The next issue has to do with subsidies of the Timbers Sale 
Program. The Forest Service admitted for the first time this 
year that the Timber Sale Program loses money, and I would just 
like to share with you an analysis of these losses. I believe I 
have other copies of those available for others present here.
    Mr. Regula. We have about 2 minutes left. So you will have 
to summarize.
    Mr. Holmer. Okay. Well, as you can see in the first box, it 
shows the Forest Service admits they lost $14.8 billion or 
something in that range, but if you add in the payments to 
counties, the road costs, the overhead costs, you quickly come 
up to $457 million, as The Wilderness Society did in their 
analysis, and then Randall O'Toole for the Thoreau Institute 
added in the off-budget accounts and you get a $560-million 
loss. Then The Sierra Club did a straightforward cash-in/cash-
out analysis just looking at the receipts brought back and how 
much Congress appropriated, and then you get a staggering----
    Mr. Regula. Did this include anything to multiple-use 
values, hunting, fishing, camping?
    Mr. Holmer. No. This is just talking about the----
    Mr. Regula. Well, I understand, but the Forest provides a 
lot of things besides timber, and I believe you are measuring 
this only on the timber sales versus the cost to the Forest.
    Mr. Holmer. Well, we generally do not view the timber sales 
as a benefit for the Forest.
    Mr. Regula. Well, I understand that.
    Mr. Holmer. We are spending a lot of money on restoration 
right now.
    Mr. Regula. But would you not have to place value on the 
multiple use if you were going to try to accurately assess the 
real cost?
    Mr. Holmer. Well, certainly. Our concern here is that this 
chart appears that the value of timber has been given 
predominance over other Forest values.
    Mr. Regula. By whom?
    Mr. Holmer. Well, by the agency and by the incentives built 
into their budgets over the years.
    Mr. Regula. Well, we have always emphasized--Chairman Yates 
did, and I do, too--the multiple-use dimension of the forest.
    Mr. Holmer. Well, we feel that there are certain values 
that have not been adequately dealt with, and if you look at 
the next section dealing with funding increases, we would like 
to propose $25 million more for road maintenance and $25 
million more for road decommissioning.
    Mr. Regula. I saw that.
    Mr. Holmer. And so we think that it is very important, and 
there is a lot of real restoration that could take place that 
would provide a lot of jobs.
    Mr. Regula. Well, we will look at your statement, and I 
understand what you are saying. We will try to strike a 
reasonable balance.
    Mr. Holmer. Sure. I guess I would just like to close with, 
you know, this does need to be viewed in an overall context, 
and our organization does believe that the roadless area and 
the old growth and riparian areas deserve permanent protection.
    We put together a report early this year that documents the 
need to protect roadless areas in our national forests. We 
think that both on economic and ecological grounds that they 
are worth a lot more protected than they would be if we went in 
and roaded and logged them.
    Mr. Regula. Okay, thank you.
    Mr. Yates. Thank you.
    [The statement of Steve Holmer follows:]

[Pages 307 - 311--The official Committee record contains additional material here.]


                                            Tuesday, March 3, 1998.

                 MAINTENANCE AND CONSTRUCTION OF TRAILS

                                WITNESS

MARY MARGARET SLOAN, CONSERVATION DIRECTOR, AMERICAN HIKING SOCIETY
    Mr. Regula. The American Hiking Society. Welcome.
    Ms. Sloan. I am Mary Margaret Sloan, and I am the 
conservation director for American Hiking Society, a national 
nonprofit organization serving 10,000 individual members and 
the more than 500,000 members of our 120 affiliated clubs.
    Federal land managing agencies, the National Park Service, 
the Forest Service, and the Bureau of Land Management all 
recognize recreation's rapid growth and are moving to meet the 
accompanying demands.
    The National Park Service has requested a 42-percent 
increase to the rivers, trails, and conservation assistance 
program. Forest Service Chief Michael Dombeck just announced 
that recreation will be a major focus for the Forest Service in 
the coming years, and the Bureau of Land Management has 
restructured its staff to better emphasize recreation.
    Mr. Regula. I think you are accurate that all of these 
things will get a lot of pressures, and what you are asking for 
is to support the Trails Program. Am I correct?
    Ms. Sloan. Correct.
    Mr. Regula. Yes.
    Ms. Sloan. They have all been emphasizing recreation, but 
the outcome on the ground has not been commensurate with the 
rhetoric.
    Mr. Regula. You mean in terms of what they do or in terms 
of the number of people that are taking advantage of it?
    Ms. Sloan. In terms of what they do. In terms of what they 
are able to do with the funding they currently receive.
    This subcommittee has been extremely supportive of 
recreation, and we recognize that and appreciate that. We would 
like to turn your attention to a couple programs that interest 
us.
    In the National Park Service, the Rivers and Trails 
Conservation Assistance Program, this year the administration 
has requested a $3-million increase to the base program, which 
we support.
    Mr. Regula. Now, I am familiar with that, but it is a new 
program.
    Ms. Sloan. They tell us that it is not a new program, and 
that it is to----
    Mr. Regula. I guess there is a difference of opinion on 
that.
    Ms. Sloan. In any case, our organization supports a $3-
million increase to the base RTCA program. We also support a 
$500,000 increase over the administration's request for the 
national trails system.
    Mr. Regula. We had testimony this morning on the trails. So 
we are pretty much up to speed on that.
    Ms. Sloan. That is fine.
    Within the Forest Service, the administration this year for 
FY 1999 has requested only $13.2 million for forest service 
trails, construction, reconstruction, which we feel is woefully 
inadequate. We would urge the subcommittee to appropriate at 
least $36.5 million.
    Mr. Regula. Well, your members do enjoy the forests and----
    Ms. Sloan. We do enjoy the forests.
    Mr. Regula. Then you do enjoy the multiple-use concept.
    Ms. Sloan. Yes. Well, we enjoy the foot paths, the hiking 
aspect.
    Mr. Regula. But they have to get to the paths. If they live 
in Ohio, they have to go out there and get to the trail head, 
don't they?
    Ms. Sloan. That is true.
    Mr. Regula. Okay. Thank you very much. We have been very 
supportive of the hiking programs.
    Ms. Sloan. Yes. I would just like to close with reference 
to the Land and Water Conservation Fund. We support the fund in 
full and would like to direct your attention to some of the 
national scenic trails that are hoping to receive funding from 
the Stateside Atlanta Water Conservation Program.
    Mr. Regula. Well, if we put it in the Stateside, we will 
have less to do the things that you want. It is kind of a 
Catch-22, honestly, because we have X-number of dollars, and we 
have lots of needs.
    When I walked in this morning, I said until we get done 
together, I could double the budget and still not get 
everything done that will be requested.
    Ms. Sloan. That is true.
    Mr. Regula. That is our dilemma, frankly.
    Ms. Sloan. We understand, and we appreciate your dilemma. 
So we hope you will look closely at these national programs 
that are able to benefit.
    Mr. Regula. Well, we try to. We want to finish up the 
Appalachian Trail, hopefully. We have been doing it year after 
year. I happen to like trails myself. I live on a farm. I have 
a couple of miles that I personally take care of, cut the 
brush, mow it and so on. I enjoy it.
    Ms. Sloan. You can appreciate that time and the effort that 
that takes.
    Mr. Regula. Yes, I certainly can.
    Ms. Sloan. We hope that that will be reflected.
    Mr. Regula. Thank you very much.
    Ms. Sloan. Thank you.
    [The statement of Mary Margaret Sloan follows:]

[Pages 314 - 319--The official Committee record contains additional material here.]


                                            Tuesday, March 3, 1998.

                             FOREST SERVICE

                                WITNESS

SEAN COSGROVE, LEGISLATIVE COORDINATOR, FORESTWATER ALLIANCE
    Mr. Regula. Forest Water Alliance?
    Mr. Cosgrove. How are you, sir? Thank you for having me 
here today. My name is Sean Cosgrove. I represent the Forest 
Water Alliance. It is a coalition of 21 conservation groups 
from the Pacific Northwest, mostly Western Washington, Western 
Oregon, and Northwestern California. All told, these groups 
represent about 100,000 people across that region.
    This coalition was brought together because we are 
concerned about the implementation of the Northwest Forest Plan 
and the impact that is having on ancient forests, salmon 
population, municipal watersheds, and forests with watersheds.
    I want to just give you a quick idea of some of the 
projects that we are seeing happen here that my coalition is 
concerned about. You understand, this part of the country gets 
a fair amount of rain. Erosion and landslides from clear cuts 
and logging roads are----
    Mr. Regula. On Federal lands, you are talking about?
    Mr. Cosgrove. On Federal lands, yes, sir, the 17 national 
forests.
    Mr. Regula. Your mission is to protect the quality of water 
in the streams. So you are concerned about the riparian.
    Mr. Cosgrove. Absolutely.
    Mr. Regula. The impacts of forestry from erosion.
    Mr. Cosgrove. Absolutely.
    Mr. Regula. Roads which, of course, contribute to erosion.
    Mr. Cosgrove. Certainly.
    Mr. Regula. The objective of your group is to contain that 
as much as possible. Is that correct?
    Mr. Cosgrove. We would actually like to see it contained 
and, actually, a lot of these areas restored.
    Mr. Regula. Areas that have been logged?
    Mr. Cosgrove. Areas that have been logged and eroded and--
--
    Mr. Regula. But doesn't the Forest Service do a lot of 
regeneration?
    Mr. Cosgrove. Regeneration and----
    Mr. Regula. Planning?
    Mr. Cosgrove. And planning. That does happen, but, 
unfortunately, what they do not have the funds and the ability 
to take care of is some of the mudslides and things like this 
that happens from logging projects. This is on the Umpqua 
National Forest. These are roads that they want to rebuild so 
that they can go back in and do more logging.
    Well, the logging projects they want to do now, they are 
proposing, is, say, the Lane Creek timber sale in the Umpqua 
National Forest. This is a municipal watershed that provides 
drinking water for the City of Cottage Grove. This is a 
watershed where the forests--you can see the signs here. The 
Forest Service says please note do not swim in here, do not 
camp in here, because we want to protect the water qualify.
    Mr. Regula. Right.
    Mr. Cosgrove. Well, within this same area, within some 
stream side reserves, they want to do a logging project. This 
seems somewhat----
    Mr. Regula. The Forest Service?
    Mr. Cosgrove. The Forest Service does.
    So these are the kind of projects that we are still seeing 
after 4 years of implementation of the Northwest Forest Plan. 
We have some pretty big concerns here, but what that leads to, 
of course, is the impact not just on drinking water for 
municipalities, but also with salmon species. We are very 
concerned about the endangered and threatened salmon species.
    You can see this is a copy of an article from the Oregonian 
Newspaper. Just last week, there is a proposed listing of a 
number of different salmon species. You can see the wide-
ranging impact this would have.
    Mr. Regula. Do you have an opinion on the Elwha Dam?
    Mr. Cosgrove. On the Elwha Dam? I believe that it should be 
removed, and I think funds should be appropriated from that. I 
am from Washington State. I am told from old-timers that I have 
run into there that some of the greatest Chinook runs came 
right up there in the Elwha. I would love to see that area 
restored.
    Mr. Regula. I guess when we were on the dam-building binge, 
we never thought about the fish.
    Mr. Cosgrove. Yes, exactly, and that is a problem that we 
would like to see addressed. You know, we are talking about the 
entire natural system there, and we think that starting with 
rehabilitating some of these logged-out areas, restoring some 
watersheds would be a good place to start. Maybe taking a look 
at dams would be a good idea. We do not necessarily deal with 
that right here, but, anyway, you understand the problem that I 
am bringing to you here.
    I would just like to go through a very short list of some 
of the obvious.
    Mr. Regula. Please be quick. We are out of time.
    Mr. Cosgrove. The President's budget proposes elimination 
of purchaser road credits. We support that, absolutely.
    The President's budget proposes a change from 25 percent 
payment to States to an annual appropriation, a flat fee, a 
flat rate. We support that, absolutely.
    We would like to see overall $96 million that is proposed 
for road reconstruction and construction in fiscal year 1999. 
We would like to see that eliminated. We do not believe that 
they need to build new roads or reconstruct new roads in the 
National Forest System.
    Mr. Regula. Wouldn't this deny access to some of the 
multiple-use people?
    Mr. Cosgrove. My organization definitely does support 
multiple use. With over 440,000 miles of roads in the national 
forest system, we think it is pretty well accessible.
    We also would like to see an increase for $25 million for 
the road maintenance budget, an increase of $25 million for 
road decommissioning.
    We would like to see, ideally--and this is kind of the big 
picture over the next decade. In the Pacific Northwest, we 
would like to see road decommissioning for 25 percent of the 
road mileage that is in the national forest system now, and a 
decade after that, another 25 percent. We believe that is the 
best way to try and restore salmon stocks and create healthy 
national forests.
    We also, of course, in allocating these funds for road 
decommissioning, support funds going to projects and programs 
that help train people, either retraining for people that work 
in the woods or new projects to get people out there and learn 
skills.
    Mr. Regula. Okay. Well, thank you very much.
    Mr. Cosgrove. Thank you so much.
    [The statement of Sean Cosgrove follows:]

[Pages 323 - 325--The official Committee record contains additional material here.]


                                            Tuesday, March 3, 1998.

                      NATIONAL CONSTITUTION CENTER

                                WITNESS

ED RENDELL, MAYOR OF PHILADELPHIA, PENNSYLVANIA
    Mr. Regula. The next witness is Mayor Rendell from the City 
of Brotherly Love on the National Constitution Center.
    Mr. Rendell. Good afternoon, Mr. Chairman.
    Mr. Regula. Do you still have brotherly love in your city?
    Mr. Rendell. Well, we have modified it to include sisterly 
affection now, to be politically correct. So that is our new 
slogan.
    Mr. Regula. Times change.
    Mr. Rendell. Yes, they sure do. [Laughter.]
    Well, good afternoon, Mr. Chairman. Let me begin by 
thanking you and this committee and, of course, the Congress 
for its support of the National Constitution Center, which as 
you know was established by the Congress and President Reagan 
in 1988 to promote a better and more effective understanding.
    Mr. Regula. Was it given a charter? You say 
``established.'' Was there a charter issued for this?
    Mr. Rendell. No. We have our own charter that came from the 
corporation as a nonprofit, but it was just the legislation 
which gave us some specific mandates as to our educational 
goals and, of course, to build a museum down the road.
    We have done this work with $236,000 of Federal-matching 
funds over the years, which you all have appropriated for us. 
This year, the administration raised that level of $500,000. We 
are appreciative of that, and we, I think, have done as good a 
job possible in achieving our mission during Constitution Week, 
several programs, including ``I Signed the Constitution,'' 
which offered citizens and school children the ability to sign 
the Constitution in every one of our 50 States. We have a web 
site which in its first 2 weeks received over 200,000 hits. We 
do contests for high school students on our web sites, and we 
off-load programs to teachers on the web site for how to best 
teach the Constitution, particularly to elementary and middle 
school kids in modern-day terms, to make it relevant in modern-
day terms, but as I heard you say, we have not achieved our 
goal because a poll that we ourselves took showed that 
Americans have an appalling lack of knowledge about probably 
the greatest document that man and womankind have ever put 
together.
    One out of every two Americans cannot name the total number 
of U.S. Senators. Six percent, only 6 percent of Americans, can 
name the four freedoms guaranteed in the First Amendment, and 
two out of three Americans cannot name the three branches of 
our Government.
    Mr. Regula. I notice some of them lately know the First 
Amendment.
    Mr. Rendell. That is correct. That is correct.
    But the good news in the poll was that despite this lack of 
knowledge, 91 percent of Americans said the Constitution was 
important to them in their daily lives, and 84 percent said for 
it to be effective, we should have a knowledgeable and active 
and concerned citizenry.
    So we believe it is time for us to do the second part of 
our congressional mandate and build that museum. Toward that 
end--and I know, Mr. Chairman, you are familiar with the FMP 
that----
    Mr. Regula. Does the bill or the language refer to a 
museum?
    Mr. Rendell. Yes. It talks about a museum in the bill.
    We have waited because we wanted the center to be on the 
Mall of Independence National Historic Park, which as you know 
is referred to as the most historic square mile in America, and 
it truly is with Independence Hall and Congress Hall and 
Carpenters Hall, the Liberty Bell, and all those things in the 
park. The GMP that the Park Service finished last year calls 
for a restructuring of the Mall.
    In the first two blocks, we will see a new Liberty Bell 
Pavilion, and we will see a great new visitors center, some 
additional landscaping, and that is a $75-million project, 
which I am happy to tell you, $72 million of which was raised 
locally by the State, the City, some foundations, Ambassador 
Annenberg, and our own Parking Authority. Only $3 million of 
that capital cost is Federal money.
    What we were asking for is for the museum, for the center 
for the Constitution, which will be on the third block of the 
Mall and will face Independence Hall, with the Liberty Bell to 
its right and the visitors center to its right as well, and 
create a perfect juxtaposition between Independence Hall, which 
really celebrates the Declaration of Independence, and the 
Constitution Center at the end of the Mall. It will make it a 
truly rich and historical experience for Americans and for 
people from all over the world.
    As you know, Mr. Chairman, over 200 countries have used our 
Constitution as the basis for their constitution, and, yet, it 
is a document that we Americans do not know much about.
    We are asking for a commitment from the Congress and the 
Administration for $65 million over 3 years. We offer that, and 
I hope you will make that a match, because we believe we can 
use that to stimulate giving.
    The State of Pennsylvania has put in its capital 
redevelopment assistance, $30 million.
    Mr. Regula. How many square feet? You have a center now 
that you operate?
    Mr. Rendell. No, we just have an office. It is just an 
office with a computer.
    Mr. Regula. Nothing.
    Mr. Rendell. If you asked to come to the center, you would 
see an office about the size of the typical freshman 
Congressman's office, not much bigger than that.
    Mr. Regula. Not very big.
    Mr. Rendell. That is right, not very big. And that is our 
center, but this center, in addition to being a wonderful 
interactive museum that will teach children and adults about 
the relevance of the Constitution in modern-day terms, it will 
also be a center--the University of Pennsylvania has partnered 
with us--a center of learning. There will be a scholars in 
residence program. There will be a wonderful auditorium where 
we can hold debates about constitutional issues.
    One feature that I did not get a chance to tell you, but 
one feature at the end of the visit, each visitor will get a 
delegate pass. At the end of the visit, right before you get a 
chance to sign the Constitution itself, you will go into a 
room, and whatever the current constitutional issue is--say 
last year, the balanced budget amendment--we will have two 
prominent speakers film a 4- or 5-minute videotape, pro and 
con. Then the delegates, ordinary citizens from this country, 
will get a chance to cast a vote. It will be like a running 
public opinion poll.
    So this will be a wonderful, dynamic, interactive center 
where people can really learn about a document they revere, but 
know very little about.
    I also want to add, because I know it is of great concern 
to you, Mr. Chairman, that this is all the money we are asking 
for. There will be no request for operating funds.
    Mr. Regula. What guarantee do we have of that?
    Mr. Rendell. Number one, I am not only the mayor, but I am 
the chairman, and I intend to be the chairman for a long while, 
and, number two, we have just put it on record, and, number 
three, we intend, unlike everything else on the Mall--we intend 
to charge admission, and it is the admission that will cover 
the operating expenses for this.
    We have found that when we do focus groups on this and poll 
and ask people, a modest admission is nothing; that people balk 
at it, as you know from your experience with the national 
forest. When you consider the price of the Disneyworld or the 
Disneyland experience, a modest admission is something that 
people actually believe in, and believe is a better way than 
using Federal dollars.
    Mr. Regula. We are about out of time.
    Mr. Rendell. Well, thank you very much, and we appreciate 
your listening, and, again, appreciate your past help to the 
center.
    Mr. Regula. Thank you.
    [The statement of Ed Rendell follows:]

[Pages 329 - 333--The official Committee record contains additional material here.]


                                            Tuesday, March 3, 1998.

                      APPALACHIAN TRAIL CONFERENCE

                               WITNESSES

DAVID N. STARTZELL, EXECUTIVE DIRECTOR
DAVID B. FIELD, CHAIRMAN OF THE CONFERENCE'S BOARD OF MANAGERS
    Mr. Regula. Appalachian Trail Conference.
    Mr. Field. Chairman Regula?
    Mr. Regula. Yes.
    Mr. Field. My name is Dave Field. I am the volunteer chair 
of the Board of Managers of the Appalachian Trail Conference of 
which you have obviously heard, and it is almost deja vu all 
over again here. You clearly recognize the existence and 
importance of the Appalachian Trail.
    The good news is that it is almost completely protected.
    Mr. Regula. Right.
    Mr. Field. We have got about 33 miles left to go.
    Mr. Regula. Our intent is to finish that as quickly as 
possible.
    Mr. Field. Yes, with a little help from our friends, and 
you have been our friends for a long, long time. And that is 
enormously appreciated. It has been steady right through.
    I think Dave Startzell here, the executive director, is 
still committed to the year 2000 as the completion for this 
project.
    Dave will speak specifically about what the needs are. One 
interesting thing about this whole project I think is the fact 
that, at least on the National Park Service side, as Congress 
has been generous consistently over the years, the Park Service 
has spent all the money. That is not the case with every 
program and----
    Mr. Regula. Well, you have done well, and we have done well 
by you.
    Mr. Field. It is a win-win.
    I am going to let Dave talk about the specifics.
    Mr. Regula. We are persuaded, and we are out of time, but 
go ahead.
    Mr. Field. While he does that, I will just show you a few 
pictures of what you have already bought.
    Mr. Regula. Okay.
    Mr. Field. Excuse me. You have not bought that yet. That is 
important.
    Mr. Startzell. Mr. Chairman, on the last page of our 
written testimony, which you have, I have outlined a funding 
scenario over the next 2 years based on about $7.5 million in 
each of those years, again with the objective of completing the 
program in the year 2000.
    However, we do have a rather unique opportunity at this 
time by virtue of the supplemental appropriation that was in 
the 1998 bill.
    Mr. Regula. Right, I am aware of that.
    Mr. Startzell. The administration, as you know, has 
requested $15 million.
    Mr. Regula. That is true.
    Mr. Startzell. And I understand that their method of 
delivery was perhaps not what the committee was seeking, but, 
nonetheless, I cannot fault the message.
    Mr. Regula. Well, we are going to review every item that 
they sent up to us, and, of course, we have been friendly to 
the Appalachian Trail, historically.
    Mr. Startzell. So we hope you will join us in seeking that 
year 2000 completion date by one funding scenario or the other.
    With that, we will close, and thank you.
    Mr. Regula. Okay. Thank you for coming.
    Mr. Field. Thank you, sir.
    [The statement of David N. Startzell and David Field 
follow:]

[Pages 336 - 338--The official Committee record contains additional material here.]


                                            Tuesday, March 3, 1998.

                         NATIONAL PARK SERVICE

                                WITNESS

KEVIN COLLINS, LEGISLATIVE REPRESENTATIVE, NATIONAL PARKS AND 
    CONSERVATION ASSOCIATION
    Mr. Regula. The National Parks and Conservation 
Association, Mr. Chandler.
    Mr. Collins. Mr. Chairman, I am Kevin Collins, National 
Parks and Conservation Association, a last-minute switch.
    First of all, I wanted to begin by recognizing, as you 
mentioned earlier, that this subcommittee also operates under 
budget limits, as agencies do, and we appreciate your efforts 
in the past to----
    Mr. Regula. What is the mission of your group?
    Mr. Collins. To protect the resources of the National Park 
System.
    Mr. Regula. Why do you think the Park people do not do 
that?
    Mr. Collins. They do do it. Sometimes they do not do it as 
well as we would like. Sometimes they do not have the resources 
to.
    Mr. Regula. So you are kind of a hairshirt for the Park 
System.
    Mr. Collins. We are a watchdog group, that is right. We are 
an advocate for the Park System as opposed to an advocate for 
the Park Service.
    Mr. Regula. What do you like about what they do and what do 
you not like?
    Mr. Collins. Well, what I like is they do a wonderful job 
of interpreting the resources, of educating people about the 
significance of the parks. Historically, they do not do such a 
good job of scientific protection of the resources. In the 
past, in many cases still in the present, they have a tendency 
to put visitor convenience, if you will, over the protection of 
the resources. That is something----
    Mr. Regula. I would think this would be an ongoing struggle 
for the park superintendent because the parks are for the 
people--
    Mr. Collins. It absolutely is.
    Mr. Regula [continuing]. And people want access, they want 
to use them. One of the interesting little footnotes to our fee 
program that I heard from the superintendents is that they 
experienced a drop in vandalism. When people pay a little money 
to get in, they have a little different attitude than when they 
just walk in and out.
    Mr. Collins. I can well understand that.
    Mr. Regula. Do you support the fee program?
    Mr. Collins. I do, indeed. Yes, sir.
    Mr. Regula. And will that help in some of the concerns you 
have?
    Mr. Collins. It absolutely will help. I heard today a 
concern that the new fee money might be scored by CBO, and I do 
not know if that is accurate or not, but----
    Mr. Regula. They made us come up with the money that would 
have gone to the Treasury. It was scored against us because we 
are letting the parks keep it. But I am perfectly willing to 
eat that because I think it is important for the long term to 
have, (A) the fee program, and (B) to have the fee stay in the 
park where it is generated.
    Mr. Collins. I agree.
    Mr. Regula. The story made no sense, to collect fees in 
Yellowstone and send them to the Treasury.
    Mr. Collins. You are absolutely right.
    Mr. Regula. And there is no incentive. But now that it is 
there, they expect to collect about $400 million over the next, 
three years. We are not reducing their appropriations, but 
trying to hold them.
    Mr. Collins. I understand that.
    Mr. Regula. We are saying, that is extra to enhance the 
visitor experience, and conduct maintenance that may otherwise 
be neglected. Does that fit with your group's objectives?
    Mr. Collins. Absolutely.
    Mr. Regula. Do you try to monitor all the parks or do you 
selectively do them?
    Mr. Collins. No. We try to monitor all the parks. We try to 
respond to issues in all the parks. We are physically incapable 
of doing every single park, but yes, we try to do that.
    Mr. Regula. Do you have members?
    Mr. Collins. We have about 500,000 members.
    Mr. Regula. Oh, really?
    Mr. Collins. Yes.
    Mr. Regula. And do they pay a little in the way of dues?
    Mr. Collins. They pay dues, yes, they do.
    Mr. Regula. And that provides your staff.
    Mr. Collins. It is primarily membership supported, the 
organization.
    Mr. Regula. From all across the country?
    Mr. Collins. All across the country.
    Mr. Regula. Well, I have used up your time. [Laughter.]
    You have a minute left to tell me why you are here.
    Mr. Collins. Well, before we ask you for more money, I do 
want to say thanks for the efforts that you have put in past--
--
    Mr. Regula. And you want more money for the parks.
    Mr. Collins. We do not want that much more money. This 
year, the budget is focused primarily on maintenance, and we 
understand.
    Mr. Regula. Well, that is because I have been driving them 
on maintenance.
    Mr. Collins. Absolutely.
    Mr. Regula. We have neglected that.
    Mr. Collins. And I want you to understand that we agree 
with the GAO's findings that there are certain things that 
should not be included in the maintenance backlog. We agree 
that you need to ride herd on certain construction projects in 
the Park Service. So I want to start from the premise.
    There is one specific program, the Vanishing Treasures 
Program, which we are supportive of.
    Mr. Regula. That was a new initiative coming out of our 
subcommittee.
    Mr. Collins. It was a new initiative doing work that has 
been ongoing, that is essentially right, maintenance work in 
the Southwest. The budget request last year was $3.5. It came 
out at $1 million. This year, the budget request is $500,000, 
which we believe is tantamount to ending the program and we 
think that that should not happen.
    Mr. Regula. We are going to do all we can.
    Mr. Collins. Okay. I appreciate that.
    Mr. Regula. Thank you very much.
    [The statement of Kevin Collins follows:]

[Pages 342 - 345--The official Committee record contains additional material here.]


                                            Tuesday, March 3, 1998.

                           NATURAL RESOURCES

                                WITNESS

DANIEL P. BEARD, SENIOR VICE PRESIDENT, PUBLIC POLICY, NATIONAL AUDUBON 
    SOCIETY
    Mr. Regula. National Audubon Society.
    Mr. Beard. How are you, Mr. Chairman?
    Mr. Regula. Mr. Beard, nice to see you again.
    Mr. Beard. It is nice to see you again. I was just reminded 
as I was sitting watching Mr. Yates that I arrived here the day 
you did, which was, as I recall, February of 1975.
    Mr. Regula. I came to this committee in February of 1975, 
that is right, second term. It is a great committee. It is the 
best one in Congress.
    Mr. Beard. It is. I had a better seat in those days than I 
have right now.
    Mr. Regula. Is that right?
    Mr. Beard. Yes. I was sitting back there. It is always 
better.
    Mr. Regula. Do you agree, Lori? [Laughter.]
    Lori Rowley is new to this. Tell me quickly what you have 
in mind.
    Mr. Beard. Mr. Chairman, first of all, I want to begin by 
thanking you and the subcommittee. I think you have done a 
terrific job under the most difficult of circumstances over the 
last couple of years. We particularly appreciate the funding 
that you have given to some of the programs that we think 
fondly of, those programs that protect birds, other wildlife, 
and their habitat.
    There are really six things I want to mention to you. One 
is the Land and Water Conservation Fund. We support the full 
authorization for that. We have appended to our testimony a set 
of priorities which we have developed with our membership. We 
have 550,000 members in the United States, Canada, and Central 
America, and we have gone out to them with a list of national 
Land and Water Conservation Fund priorities. They have come 
back and given that list to us. We presented it to you and your 
staff.
    In addition, the Everglades restoration has been one of the 
major priorities for our organization and----
    Mr. Regula. You know we are doing that.
    Mr. Beard. And you are doing an excellent job. The $144 
million requested by the administration, we support, and we 
would urge you to support that.
    We also appreciate the work you did on the National 
Wildlife Refuge System and the operation and maintenance funds 
additions that you put in last year. The administration has 
matched your leadership and come forward with a little bit more 
money. We think there are some additional funds that could be 
made available.
    The Endangered Species Program, for the first time, the 
administration has come forward with what we think are some 
increases that are more than justified and long overdue. We 
would support the administration's request.
    There is a small program called the Office of Migratory 
Bird Management in the Fish and Wildlife Service. This small 
program, $18 million, has struggled along for years and we 
would urge you to consider additional funding to be able to 
enhance the ability of that office to meet their statutory 
responsibilities, and it particularly has to do with our 
ability to assist in making some small grants to assist in 
winter habitat for birds in Latin America.
    And finally, we would support the administration's request 
of $6 million for the National Fish and Wildlife Foundation.
    Less than five minutes, Mr. Chairman.
    Mr. Regula. The response to your request will probably be 
less than you requested, so----
    Mr. Beard. I absolutely understand.
    Mr. Regula. Was Mr. Yates chairman in 1975?
    Mr. Beard. Yes. I was his first----
    Mr. Regula. He must have just taken over then.
    Mr. Beard. Yes. I was his first associate staff member and 
I was here and I recall the first hearing we had was Secretary 
Tom Kleppey----
    Mr. Regula. I remember him.
    Mr. Beard. Who referred to you as Mr. Regula. [Laughter.]
    Mr. Regula. Yes. That was not the last one.
    Mr. Beard. He was not the last one? That is too bad.
    Mr. Regula. That is all right. Just so they vote right. 
[Laughter.]
    I do pretty well in the ethnic districts.
    Mr. Beard. Ever since you got that chair, you have done 
much better, right?
    Mr. Regula. Julie Hanson was prior to that, I think.
    Mr. Beard. Yes. She had been prior to that and the 
subcommittee at that time was over in the Capitol and Mr. Yates 
was the one who insisted on having this room and also insisted 
upon having this table instead of a dias, as some of the 
members insisted at the time.
    Mr. Regula. That is interesting.
    Mr. Beard. And then also, he was the first person to 
publish the budget request documents for the agency. Remember, 
he published them as volume one and volume two and made them 
publicly available. Prior to that time, they were not available 
to anybody, and so those of us who have a stake in the 
committee, never had an opportunity to really voice concern.
    Mr. Regula. He did a great job. I enjoyed working with him.
    Mr. Beard. A terrific job.
    Mr. Regula. It has been a great committee. Thank you very 
much.
    Mr. Beard. Thank you, Mr. Regula.
    [The statement of Daniel Beard follows:]

[Pages 348 - 353--The official Committee record contains additional material here.]


                                            Tuesday, March 3, 1998.

                   STATE AND PRIVATE FORESTRY PROGRAM

                               WITNESSES

BILL IMBERGAMO, NATIONAL ASSOCIATION OF STATE FORESTERS
MARVIN BROWN, PRESIDENT
    Mr. Regula. National Association of State Foresters
    Mr. Imbergamo. Good afternoon, Mr. Chairman. I am Bill 
Imbergamo with the National Association of State Foresters. I 
have brought with me for show and tell my president, Marvin 
Brown, who has lost his voice. He was going to deliver our 
testimony this afternoon.
    I want to thank you first off for the support that you have 
shown over the years for the State and private programs. We 
appreciate it and we look forward to working with you and your 
staff in the future.
    State forestry agencies implement most of the programs 
within the State and private budgets, so, of course, we are 
very concerned with this appropriations process and we have 
submitted written testimony and we know that will be made part 
of the record.
    What I would like to stress here is that the figures in our 
testimony really more reflect the priority. They do not reflect 
the needs of the programs. They fall short of what is needed to 
really adequately cover the sustainability of the nation's 
State and private resources.
    There are several studies that point to some salient facts 
about forest sustainability in this country, including the 
National Research Council's study that came out recently. 
First, the sustainability of forest resources in this country 
in large part is dependent upon non-Federal lands and State and 
private lands in particular, particularly those owned by 
individuals who are not associated----
    Mr. Regula. What percentage of the wood fiber used in the 
United States comes from the private versus the public sector?
    Mr. Imbergamo. It is at least 60 percent.
    Mr. Regula. Does that 60 include State, or is that totally 
private?
    Mr. Imbergamo. That is just non-industrial private, 
actually.
    Mr. Regula. Non-industry, 60 percent?
    Mr. Imbergamo. Private lands, 60 percent, and the estimates 
are kind of all over the place. Some range well over 70 at this 
point.
    Mr. Regula. Are you eliminating the Weyerhausers and all of 
those?
    Mr. Imbergamo. Right, out of that.
    Mr. Regula. And it is still 60 percent?
    Mr. Imbergamo. That is correct.
    Mr. Regula. Just small farms and----
    Mr. Imbergamo. Non-industrial private woodland owners, on 
average, own--I believe it is well less than 80 acres per 
landowner. We have also seen proliferation of ownerships below 
20 acres in the past 50 years. So the majority of the resource, 
including the wood fiber, is coming off of those small 
ownerships.
    Mr. Regula. That is very interesting.
    Mr. Imbergamo. It is a long-term trend and I think the 
industry is aware of it and it is an important----
    Mr. Regula. I assume you encourage it.
    Mr. Imbergamo. Pardon?
    Mr. Regula. You encourage it.
    Mr. Imbergamo. We encourage it, but it presents some 
challenges as the land ownerships get smaller.
    Mr. Regula. Yes. That is happening.
    Mr. Imbergamo. The ability and the interest of landowners 
in managing for timber and other resources gets harder and 
harder to have them make adequate plans----
    Mr. Regula. Yes, I can see that.
    Mr. Imbergamo [continuing]. And that is what our programs 
are really intended to accomplish. It is really a pretty minor 
investment that is made by the Forest Service, around $200 
million if you include some of the research programs, but only 
about $140 million a year reaches the ground, and that is 
probably optimistic in and of itself.
    We do have priorities and they have been the same as in the 
past within State and private, the Co-op Fire Program, 
Landowner Assistance Programs, the Urban and Community Forestry 
Program, and a balanced Forest Health Program. I will just run 
through them quickly.
    We appreciate the support you have shown for Cooperative 
Fire. The request the administration has made for this year 
includes moving volunteer fire assistance directly into the 
Forest Service. It had been a pass-through program from another 
USDA agency. The move is pretty long overdue.
    Mr. Regula. You support that?
    Mr. Imbergamo. We support it very strongly, so we hope you 
can help us with that.
    The Forest Health Program, the request of the 
administration is relatively strong. It does not include enough 
money to fund the ``slow the spread'' program, and as you know, 
if your district is at the end of the spread of the gypsy moth, 
that program really needs full funding at some point. The 
expansion of the Forest Health Monitoring Program is something 
we support, as well.
    The Landowner Assistance Programs continue to be a major 
priority. These are the main tools that the State forestry 
agencies have to reach those landowners we talked about. They 
have been cut several years ago. They are slowly building back 
up. We would like to see in particular the Stewardship 
Incentives Program go back up over $10 million so it can 
function as a national program.
    Mr. Regula. Okay. We are about out of time.
    Mr. Imbergamo. I would just like to close. We appreciate 
your support, particularly of the Urban and Community Forestry 
Programs, and we will be available for any questions.
    Mr. Regula. Do the State forests produce quite a bit of 
fiber?
    Mr. Imbergamo. The State forests? Yes, indeed, they do, and 
in several States, they are basically revenue-generating trust 
agencies, in States like Montana----
    Mr. Regula. Are States getting the same quantum leap in 
multiple use that the Federal forests are?
    Mr. Imbergamo. In terms of expense?
    Mr. Regula. No, in terms of usage by the public.
    Mr. Imbergamo. It is fair to say they are seeing an 
increase. I do not have any really good figures on it. The NRC 
study showed that about 26 million acres of State forest land 
are managed primarily for recreation, but where the State 
manager is under a trust mandate, the emphasis is more on 
timber and other uses like that. But they do allow multiple 
use.
    Mr. Regula. Thank you very much.
    Mr. Imbergamo. Thank you.
    [The statement of Bill Imbergamo follows:]

[Pages 357 - 362--The official Committee record contains additional material here.]


                                            Tuesday, March 3, 1998.

                FOREST SERVICE/BUREAU OF LAND MANAGEMENT

                                WITNESS

JOHN HEISSENBUTTEL, AMERICAN FOREST AND PAPER ASSOCIATION
    Mr. Regula. American Forest and Paper Association.
    Mr. Heissenbuttel. Good afternoon, Mr. Chairman. My name is 
John Heissenbuttel. I am with AFPA.
    I would like to begin by recognizing that today is the 
107th birthday of the Forest Service. I do not know how many 
people knew that, but on March 3----
    Mr. Regula. You did not tell me, Chris.
    Mr. Heissenbuttel. On March 3, 1891, the Creative Act was 
enacted.
    Mr. Regula. The public lands were out there, but there was 
no management prior to that, I assume.
    Mr. Heissenbuttel. Well, what it did was authorize the 
President to establish forest reserves, so it is really the 
beginning of the National Forest System and the Forest Service 
itself. The mission was clarified in 1897 through the Organic 
Act.
    But to me, it is funny what a difference 100 years makes. 
Back then, we had an administration that was committed to 
establishing something good for the benefit of the masses, and 
today, we have an administration that seems bent on dismantling 
an organization to the benefit of a few.
    What I would like to do in my testimony today is just go 
briefly over three points. The first is the mission of the 
National Forest System. Second, the mission of the Forest 
Service research program. And finally, the mission of the State 
and private forestry program.
    What we have done is reviewed the administration's proposed 
budget for the National Forest System, together with the call 
for the roads moratorium, and we do not see an organization 
with a mission to manage lands sustainably for multiple use for 
the benefit of the masses. What we have recommended in our 
testimony represents maintaining some life in the concept of 
managing national forests for multiple uses, but to be honest 
with you, maybe it is time to consider more of a custodial 
approach, something along the lines of benign neglect. We need 
to talk about mission.
    As we reviewed the proposed budget for Forest Service 
research, what we see is an organization dedicated largely to 
producing research that benefits the National Forest System. 
Now, the original intent of the Forest Service research program 
was to produce research that is useful for non-industrial 
landowners for all the forest lands of the United States.
    Mr. Regula. Would not research that affected national 
forests also affect the private forests? The problems have to 
be the same.
    Mr. Heissenbuttel. In some ways, but much of the research 
is now dedicated to wildlife and forest management----
    Mr. Regula. As opposed to products.
    Mr. Heissenbuttel [continuing]. That is unique to National 
Forest System lands. What we would like to see is research that 
benefits the entire forest resource base and we are not seeing 
that right now.
    Mr. Regula. You are saying State, private, and Federal.
    Mr. Heissenbuttel. Correct. You bet. That was the original 
mission of Forest Service research. If we want a more 
restricted mission on Forest Service research, maybe that is 
okay. Maybe we should just consider how we get additional funds 
to universities to provide research to benefit the remainder of 
the forest land.
    One thing I would be remiss if I did not mention is the FIA 
Program within the Forest Service has the real potential to be 
a shining star to produce valuable information for everybody 
involved in forest management across the United States. Your 
committee helped a great deal last year in giving direction to 
the Forest Inventory and Analysis Program. We would like to 
encourage you to keep their feet to the fire.
    Finally, State and private forestry, no doubt part of their 
mission is protecting forest health through cooperative insect 
and disease and fire suppression. What is beyond that role has 
always been a subject of intense debate in the forestry 
community. We applaud the Forest Service. They are looking at 
strategic direction in State and private. We hope that they 
create some sort of substantive role for the other forest land 
owners to talk with them in that strategy.
    In sum, mission is really the heartbeat of an organization 
and our view is, currently, the Forest Service is on a 
resuscitator and we cannot determine yet whether the heartbeat 
is irregular or the heartbeat has just gone flat lined. We 
cannot figure out whether we should be pulling the plug or 
trying to revive the patient. That is where we are at today.
    Mr. Regula. Well, let us know when you figure it out. 
[Laughter.]
    Mr. Heissenbuttel. I would be glad to. Thank you.
    Mr. Regula. Thank you.
    [The statement of John Heissenbuttel follows:]

[Pages 365 - 368--The official Committee record contains additional material here.]


                                            Tuesday, March 3, 1998.

                        FEDERAL FISH HATCHERIES

                                WITNESS

NORVILLE PROSSER, AMERICAN SPORTFISHING ASSOCIATION
    Mr. Regula. American Sportfishing Association.
    Mr. Prosser. Thank you, Mr. Chairman. My name is Norville 
Prosser and I am Vice President of the American Sportfishing 
Association. I think, Mr. Chairman, you know we represent the 
sportfishing industry. Since we were last here, we now know 
that that industry is about $108 billion a year in economic 
activity and supports about 1.2 million jobs. So much of that 
is supported by the public lands, which are under your 
jurisdiction----
    Mr. Regula. You mean for the user?
    Mr. Prosser. Absolutely, yes sir.
    Mr. Regula. And you represent people that manufacture 
fishing equipment?
    Mr. Prosser. That is exactly right.
    Mr. Regula. The boating industry----
    Mr. Prosser. Boats, motors, trailers, fishing rods.
    Mr. Regula. Tell me what is good or bad about the present 
environment.
    Mr. Prosser. All right. I am happy to be here to do that 
for you today, sir.
    We, of course, our industry depends upon a health, 
sustainable aquatic resource out there, and yet we do represent 
an industry that supports a lot of jobs and the result of using 
that.
    We believe that the President's budget for fiscal year 1999 
is a pretty positive one for aquatic resource conservation, and 
in our written testimony, which we have submitted, we are 
pleased to support many aspects of that.
    In the very few minutes that I have before you here this 
afternoon, I would like to highlight three items for you.
    Mr. Regula. Okay.
    Mr. Prosser. First is the matter of the U.S. Fish and 
Wildlife Service's Federal fish hatchery system. The last 
gentleman talked about a resuscitator. We have a similar 
situation there. Under your leadership last year, you took a 
very meaningful step in addressing the maintenance and 
construction, rehabilitation backlog in the Fish and Wildlife 
Service's refuge system.
    Mr. Regula. We are trying to do that all across the board.
    Mr. Prosser. Well, this is a particular program area that 
is really in need. They conservatively estimate that the 
backlog is about $117 million.
    Mr. Regula. You are saying that the hatcheries are in bad 
condition.
    Mr. Prosser. That is correct.
    Mr. Regula. Just so I can understand it.
    Mr. Prosser. That is exactly correct.
    Mr. Regula. We will do all we can on that. You can count on 
it.
    Mr. Prosser. All right. I appreciate that very much.
    In addition to the maintenance and rehabilitation backlog, 
we have reduced the operational capability of the hatcheries by 
about 11 percent.
    Mr. Regula. Is this through closings or just by each 
hatchery being able to do less?
    Mr. Prosser. This Congress has instructed the 
administration to undertake a very careful analysis of their 
hatchery systems and make sure that they match top Federal 
priority programs, and they have done that and there have been 
some closures and transfers of Federal hatcheries to States.
    Mr. Regula. Right.
    Mr. Prosser. But the Federal funding level itself for the 
remaining hatcheries has declined by about 11 percent with CPI 
adjustments.
    Mr. Regula. You are saying there is a point that they are 
no longer operating effectively.
    Mr. Prosser. They are no longer able to--that is right.
    Mr. Regula. This reduces the amount of small fish to 
restock and so on.
    Mr. Prosser. The issue is both the number of fish and then 
how we use those, to use them properly, make sure that they are 
quality fish when we put them out there. We just have to enable 
the agency to be able to do that.
    Mr. Regula. Right.
    Mr. Prosser. The second item I bring very quickly to your 
attention is that the Bureau of Land Management, they have, 276 
million acres of this country to manage and all the aquatic 
habitats thereon. They have 66 aquatic biologists on staff.
    Mr. Regula. They need more.
    Mr. Prosser. They do, indeed.
    Mr. Regula. Okay. What else do you have?
    Mr. Prosser. The last thing, I just want to support the 
President's request for the inland fisheries budget of the U.S. 
Forest Service. They have asked finally for a responsible 
amount to do that work, $23.5 million, and we want to support 
that, and those are the three things I want to bring to your 
attention.
    Mr. Regula. As you have heard me say before, the 
President's budget is unreal because the money is not there. I 
mean, it is easy to send up any number that occurs to them, but 
they do not have to come out and raise the money to do it. So 
we will do the best we can with the resources we have.
    Mr. Prosser. We appreciate it.
    Mr. Regula. I do not know what we will have in the way of 
an allocation.
    Mr. Prosser. Fine.
    Mr. Regula. Thank you very much.
    Mr. Prosser. We appreciate it and look forward to working 
with you on that, sir.
    Mr. Regula. Thank you.
    [The statement of Norville Prosser follows:]

[Pages 371 - 376--The official Committee record contains additional material here.]


                                            Tuesday, March 3, 1998.

  LAND AND WATER CONSERVATION FUND/FOREST LEGACY PROGRAM/APPALACHIAN 
                                 TRAIL

                                WITNESS

THOMAS E. STEINBACH, CONSERVATION DIRECTOR, APPALACHIAN MOUNTAIN CLUB
    Mr. Regula. The Appalachian Mountain Club. Is this on the 
Appalachian Trail?
    Mr. Steinbach. The AMC is a membership organization that is 
focused from Virginia to Maine, not just on the Appalachian 
Trail.
    Mr. Regula. Just on trails that are part of the Appalachian 
Mountain chain, is that right?
    Mr. Steinbach. We focus on conservation and recreation of 
all types from the States from Virginia to Maine, so in the 
Northeast and Mid-Atlantic States.
    I am Tom Steinbach. I am the Conservation Director of the 
AMC. I wanted to thank you for taking the time to let me be 
here today. I really have three things I want to talk about, 
the Land and Water Conservation Fund, the Forest Legacy Program 
of the U.S. Forest Service, and conservation of the Northern 
Forest.
    Mr. Regula. Right.
    Mr. Steinbach. The Land and Water Conservation Fund, you, 
through this committee showed, I think, great leadership last 
year in stepping up and providing significant funding for LWCF.
    Mr. Regula. Well, we do all we can, but as you understand, 
we have real priority choices we have to make and it is not 
easy.
    Mr. Steinbach. I fully understand that. I am also 
interested and bolstered by the news that revenues from the oil 
and gas leases on the outer continental shelf were, what, I 
guess, $4.7 billion in 1997----
    Mr. Regula. That is deep-water drilling. That has become 
very productive.
    Mr. Steinbach. And expected to rise.
    Mr. Regula. Right.
    Mr. Steinbach. What I would like to see and what the AMC 
would like to see is an ongoing commitment to the full funding 
of the Land and Water Fund at the $900 million level. In 
addition, we would like to see at least $200 million of that 
flowing to the State side of LWCF.
    Mr. Regula. I have trouble with the State side and I will 
tell you why. They have more money than we do. Their budgets 
are in good shape because the States' boats have gone up with 
the Federal, in terms of the economy.
    Mr. Steinbach. The individual States?
    Mr. Regula. Yes. Right. Many of them have surpluses and I 
have a hard time thinking why we should collect money and send 
it out to the States to do as they please when we have so many 
unmet needs. If you sit in here today, tomorrow and Thursday, 
and you had an adding machine, it would come out to about 
triple what we have in our 602(b) allocation.
    Mr. Steinbach. My challenge and the challenge we face in 
the Northeast in particular is that we do not have many Federal 
lands. So in order to leverage the money that States do 
provide, and in many cases it is not substantial, we need the 
help of the State side program.
    Mr. Regula. Well, you have more Federal land per person 
than we do in Ohio, I would guess.
    Mr. Steinbach. Perhaps. As you move west, however, that 
proportion changes dramatically.
    Mr. Regula. You have the White Mountains and a lot of State 
land, public lands, Federal lands.
    Mr. Steinbach. In fact, Maine itself ranks lowest in the 
nation for public lands.
    Mr. Regula. Is that on a per capita basis or is that per 
square mile?
    Mr. Steinbach. On area.
    Mr. Regula. Per square mile? Well, sure.
    Mr. Steinbach. In any event, the State side is a critical 
tool for us to be able to leverage that State money you were 
talking about and we would like to see a slow and steady 
resurgence of the State side of LWCF.
    Mr. Regula. I think until our budget gets a lot healthier, 
that is not likely to happen, simply because we are hard-
pressed to meet the Federal obligation, which is in the 
National Park System, the Forest System, the BLM, all the 
cultural agencies downtown. As I said, the money is just not 
there.
    Mr. Steinbach. I understand the challenge.
    Mr. Regula. Okay. What else do you have?
    Mr. Steinbach. The Forest Legacy Program of the U.S. Forest 
Service, a relatively small program but effective. It is a 
public-private partnership. It allows landowners to essentially 
sell conservation easements. That allows them to continue 
owning the land but provide for its long-term stewardship. We 
would like to see a dramatic increase or a serious increase in 
funding.
    Mr. Regula. This would be using Federal money to buy the 
easements?
    Mr. Steinbach. Yes. States can hold those easements or the 
Federal Government can hold those easements.
    Mr. Regula. I think wherever possible and wherever funds 
are available, easements are an efficient way to add to the 
land base of given institutions.
    Mr. Steinbach. Absolutely, and it gets around the 
operations and maintenance problem.
    Mr. Regula. I understand, and that is one of the things we 
are trying to avoid, because every time we add something we get 
an operations and maintenance cost down the road.
    Mr. Steinbach. Yes.
    Mr. Regula. Okay. You had one more.
    Mr. Steinbach. One more is the Northern forest, and mostly, 
I wanted to highlight the fact that the administration has 
highlighted the Northern forest as one of four priorities in 
its budget for the coming year. There are several projects that 
are detailed in my testimony----
    Mr. Regula. When you say Northern forest, are you talking 
about buying additional land or just the management of it.
    Mr. Steinbach. Buying additional land, both using Forest 
Legacy and, hopefully, State side LWCF. Then in addition, using 
two Forest Service programs, the Stewardship Incentive Program 
and Rural Development Through Forestry, both of the Forest 
Service programs, to help with rural economic development. What 
we have in the Northern forest are economies that, in many 
cases, are struggling. They need this sort of technical 
assistance and assistance to ensure that they are able to 
continue providing stewardship for that place.
    Mr. Regula. Okay. Thank you very much.
    Mr. Steinbach. Thanks.
    [The statement of Thomas E. Steinbach follows:]

[Pages 380 - 385--The official Committee record contains additional material here.]


                                            Tuesday, March 3, 1998.

               RARE AND ENDANGERED PLANTS ON PUBLIC LANDS

                                WITNESS

JANE S. HENLEY, THE GARDEN CLUB OF AMERICA
    Mr. Regula. The Garden Club of America.
    Ms. Henley. Good afternoon.
    Mr. Regula. How are you?
    Ms. Henley. I am Jane Henley and I come here from Colorado 
Springs and I am representing the Garden Club of America. I am 
their Chairman of National Affairs and Legislation. I think you 
have some friends that are members of our club.
    Mr. Regula. It starts in my bedroom. [Laughter.]
    Ms. Henley. All right. At any rate, we have 193 clubs with 
a membership of 16,500 from 40 States. What we are doing here 
today is to speak to you about a need that we have discovered 
in some of our activities to do with the need for botanists to 
be in the Federal staffing group within all of the departments 
in the entire Interior.
    Mr. Regula. You do not think they have enough?
    Ms. Henley. Not enough. They have scientists, they hire 
biologists, but the biologists are often Fish and Wildlife 
people for animals. They are not plant people. We are not 
saying ``botanist'' has to be the title. We are saying ``plant 
ecologist'', but that within the background, they should have a 
lot of expertise in plants.
    Now, the reason I say this is because two-thirds, almost 
two-thirds, over 60 percent of your endangered species are 
plants. Now, this is little known because the animals get all 
the play.
    Mr. Regula. That is right.
    Ms. Henley. So there are very few people that are out 
speaking for plants and the Garden Club of America is one of 
about two groups that are actually advocating legislatively for 
that constituency.
    We have a program called Partners for Plants and through 
that experience we have dealt with five different Federal 
agencies. It is a partnership with each of them, and all within 
your budget. They are named here. At any rate, all of them, and 
I have talked to every one in the last few days and they each 
say the same thing. You are right. We do not have enough plant 
people.
    I will give one example. The biological resources, when 
they formed that, they all came from Fish and Wildlife and they 
do not have any plant experience. It is sad, because they are 
doing all the surveying----
    Mr. Regula. We should have more of them. Why do they not? 
Did they give you a reason?
    Ms. Henley. Well, they gave the excuse, well, we came from 
Fish and Wildlife. That is the way it was just put together. 
But that does not mean to me, especially with the Endangered 
Species Act being mainly the realm of Fish and Wildlife, that 
they particularly should have plant people, but they do not. It 
is just they do not. Now, they have 40 botanists in the whole 
BLM out of thousands of employees. It is pretty similar with 
Fish and Wildlife. It is incredible.
    What we are asking is not necessarily--we want you to 
particularly fund as best you can the Endangered Species Act 
because there are all these voluntary programs that have just 
been instituted in it. This will help plants, because, by the 
way, on private land, plants are not covered by the Endangered 
Species Act. These are voluntary incentive programs to get your 
private landowner into it with the conservation easements that 
you just mentioned and so forth.
    Mr. Regula. Do you like the Kempthorne bill?
    Ms. Henley. We, as the Garden Club of America, are leaning 
very close to supporting that for this reason. It is because of 
these private incentives and also because we feel that the ball 
should start moving. We do not believe that the bill should 
die. That is unlike some of the other organizations that are 
out there.
    Mr. Regula. I do not recall. Has it passed the Senate?
    Ms. Henley. It has not come up yet.
    Mr. Regula. It has not been on the floor?
    Ms. Henley. No, it has not. So we are leaning in that 
direction. It has not been definitely----
    Mr. Regula. We will raise the question as the agencies come 
before us on the matter of botanists.
    Ms. Henley. But what we are asking is, number one, that you 
do fund them as best as you can for their staffing. Within that 
funding, if you could do this for us, which is--I think when I 
have spoken to them, they say nothing will happen with those 
funds if you do not, and that is that we urge you to include 
language in your committee report which will require agencies 
to address their needs for field staff with expertise in plant 
sciences.
    Mr. Regula. I understand that, because they really 
ultimately make the decision.
    Ms. Henley. Right.
    Mr. Regula. We do not earmark and say they should have so 
many botanists. But we can put in report language.
    Ms. Henley. But if you would put report language in there 
bringing to their attention and ask them, then maybe they will 
do it.
    Mr. Regula. In the hearings, we will ask about it, and that 
may then justify language.
    Ms. Henley. But we mentioned it to Secretary Babbitt the 
other day when we had all of our Garden Club ladies here about 
a week ago and he said, ``You are right. We need to do 
something about it.''
    Mr. Regula. And he is in a position to do something about 
it.
    Ms. Henley. Right.
    Mr. Regula. We will help him.
    Ms. Henley. Okay. Thank you.
    Mr. Regula. Thank you.
    [The statement of Jane Henley follows:]

[Pages 388 - 391--The official Committee record contains additional material here.]


                                            Tuesday, March 3, 1998.

                   LWCF FOR SANTA ROSA MOUNTAINS, NSA

                                WITNESS

SHARON APFELBAUM, COACHELLA VALLEY MOUNTAINS CONSERVANCY
    Mr. Regula. Coachella Valley Mountains Conservancy, Sharon 
Apfelbaum.
    Ms. Apfelbaum. Yes. I am a board member of the Coachella 
Valley Mountains Conservancy and, in fact, have been involved 
in it since its inception. I was one of the founding people, so 
I am happy to be back here. The conservancy----
    Mr. Regula. Where is this? Tell me.
    Ms. Apfelbaum. This is in the Coachella Valley, which 
surrounds Palm Springs, California, and its adjacent cities. It 
is a resort area that is very dependent on its mountain 
setting.
    Mr. Regula. Is it private land or is it public land?
    Ms. Apfelbaum. The valley encompasses nine separate cities, 
a county, and is overseen by an umbrella organization called 
the Coachella Valley Association of Governments.
    Mr. Regula. And the conservancy district is a non-profit 
private----
    Ms. Apfelbaum. The conservancy is non-profit, but it is a 
State agency and was designated so in 1991.
    Mr. Regula. How do we fit into this?
    Ms. Apfelbaum. With your money.
    Mr. Regula. That is something new today. [Laughter.]
    Mr. Regula. Did we give you money?
    Ms. Apfelbaum. You have, indeed, given us money and helped 
us with land and water conservation funds. We have acquired 
some important parcels in our valley that protect scenic views 
and protect----
    Mr. Regula. So your group can hold title to land?
    Ms. Apfelbaum. Yes.
    Mr. Regula. Do you have a staff?
    Ms. Apfelbaum. We have an executive director and an 
assistance executive director who work very hard.
    Mr. Regula. So your mission is to preserve open spaces 
within this valley----
    Ms. Apfelbaum. Exactly.
    Mr. Regula [continuing]. Which is probably rapidly 
developing.
    Ms. Apfelbaum. It is so rapidly developing, and the 
portions we want to acquire are pressured by development right 
now, so timing is a key.
    Mr. Regula. I can understand that. So the role we could 
play is whatever we can do in providing you some financial 
assistance?
    Ms. Apfelbaum. Actually, you have heard from the 
conservancy for some number of years now and you have helped 
us, so I will just refresh your memory to remind you that the 
mountain ridge forms the backdrop of all these Coachella Valley 
cities and is a key to our economy. Mountains rise steeply from 
the desert floor. In fact, it is one of the steepest 
escarpments in the United States. It is quite beautiful. The 
mountains when I left were snow-covered. The desert was sunny. 
It is a beautiful place. If you have not been there, I invite 
you to come.
    Mr. Regula. I have been to Palm Springs a couple of times, 
and I presume it is typical of what you are talking about 
there, right?
    Ms. Apfelbaum. Yes. Yes. Exactly.
    Mr. Regula. Is this not a valley that goes up to Los 
Angeles?
    Ms. Apfelbaum. No. It does not go quite that far. It is 
about 60 miles in length and it goes from--Palm Springs is the 
northernmost city and then the nine cities spread south to the 
Salton Sea.
    Mr. Regula. It runs north and south?
    Ms. Apfelbaum. Yes, at a slight angle.
    Mr. Regula. You have a real problem with the Salton Sea.
    Ms. Apfelbaum. Yes, we do. That is----
    Mr. Regula. It has a new name. That may help.
    Ms. Apfelbaum. Yes. We hope it will help. Name recognition 
counts in this day and age.
    Mr. Regula. We put $1 million in last year, while Sonny 
Bono was still here, and I understand the problem. How about 
your cities and the counties and the State? Are they helping 
you?
    Ms. Apfelbaum. We have tremendous support from our cities. 
Every city contributes to the Coachella Valley Mountains 
Conservancy, and, in fact, the City of Palm Desert just 
promised $1.5 million for a piece of land that is north of our 
visitors' center that the BLM operates and is key to the 
mountain sheep----
    Mr. Regula. There is some BLM land in the valley?
    Ms. Apfelbaum. Oh, yes. We have lots of BLM land in the 
valley.
    Mr. Regula. There is a visitors' center?
    Ms. Apfelbaum. Yes.
    Mr. Regula. A BLM-operated visitors' center?
    Ms. Apfelbaum. Yes. It is one of the prettiest I have ever 
seen.
    Mr. Regula. So anything we would do would support the BLM 
operation?
    Ms. Apfelbaum. Essentially, yes, but what is important for 
you to know is that we have a really strong volunteer operation 
and the volunteers run the visitors' center and the volunteers 
also are fundraisers for this conservancy, very strong 
community support through all the cities and the county and 
volunteer people.
    Mr. Regula. That is important, very important. Thank you 
very much.
    Ms. Apfelbaum. All right. Thank you.
    [The statement of Sharon Apfelbaum follows:]

[Pages 394 - 397--The official Committee record contains additional material here.]


                                            Tuesday, March 3, 1998.

             FOREST SERVICE'S COOPERATIVE FORESTRY PROGRAMS

                                WITNESS

MAX CORDOVA, NATIONAL NETWORK OF FOREST PRACTITIONERS
    Mr. Regula. National Network of Forest Practitioners. Mr. 
Cordova?
    Mr. Cordova. Mr. Chairman, thank you for the opportunity to 
testify as part of these public witness hearings on the Forest 
Service budget for 1999. I am Max Cordova, President of the 
Truchas Land Grant in Truchas, New Mexico. Our land grant was 
given to us by the government of Spain in 1754, by the 
government of Mexico in 1829, and by the Government of the 
United States in 1892. It was ratified by Congress in 1905 and 
by President Theodore Roosevelt at the same time.
    The land grant people are descendants of the settlers who 
came from Spain in 1598 and intermarried with Pueblo Indians. 
They have used the land to sustain themselves and to maintain 
their families into the future.
    Mr. Regula. This is a form of reservation, then? Would you 
consider this a Native American reservation?
    Mr. Cordova. Very similar, sir.
    Mr. Regula. And you have a lot of forests?
    Mr. Cordova. We had a lot of forests. They are now managed 
by the national forests.
    Mr. Regula. They are managed by the national forests?
    Mr. Cordova. Yes.
    Mr. Regula. Okay.
    Mr. Cordova. I am here today as a member of the National 
Network of Forest Practitioners, a national coalition of over 
100 individual organizations and small businesses in 31 States 
living and working in forest-dependent communities like mine. I 
am here today to express support for the Forest Service 
Economic Action Program, which fund part of the agency's 
cooperative forestry programs.
    The demonstrated effectiveness of these programs in rural 
communities across the country has generated a rising interest 
in them among communities suffering environmental and economic 
ills. In recent years, however, the funding for Economic Action 
Programs has declined----
    Mr. Regula. These are programs coming out of the Forest 
Service?
    Mr. Cordova. Yes.
    Mr. Regula. And you basically would like additional funding 
for those programs?
    Mr. Cordova. Yes, sir.
    Mr. Regula. Do they work well?
    Mr. Cordova. Very well, sir.
    Mr. Regula. In your groups, do you sell fiber to the 
market? Do you harvest some of your forest products?
    Mr. Cordova. Yes, sir, we do.
    Mr. Regula. And do you also have multiple use by people 
coming to hunt, fish, whatever?
    Mr. Cordova. Definitely, sir.
    Mr. Regula. So basically, you want us to support this 
program within the Forest Service?
    Mr. Cordova. Yes, sir.
    Mr. Regula. Okay.
    Mr. Cordova. To show you how successful the program is, the 
Economic Action Programs have decreased from one in three 
applicants to one in five applicants. For this reason, we 
respectfully request a 1999 appropriation of $20 million for 
Economic Action Programs, a figure on par with the 
appropriation for 1997.
    Mr. Regula. You are saying this is about what was in the 
1997 budget?
    Mr. Cordova. Yes.
    Mr. Regula. How about 1998?
    Mr. Cordova. Much less than that.
    Mr. Regula. So you would like an increase?
    Mr. Cordova. Yes, sir.
    Mr. Regula. Okay. That means that we have your statement. 
That does not mean okay on the increase.
    Mr. Cordova. Yes, sir. I understand that. [Laughter.]
    Mr. Regula. I have to be careful here.
    Mr. Cordova. One of the reasons I am here today is to alert 
you and the rest of the committee to the pivotal role that the 
Forest Service has played and can play in assisting communities 
like mine and to express the appreciation of the role the 
Congress has played in making these things possible.
    In my part of the country, there are 38 forest-dependent 
communities which have traditionally relied on the local 
national forest for wood to heat our homes and to cook our food 
and for the forest resources to build our homes and to sustain 
our way of life.
    Mr. Regula. What else do you have in your economy besides 
forest products? Do you have farming?
    Mr. Cordova. Almost no farming at all.
    Mr. Regula. Do you have any small industries?
    Mr. Cordova. The biggest employer is Los Alamos National 
Lab.
    Mr. Regula. Okay. That is probably a pretty good size, 
then, in numbers.
    Mr. Cordova. Yes, sir.
    Mr. Regula. Do you have small privately-held businesses, 
wood crafts or any stores, whatever?
    Mr. Cordova. We are just starting those up through economic 
programs. In my community, for example, we are facing high 
unemployment, poverty, increased restrictions on access to 
national forests, which we actually----
    Mr. Regula. So you utilize the national forests in addition 
to your own?
    Mr. Cordova. Yes.
    Mr. Regula. You harvest out of the national forests?
    Mr. Cordova. We do not have any national forests on our 
land anymore so we have to rely off the national forests for 
our way of life.
    Mr. Regula. You do not have forest land in your 
reservation----
    Mr. Cordova. No.
    Mr. Regula [continuing]. So you have to go to the national 
forests----
    Mr. Cordova. Yes.
    Mr. Regula [continuing]. And you are running up against 
some of the restrictions that are being imposed?
    Mr. Cordova. Yes, sir.
    Mr. Regula. Okay.
    Mr. Cordova. To help us address some of these problems, we 
received a grant from EAP funds to start a wood lot where wood 
products will be harvested in nearby forests. They will be 
sorted, processed, and marketed. In return, the project will 
contribute to forest health, forest restoration through things 
and habitat improvement.
    Mr. Regula. Okay. Thank you for your time. We appreciate 
it.
    Mr. Cordova. Yes, sir. In closing, I would like to tell you 
that I feel that the EAP is cost effective, leveraging between 
$5 and $10 for every Federal dollar spent. Number two, EAP is a 
non-regulatory approach which focuses on the capacity of people 
to solve their own problems. Number three, EAP works at the 
community level, engaging the Forest Service staff directly 
with the community. And number four, EAP is very adaptive to 
changing social and economic conditions within the community.
    Mr. Regula. Thank you very much.
    Mr. Cordova. Thank you very much, sir.
    [The statement of Max Cordova follows:]

[Pages 401 - 404--The official Committee record contains additional material here.]


                                            Tuesday, March 3, 1998.

                    STATE AND PRIVATE FORESTRY/LWCF

                                WITNESS

KEITH A. ARGOW, PRESIDENT, NATIONAL WOODLAND OWNERS ASSOCIATION
    Mr. Regula. National Woodland Owners Association. Mr. 
Argow.
    Mr. Argow. Thank you very much, Mr. Chairman. We appreciate 
the special effort you and your predecessor have made to make 
these hearings open for the opportunity for us to speak.
    I am a representative of that 60 percent of America's wood 
production, as that State foresters spokesman, since I have 
never seen a voiceless State forester before but I have now 
today, so eloquently spoke. I am the President of the National 
Woodland Owners Association and our affiliated American 
Federation of State Affiliates.
    Mr. Regula. So your membership would be made up of small 
woodland owners?
    Mr. Argow. Small woodland owners----
    Mr. Regula. States?
    Mr. Argow. We are in all 50 States and the median acreage 
is 82 acres. We own 59 percent of the commercial timberland and 
we produce, as you heard--we do not know for sure, but 
somewhere between 55 and 60-plus percent.
    Mr. Regula. What percentage of your membership's production 
would be hardwoods versus soft?
    Mr. Argow. The majority would be hardwood. I could not give 
you a percentage, but we are extremely strong in the 
Northeastern U.S. and then our next great strength would be the 
Northwest lake States and then in the South, too. In the South 
would be a lot more pine production. But hardwood is very 
common.
    Mr. Regula. Are we on a sustained yield on hardwoods?
    Mr. Argow. I would say we are, sir. The NIPF, we are over-
cutting right now, but the prices are high and a lot of our 
members are not sure if they are going to be allowed to cut in 
the future with the term of regulation. But given the big 
picture, and particularly with the growth we have on the 
national forests right now that are not being harvested, 
nationwide, we are clearly growing more than we are harvesting, 
and with balance and work, we can be sustainable.
    Mr. Regula. You supply the furniture industry, I assume.
    Mr. Argow. That is correct, and the American hardwoods are 
to us an American treasure.
    Mr. Regula. Oh, they are beautiful.
    Mr. Argow. There is nothing like it in the world and they 
are the most competitive product in the world. That is why we 
do support continued certification. In fact, Ohio, where your 
woodland, your farm is, is, as you very well know, extremely 
productive.
    I was just going to skip over and use the testimony for the 
highlights. I would point out a couple of things. The State and 
private forestry is a catalyst for a State forest matching fund 
of about eight-to-one. That figures out, the 16,000 State 
forestry personnel, of one forester for every 625 woodland 
owners. Much of that gap is being made up in the free 
enterprise system with consulting foresters, but we feel that 
the public share of service forestry is cut about as far as it 
can go. We do not want to see it cut any more.
    Also, you have heard about fragmentation, the sales, again 
State foresters point out, of landowners buying smaller tracts.
    Mr. Regula. That land is being broken up.
    Mr. Argow. We are replicating. People like me have 2,500 a 
week. That is new landowners and many of them have not had any 
experience on the farm and in stewardship.
    Mr. Regula. I see that happening in our area. When the 
farmer dies, they break it into 5-, 10-, 15-, 20-acre parcels.
    Mr. Argow. Which is a wonderful lead to the six bullets I 
have here. Of course, all of our budgets are recommended along 
with our past recommendations and your past committee actions, 
which, by the way, have been very supportive. We feel well-
treated by this committee.
    The bullets are forest stewardship authorized, which you 
are very well familiar with, in the 1990 farm bill. It is hard 
to say too much good about the Forest Stewardship Program.
    The same with SIP cost sharing. Cost sharing has a proven 
track record and another committee will look at FIP, but that 
leverages a great deal of private dollars.
    The forest health and fire protection initiatives, which I 
am sure you have heard about today and you are going to hear 
more of tomorrow and Thursday.
    On Forest Legacy, you will see we are very supportive of a 
legacy but we also have a warning flag up there. We think it is 
time to rethink the authority and bid Forest Legacy easements 
like we do the Conservation Reserve Program. We will get far 
more lands protected with limited Federal dollars. Right now, 
we are using the standard appraisal, which is expensive to 
administer and it is also--the average easement is worth 50 
percent and we are just not getting the bang for the buck that 
we could, and I have emphasized that.
    Finally, the cap on forest and range research. We support 
the administration's recommendation and particularly also 
highlight FIA, the Forest Inventory and Analysis, and then the 
urban and community forestry.
    And finally, we do support the administration's position on 
the Land and Water Conservation Fund.
    Mr. Regula. Thank you very much.
    Mr. Argow. Thank you.
    [The statement of Keith Argow follows:]

[Pages 407--The official Committee record contains additional material here.]


                                             Tuesday March 3, 1998.

     BUREAU OF LAND MANAGEMENT/NATIONAL PARK SERVICE/FOREST SERVICE

                                WITNESS

JULIA A. KING, Ph.D., SOCIETY FOR AMERICAN ARCHAEOLOGY
    Mr. Regula. Society for American Archaeology. Ms. Julia 
King, right?
    Ms. King. Good afternoon. My name is Julie King. I am an 
archaeologist with the Maryland Historical Trust and today I am 
here representing the Society for American Archaeology and also 
the Society for Historical Archaeology and the American 
Anthropological Association. I want to thank you for the 
opportunity to testify before your subcommittee and also to 
thank you and your committee for the leadership and support 
that you have shown in the identification and preservation of 
cultural and archaeological resources in the last few years.
    The testimony that we have turned in concerns the National 
Park Service and Bureau of Land Management and U.S. Fish and 
Wildlife Service and U.S. Forest Service and the Advisory 
Council, but I thought since it was late in the day and that 
you have heard a lot of testimony today and that every year we 
present not the same testimony, but certainly advocating for 
preservation of resources, I thought maybe, with your 
permission, I could show you some artifacts that have come from 
an archaeological site on the Potomac related to the----
    Mr. Regula. Are you concerned that the Federal agencies are 
not sensitive enough to this?
    Ms. King. I think the Federal agencies are sensitive 
enough. In fact, they have a statutory obligation to identify 
and preserve these resources, but the funding is not there 
always to identify and preserve these. Some organizations have 
more funding. Other organizations do not even have line items. 
For example, I believe Fish and Wildlife Service does not even 
have a line item for the preservation of this material.
    Mr. Regula. So your interest is enhancing the activities of 
the agencies as far as archaeology?
    Ms. King. Right, so that these organizations can carry out 
their statutory obligations.
    I brought some special artifacts here from an Indian site, 
a late 1600's Indian site. Much of the research has suggested 
that Native Americans were pretty much gone, moving west by 
1650. This is about 40 years after Jamestown. This particular 
site was occupied in the 1680's, late 17th century, Native 
American site on the Potomac River just south of Washington.
    You can see that you have both Native American artifacts as 
well as European artifacts in there, and if you see the white 
stone projectile point, that is made out of quartzite, then 
notice the brass projectile points, the same traditional Native 
American technologies using European materials, which is a very 
interesting statement about the preservation of their cultural 
traditions at this very late date in colonial history.
    This site was excavated using, partially using funds, or it 
was coming out of the Historic Preservation Grant Fund, and 
this is one of thousands of projects that have been funded and 
there are tens of thousands of archaeological sites on these 
Federal and private lands. This also made the Washington Post, 
for what that is worth.
    I just wanted to reemphasize for you the fact that all of 
these agencies, these Federal agencies, have the statutory 
responsibility to identify, protect, and interpret to the 
public these sites, and oftentimes they do not have the funds 
to do it in the way that really enhances the preservation.
    Mr. Regula. Well, those are judgments they make, in part, 
because we do not necessarily line item their budgets.
    Ms. King. Okay.
    Mr. Regula. I mean, the agencies make a judgment, how much 
of their resources they want to apply on the archaeological 
site.
    Ms. King. That is partially true, and they are juggling, of 
course, a lot of different competing things there.
    Mr. Regula. That is the problem we have.
    Ms. King. But since the Federal Government is the largest 
landowner in the country and because that is where 
archaeological sites occur, we feel it is important to bring 
that to your committee's attention.
    Mr. Regula. Okay. Thank you very much.
    Ms. King. Thank you very much.
    [The statement of Julia King follows:]

[Pages 410 - 417--The official Committee record contains additional material here.]


                                            Tuesday, March 3, 1998.

                    LAND AND WATER CONSERVATION FUND

                                 WITNESS

SUSAN H. GUNN, Ph.D., MEMBER OF THE BOARD, AMERICANS FOR OUR HERITAGE 
    AND RECREATION
    Mr. Regula. Americans for Our Heritage and Recreation.
    Ms. Gunn. I am Sue Gunn. I am on the Board of Directors of 
Americans for Our Heritage and Recreation. It is a coalition of 
about 150 organizations that came together to revitalize the 
Land and Water Conservation Fund, including the State side.
    We think LWCF legislation is probably one of the best 
pieces of legislation in recent history and really responsible 
for shaping the landscape of our country, which is unique in 
the world. Despite the fact that maybe, I think it is close to 
seven million acres of land have been acquired and nearly 
37,000 State and local parks and recreation projects have been 
completed, the need is still enormous and it is because our 
population is expanding. That expansion puts real pressure on 
wildernesses, watersheds, critical habitat.
    Mr. Regula. Let me ask you, what percent of America do you 
think ought to be Federal land? It is now 30.
    Ms. Gunn. I do not have an answer to that question. I do 
not think it should be less.
    Mr. Regula. No, that is a given, but how much more can we 
handle?
    Ms. Gunn. I kind of see----
    Mr. Regula. I mean, that is the dilemma that confronts us, 
in a way. We have to take care of what we have. We have in-
holdings, which I think have a high priority. But I do not know 
at what point we reach a balance between private and public 
ownership.
    Ms. Gunn. But the question is, what kind of population load 
can we take in our country? If we do not look at the population 
load----
    Mr. Regula. I understand.
    Ms. Gunn [continuing]. We are going to have all private 
land and not--I mean, what little bit----
    Mr. Regula. I understand that.
    Ms. Gunn. So we have competing problems. I understand where 
you are coming from, but I also understand without the vision 
to take care of the population issue, somebody has got to 
provide a buffer against this unchecked development and urban 
sprawl, and that is the real concern here.
    Mr. Regula. I think it is something to look at. 
Conservation easements offer an opportunity to do this.
    Ms. Gunn. Yes.
    Mr. Regula. That gives you the open space without the 
burden of taking care of it.
    Ms. Gunn. Yes. But we do have these sort of rosy economic 
indicators, and as one of the previous speakers mentioned about 
offshore oil and gas revenues coming up, that maybe not this 
year we will have full funding, but I think we could look 
towards----
    Mr. Regula. I had an interesting call from a Californian 
very strongly in favor of increasing the Land and Water 
Conservation Fund. I said, great, we will lift the moratorium 
on offshore drilling and that would generate a lot of money out 
in California.
    Ms. Gunn. And Don Young would like to do that up in Alaska.
    Mr. Regula. So would I, but I said, what should we do. He 
had not thought about that. It is great to drill off of 
Louisiana and spend the money in California.
    Ms. Gunn. Yes, and----
    Mr. Regula. We will do all we can within the constraints of 
our budget. I like land.
    Ms. Gunn. I know you do, and I would like to compliment 
you, because if you exclude the 699 from last year, your 
committee and the Senate committee really raised the bar on the 
baseline. It is up close to $100 million, and the President's 
budget this year is requesting level funding from last year, so 
I think you have set the standard there.
    We are really concerned about the State side and urban 
issues. The administration has put $2 million in for UPAR, 
which seems symbolic in many ways because it is not sufficient 
funding, but these are critical needs and I think urbanites and 
suburbanites need to----
    Mr. Regula. Organizations like yours, though, ought to put 
more pressure on States. They always look to us to do the land 
acquisition. Certainly, the States would love to have it. It is 
like revenue sharing, with the land and water. But why should 
the States not be making a greater effort? They are in pretty 
good shape financially.
    Ms. Gunn. Some of them are, some of them are not, and then 
there is the internal distribution. I mean, getting into core 
urban areas, there is sort of a bias in the way that money is 
distributed internally. We would really like to work with you 
and your staff to explore ways to meet these needs and satisfy 
you and satisfy the community.
    Mr. Regula. You have an organization, probably with a 
national base of membership.
    Ms. Gunn. Right.
    Mr. Regula. We have had a whole series of organizations 
today. I wonder if they put the same amount of energy, 
particularly in the populous States like Ohio and New York, in 
getting the States to take a larger role on the preservation of 
open space.
    Ms. Gunn. This is our first official year, and we bill 
ourselves as a grassroots educational organization and our goal 
is to get out there. We are having a conference down in New 
Orleans, and to spread the word and to get more support out 
there.
    Mr. Regula. I would encourage you at your conference to say 
to your members, take a look at the State activities, the State 
potential----
    Ms. Gunn. Right.
    Mr. Regula [continuing]. Because the States, many of them, 
are in pretty good shape financially.
    Ms. Gunn. And I think we are looking at all the various 
kinds of resources out there. I mean, our concern is open 
space, recreation, and conservation, but LWCF, and that is why 
I am here today, represents one of the best vehicles to handle 
those issues.
    Mr. Regula. Okay. Thank you.
    Ms. Gunn. Thank you.
    [The statement of Susan Gunn follows:]


[Pages 421 - 422--The official Committee record contains additional material here.]


                                            Tuesday, March 3, 1998.

                          U.S. FOREST SERVICE

                                WITNESS

WILLIAM H. BANZHAF, EXECUTIVE VICE PRESIDENT, SOCIETY OF AMERICAN 
    FORESTERS
    Mr. Regula. Society of American Foresters.
    Mr. Banzhaf. Thank you, Mr. Chairman. Bill Banzhaf with the 
Society of American Foresters. It is nice to see you again, and 
we certainly appreciate your support over the years. I know you 
have received a lot of testimony this afternoon. I will try 
very, very hard not to go over the same sort of thing you have 
heard before.
    Mr. Regula. Appreciate it.
    Mr. Banzhaf. I have taken our presentation, our written 
remarks.
    Mr. Regula. It will be part of the record.
    Mr. Banzhaf. I have put it in a more concise form and we 
will go with even a briefer format.
    What I would like to talk about today briefly will be the 
BLM. We have a concern that though some very good legislation 
passed last year that put a great deal of authority into forced 
ecosystem health and recovery activities, that currently they 
do not have the personnel to implement and to move forward on 
those activities.
    Mr. Regula. You are talking about the Forest Service?
    Mr. Banzhaf. The BLM. Over the last 20 or so years there 
has been a real decrease in the budget for the forestry 
division of over 65 percent, whereas other divisions about 10 
percent. We are finally coming down just to a people crunch.
    Mr. Regula. They are not managing as well as they should.
    Mr. Banzhaf. They do not have the people----
    Mr. Regula. The lack of people, that is what I mean.
    Mr. Banzhaf [continuing]. To be able to get on the ground 
to do what is needed.
    Now in terms of the Forest Service, briefly research. I am 
sure you have heard this story before, but clearly we are 
asking for some serious trouble. It is a disaster waiting to 
happen as far as I am concerned in terms of future policy 
debates with regard to the use of science on the ground. We 
will not have the information when our elected leaders like 
yourself ask, what is the good science?
    Mr. Regula. I agree with you. Did you hear the testimony of 
the Garden Club that we need more botanists?
    Mr. Banzhaf. I would certainly agree that botanists, 
ecologists, foresters are needed in that area. But right now 
the whole issue of ecosystem management, which is supposed to 
be at the forefront of the Forest Service, is only 3 percent of 
their budget. This kind of research not only helps the Forest 
Service and public lands, but is needed for private landowners 
to best know how to manage their resources in accordance with 
their objectives. So it is not simply a public agenda.
    I would like to reiterate what many have said, that the 
forest inventory analysis where we have forest inventory data 
is really the cornerstone of any planning and decision-making 
opportunities and activities. You have to know what you have 
out there or you run into problems.
    In terms of State and private, there is a real need based 
on the reduction of timber production from the Forest Service 
down from 12.7 to 3.4. You may have heard before that 94 
percent of all timber production is now coming from non-
Federal. I think Mr. Argow mentioned that somewhere around 60 
to 66 percent come from the NIPF, or Non-Industrial Private 
Forest area. Yet of the landowners that Mr. Argow represents, 
90 percent of them do not have a forest management plan upon 
which to base the information.
    Mr. Regula. I can believe that.
    Mr. Banzhaf. So State and private can be a real partner 
with the private sector consulting firms in providing 
information to the landowner.
    International forestry. This is something that many times 
is put on the back burner, and yet the U.S. is the world's 
largest importer and the second largest exporter. The forests 
of our world now are looked on as a global resource. We are 
moving towards some very serious policy decisions coming out of 
the UNSED conference several years ago and we need to be active 
participants in that debate. The best way to do that, or one of 
the most effective ways is through the Forest Service 
international forestry program.
    Road maintenance and reconstruction; last one. We were very 
frustrated with the moratorium that has been proposed on 
building of roads in roadless areas. Nevertheless, we do agree 
with the Forest Service's goals and their identification of a 
real road system crisis. Many of the roads in the National 
Forest system are 50 years old. Sixty percent of them are not 
maintained at the standard for which they were built. So those 
are the red flag areas that we would identify.
    Mr. Regula. Would you put more money into closures?
    Mr. Banzhaf. I would say that you need to to put more money 
on maintenance and reconstruction. That would be the issue 
right now.
    Mr. Regula. Do you think that most of the roads are used 
either for the sportsman or the multiple user or for additional 
harvesting?
    Mr. Banzhaf. Sure, the majority is used for multiple use. 
They may be constructed for forest management or harvesting 
purposes, but then they move to recreation purposes.
    Mr. Regula. So there is a reason for their continued 
existence?
    Mr. Banzhaf. Absolutely. You really cannot have solid 
management, whether it is timber production or wilderness 
management without a sound road system.
    Mr. Regula. Then you get into fire suppression.
    Mr. Banzhaf. Exactly, pre-suppression. That was one of the 
difficulties that we recognized in the moratorium is that right 
now we have got areas that are susceptible to fire. They cannot 
go in there right now and do any thinning, prescribed burning, 
to reduce the----
    Mr. Regula. Do you think a lot of these roads are 
contributing to environmental pollution of streams and so on?
    Mr. Banzhaf. There is no question that roads that have not 
been maintained, that are not up to the standards that they 
should be, have the potential to pollute.
    Mr. Regula. Should we have a policy of trying to get these 
up to standards so they are not a threat to the downstreams and 
so on?
    Mr. Banzhaf. I think there needs to be the standards, and I 
would assume the Forest Service has that, that should be 
maintained so that environmental degradation is at a minimal. 
Any time you go into an area you are going to have some of that 
occur. But you have to look at the trade-offs in terms of 
benefits should as forest health preservation.
    Mr. Regula. Thank you.
    Mr. Banzhaf. Thank you, Mr. Chairman.
    [The statement of William H. Banzhaf follows:]

[Pages 426 - 429--The official Committee record contains additional material here.]


                                            Tuesday, March 3, 1998.

                       BUREAU OF LAND MANAGEMENT

                                WITNESS

GEORGE LEA, PRESIDENT, PUBLIC LANDS FOUNDATION
    Mr. Regula. Public Lands Foundation.
    Mr. Lea. Mr. Chairman, I am George Lea, president of the 
Public Lands Foundation. I want to thank you for this 
opportunity to discuss the BLM's budget with you. The Public 
Lands Foundation is a group of retired BLM people who are still 
dedicated to good public land management. We support the 
Bureau, but we are not a captive of the Bureau.
    I would like just to point out to you again that their 
request for $1.2 billion seemed like a chunk, and it is.
    Mr. Regula. For BLM?
    Mr. Lea. Yes. But 25 percent of it is pass-through money, 
PILT, payment in lieu of taxes, the Department's fire program, 
the Department's hazmat program.
    Mr. Regula. Right.
    Mr. Lea. So you are looking at probably $800 million of the 
budget. You were looking for money a while ago; the Bureau is 
predicted to produce $1.6 billion in this fiscal year. So you 
are getting two for one.
    Mr. Regula. It is from oil and gas and all kinds of sales.
    Mr. Lea. The whole thing, right.
    Just let me step over some things and emphasize a couple 
shortfalls. In the recreation area, the Bureau has what they 
call the challenge cost share program where they can get five 
for one. For one Federal dollar they can pick up five private 
dollars to cooperate in joint ventures on the ground. There is 
no bureaucracy involved. It is on the ground activities. And 
they have identified a lot of partners which this budget will 
allow them to accommodate. So I would suggest that the 
committee look at that opportunity.
    In the case of wild horses and burros, there is an increase 
here for that program, and it needs it. They have found that 
most wild horse populations under normal conditions increase 
about 18 percent a year. These horses under current stress 
conditions have upped their reproduction abilities and now they 
are reproducing at 24 percent a year. They are growing faster 
than they can remove them.
    They have a real problem, sir. Currently there are 6,000 
horses in Government corrals today being fed that they cannot 
find homes for. The problem can be explained this way. There is 
habitat for 26,000 horses and there are roughly 44,000, 
increasing at 24 percent a year. Under current law it is a very 
expensive----
    Mr. Regula. What would you suggest we do?
    Mr. Lea. The law needs to be changed, sir.
    Mr. Regula. To do what? In what way?
    Mr. Lea. In several ways. There needs to be established a 
series of, if you would, refuges for wild horses in the West.
    Mr. Regula. That will not solve the problem though. They 
will multiply there.
    Mr. Lea. But now we know where the lines are. We know what 
the habitat carrying capacity is. The horses that are not 
within these established areas would be taken off the land. 
That is the solution.
    Mr. Regula. I understand.
    Mr. Lea. And the law would have to be changed. Otherwise 
this is a very expensive program. It is going to continue to 
be. The quality of the animal suffers, and the quality of the 
habitat.
    Another situation exists in the Endangered Species Act in 
the Southwest desert. There is another train wreck coming; the 
same train wreck that occurred in the Pacific Northwest. There 
are some 60 species of animals and plants that are endangered 
or at risk. All agencies are working to improve the riparian 
situation in the desert washes, but they are behind the eight-
ball and they need financial and encouragement to get on with 
it.
    You were talking a while ago about personnel needs with the 
gentleman before. I have got a paragraph in my statement which 
I suggest you read. There is a perception somehow that if you 
reduce range conservationists--and the Bureau has suffered a 43 
percent reduction in range conservationists--that somehow there 
is less work to be done. They do not understand that grazing 
permits are annually exercised and they need to be supervised, 
and it takes bodies.
    Mr. Regula. Right.
    Mr. Lea. Thank you very much.
    Mr. Regula. Thank you.
    [The statement of George Lea follows:]

[Pages 432 - 435--The official Committee record contains additional material here.]


                                            Tuesday, March 3, 1998.

                       URBAN PARK REHABILITATION

                                WITNESS

BARRY TINDALL, DIRECTOR FOR PUBLIC POLICY, NATIONAL RECREATION AND PARK 
    ASSOCIATION
    Mr. Regula. National Recreation and Park Association, you 
are the witness we have been looking for. You are the last one.
    Mr. Tindall. It is better being sought than being sought 
out for some other reason, Mr. Chairman. You remind me of----
    Mr. Regula. We are not going to subpoena you. Go ahead.
    Mr. Tindall. I am probably the last one in town then that 
has not received a piece of paper of that nature.
    Mr. Regula. You and Carville. Go ahead.
    Mr. Tindall. Well, he is certifiably crazy. I am just 
suspected of being so. [Laughter.]
    But your observation reminded me, Mr. Chairman, I was 
witness number 80 out of 80 some years ago on a program called 
CETA, the Comprehensive Employment and Training Act. You are 
probably familiar with that. That goes back a while. But the 
same drill, the chairman said, I am certainly glad to see you.
    I do appreciate the opportunity to be here, Mr. Chairman. 
Let me just quickly respond to the observation or the question 
that you asked Ms. Gunn representing the Americans for Heritage 
and Recreation a few minutes ago about encouraging the States 
and local governments to invest. The State and local 
governments, I can assure you, are investing heavily in public 
recreational park resources. Two year ago, the States and 
locals passed over $4 billion in bond issues.
    Mr. Regula. Yes, Ohio has done a good job.
    Mr. Tindall. And there are numerous States. I was in Texas 
recently. They are doing a major statewide initiative that is 
going to result in more money. New Jersey has passed something 
like 11 or 12 consecutive major bond issues. City of Boston has 
something coming up next spring.
    Mr. Regula. That is a good positive thing.
    Mr. Tindall. That is just the new investment, if you will. 
If you look at who was managing the nearly 100,000 non-Federal 
park and recreation sites in this country in terms of direct 
management, restoration, expansion, new investment, dealing 
with increasing diversity in populations that are bringing 
challenges to the resource themselves and to the recreation 
managers, there are major investments going on out there.
    I would say in that context, relative to our recommendation 
to restart the Land and Water Conservation Fund, the States and 
locals are not coming to the Federal Government for a hand-out. 
Literally, they are coming to the national government to say, 
pass some of our money through so that we can get on with our 
business as well and let them--to your party's clear objective 
to let the State and local governments make decisions relative 
to their most immediate and long term needs.
    Mr. Regula. We just do not have it to pass through. What 
would you take out of budget to allow us to do that?
    Mr. Tindall. The first thing I would do would be to enhance 
the allocation to this subcommittee.
    Mr. Regula. Assuming we do not get that?
    Mr. Tindall. We are working to assume that that happens, 
Mr. Chairman. If it does not happen, I frankly would look at 
some of the patterns of investment of the Federal resource 
agencies. Now there are people in this room and elsewhere that 
would attack probably you and me for saying that.
    Mr. Regula. There would be a little unhappiness.
    Mr. Tindall. There probably would be unhappiness. But I 
think all of us, every system, every managing agency ought to 
be open to scrutiny to see if we cannot more efficiently do 
things.
    Mr. Regula. I have not had a request today for flat funding 
or a reduction. We will hear from the Indians on Thursday, and 
they will have enormous needs. It is just a difficult 
situation.
    Mr. Tindall. I certainly understand that. I think that--and 
you and I probably would agree that either a balanced budget or 
at least a sustainable balanced budget is maybe illusionary.
    Mr. Regula. Yes, it is. But on the other hand, how about 
when the baby boomers hit Social Security and Medicare?
    Mr. Tindall. I could not have said it better. If you look 
at our statement, we have a window of opportunity. There are 
two things happening in terms of demographics generally and 
boomers specifically. There is relatively clear evidence that 
as more people retire there will in fact be less money 
available to invest in all kinds of public services.
    Mr. Regula. That is true.
    Mr. Tindall. The actuaries tell us that you need 70 percent 
to 80 percent of your existing salary just to have your same 
standard of living. That means 20 percent less money, at best, 
to invest in things. The demographics of America are changing 
recreation, the kinds of recreation we engage in, and where we 
seek recreation. And the new Americans, if you will, which are 
mostly non-Anglos by percentage, are bringing all kinds of 
other pressures and circumstances to bear.
    So we have a mix of things that in our judgment, Mr. 
Chairman, really encourage you and the rest of the subcommittee 
to reexamine this issue relative to State partnerships. We have 
got two examples in here, Assateague Island National Seashore 
and Assateague State Park, and Indiana Dunes State Park and 
Indiana Dunes National Lakeshore. While neither one of the 
State parks in those areas--both of them preceded the Land and 
Water Conservation Fund, they represent real savings that can 
result from the Federal Government by other governments picking 
up some of the load.
    Assateague Island, for example, has 40 seasonal employees 
that otherwise would be paid for by the national government, 10 
full-time employees who would be paid for by the national 
government.
    Mr. Regula. That is as it should be. The people who are 
using it are there.
    Mr. Tindall. We are not disagreeing. We are saying that 
those patterns----
    Mr. Regula. The taxpayers in what, Maine, or wherever it 
is----
    Mr. Tindall. Those patterns should be replicated. And there 
are hundreds and hundreds on the ground as a result of the 
State side Land and Water Conservation Fund. We think the 
national government in some respects ought to be the pocket of 
last resort to pay for park and recreation resources.
    Mr. Regula. Then you get California which wants no offshore 
drilling, which really cuts the flow of money going into the 
fund. Now it is Florida that wants no offshore drilling, North 
Carolina wants no offshore drilling, and that was a major 
source of income for the Land and Water Conservation Fund.
    Mr. Tindall. I think the substantial increase in OCS 
revenues, notwithstanding whether States prefer a moratorium--
--
    Mr. Regula. It is going now to Louisiana and deepwater 
drilling.
    Mr. Tindall. But that is not Louisiana's money. It is not 
Texas' money. It is not Florida's money. It is your money and 
my money.
    Mr. Regula. But that land off of California is mine, too. 
But the Californians do not want me to have any benefit from 
it.
    Mr. Tindall. I understand that. But I think that issue 
ought to be reexamined. Certainly the technology is there to do 
great things.
    Mr. Regula. I know, with very little visual impact.
    Mr. Tindall. When you get 150 miles offshore, it takes a 
pretty good eye to see anything.
    Mr. Chairman, I encourage you to take a look at this.
    Mr. Regula. We are going to do the best we can. I am very 
sympathetic to open land. I would like to have another couple 
hundred acres beside what I own now.
    Mr. Tindall. Where would you like it?
    Mr. Regula. Right next to mine. [Laughter.]
    Mr. Tindall. Are you near or contiguous to an Ohio State 
park or a special district or something.
    Mr. Regula. No, I mean I would like to just own it. In 
other words what I am saying is, it is never enough. I would 
like to expand the parks, and especially the inholdings. I 
think we should, as much as possible, get the inholdings as we 
acquire land.
    Mr. Tindall. Again, people will disagree with either me 
personally or my organization. Certainly we need to take care 
of those inholdings which are most troublesome now or in the 
near future. But if I had to make a choice between a remote 
inholding somewhere for fiscal 1999 and restoration of a 
downtown city park that is going to serve hundreds of millions 
of people a year----
    Mr. Regula. Why does not the city take care of that? We 
should not be doing----
    Mr. Tindall. Many of the cities--the cities and the States, 
Mr. Chairman, you asked why they are not paying for these. The 
cities and the States are paying for child care, they are 
paying for health care.
    Mr. Regula. So are we.
    Mr. Tindall. But the national government is paying very 
little on a ratio to what the other governments are paying for 
these things.
    Mr. Regula. But we are paying for defense, and they are not 
paying a dime for that.
    Mr. Tindall. I understand that.
    Mr. Regula. I am just saying, when I look at the budgets 
in, say, Ohio, they have a rainy day fund of $1 billion for 
which I congratulate the governor. We have no rainy day fund in 
the U.S. Government, not by a long shot. They have a rainy day 
fund because their revenues have been good. And this is true 
with a number of States.
    I do not know whether Ohio is expanding their park system 
and so on, but Central Park in New York City is a Garden of 
Eden for that city. But the city ought to take care of that. I 
should not have a taxpayer in Ohio taking care of it.
    Mr. Tindall. I do not know, there may have been some urban 
park money into Central Park at one point. Central Park, the 
city of New York has just struck a deal with the Central Park 
Conservancy in fact to be the principal manager. So they are 
out there looking for creative solutions to resource 
conservation.
    Mr. Regula. I think organizations such as yours and many 
that we have heard from today should be focusing not only on us 
but on the States as well.
    Mr. Tindall. We agree and we are doing that.
    Mr. Regula. Good. We all have a common goal.
    Mr. Tindall. There is one part of our budget, Mr. Chairman, 
that talks about other Federal programs where vast sums are 
being proposed where recreation can help out. These range from 
juvenile justice to--I have heard you testify on the Older 
Americans Act and----
    Mr. Regula. The pressure on open space is going to grow. We 
have the Cuyahoga Valley National Park, 33,000 acres between 
Cleveland and Akron, and on the weekends it gets pretty crowded 
because people seek open space. I understand, and I like it.
    Mr. Tindall. You certainly are aware that the core of that 
park in fact was at one time managed by non-Federal interests.
    Mr. Regula. I understand.
    Mr. Tindall. Those partnerships are possible again if we 
can jump-start Land and Water----
    Mr. Regula. I think we will use more conservation easements 
prospectively, where it stays as farmland but it still does not 
get used up for urbanization.
    Mr. Tindall. You have been generous with your time. I 
commend you, encourage you to take a look at our statement. We 
will work with you and staff to----
    Mr. Regula. We are going to do all we can. I am sympathetic 
to parks. I love parks and open space.
    Mr. Tindall. We will try to get one near your estate. 
[Laughter.]
    Mr. Regula. I maintain my home frankly. But everybody needs 
that potential experience. Everybody needs the potential of 
being close to a park, to an open space.
    Mr. Tindall. We would observe, Mr. Chairman, there are an 
increasing number of Americans who do not have and may never 
have that experience.
    Mr. Regula. I suppose that is true.
    Mr. Tindall. So that is where our interests lie, and I know 
you believe that, too.
    Mr. Regula. We have a common interest. It is a matter, of 
course, of dollars. We have no idea what our 602(b) allocation 
will be, but the vibes we are getting are that it is not going 
to be very much more than we have had.
    Mr. Tindall. That certainly is a root problem for all of 
us. If we can work with you and your folks on that, we would 
certainly be happy to do so.
    Mr. Regula. If you have any friends who can help make the 
602(b) decision, you might talk with them, or pray for them at 
least.
    Mr. Tindall. You mean, do I know a cardinal?
    Mr. Regula. I think it is super cardinal. [Laughter.]
    It is a problem that every committee, every subcommittee of 
the Appropriations Committee has.
    Mr. Tindall. This committee probably has the most diverse 
collection of things.
    Mr. Regula. It does.
    Mr. Tindall. It is a highly discretionary budget.
    Mr. Regula. That is very true.
    Mr. Tindall. And it is very easy to take short term--make 
decisions that are in fact today or tomorrow decisions. The 
demographers, as you suggested at the outset, they are looking 
to the year 2050, and that is where we need to look in parks 
and recreation.
    Mr. Regula. We are trying to do the things for our 
heritage--long after I am gone, in terms of preservation of 
open space and enhancing the quality of life. That is the 
reason I pushed the fee program so hard, to give these parks 
and forests a little extra money to use.
    Mr. Tindall. We would encourage you again to look at the 
State and local things to create partners that might soften 
some of those costs on the other side that you are dealing 
with.
    Mr. Regula. Okay, thank you.
    Mr. Tindall. We appreciate your attention.
    Mr. Regula. The committee is adjourned.
    [The statement of Barry Tindall and additional testimony 
follows:]

[Pages 441 - 611--The official Committee record contains additional material here.]


                                          Wednesday, March 4, 1998.

                 FOSSIL ENERGY RESEARCH AND DEVELOPMENT

                                WITNESS

GARY A. STYLES, MANAGER, PLANNING AND ANALYSIS, SOUTHERN COMPANY 
    SERVICES, INC.

    Mr. Nethercutt [assuming chair]. Good morning, ladies and 
gentlemen. We're prepared to continue with testimony of outside 
witnesses on the Department of Energy and other programs for 
the Interior and Related Agencies House Appropriations 
Subcommittee. I'm George Nethercutt from Washington State, 
sitting in for the Chairman temporarily. So I'm delighted to 
welcome all of you.
    We'll start this morning with our first witness at 10:00 
o'clock, the Southern Company Services, Inc., Gary A. Styles, 
Manager of Planning and Analysis. Welcome, sir.
    Mr. Styles. Thank you, Mr. Chairman.
    Mr. Nethercutt. Mr. Styles, your prepared testimony will be 
made a part of the record, and we're delighted to have you 
testify under your five minute time allotment. It seems unfair, 
but we're trying to get everybody in. Welcome to you, sir.
    Mr. Styles. Thank you very much, Mr. Chairman, for giving 
me this opportunity to tell you about the power systems 
development facility. I have a brochure for your information 
about our project.
    The objectives of the power systems development facility 
research program are to improve the environmental performance, 
including a 25 percent reduction in emissions of carbon 
dioxide, and to reduce the cost of producing electricity from 
coal, our Nation's most abundant fossil fuel resource. The 
fundamental purpose of the power systems development facility 
is to support the national program to assure competition 
between energy resources and thereby keep electricity rates 
low.
    The power systems development facility is the only facility 
in the world where all the components of advanced coal-fired 
power plants can be tested in an integrated system at a 
practical engineering scale prior to assuming the risks and the 
costs of commercial application. This facility and other 
Department of Energy fossil energy research programs will allow 
U.S. electric utilities to maintain reasonable domestic energy 
prices well into the twenty-first century.
    Recent economic studies completed by the Electric Power 
Research Institute, the Department of Energy and Southern 
Company showed that if advanced coal research projects and 
programs are successful, the capital costs of advanced coal-
fired power plants can be reduced to less than $900 a kilowatt. 
Based on the latest fuel cost estimates developed by the Energy 
Information Administration, coal can regain its competitive 
advantage as early as 2007 if this $900 per kilowatt capital 
cost can be achieved.
    To support continued operation of the power systems 
development facility, we request $20 million, about a $2.26 
million increase above the Administration's fiscal year 1999 
budget request, be included in the advanced clean and efficient 
power systems program in the Department of Energy's budget for 
fiscal year 1999.
    Thank you again, and if you have any questions, I'll be 
happy to try to answer them.
    [The information follows:]

[Pages 615 - 620--The official Committee record contains additional material here.]


    Mr. Nethercutt. Thanks very much, Mr. Styles.
    Where is this picture, where is that?
    Mr. Styles. It's in Wilsonville, Alabama.
    Mr. Nethercutt. Well, thank you very much. Appreciate your 
being here.
                              ----------                                


                                          Wednesday, March 4, 1998.

        FUEL CELL/GAS TURBINE HYBRID SYSTEMS TECHNOLOGY PROGRAMS

                                WITNESS

SY A. ALI, DIRECTOR, ADVANCED INDUSTRIAL PROGRAMS, ALLISON ENGINE 
    COMPANY
    Mr. Nethercutt. Next witness will be Allison Engine 
Company, Dr. Sy A. Ali, Director, Advanced Industrial Programs. 
Welcome, sir.
    Mr. Ali. Thank you very much for this opportunity.
    I'm with Allison Engine Company. Allison makes and sells 
gas turbines for power generation, cogeneration, military and 
aircraft applications as well. I'm here to urge the 
subcommittee to appropriate in fiscal year 1999 for DOE's 
industrial advanced turbine systems program $35 million. The 
Administration has a request in under cogeneration for that.
    For the total management system development for fuel cell 
gas turbine hybrid, $3 million, and $5 million for the 
stationary ceramic microturbine technology development. 
Industrial ATS will provide low-cost, clean electric power and 
cogeneration. The TMS development for the fuel cell gas turbine 
hybrid will enable timely development of clean energy sources 
with greater than 70 percent efficiency, which is roughly about 
twice the current state of the art technology.
    The stationary ceramic microturbine will enable producing 
small power packages of high efficiency. These programs----
    Mr. Nethercutt. I'll relinquish to the real Chairman.
    Mr. Regula [resuming chair]. Okay, how much time has he 
used? [Laughter.]
    Mr. Ali. I'm in trouble already.
    Mr. Regula. Well, you have four minutes left.
    Mr. Ali. The three programs I just mentioned, the 
industrial ATS, the fuel cell gas turbine hybrid and the 
microturbine ceramic stationary microturbine are recommended 
for accelerated financial support in the PCAS report.
    And also these products from these programs will enable the 
U.S. to reduce greenhouse gas emissions consistent with the 
Kyoto protocol, create high-skill jobs, and enable the U.S. to 
meet electric power and cogeneration needs. This subcommittee's 
foresight has now brought the industrial ATS to a critical 
stage of proof of concept testing. Completion of this phase 
would enable converting technology R&D into a successful 
product to serve electric and cogeneration needs of the U.S. 
and worldwide.
    The ATS program was approved by this Congress in 1994 and 
it has been proceeding. The Allison ATS is a simple cycle high 
performance, low-cost system. It incorporates several advanced 
technology features from Allison's military and commercial 
aircraft engines.
    Our accomplishments over the past years consist of clean 
combustion technology using catalytic approaches to complement 
the high efficiency turbine. Testing of the catalytic 
technology verified DOE's emission goals.
    We made significant achievements in converting advanced 
military and commercial aircraft technology to industrial ATS 
products. The Allison ATS will add approximately 300 high-
skilled jobs, Cooper Rolls and Mount Vernon, Ohio and Indiana, 
Illinois and Washington.
    ATS program represents a true government-industry 
partnership, and we urge this committee's continued support of 
that. As you may know, the Japanese government is putting in 
greater than 7 percent of GDP into R&D, whereas this country's 
R&D support has gone down to less than 2 percent.
    The benefits from these programs would help the 140,000 
megawatts of new electric power to be added in this country, 
and the 450,000 worldwide. This would increase our potential 
export opportunity to over 200 billion. The U.S. taxpayers will 
benefit directly from the significant improvement in 
environmental quality. We estimate that 160 million tons of 
CO<INF>2</INF> can be reduced by industrial ATS alone. National 
electric bills will be reduced, protection of the primary jobs 
of about 60,000 and many more supporting jobs in the U.S.
    [The information follows:]

[Pages 623 - 673--The official Committee record contains additional material here.]


    Mr. Regula. Let me ask you a couple of questions. How soon 
do you think fuel cells will be commercially viable?
    Mr. Ali. We are looking at a plan which would start selling 
fuel cell gas driven combined systems by the year 2001.
    Mr. Regula. So the fuel cell would drive the turbine, and 
the turbine would be a much more efficient system?
    Mr. Ali. That's correct. Turbine will not use any 
combustion. Fuel cell would serve as the combustion technology, 
and it will reduce the emissions to less than 2 ppm 
NO<INF>X</INF>, very low CO<INF>2</INF> emissions, and no 
emissions from the----
    Mr. Regula. You're developing it as a package, the fuel 
cell and the turbine, as an integrated unit?
    Mr. Ali. We are working on how to structure the balance of 
plant to work with either the solid oxide fuel cell or molten 
carbonate fuel cells.
    Mr. Regula. Okay, thank you very much. Sounds interesting.
                              ----------                               

                                          Wednesday, March 4, 1998.

                           ENERGY EFFICIENCY

                                WITNESS

MICHAEL L. MARVIN, EXECUTIVE DIRECTOR, THE BUSINESS COUNCIL FOR 
    SUSTAINABLE ENERGY
    Mr. Regula. The Business Council for Sustainable Energy.
    Mr. Marvin. Thank you, Mr. Chairman, for the opportunity to 
address the subcommittee again this year.
    To refresh your memory, the Business Council was created in 
1992 by energy executives from the renewable energy, energy 
efficiency and natural gas industries concerned about the 
economic, environmental and national security impacts of our 
energy production and use. Our members include companies and 
industry trade associations, several of which you will hear 
from later this morning and this afternoon.
    Now, the issues, although the issues in which our 
organization has focused on change slightly from year to year, 
two areas have always been identified as priority areas. One is 
climate change, and the other is energy research, development 
and demonstration. The request for fiscal year 1999 has further 
drawn a connection between those two issues. And this year, I'd 
like to focus my less than five minutes of remarks on climate 
change.
    Climate change has become a major driver in the energy R&D 
strategies, both here domestically and internationally, both in 
the public sector and in the private sector. Regardless of 
where one stands on the issue, the effect on the market short-
term and long-term is irrefutable. Our Japanese and European 
competitors in this roughly $100 billion a year energy 
development market globally are redoubling their R&D and 
commercialization initiatives with a focus on high efficiency 
energy technologies, products and services.
    We received a December 1997 cable from a U.S. Government 
official that describes the European Commission proposed $14 
billion United States dollars for support of clean energy 
products utilizing exclusively European technologies, both at 
home and abroad. U.S. technologies historically have been at a 
very significant commercial disadvantage because of the use of 
tied aid to buy our European allies and colleagues and 
competitors and the U.S. Government policy of opposing tied 
aid.
    One of these companies lost hundreds of millions of dollars 
in sales to that tied aid. Those battles pale in comparison to 
the battles coming in the next five to ten years.
    I would argue, then, that if the science, if the threat of 
climate change is not a sufficient clarion call for action, the 
competitiveness threat to American energy projects vis-a-vis 
our OECD competitors should be. One of the discoveries that 
some Council members have experienced in recent visits to some 
Congressional offices has been a response heard more than once, 
and that is, we don't really support the Kyoto protocol, and 
thus we don't support the climate change technology initiative.
    We've tried to highlight the idea that the two are not 
inextricably intertwined.
    [The information follows:]

[Pages 676 - 679--The official Committee record contains additional material here.]


    Mr. Regula. Okay, let me ask you, does your Council 
represent a broad spectrum of people in the energy field? Like 
turbines?
    Mr. Marvin. We include turbines, fuel cells, exactly. Both 
insulation----
    Mr. Regula. Clean coal technology?
    Mr. Marvin. There is not a company that directly represents 
clean coal, though we have electric utilities who generate a 
great deal of power from clean coal.
    Mr. Regula. You do have a cross section of the energy 
producers in our society?
    Mr. Marvin. Yes.
    Mr. Regula. Do you have people who market energy, that is, 
oil and/or coal, or is it just the people that use the product?
    Mr. Marvin. We have mostly developers of the products and 
technologies and the services. Some of our more visible members 
might include Honeywell, Maytag, American Standard, Enron, as 
well as some of the trade associations.
    Mr. Regula. In other words, companies that have to try to 
respond to some degree to the standards established by DOE?
    Mr. Marvin. Exactly.
    Mr. Regula. Maytag is an example I'm familiar with.
    Mr. Marvin. We try and sometimes glibly point out that 
we're part of the solution, both the environmental issues. But 
while we are a business organization----
    Mr. Regula. Do you share information?
    Mr. Marvin. We attempt to, to the extent possible. We have 
been representing that segment of the energy industry and all 
international climate change associations.
    Mr. Regula. So your council would be supportive of programs 
that we do jointly with the private sector----
    Mr. Marvin. Absolutely.
    Mr. Regula [continuing]. In developing energy efficiency 
programs?
    Mr. Marvin. Unquestionably.
    Mr. Regula. Okay, thank you very much.
                              ----------                                


                                          Wednesday, March 4, 1998.

                          OIL AND GAS INDUSTRY

                               WITNESSES

DONALD MASON, PRESIDENT ELECT, GROUND WATER PROTECTION COUNCIL, 
    COMMISSIONER, OHIO PUBLIC UTILITIES COMMISSION
MICHAEL PAQUE, EXECUTIVE DIRECTOR, GROUND WATER PROTECTION COUNCIL
    Mr. Regula. Ground water Protection Council.
    I assume that Mr. Nethercutt announced all the statements 
will be made fully a part of the record, and we'll look at 
them. Because we're on such a short time line, we can only give 
you five minutes. If any of you feel constrained to do less, we 
will not object. [Laughter.]
    Mr. Mason. Thank you, Congressman Regula, thank you for the 
opportunity to testify. My name is Donald Mason, I'm President 
Elect of the Ground Water Protection Council. And I'm a 
Commissioner of the Ohio Public Utilities Commission. In my 
past position, I was chief of Oil and Gas for the Ohio 
Department of Natural Resources.
    That agency is responsible for the environmental safeguards 
related to oil and gas exploration and production, solution 
mining such as salt, near Ritman, the reinjection of waste 
through our class two injection wells, and ultimately, 
protection of the geologic formations which provide----
    Mr. Regula. Okay, now, let me ask you, does your group try 
to help people who do reinjection, who do have an impact on 
ground water, or are you a policeman to keep it from happening?
    Mr. Mason. That's an interesting question. We're both. So 
often in the regulatory field, we're expected to help provide 
solid, risk-based analysis that will allow the safe injection 
of brine-produced waters, and likewise, at the same time, if a 
person does not properly do it, we do bring environmental 
actions against the operators.
    Mr. Regula. Are you a non-profit, or how are you financed?
    Mr. Mason. The Ground Water Protection Council is basically 
a 501(c)(3) organization of the various States, which includes 
on our board, in an ex officio capacity, members from U.S. EPA. 
Our role is to help bring the States together so that we can 
work on a lot of the same programs, reduce redundancy and 
overlap.
    Mr. Regula. You're a clearinghouse for the States?
    Mr. Mason. I think that's a very good term to use.
    Mr. Regula. And your membership is various State agencies?
    Mr. Mason. The various State EPAs, in our State, also the 
Department of Natural Resources, all work together in order, 
again, to help reduce costs and provide better products and 
better answers for the regulated community, at the same time, 
serving the needs of the State.
    Mr. Regula. Okay. What do you think we should do? Why are 
you here?
    Mr. Mason. Basically what we were able to do is pool the 
desire of the States to work together, as so often happens, 
it's hard to always bring forward a focus on funding. So in the 
past, we've been very successful with your committee where, for 
example, in the fiscal year 1998 budget, we received three 
quarters of a million dollars to help advance risk-based data 
management systems that allows for the various States to create 
a data base that can be used by small business people who can 
make decisions.
    We so often think of the Marathons and the Exxons and the 
Texacos as having all the information.
    Mr. Regula. I understand. Hundreds of people are on the 
production side, big and little.
    Mr. Mason. And a big part of our goal is, if a person wants 
to come forward and either drill an oil well or drill a natural 
gas or injection well, we have to make sure we grant that 
permit based on sound science and information.
    Mr. Regula. I understand that. What's your budget for your 
organization?
    Mr. Mason. I'll have to ask. I'm president elect. 
[Laughter.]
    Mr. Paque. About a million dollars a year.
    Mr. Regula. Wait a minute. We gave you $750,000. So most of 
it's coming from us?
    Mr. Mason. No, the operational budget from dues from the 
States is about a million dollars. I'm not including the 
allocation of the U.S. DOE funds.
    Mr. Regula. Okay, in addition. And you get money, then, 
from the States that participate?
    Mr. Mason. That's correct. Ohio pays $5,000 in dues from 
EPA and $5,000 from ODNR.
    Mr. Regula. Okay, well, thank you very much.
    [The information follows:]

[Pages 683 - 685--The official Committee record contains additional material here.]


                                          Wednesday, March 4, 1998.

          NATURAL GAS RESEARCH, DEVELOPMENT AND DEMONSTRATION

                                WITNESS

CHARLES H. FRITTS, MANAGING DIRECTOR, GOVERNMENT RELATIONS, NATURAL GAS 
    RESEARCH, DEVELOPMENT AND DEMONSTRATION INITIATIVE
    Mr. Regula. American Gas Association. Good morning.
    Mr. Fritts. I appreciate the opportunity to be here. I'm 
representing today the Natural Gas RD&D Initiative, a cross 
section of pipelines, producers, distributors, research 
organizations, and trade associations.
    I want to thank you for your past support. It's been 
critical to us. And we appreciate it greatly.
    Mr. Regula. So you're speaking for the broad industry?
    Mr. Fritts. Right. It's a broader group. AGA hosts it, 
which is why I'm here, but it's a broader group.
    Mr. Regula. Right.
    Mr. Fritts. Gas technologies make sense today because 
they're clean, they're domestic and they're affordable. Most 
importantly, gas is a reliable fuel that's here today. We can 
use it. The potential industrial, economic, environmental 
contributions of gas have not been fully realized. Enhanced, 
targeted RD&D can help.
    We support, generally support, DOE's budget request, but we 
seek certain increases in critical areas. In turbines, the 
microturbine, the small turbine, very high priority. The 
potential for the combined heat and power systems that were 
mentioned with a prior witness, this system is being cost 
shared by the industry right now. We have an example of a 
public-private partnership.
    Mr. Regula. Does AGA or your members do research?
    Mr. Fritts. Our members do research, we make contributions 
to the Gas Research Institute. Some of them fund it----
    Mr. Regula. GRI?
    Mr. Fritts. Yes. So on the microturbines, we're seeking $8 
million over the DOE budget for the small industrial scale 
turbines.
    Mr. Regula. That's $8 million for various members of your 
group, that's not in a lump, not any one place, then, I assume?
    Mr. Fritts. Right.
    Mr. Regula. It's for research in the field of natural gas?
    Mr. Fritts. Right. The good news about this group is that 
we look at the DOE budget. We say, where is research today, 
what needs additional funding. And we identify the areas we 
think are most critical to us, so we don't come to you and say, 
we want double. So we highlight those, and these are going to 
selected areas that are going to do that kind of research 
through DOE.
    Mr. Regula. The question is, does your technology have a 
market overseas?
    Mr. Fritts. Yes. The turbines have opportunities overseas. 
We see a lot of that, as well as in the fuel cell areas.
    Mr. Regula. Do the developing nations have natural gas 
resources, and are they utilizing them?
    Mr. Fritts. Many of them don't have it. Pakistan might, and 
the middle east, former Soviet Union, does have it. Frankly, 
their point of resistance is infrastructure, getting the gas 
out and using it.
    Mr. Regula. I understand. But like in China, I know when we 
were in Kyoto, the general knowledge was, or idea was that 
China would be exceeding us in CO<INF>2</INF> in what, 15, 20 
years, because they're so dependent on fossil fuels.
    Mr. Fritts. Right. It's coal, I believe. Right.
    Mr. Regula. Right. Do they have gas, or are they going to 
be stuck?
    Mr. Fritts. I would have to get back to you on that.
    Mr. Regula. That's why I wondered if this technology that 
we're developing would have a market, eventually, overseas.
    Mr. Fritts. I'm sure it will. Japan's a great user of 
natural gas.
    Mr. Regula. Do they have it domestically?
    Mr. Fritts. They buy it and generally bring it from 
Indonesia.
    Mr. Regula. Oh.
    Mr. Fritts. So they're paying actually a higher price than 
America is for their gas.
    Mr. Regula. Interesting.
    Mr. Fritts. Tremendous cooling in Japan, lot of gas. Fuel 
cells, high priority, highly efficient, pollution free. Again, 
here's a place where we have cost shared with the Government. 
Our members have taken pre-order positions on fuel cells.
    Mr. Regula. Right.
    Mr. Fritts. We request that the DOE funding request be met.
    On cooling, this is especially energy efficient, cost 
effective. Great opportunities to offset peak electric demand 
in the summer months, mitigating the electric transmission 
bottlenecks.
    Also, RD&D in the GAX, the gas absorption heat exchange is 
another public-private partnership that's underway. So we 
request $2.3 million in the desiccant program. An add-on of 
$500,000 in the GAX, and an add-on of $500,000 in the large 
commercial.
    [The information follows:]

[Pages 688 - 691--The official Committee record contains additional material here.]


    Mr. Regula. Okay, well, you're about out of time, but I 
understand what you're interested in.
    Let me say to all of you out there that it looks like our 
602(b) allocation is not going to be a whole lot greater than 
last year. So while these increases are nice, I don't think 
they're going to happen. And we have to make priority 
judgments. That's why I'm raising questions with each of you.
    And of course, it's easy for the President to put the money 
in. If I could put the money in and not have to worry about 
where it came from, I'd be fine. We have a President's budget 
that's $1.1 billion above last year, but this is along with the 
statement about how we're balancing the budget. I don't know 
exactly where that $1.1 billion's coming from for our 
committee.
    So we'll do the best we can.
    Mr. Fritts. We attempted to target our request, we do 
review the research with the broader group.
    Mr. Regula. Right. We have your statement, and we'll take a 
look at it. Thank you.
                              ----------                              

                                          Wednesday, March 4, 1998.

              FOSSIL ENERGY, CONSERVATION/USGS/OSM/BLM/FS

                                WITNESS

THOMAS H. ALTMEYER, SENIOR VICE PRESIDENT, GOVERNMENT AFFAIRS, NATIONAL 
    MINING ASSOCIATION
    Mr. Regula. National Mining Association.
    Mr. Altmeyer. Good morning, Mr. Chairman.
    Mr. Regula. Good morning.
    Mr. Altmeyer. After the reform of the mining law, the 
mining industry opposes the Administration's proposal to make 
the annual maintenance fee for mining claims on Federal lands 
permanent, and to a continuation of the moratoria on patenting. 
The mining industry, as you know, continues to support 
legislative proposals to amend the mining laws, and has 
consistently sought to advance economically sustainable 
modifications, including a royalty payment for the surface land 
with a reverter to the Federal Government and a holding fee in 
the context of comprehensive reform.
    Last year, Mr. Chairman, the mining industry signed an 
historic agreement with the western States to identify and work 
toward elimination of disincentives to the clean-up of 
abandoned hard rock mine lands and other purposes. Work on the 
abandoned mine land initiative is proceeding cooperatively 
under the auspices of the Western Governors Association. We 
would suggest that any additional revenues collected from the 
industry for the administration of mining laws should be 
directly returned to the States where the abandoned mine land 
activity is occurring, to assist that ongoing effort.
    The mining industry, as well as other natural resource 
industries, are facing increasing impediments to exploration 
and use of Federal lands. A significant yet declining amount of 
domestic minerals production activity is occurring on Federal 
lands.
    Withdrawals of land from exploration by executive fiat and 
through moratoria as recently proposed by the Forest Service, 
coupled with NEPA compliance and permitting delays as long as 
eight years are resulting in a marked decline in domestic 
exploration and mine development.
    [The information follows:]

[Pages 694 - 698--The official Committee record contains additional material here.]


    Mr. Regula. What percent of our coal comes from Federal 
land versus private land?
    Mr. Altmeyer. Coal is about 30 percent Federal.
    Mr. Regula. Does that include Indian lands?
    Mr. Altmeyer. No, that does not include Indian lands.
    Mr. Regula. So that's additional?
    Mr. Altmeyer. Last year, we produced a little over a 
billion tons of coal in the United States. About 300 million 
came from Federal lands, principally in the State of Wyoming, 
to lesser degrees in Utah, Colorado, Montana.
    Mr. Regula. You're saying that there are many impediments 
to that?
    Mr. Altmeyer. The impediments are occurring, principally, 
not in the area of coal development projects, because we're 
really just taking existing mines and expanding those through 
something called lease by application. The principal 
impediments are occurring for the minerals industry, for the 
gold, silver.
    Mr. Regula. So you represent the whole gamut of mining?
    Mr. Altmeyer. The whole gamut of mining, yes, sir.
    Mr. Regula. And the development on the Federal lands is 
significant for all of those things, then?
    Mr. Altmeyer. Yes. It's more significant for the hard rock 
minerals than it is for coal in terms of percentage of national 
production.
    Mr. Regula. What role do you see our committee playing in 
solving this problem?
    Mr. Altmeyer. What I was going to suggest is, we have 
declining exploration activity, we have a declining amount of 
land. That portends to the future, every American consumes 
46,000 pounds of minerals per year, that's how much we consume 
per citizen in the United States. This is across the board.
    Mr. Regula. You're talking about copper, aluminum, coal?
    Mr. Altmeyer. Sand, gravel, aggregate, coal, the whole nine 
yards.
    Mr. Regula. Right.
    Mr. Altmeyer. We're potentially facing a problem. We're 
going to increase our reliance upon imported sources of 
minerals, even though we have them in this country. What we 
would recommend is some group, an independent group, like the 
National Academy of Sciences, its board on earth sciences and 
resources, do an assessment of what are the strategic 
ramifications for the United States as a consequence of the 
acceleration and decline of----
    Mr. Regula. Would you suggest that we request that, as part 
of our bill?
    Mr. Altmeyer. Yes, sir, I would request that you request 
that in the committee bill or in the report.
    Mr. Regula. We'll take a look at that.
    Mr. Altmeyer. Two, the two largest copper producers in the 
United States have closed their U.S. exploration offices. It's 
a combination of two things, the declining amount of land that 
you can actually explore on, and more importantly is the delays 
in the permitting process and the NEPA process. We recently 
completed an assessment, which we've shared with Katy McGinney 
and the Council on Environmental Quality, relevant Federal 
agencies and the Hill calling for change, or taking a look at 
NEPA and how do we make it work more quickly.
    Representative Nethercutt was here, there was a mine 
recently permitted in his district, and from the date they 
initiated the EIS process to the date they received their 
permit was eight years. You can go down to Mexico, the same 
environmental conditions on a mine, it's one year. Canadian 
provinces, it's about one year. That includes public 
involvement.
    Mr. Regula. What you're saying is the extraction companies 
are going overseas?
    Mr. Altmeyer. Yes, sir.
    Mr. Regula. Okay. Thank you.
    Mr. Altmeyer. I had a number of other----
    Mr. Regula. Well, make it quick.
    Mr. Altmeyer. Okay, I will. Let me get into the Department 
of Energy. As you know, Mr. Chairman, one of the challenges we 
face in the twenty-first century is replacement and expansion 
of existing electric generating capacity. In terms of 
reductions of power output and reductions of emissions, at the 
point of generation, you basically get a four to one ratio in 
reduction of emissions, if you do it at the point of generation 
as opposed to the point of consumption.
    DOE, through its Vision 21 project, they call it the 
Energyplex, is moving forward aggressively to take a lot of the 
technologies that were developed through the clean coal program 
and coal R&D and refine those so that we can move toward a goal 
of zero emissions from coal-fired power plants by the middle of 
the next century. It needs continuing support to get us there.
    Mr. Regula. Would this be part of the clean coal program?
    Mr. Altmeyer. No, this would be a program by DOE called 
Vision 21. And it's in the Office of Fossil Energy.
    Another area that we feel important is the Industries of 
the Future program, which is under Energy, the EE office. We 
are working cooperatively, industry, government partnership, 
developing a road map for the future, and we would encourage 
you to support that Industries of the Future project also.
    One additional area I wanted to bring to your attention is 
the Council on Historic Preservation. The Omnibus Parks Act in 
1996 asked the Council to report to the Congress on options for 
implementation of Section 106. It appears the Council on 
Historic Preservation is going to go final with regulations, 
possibly this spring. They have not complied with the mandate 
in the Omnibus Parks Act.
    If they go forward and do that, we would suggest that you 
might want to consider restricting their funding for 
implementation until they have complied with their statutory 
requirements.
    Mr. Regula. Okay, we're about out of time here.
    Mr. Altmeyer. Yes, sir. I'd like to report, also, last year 
when I testified, we talked about the Office of Surface Mining. 
Right now, in our opinion, it is moving in the right direction. 
The oversight program is looking at the quality of the 
reclamation, and they're just not counting numbers and 
citations. We are extremely encouraged by the direction of OSM 
in their programs.
    Mr. Regula. Okay, thank you.
    Mr. Altmeyer. Thank you, Mr. Chairman.
                              ----------                              

                                          Wednesday, March 4, 1998.

                   BUILDING CODES ASSISTANCE PROGRAM

                                WITNESS

JARED O. BLUM, PRESIDENT, POLYISOCYANURATE INSULATION MANUFACTURERS 
    ASSOCIATION
    Mr. Regula. Next is the Poly--I'll let you pronounce that.
    Mr. Blum. Polyisocyanurate Insulation Manufacturers 
Association. Mercifully, we call the organization PIMA.
    Mr. Regula. Okay, our next witness is PIMA. [Laughter.]
    Mr. Blum. Thank you, Mr. Chairman. My name is Jared Blum, 
and I do serve as President of the Polyisocyanurate Insulation 
Manufacturers Association.
    I'm here to make several points in support of the proposed 
funding of the Building Standards and Guidelines Program at 
DOE. In particular, we are strongly supportive of the 
activities of that program that relate to training and 
assistance to the State for implementing State energy codes. 
It's a program in the past that has been----
    Mr. Regula. I'm very familiar, they had a meeting in 
Canton, Ohio, a State meeting, and I was there.
    Mr. Blum. So I don't have to say any more.
    Mr. Regula. No. But tell me how does that fit into 
insulation?
    Mr. Blum. Polyisocyanurate, sir, is a type of polyurethane 
foam. You've seen it, it's in about 60 percent of all 
commercial buildings, big blocks of rigid insulation, sheathing 
application on home and sealed with foil. It's the highest R 
value of a commercially available----
    Mr. Regula. It's not going to be the asbestos of the 
future, I hope?
    Mr. Blum. It is not the asbestos of the future, sir, it is 
decidedly not so.
    One or two points, if I might, and I know you had someone 
overstay their welcome, and I'll stay shorter. Two points. One 
is the code program that we're talking about is State 
implemented programs, this is not a Federal mandate. It's 
States coming to DOE asking for assistance. It has been 
leveraged through State monies as well as private industry 
monies to assist States in implementing State codes.
    The second point is the significant amount of both money 
and energy that are saved by homeowners and commercial building 
owners when codes are in fact implemented around the country. 
The 30 States that now have a model energy code have 
experienced significant savings, and it's estimated a 30 year 
savings could be roughly between half a billion and a billion 
dollars for consumers.
    Mr. Regula. I think you're right, my daughter built a 
house, and I told her, get the best insulation you can buy on 
both the roof and the sidewall, because long-term, it pays big 
dividends.
    Mr. Blum. You were right on.
    Mr. Regula. Yes.
    Mr. Blum. But if I don't need to say anything more, you've 
got a long day, so I'll just leave my testimony with your 
staff.
    Mr. Regula. Well, that was a result of my meeting in 
Canton, so your message is getting out.
    Mr. Blum. All right, sir, thank you.
    [The information follows:]

[Pages 703 - 706--The official Committee record contains additional material here.]


    Mr. Regula. I assume you work with builders?
    Mr. Blum. We work with builders, contractors, roofing 
contractors, we have our own training programs. We work with 
other insulation industry groups, such as the fiberglass 
people, Owens-Corning is of course a part of that effort as 
well. And your State, frankly, has one of the more forward 
looking codes as well.
    Mr. Regula. Thank you very much.
    Mr. Blum. Thank you, sir.
                              ----------                              

                                          Wednesday, March 4, 1998.

                 NATIONAL ENDOWMENT FOR THE HUMANITIES

                                WITNESS

JOHN H. D'ARMS, PRESIDENT, AMERICAN COUNCIL OF LEARNED SOCIETIES
    Mr. Regula. National Humanities Alliance.
    Mr. D'Arms. Good morning, Mr. Chairman. I'm John D'Arms.
    We're shifting gears, we're moving to the National 
Endowment for the Humanities. I've become President recently of 
the American Council of Learned Societies, which we'll call 
ACLS, a preeminent private humanities organization in the 
United States, established in 1919.
    Before that I was for 30 years at the University of 
Michigan as a teacher of humanities, as a scholar, a hater of 
Ohio State, but Mr. Chairman, I have to tell you that I sent my 
son and daughter to Columbus. My daughter is working in a 
Borders book store there, selling books of music, and my son is 
a budding philosopher at Ohio State.
    Mr. Regula. Good. Good choice.
    Mr. D'Arms. I'm testifying on behalf of the National 
Humanities Alliance and its membership of 85 scholarly and 
professional organizations. And I am very happy to have the 
opportunity to express support for the National Endowment for 
the Humanities and the President's request for $136 million in 
fiscal year 1999, still down from $172 million three years ago.
    When we invest, Mr. Chairman, in research in the biomedical 
sciences, we do it out of a conviction that great breakthroughs 
will save or prolong life. When we invest modestly in the 
humanities, we do it out of a different humanneed, because we 
think they'll make a life more meaningful.
    My second, my written testimony will explain the various 
programs that we're particularly interested in. We support Mr. 
Ferris, our new incoming NEH chairman----
    Mr. Regula. I've met with him.
    Mr. D'Arms [continuing]. And his plans for the regional 
humanities centers. But also for really deepening and 
restoring----
    Mr. Regula. We really talked about cattle.
    Mr. D'Arms. Cattle?
    Mr. Regula. Yes. He was a 4-H'er and so am I. They've had a 
charmed existence, the NEH, as opposed to NEA, as you well 
know.
    Mr. D'Arms. Yes, I well know that.
    I think the only things I would say about the NEH programs 
this morning, Mr. Chairman, are two that I know an awful lot 
about as a scholar and as a representative of scholars. 
Fellowships, here I really do speak from experience, because 
I've held these fellowships, which have allowed me to do some 
research on Roman Pompeii.
    Secondly, I've awarded and administered these fellowships. 
Thirdly, I've tried to raise money for fellowships and know how 
hard it is. Fourthly, I've written about it.
    Mr. Regula. Well, let me ask you. Does the public use the 
product?
    Mr. D'Arms. The public does use the product. I mean, I 
would cite just two very recent examples Bob Fagle's 
translation of Homer's Odyssey, which has been bought in 
hundreds of thousands of copies. And accompanied by a reading 
on tape by the actor, McEwen, so people put it in their cars 
and listen to it all the time. There is a work of scholarship 
about which the public really is interested in.
    You could say that Helen Vendler's new book on 
Shakespeare's sonnets with a compact disk to go with it, 
hearing her read it, really, I mean, these are the human 
emotions, they're the human spirit. People are in fact, even in 
scholarship, paying attention.
    So I think support for restoring the scholarly work in the 
humanities, fellowships would be very important.
    And finally, Mr. Chairman, just let me say this. In coming 
to Capitol Hill on many occasions after the election of the 
104th Congress, speaking to members, I kept hearing the NEH 
ought to privatize. You ought to be connecting with private 
money.
    I would point out, Mr. Chairman, that there is one program 
in the National Endowment for the Humanities which really does 
this, which really endows. And that's the challenge grant 
program, where an institution has to provide $3 for every $1 it 
gets.
    Mr. Regula. Yes, I like those.
    Mr. D'Arms. Now, that, which is currently funded at $10 
million, if it were doubled, if we were able to get to $20 
million, we would generate $60 million.
    Mr. Regula. But if we gave you the $20 million, and kept 
your max, you're about the same.
    Mr. D'Arms. Well, that would require making priority 
judgments within the agency. I think others are better prepared 
to do that.
    I would think that there is a real case to be made for 
challenge grants.
    Mr. Regula. They leverage the money and they get others 
involved.
    Mr. D'Arms. They do. And it calls itself, Mr. Chairman, the 
National Endowment for the Humanities. This is the only program 
that actually does do some endowing. If you want us to 
privatize, we need some time, and this is one of the programs 
that helps do it.
    [The information follows:]

[Pages 709 - 723--The official Committee record contains additional material here.]


    Mr. Regula. Okay, thank you very much.
                              ----------                              

                                          Wednesday, March 4, 1998.

                 NATIONAL ENDOWMENT FOR THE HUMANITIES

                                WITNESS

MYLES BRAND, PRESIDENT, INDIANA UNIVERSITY
    Mr. Regula. Association of American Universities.
    Mr. Brand. Mr. Chairman, I'm Myles Brand, President of 
Indiana University.
    Mr. Regula. You're a little kinder to our Buckeyes.
    Mr. Brand. I used to be at Ohio State, incidentally, before 
Indiana. [Laughter.]
    I also represent, in addition to the American Association 
of Universities, the National Association of State Universities 
and Land Grant Colleges, as well as the American Council on 
Education. I'm here to testify for NEH and in particular, for 
the $136 million proposed budget.
    Mr. Regula. Well, let me say that's unlikely, being 
perfectly candid, because we're not going to have any extra 
money, that I can see, over what we had last year. And I don't 
know if our priorities are going to be able to shift to give 
any one agency that we are responsible for any substantial 
addition. That's just the fact of life, given the allocation we 
receive from the budget process.
    Mr. Brand. I understand, Mr. Chairman. I also want to make 
a case for priorities.
    Mr. Regula. Yes, I understand that, too.
    Mr. Brand. There are competing interests, and I want to 
argue strongly for the National Endowment for the Humanities. 
Obviously, it helps preserve and advocate for our 
nationalculture. It has the goals of promoting life-long learning, 
strengthening our communities. It does this by making humanities 
available to Americans, help them understand their place in the world.
    As a college president, I want to stress, as John D'Arms 
did before me, that research and study in the humanities is 
essential. It provides a clear framework for critical----
    Mr. Regula. How does NEH impact on your campus?
    Mr. Brand. NEH impacts on our campus by supporting 
individual scholars. I myself, I'm a philosopher by trade. I 
myself had two NEH fellowships which allowed me, as a young 
faculty member, to spend time away from having to teach during 
the summer to do research. That research was then directly 
carried into the classroom.
    It also supports a number of activities in terms of 
critical editions. NEH has been well-known for preserving the 
papers of George Washington, Frederick Douglass. It recently 
produced the monumental television show on the Civil War, you 
may----
    Mr. Regula. Oh, yes, I'm very familiar with that. It gave 
you some great PR.
    Mr. Brand. It was a good effort. And only the NEH can do 
that, because only NEH has the broad scope to do it. No one 
State or private corporation could have possibly done it.
    Mr. Regula. Do you have a council in Indiana?
    Mr. Brand. Yes, we have a council. Every State has a 
council. I personally served on the Council in Arizona when I 
was there. It was very exciting to see young and old people 
visit the exhibitions, hear the lectures. It was thrilling, 
really. That was one of my most fond memories of the NEH, 
working on the State councils.
    I support Chairman Ferris' effort to enhance the outreach 
regionally. Let me just give you two more examples from my home 
institution, if you will. You asked critical editions. Indiana 
University is working on the papers of Charles Sanders Perce, 
the founder of pragmatism, which is clearly an American 
philosophy. Those papers are in great disarray. Without the 
help of NEH, they would be lost.
    We have a leading folklore center, which preserves jazz, 
American Indian music, it's the best folklore center in the 
country. Without NEH, it would be nowhere.
    Mr. Regula. Okay, well, that's what I want to hear. I want 
to know what gets on the ground.
    Mr. Brand. It works for our students, works for our 
communities.
    [The information follows:]

[Pages 726 - 729--The official Committee record contains additional material here.]


    Mr. Regula. Very well, thank you very much.
                              ----------                              

                                          Wednesday, March 4, 1998.

                 NATIONAL ENDOWMENT FOR THE HUMANITIES

                                WITNESS

DEANNA MARCUM, PRESIDENT, COUNCIL ON LIBRARY AND INFORMATION RESOURCES
    Mr. Regula. We're going to skip the next one until the 
member gets here. We'll go the Association of Research 
Libraries.
    Ms. Marcum. Good morning, Mr. Chairman.
    Mr. Regula. Good morning.
    Ms. Marcum. Maybe I should tell you that I'm also a 4-H'er.
    Mr. Regula. That's terrific. You're off to a good start. 
[Laughter.]
    Ms. Marcum. I thought that would help.
    I'm Deanna Marcum. I'm President of the Council on Library 
and Information Resources. Today I'm pleased to represent the 
Association of Research Libraries, the National Humanities 
Alliance, as well as my own organization, a 501(c)(3) 
organization.
    I'm here to speak in support of NEH's budget of $136 
million for 1999. That budget includes $20 million for 
preservation, an additional $2 million over the current 
preservation and access budget.
    I want to talk about preservation, because in 1989, NEH, 
since 1989, NEH has been implementing a coordinated national 
plan to save the intellectual content of books and other 
research materials in research libraries. That plan is now 
falling behind, because NEH funding has not been at the amount 
that was envisioned 10 years ago when that was introduced.
    What is clear, though, is that NEH's leadership is 
important. No individual university could manage this 
preservation plan on its own, and NEH's leadership is critical.
    Mr. Regula. Do you see it as leverage money, seed money?
    Ms. Marcum. Very much so. Universities are putting much of 
their own money into these projects.
    Mr. Regula. So the NEH grant becomes seed money, literally.
    Ms. Marcum. That's right. And the universities then go to 
private foundations and raise additional money. So it's a 
collective effort.
    Mr. Regula. Let me ask you, do you think we ought to 
increase the State allocation out of their budget? It's now 
about 35 percent.
    Ms. Marcum. The State allocations are very important. But 
when we're talking about preservation of the intellectual 
record, we really must have a national program so that we know 
that wherever those materials are, someone will identify them 
and preserve them.
    Mr. Regula. You're comfortable with the present breakdown 
of about 35 percent to the States?
    Ms. Marcum. I'd like to see more in all categories.
    Mr. Regula. That's a safe answer. Okay.
    Ms. Marcum. The second point I would like to make, and this 
is amplified in my written testimony, at the same time this 
preservation microfilming program is going forward, NEH also 
must look at the knowledge that's being produced in digital 
form. We must find ways to preserve that information in digital 
form as well.
    We want to support very strongly the additional $2 million 
that NEH has requested, so that it will be able to reformat 
some of those materials that are now in our Nation's libraries, 
so they can be made available easily on the world wide web to 
school children throughout the United States and 
internationally.
    And we would like to applaud the cooperation between NEH 
and the National Science Foundation in the second round of 
digital library projects.
    Mr. Regula. I don't know, are you familiar with the 
proposed Millennium project?
    Ms. Marcum. I am, indeed.
    Mr. Regula. Do you think NEH would be a partner in that? I 
know it's the First Lady's initiative.
    Ms. Marcum. There's a very strong connection. I'm sure NEH 
would be very much interested in working with the National 
Trust for Historic Preservation and other groups for 
preservation purposes.
    [The information follows:]

[Pages 732 - 742--The official Committee record contains additional material here.]


    Mr. Regula. Okay, thank you very much.
    Ms. Marcum. Thank you very much. Appreciate this 
opportunity.
                              ----------                              

                                          Wednesday, March 4, 1998.

                 NATIONAL ENDOWMENT FOR THE HUMANITIES

                                WITNESS

JACK FARIS, EXECUTIVE VICE PRESIDENT/GENERAL MANAGER, COLE AND WEBER, 
    MEMBER, BOARD OF DIRECTORS, WASHINGTON COMMISSION FOR THE 
    HUMANITIES
    Mr. Regula. Our next witness is the Federation of State 
Humanities Councils.
    Mr. Faris. Thank you for this opportunity to share. My name 
is Jack Faris. I am on the board of the Washington Commission 
for the Humanities. I work at Cole and Weber, an advertising 
agency in Seattle, representing clients such as Safeco and 
Boeing, nationally and internationally.
    It also happens that my wife was a 4-H member, and she 
sends her regards.
    Mr. Regula. My, we're going to have to paint the room 
green. [Laughter.]
    Mr. Faris. I'm here to advocate on behalf of the proposed 
NEH funding level of $136 million, and particularly in support 
of the recommended $35.6 million for the State Councils.
    Mr. Regula. Why do you like the NEH program?
    Mr. Faris. That's an excellent question. I am, like my 
predecessors testifying this morning----
    Mr. Regula. You're coming out of the private sector?
    Mr. Faris. That's correct.
    Mr. Regula. Okay.
    Mr. Faris. I think that the National Endowment for the 
Humanities, in particular, humanities in general, are 
absolutely central to the fabric of our democracy.
    Mr. Regula. If a worker at Boeing came up to you and said, 
I see you're on this council, and I'm paying taxes, how would 
you justify to him the activities of NEH?
    Mr. Faris. I would point out to this person that it's very 
likely that his or her daughter or son is participating in an 
enriched academic program in high school or middle school that 
is supported by the State Councils activities in humanities. I 
would also point out that he or she may have had the 
opportunity to go to an exhibit at a museum, discover the role 
of the home front in World War II and have a conversation with 
his or her father about his participation in the war and to 
discover a rich part of history that might not have otherwise 
taken place.
    So it's not difficult, especially with the breadth and 
scope of the amount of activity at the State level, to make a 
case to anybody for the importance of the humanities. I'll name 
a couple more.
    Within the State of Washington and six other councils, 
there is strong support for a program called Mother Read Father 
Read, which is a very powerful program for helping parents 
learn how to read to their children and read with their 
children with a humanities orientation that puts as much focus 
on interpretation of the material and in so doing, the careful 
evaluative research indicates that this not only improves the 
academic achievement of children in reading andother areas, it 
actually strengthens families. I think there's a strong case that it 
reduces incidents of child abuse by developing richer, more connected 
families.
    Mr. Regula. I think, this is a week of reading, national 
week of something.
    Mr. Faris. I've been engaged in important initiatives in 
literacy for the past ten years. The Mother Read Father Read 
program is praised by experts as one of the very most powerful 
of all these reading programs that are underway across the 
country.
    Mr. Regula. I have just been reminded, this is Dr. Suess' 
birthday week. Our three kids grew up on Dr. Suess.
    Mr. Faris. We all have some Green Eggs and Ham.
    Mr. Regula. That's right.
    Mr. Faris. I also want to point out two other things. The 
State Councils are adopting advanced technology in order to 
multiply their programs and extend their efficiency. The State 
of Texas has a web site which is being built to house 
ultimately 55 different exhibits and slide shows and video 
presentations. Because of the network that links all of their 
schools together, this will be accessible by every school in 
the State.
    Cutbacks in State funding have affected our ability to 
deliver these programs. My executive director wanted me to note 
that in fact, the State funding has been at $28 million out of 
$110 million. So that's right about 25 percent, rather than the 
40 percent figure.
    We do think, in fact, we're confident that there is strong 
demand for the services and programs.
    Mr. Regula. Does the State of Washington support their 
humanities council? That is, the State legislature, through 
their budget?
    Mr. Faris. We do not receive State funds.
    Mr. Regula. You're not getting State funds? Have you tried?
    Mr. Faris. We're trying this year and last year.
    Mr. Regula. Because I see the Federal funds as a leverage 
arrangement. And it seems the States ought to also participate.
    Mr. Faris. I do want to speak to the role of our 
organization in leveraging the national support. In the State 
of Washington----
    Mr. Regula. You do get private money, then?
    Mr. Faris. We are increasing that, I serve on the 
development committee of the Washington Commission. And with a 
lot more energy behind fund raising and entrepreneurial 
activities, we have been able to increase the private side of 
the budget from about 15 percent to 40 percent in the past 
couple of years. We intend fully to continue to do more and 
more.
    But at the same time, the fact is that our programs are 
oversubscribed, we have unmet demand. You asked whether the 
public is buying the product, and the public is very 
interested, hungry, thirsty our products and programs. So we 
feel in a strong position to advocate for the $35.6 line item 
budget.
    [The information follows:]

[Pages 745 - 750--The official Committee record contains additional material here.]


    Mr. Regula. Okay, thank you very much.
                              ----------                              

                                          Wednesday, March 4, 1998.

                    NATIONAL ENDOWMENT FOR THE ARTS

                                WITNESS

JEFFREY NESIN, PRESIDENT, MEMPHIS COLLEGE OF ART
    Mr. Regula. I see Congressman Ford is here and we're 
pleased to welcome you. I understand you want to introduce Mr. 
Nesin. We're happy to have you.
    Mr. Ford. Thank you, Mr. Chairman. I won't take up much of 
your time.
    I want to first thank you for your leadership and certainly 
commitment to the arts over the years, and your support. I know 
that President Nesin and others around the Nation, while I'm a 
new member of Congress, and certainly being young, I don't 
profess to be an expert on anything, but I do know that you 
have been a supporter of these issues, and I do thank you.
    President Nesin is not only my constituent, but he is the 
President of the Memphis College of Art. In his capacity there, 
and certainly at the other post-secondary institutions in which 
he has served, he has distinguished himself as an effective 
educator and articulate advocate on behalf of the arts.
    Under his leadership and stewardship at the school, Mr. 
Chairman, the school has really thrived and gained national and 
regional prominence.
    Mr. Regula. Is it a public or private school? And just 
restricted to the arts?
    Mr. Nesin. It's a college of art and design.
    Mr. Regula. Okay.
    Mr. Ford. I will be very brief, I see my colleague Mr. 
Nethercutt has just come in as well, and I thank him again for 
letting us come before the committee.
    He has been able to help the school grow its enrollment, 
its undergraduate and graduate enrollments to the largest 
they've been in the history of the school, Mr. Chairman. In 
addition, he has demonstrated a keen understanding of the 
importance of not only arts education, but students' access to 
technology as they seek to grow and learn and enrich 
themselves.
    Mr. Regula. What's the enrollment?
    Mr. Nesin. Three hundred.
    Mr. Ford. Without further ado, Mr. Chairman, I give you my 
constituent. I give you President Jeff Nesin.
    Mr. Nesin. Thank you very, very much.
    Mr. Regula. Thank you for coming, and you're welcome to 
stay, Mr. Ford.
    Mr. Nesin. Thank you, and good morning. I am not now nor 
have I ever been a member of the 4-H club. My father was. 
[Laughter.]
    My father was, but I'm not.
    Mr. Regula. I guess we all started on the farm somewhere 
down the line, in the background.
    Mr. Nesin. I'm representing the Association of Independent 
Colleges of Art and Design, a national organization.
    Mr. Regula. You're speaking for the group, or just 
yourself?
    Mr. Nesin. No, I'm speaking for the group nationally. We 
have three institutions in your State, Columbus College of Art 
and Design, Art Academy of Cincinnati and the Cleveland Art 
Institute. And I believe the President of the Cleveland Art 
Institute has spoken with you earlier.
    Now, I would like to speak on behalf of that agency which 
has not led a charmed life, the National Endowment for the 
Arts, and urge you to fund it at the level that has been asked 
by the Administration of $136 million. I would say since you 
raised the issue of leveraging the Federal funds, leveraging 
State, local and private funds, that the only direct grant that 
the NEA has ever given to the Memphis Arts Council, it has 
never given anything to my college, but the only direct grant 
that the NEA made to the Memphis Arts Council was about 15 
years ago. It was a small challenge grant.
    Their annual campaign now is a multimillion dollar 
campaign, supported by city funds, county funds, State funds, 
multiple corporate donations, and many, many thousands of 
private donors, because the Federal Government, the Federal 
Government legitimized them as an organization, and legitimized 
their efforts by making a small grant. That is a key.
    Mr. Regula. It's a seed money/leverage program.
    Mr. Nesin. That is a key Federal role in the arts 
nationally.
    There's a second issue for me. And that is that same 
leverage and that same legitimization for education, for art 
and design in education. There's research recently that 
indicates that students with extended art study in their 
schools score 53 points higher on the verbal and 35 points 
higher on the math sections of the college boards of the SAT. 
This suggests to me, and I think broadly, that art education, 
serious art education, sustained art education, teaches not 
only art making and art understanding, but problem solving, 
clear thinking, self-discipline, self-criticism, and is of 
enormous benefit to all of our children.
    I think it is of particular benefit to children at risk and 
children who have not previously had great success in our 
schools, providing another language system and another means by 
which they can excel in their studies. These are all areas that 
I've spent a lot of time working in and my college has 
supported.
    [The information follows:]

[Pages 753 - 756--The official Committee record contains additional material here.]


    Mr. Regula. Mr. Nethercutt, do you have questions? You have 
had some skepticism on NEA.
    Mr. Nethercutt. Well, Mr. Chairman, thank you for being 
here, both of you gentlemen, my colleague especially.
    I just wanted to be sure that the mission of the NEA is 
better focused, and really that some of the rural areas of the 
country receive assistance through arts grants. I come from a 
modified rural area. We have Spokane, Washington on the east 
side of the State, which is 60 percent of the population of my 
district. But we don't get very much in the way of grants that 
I think could be helpful to the rural communities.
    So I'd like to see NEA structured in such a way that some 
of the rural communities receive greater benefit, rather than 
lesser, and that money goes less to the big city arts efforts 
and more to small America.
    Mr. Nesin. Frankly, I can't argue with that. And I would 
not. In Tennessee, the percentage of NEA money that comes to 
the State goes to the Tennessee Arts Commission and gets 
distributed very, very broadly across the State, to little 
community theaters and bona fide rural communities. There's no 
special bias.
    Although the economic development piece of this kind of 
Federal interest in the arts would suggest that where the arts 
and art tourism are multi-billion dollar a year industries that 
pump, keep being primed on a regular basis, so I wouldn't speak 
against the Metropolitan Museum of Art in New York, but I agree 
with you entirely.
    I am the President of the only college in my association, 
the State of Tennessee, or seven of the eight contiguous 
States. So I have a lonely position, defending art and design 
education, even in the biggest city in the State. I'm very 
proud that I have my Congressman by my side today.
    There's one other thing, since I raised the issue of 
competitiveness.
    Mr. Regula. We're about out of time.
    Mr. Nesin. I'll be real quick. I believe that national 
productivity and creativity have to grow together. I think that 
current technologies and technologies that are being developed 
now put a stronger demand on art and design education on 
creative problem solving than ever before. I believe that you 
would demonstrate your interest in exactly these pathways for 
the future, enabling students and our citizens of the future by 
supporting an increased appropriation for the NEA.
    Mr. Regula. Well, thank you very much.
    Mr. Nesin. Thank you.
                              ----------                              

                                          Wednesday, March 4, 1998.

                 NATIONAL ENDOWMENT FOR THE HUMANITIES

                                WITNESS

PAGE PUTNAM MILLER, DIRECTOR, NATIONAL COORDINATING COMMITTEE FOR THE 
    PROMOTION OF HISTORY
    Mr. Regula. The next witness is the National Coordinating 
Committee for the Promotion of History.
    Mr. Nethercutt [assuming chair]. This is the National 
Coordinating Committee for the Promotion of History, Page 
Putnam Miller, Director. Welcome, ma'am.
    Ms. Miller. Thank you. I appreciate the opportunity, 
Representative Nethercutt, to testify before this committee.
    I represent a coalition of 50 historical and archival 
organizations. We're concerned about the funding for the 
National Endowment for the Humanities. We are urging this 
subcommittee to recommend the President's request of $136 
million, which we see as a partial step toward the restoration 
of the level before the cuts in 1995, when NEH was at $172 
million.
    This will be only, would still be 20 percent short of that 
full restoration. So we see this as a step in the right 
direction.
    We support NEH because of its two core missions. Those 
missions we see as the support of scholarship in the humanities 
and the support of the dissemination of that scholarship. We 
think about scientific research, and they require major labs 
and expensive equipment. But the humanities also require tools 
for research. And these tools are major projects, and they are 
supported by NEH.
    One of these tools, for instance, are the documentary 
history volumes. These have been so important to scholars 
around the country, because scholars cannot always travel to 
all the repositories and by compiling the writings of George 
Washington and Jefferson and Madison and all in one document, 
in one place with many volumes, it's able to disseminate that 
scholarship.
    But if you look at the budget of the National Endowment for 
the Humanities in 1995, the amount for research, which is the 
core research that's so important to us, was $23.5 million, and 
the amount for education was $28 million. But with the 
downsizing, they had to merge these two into one division with 
only $21 million.
    So you can see the amount that's gone to basic research has 
been significantly reduced.
    But while we support the research side, we also support the 
dissemination side. And a key role in that are the State 
humanities councils. And just previously, we heard the 
representative from the Washington Council who explained so 
well the kinds of ways in which those councils support the 
dissemination. They depend on the scholarship that was produced 
through the core programs of the research division.
    In closing, I would just like to say that we support the 
Chairman's initiative for the Millennium projects. We support 
the interest in the regional centers. Because we feel that will 
be a way to disseminate.
    But we're concerned that the Endowment take on new projects 
when it's not really funding to the level we think it should 
the core projects. So we would only support the regional 
centers if there is additional funding.
    Thank you very much. Are there any questions?
    [The information follows:]

[Pages 759 - 766--The official Committee record contains additional material here.]


    Mr. Nethercutt. No, ma'am, thanks so much for being here 
today and for your testimony.
    Ms. Miller. Thank you.
    Mr. Nethercutt. I might just say for the record, I was 
sorry to have missed Mr. Faris and Margaret Ann Bromeyer who 
were here. I especially had a very good discussion with them 
before their testimony today. So I certainly want to weigh in 
again in thanking you again on the record for being here and 
for your insight and support of the NEH and State arts 
councils, especially. Glad you could be here.
    Mr. Faris. In my testimony there were some comments on the 
Gettysburg Address I wanted to call to your attention. I'll 
give a copy to your staff.
    Mr. Nethercutt. Wonderful. Thank you very much.
                              ----------                              

                                          Wednesday, March 4, 1998.

                    UNITED STATES GEOLOGICAL SURVEY

                                WITNESS

GREGORY N. BROWN, DEAN, FORESTRY AND WILDLIFE RESEARCH, VIRGINIA TECH
    Mr. Nethercutt. The next witness will be the National 
Association of State Universities and Land Grant Colleges, Dr. 
Gregory N. Brown, Dean, Forestry and Wildlife Research, 
Virginia Tech.
    Welcome, sir.
    Mr. Brown. Thank you, Mr. Chairman, for this opportunity to 
testify before the Interior Subcommittee on Appropriations.
    I'm speaking on behalf of the U.S. Geological Survey, even 
though I'm representing the National Association of State 
Universities here. As you indicated, I'm from Virginia Tech, 
Dean of the college there. My tie to the National Association 
of State Universities is that I am previous chair of their 
board of natural resources, and currently I am chairing a new 
partnership with the USGS. Hence, we have a very high level of 
interest in the USGS budget.
    The National Association of State University mission, it 
was founded in 1887, is the oldest higher education association 
in the country, and it currently represents 190 member 
institutions, including 17 historically black institutions. 
Those institutions enroll over 3 million students.
    NASULGC as such does not receive any Federal grants. The 
NASULGC-USGS partnership is a relatively new partnership. The 
USGS strategic plan emphasized partnerships as one of its core 
competencies. Recently we brought together many of the 
scientists and some of the administrators from many of the land 
grant universities to meet with some of the high level 
officials in the agency, in the USGS, to work toward a 
partnership.
    We could give many examples of how this partnership could 
manifest itself. Frankly, I came prepared to give a few from 
Ohio. But since Congressman Regula left the room, I'll save 
some time. [Laughter.]
    Mr. Nethercutt. You could give some from Washington State.
    Mr. Brown. We could track down some very quickly. 
[Laughter.]
    Mr. Nethercutt. Thank you.
    Mr. Brown. Relative to the budget request, we recommend 
increasing the $806.9 million. The USGS mission, as you are 
aware, is the primary provider of the earth and biological 
science information related to natural hazards. They have a 
responsibility for collecting and analyzing and disseminating 
all these data for the management of our natural resources in 
this Nation.
    Under the USGS, there are four major divisions to which I 
would like to make reference. One of those is the National 
Geologic Mapping Program. We would like to speak against a 
proposed reduction of the $1.7 million in the National 
Cooperative Geological Mapping Program, and ask the Congress to 
restore the program to the full authorized level of $26 
million.
    One of the most fundamental programs of the USGS has been 
the preparation of geological maps. These have widespread use 
in land use planning, looking at geologic hazards and finding 
and evaluating fuel and non-fuel minerals in our Nation.
    Another division is the Geologic Hazards, Resources and 
Processes. Here again we would like to speak against the 
proposed reduction and recommend that it be restored to the 
1998 level of $235 million. Again, one of the most important 
activities of this division is its cooperative programs with 
State geological surveys. Many of these activities involve 
universities. And they've become very productive as effective 
partnerships across all the communities in the State or in the 
Nation.
    For example, in the New Madrid, Missouri site, which is the 
site of the largest earthquake to ever occur in this Nation, 
the scientists are working together to identify seismic 
activity and describe the fault situations and so forth, in 
anticipation, or in the hope, at least, anticipation that if 
another one should occur, that they could detect that in 
advance.
    Mr. Nethercutt. How large was that, do you remember? 
Relative to Alaska. I'm familiar with the Alaska quake, but I 
wasn't sure, you said the largest.
    Mr. Brown. Well, it supposedly was the largest earthquake 
we ever had in the United States. I couldn't really give you 
what the scale was on that.
    Mr. Nethercutt. That's okay.
    Mr. Brown. Under the biological resources division, which 
is a fairly new one in USGS, we would like to commend the 
leadership of this committee in merging the former National 
Biological Service into the USGS as a biological resource 
division. Because that provides an opportunity for the USGS to 
deal with multidisciplinary programs across natural resources. 
Hence, they can more effectively coordinate the research 
directed to that end.
    Relative to the biological resources division, we would 
like to urge an additional $2 million to fully support the 
cooperative research units. These units are essential for 
research and information to resource managers across fisheries 
and wildlife and so forth. We would like to sustain the 
extramural research partnerships with the universities. They 
are important to all of our universities and I think very 
important to the biological resources division.
    Finally, under the water resources division, we would 
support the request for $5.5 million for the water resource 
research institutes. The Administration request for the 
institutes is a very welcome development in the fiscal year 
1999 budget.
    The institutes use university scientists to conduct high 
priority State, regional and national research on water 
resources. And the Federal support for the institute program 
creates a national network among States and between their land 
grant universities and other research institutions.
    We also would support the budget request of $71.9 million 
for the Federal-State cooperative program in the water 
resources division. And the National Water Quality Assessment 
program, at a level of $71.6 million. These programs are 
essential to extending scientific and technical expertise of 
the survey to State and local governments through the 
partnerships and cost sharing arrangements with those units.
    Finally, and separate from the USGS budget, since the 
Interior Subcommittee on Appropriations deals with the U.S. 
Forest Service budget, I would just like to make a brief 
comment about the U.S. Forest Service partnership with 
universities. There's authorizing language which strongly 
encourages greater partnership through competitive grants from 
the Forest Service to universities to deal with the non-
industrial private forests in this Nation. That's aforest base 
that is going to be increasingly called upon to supply the wood demand 
for this Nation in the future, and relatively little education and 
research is directed toward that particular entity.
    There's a 5 percent increase proposed for the U.S. Forest 
Service research and development in the fiscal year 1999 
budget. That includes a $6 million increase for inventory and 
monitoring, a very critical action. And also a $3 million 
increase for climate change technology. And $2 million of that 
$3 million is identified for extramural research grants, which 
would be cooperative or competitive for universities.
    And lastly, I would like to support a new concept called 
the Cooperative Ecosystem Study Units. This is a new unit that 
would be working cooperatively with universities, including the 
historically Black colleges and universities. But most 
significantly, I think it crosses several different Federal 
agencies in a collaborative nature. It will involve the USGS, 
the Bureau of Land Management, National Park Service, EPA, the 
U.S. Forest Service and several others at this point. I think 
it falls into the line of collaboration across Federal agencies 
with which we are trying to strive and accomplish.
    So with that, Mr. Chairman, I thank you for the opportunity 
to testify this morning. And we thank you again for your 
support of the management of our natural resources in this 
Nation.
    [The information follows:]

[Pages 770 - 774--The official Committee record contains additional material here.]


    Mr. Nethercutt. Thank you, Dr. Brown, for your work and for 
your testimony today.
                              ----------                              

                                          Wednesday, March 4, 1998.

                    UNITED STATES GEOLOGICAL SURVEY

                                WITNESS

BOB G. VOLK, PRESIDENT, NATIONAL INSTITUTES FOR WATER RESOURCES, 
    DIRECTOR, WATER CENTER/ENVIRONMENTAL PROGRAMS UNIT, UNIVERSITY OF 
    NEBRASKA
    Mr. Nethercutt. The next witness will be the National 
Institutes for Water Resources, Dr. Bob Volk, University of 
Nebraska. Welcome, Dr. Volk.
    Dr. Volk. Good morning, Mr. Chairman.
    My name is Bob Volk. I am President of the National 
Institutes for Water Resources, and Director of the Water 
Center/Environmental Programs Unit at the University of 
Nebraska in Lincoln, Nebraska.
    First of all, I wish to thank you for the opportunity to 
speak today and express my appreciation for the strong support 
the subcommittee has given the water resource research 
institutes program. This is a very valuable Federal-State 
partnership based on the premise that States, not the Federal 
Government, are the managers of their water resources, and that 
solutions to water problems are best solved at the State and 
local level.
    State water research institutes, through applied and basic 
research, are ideally suited to tailor solutions to State 
problems. The State matches every Federal dollar with two 
dollars.
    We have reviewed the USGS budget proposed by the 
Administration, and we strongly support the program of the 
Survey's water resources division. The division is widely 
recognized as first class among the scientific community.
    For the first time in several years, the Administration has 
proposed funding the institute's program at $4.553 million 
level for the 104(b) program and $1 million for the 104(g) 
program in fiscal year 1999. We believe this is a step in the 
right direction.
    The 104(b) program supports each institute with a base 
grant of $20,000, with the remaining funds distributed by a 
regional competitive grants program. The new funds for the 
104(g) program will be distributed competitively for water 
research that is regional, multi-state, inter-jurisdictional in 
nature, to complement the clean water and watershed restoration 
initiative.
    We are encouraged, Mr. Chairman, that the Interior 
Department's new approach to water research includes the State 
institutes as active partners. The increased level of funding 
for activities conducted under the Water Resources Research Act 
is a significant, positive response to communications from the 
Water Science and Technology board of the National Research 
Council for increased support of the program by the USGS, and 
to increase collaboration with universities.
    Yet over the many years of the institute's program, there 
has been a steady erosion in the ability of the institutes to 
maintain viable programs. Last year's funding of $4.553 million 
is roughly the same amount as the first year appropriation for 
the program when it started 30 years ago.Inflation over the 
past 30 years, therefore, has reduced the purchasing power of the 
research dollar by nearly four-fold.
    The Act, as reauthorized and signed into law in 1996, does 
authorize the 104(b) program at $9 million and the 104(g) 
program at $3 million.
    The National Water Quality Assessment program has been a 
major effort in assessing the quality of the Nation's major 
watersheds and the institutes would work very closely with the 
USGS in data interpretation, economic analysis, and development 
of best management practices to improve water quality. The 
institute's program, together with the USGS, provides the basis 
for a unique State-Federal partnership to address the Nation's 
water resource needs. And we look forward to increased 
collaboration with the USGS.
    I would also support what the previous speaker said, Dr. 
Brown, that we also support the USGS in the NASULGC partnership 
as well.
    I appreciate the opportunity to present this testimony. The 
institutes for water resources are grateful for your support of 
this very important State based program.
    [The information follows:]

[Pages 777 - 781--The official Committee record contains additional material here.]


    Mr. Nethercutt. Thank you very much, Dr. Volk. Appreciate 
your being here.
    Dr. Volk. Thank you.
                              ----------                              

                                          Wednesday, March 4, 1998.

             FOSSIL ENERGY/UNITED STATES GEOLOGICAL SURVEY

                                WITNESS

DAVID APPLEGATE, DIRECTOR, GOVERNMENT AFFAIRS, AMERICAN GEOLOGICAL 
    INSTITUTE
    Mr. Nethercutt. The next witness is the American Geological 
Institute, Dr. David Applegate, Director of Governmental 
Affairs. Welcome, sir.
    Mr. Applegate. Thank you very much.
    Thank you for this opportunity to testify, Mr. Nethercutt 
and Mr. Yates. I ask that my full statement be entered into the 
record.
    My name is Dave Applegate, I'm the Director of Government 
Affairs at the American Geological Institute. We're a 
federation of 31 different societies in the earth sciences, 
representing over 100,000 geologists, hydrologists, 
geophysicists and other scientists. I'm pleased to be here, I'm 
a geologist myself, so I'm particularly pleased to be here to 
support fiscal year 1999 appropriations for geoscience programs 
in the subcommittee's jurisdiction.
    Although I'm going to focus my remarks on the U.S. 
Geological Survey and the Department of Energy's fossil energy 
R&D program, AGI also urges the subcommittee to fund geoscience 
activities at the Minerals Management Service, Bureau of Land 
Management, the Forest Service and the Smithsonian Institution.
    The central mission of the U.S. Geological Survey is to 
provide reliable, objective earth science data and analysis of 
hazards, resources and the environment from a national 
perspective. Virtually every American citizen and every 
Federal, State and local agency benefits either directly or 
indirectly from USGS products and services.
    USGS is widely recognized for providing unbiased data used 
by others to better manage the Nation's resources. AGI 
encourages the subcommittee to support the President's overall 
request of $807 million for the USGS, which would be an 
increase of nearly $48 million.
    However, we also hope the subcommittee will carefully 
scrutinize the distribution of this increase, and particularly 
address the reduction for the geologic division, which included 
cuts for programs of geologic mapping, coastal studies, mineral 
resources and energy resources.
    One need look no further than the evening news for the El 
Nino effect, the landslides and the floods in California, and 
your own State is no stranger to natural disasters as well, to 
see the powerful reminders of the need to reduce the impact of 
geologic hazards. But in order to be successful in these 
efforts, the Federal Government needs to increase its 
mitigation efforts, including a strong component of research 
into these geologic hazards.
    The societal benefits and returns on this investment extend 
to such areas as housing, transportation, commerce, 
agriculture, communications and human health and safety.
    As the next witness from the Association of American State 
Geologists will tell you, whether the issue is naturalhazard 
mitigation, environmental remediation, land use planning or resource 
development, one of the fundamental data sources for these activities 
and for the research into them is geologic maps.
    Although AGI was very pleased when last August Congress 
unanimously passed the National Geologic Map Reauthorization 
Act, we were disturbed to have the President's budget come out 
six months later and rather than the $6 million increase that 
was called for in this act, it was a $1.7 million cut, as 
you've heard from earlier witnesses as well.
    This was the same request made by the Administration last 
year. This subcommittee saw fit to restore funding for this 
program last year, and we certainly hope that they will do it 
again and increase support for it in the current year. In 
particular, the external components that are matched one to one 
with State and university dollars.
    I'd like to turn now and mention briefly the Department of 
Energy's fossil R&D programs. Continued research on fossil 
energy is critical to America's future. The societal benefits 
of fossil energy R&D extend to such areas as economic and 
national security, job creation, capital investment and 
reduction of the trade deficit. The Nation will remain 
dependent upon petroleum as its principal transportation fuel 
for the foreseeable future. It's critical that domestic 
production not be allowed to decline prematurely.
    The Federal investment in fossil energy R&D is particularly 
important when it comes to longer range research that has broad 
benefits. In today's competitive markets, the private sector 
focuses dwindling research dollars on shorter term results in 
highly applied areas such as technical services. In this 
context, DOE's support of fossil energy research is very 
significant, both in magnitude and impact, compared to that 
done in the private sector. Without it, we risk losing our 
technological edge with this global commodity.
    AGI asks the subcommittee to grant DOE's request for R&D 
programs, particularly in the Office of Oil Technology. These 
funds are a small fraction of DOE's total budget, but they 
represent an important investment in this Nation's future.
    The Federal monies spent on these programs goes to support 
laboratories and to improve information dissemination. This 
money does not go into corporate coffers, but it helps American 
businesses stay in business by giving them a technological edge 
over their foreign competitors through such programs as the 
Petroleum Technology Transfer Councils, the Reservoir Class 
Field Demonstration Program. The latter of which, in a 1996 
report, the National Research Council found, was demonstrating 
advanced and conventional technologies that have the potential 
to prolong the lives of marginal oil fields.
    Thank you very much for this opportunity to present AGI's 
views to the subcommittee. I'll be pleased to answer any 
questions or provide additional information for the record.
    [The information follows:]

[Pages 784 - 794--The official Committee record contains additional material here.]


    Mr. Nethercutt. Thanks, Dr. Applegate. Your written 
statement will be made a part of the record. We appreciate your 
being here.
    Mr. Yates may have a question.
    Mr. Yates. I have one question. What does geology have to 
do with El Nino?
    Mr. Applegate. Well, in particular with the effects of El 
Nino. We see the earth sciences, in fact, the people that we're 
involved with stretch over all disciplines, earth science, 
atmospheric and oceans. But certainly the impacts of it on 
steep slopes, with soil erosion and landslides, the flooding, 
the work that the USGS does in stream gauging to measure its 
impacts, as well as a host of other hazards.
    Mr. Yates. Thank you.
    Mr. Applegate. Thank you, sir.
    Mr. Yates. Thank you, Mr. Chairman.
    Mr. Nethercutt. You're very welcome, Mr. Yates.
                              ----------                              

                                          Wednesday, March 4, 1998.

      UNITED STATES GEOLOGICAL SURVEY/MINERALS MANAGEMENT SERVICE

                               WITNESSES

CHARLES H. GARDNER, PRESIDENT, ASSOCIATION OF AMERICAN STATE GEOLOGISTS
CHARLES MANKING, STATE GEOLOGIST, STATE OF OKLAHOMA
    Mr. Nethercutt. The next witness will be the Association of 
American State Geologists, Charles H. Gardner, President.
    Welcome, sir.
    Mr. Gardner. Good morning, Mr. Chairman. I'd like to have 
somebody join me.
    Mr. Nethercutt. Indeed. We'd be delighted to have them.
    Mr. Gardner. I am Charles Gardner, I'm President of the 
Association of American State Geologists. And I'm the state 
geologist in North Carolina. And I have with me Dr. Charles 
Manking, who is the state geologist for Oklahoma. He has been 
around D.C. a lot more than I have and was willing to accompany 
me today to help out with this testimony.
    Mr. Nethercutt. Delighted to have you both here, and your 
testimony, sir, will be made a part of the record, your 
prepared statement. We're delighted to have you summarize.
    Mr. Gardner. I appreciate that.
    Our association has been around for about 90 years. And 
it's an interstate association of the Executive State 
Geologists. Our purpose is to learn from each other and also to 
speak with one voice concerning Federal affairs in our messages 
to the Congress.
    A couple of speakers earlier today have already addressed 
the concern that I want to bring to this committee, and that 
is, our deep concern about the funding level that we're seeing 
right now for the National Cooperative GeologicMapping Act and 
the U.S. Geological Survey. That program has had unanimous support in 
the passage of the authorization bill from the Congress.
    And the reauthorization bill last year, last year the 
Congress restored funding that was cut from that program, or 
proposed to be cut by the Administration. And the work that 
we've done to find out what happened this year, from all 
indications, the best we can figure is that the present 
proposed budget is kind of a vestige of what happened before. 
And the Administration had a particular level in front of them, 
and they put that forward.
    Our appeal to this committee and to the Congress is to 
appropriate funds for the total authorized amount for that 
national cooperative program, which is $28 million. A set 
percentage in the authorization bill goes to the States as a 
partnership kind of program this year, it would be 24 percent.
    It's an excellent leveraging kind of program for taking 
Federal funds and really multiplying the effect of those funds 
through the States' matching efforts and their local expertise 
in providing these geologic maps, which are really critical to 
the Nation. It's really the underpinning, the geologic maps are 
trying to depict the underpinning, the rocks and soils that 
make up our country, and have lots of practical applications.
    I'll just touch on those applications, they're in the 
written testimony. The mineral and energy resources areas, 
mineral exploration is completely dependent upon having 
fundamental geologic maps as a guide to know where to look. So 
industry is very dependent on those maps.
    In the area of water resources, the geology of the 
watersheds really controls the quality of the water, the 
natural quality of the water, for both surface and subsurface. 
And the understanding and management of ground water really 
depends on good geologic knowledge, which really is what we 
call geologic maps as a way of depicting that knowledge.
    You've already had some discussion this morning about 
geologic hazards and the value of geologic maps in emergency 
planning mitigation and anticipating where problems might be 
from earthquakes or from El Nino type storms. Generally 
speaking, in environmental assessments, geology and earth 
sciences are really a holistic part of the environment and have 
to be considered in the environmental assessments.
    Then finally, in our testimony we mention our land use 
planning. As our country grows and gets more crowded, the 
identification of geologic resources and the managing around or 
with those resources is more and more important. So those are 
the highlights that we point out in the testimony. I just want 
to emphasize that that is a really productive partnership 
program that has a lot of support from the industry environment 
across the Nation.
    The USGS itself, in its strategic plan, talks about the 
importance of geologic mapping. We're a little bit mystified 
about the proposed reduction. We think it would be certainly 
wise to add that in.
    Before I finish, before I run out of time, I do want to 
mention that I also handed in some testimony today concerning 
the Minerals Management Service and what's called a Continental 
Margins program there. I realize that there's just so much you 
can do in one sitting, and I only have five minutes, but I did 
want to get into the record the Association of American State 
Geologists' interest in the continuation of the Continental 
Margins program. We'd appreciate the committee and your staff 
taking a look at that.
    With the increased emphasis on coastal resources, increased 
concerns along the shorelines about coastal erosion, the need 
to identify sand resources for beach nourishment, we need 
continued support from the Minerals Management Service. And 
we've had an excellent program there and good cooperation. So I 
want to make sure I get a plug in for that also.
    Back to the mapping program at USGS, that's our main thrust 
this year, our main concern.
    [The information follows:]

[Pages 798 - 801--The official Committee record contains additional material here.]


    Mr. Nethercutt. Well, Mr. Gardner, thanks so much for being 
here, both of you. And I can just tell you that we frequently 
see the Administration in their budget requests reducing their 
areas of interest and knowing that this committee and the 
Congress will reinstate the money and pay for those things that 
are valuable.
    It's not unusual, but that happens in Administrations and 
they do it. They put the money they would save from this entity 
over to something else and establish their priorities. But 
we're going to do our best to be fair this year, obviously, and 
we recognize the importance of your focus. I know that we'll be 
doing our best.
    With that, Mr. Taylor just came in, a fellow North 
Carolinian. I would yield to you, sir, if you have any comments 
or questions.
    Mr. Taylor. No, nothing, Mr. Chairman, other than we're 
happy to have a fellow North Carolinian here, especially in 
that august position.
    Mr. Gardner. Thank you, Representative Taylor.
    Mr. Taylor. We support the efforts and have in the past of 
the revamping and so forth. We look forward to sharing in some 
of the things you've given us today. Thank you.
    Mr. Gardner. Thank you. I appreciate your being here.
    I would want to ask, please, if I could ask Dr. Manking if 
he can think of anything that I left out that I should have 
said.
    Mr. Manking. Not that I can think of.
    Mr. Nethercutt. Mr. Yates?
    Mr. Yates. No, thank you.
    Mr. Nethercutt. Thank you both for being here.
                              ----------                              

                                          Wednesday, March 4, 1998.

                 FOSSIL ENERGY/CONSERVATION/EFFICIENCY

                                WITNESS

BERNARD LEE, PRESIDENT, INSTITUTE OF GAS TECHNOLOGY
    Mr. Nethercutt. Next witness will be the IGT, Institute of 
Gas Technology, Dr. Bernard Lee, President.
    Welcome, Dr. Lee.
    Mr. Yates. How many times is this that you've come here? 
[Laughter.]
    I seem to remember you for the last 20 years.
    Mr. Lee. Well, you have a perfect memory. [Laughter.]
    Mr. Nethercutt. It's my first time, Dr. Lee, so I'm 
delighted to welcome you.
    Mr. Lee. Mr. Taylor and Mr. Yates, I know this is costing 
me my five minutes, but on this occasion, I do want to pay a 
special compliment to my Congressman. You've been a great 
representative for my district, we'll miss you. You're leaving 
a huge pair of shoes for people to fill, you know that.
    Mr. Yates. Thank you very much. I appreciate that, Dr. Lee.
    Mr. Lee. It's a privilege on my part, you're right, this is 
the twentieth year I have testified in front of this committee.
    Mr. Nethercutt. Mr. Yates is going to be missed by this 
committee, and we appreciate your kind remarks on his behalf.
    Mr. Yates. Thank you, Mr. Chairman.
    Mr. Lee. For the record, I am Bernard Lee, President of the 
Institute of Gas Technology.
    The agreements that were signed at Kyoto last year are 
indicative of the very, very strong and growing international 
concern for the efficient energy use and significant reductions 
in the global emission of air pollutants. It is in that context 
that I want to commend this subcommittee for its continued 
effort and support for DOE's program that will help both 
increase the use of natural gas and help reduce the emissions 
in our country and around the world.
    As we discuss advanced natural gas technology, there is a 
misconception that's frequently cited. That is that natural gas 
is only marginally better in terms of emission reductions 
versus other fossil fuels. That is just simply not true, if one 
takes an analysis of the energy usage from the beginning source 
all the way to the end.
    If you do that, then natural gas is the cleanest fossil 
fuel by far. With that kind of a source to end use analysis, 
the R&D programs throughout DOE that increase the use of 
natural gas would also provide our Nation with significant 
environmental gains.
    With that broad picture in mind, let me address three 
specific programs in the DOE budget that involve natural gas. 
First, the Industries of the Future program in the Office of 
Industrial Technology has done a commendable job of working 
with targeted industries to identify the energy and 
environmental needs and then find the economic solutions to 
these needs.
    Natural gas technologies that achieve both increased energy 
efficiency and pollution prevention represent a successful 
solution in many of these programs targeted areas. IGT in the 
past has been particularly successful in winning competitive 
awards in this program to work with the Nation's glass 
industry.
    We have successfully developed and commercialized our 
technology called the OEAS technology which reduces the energy 
consumption and NO<INF>X</INF> emissions of container glass, TV 
glass, flat glass furnaces. For every such glass furnace, of 
which there are hundreds in the U.S., for every such furnace 
that produces 300 tons of glass per day, where our technology 
can be applied, this will mean an annual savings of 13 billion 
BTUs of natural gas and the associated carbon dioxide that 
would not be generated, plus an annual reduction of 200 tons of 
NO<INF>X</INF>.
    Currently, IGT is developing an oscillating combustor 
through the OIT program. This low-cost retrofit technology can 
be applied to a broad range of industrial applications and has 
shown up to 10 percent improvements in efficiency and up to 70 
percent reduction in NO<INF>X</INF> emissions.
    For fiscal year 1999, DOE has asked for funding increases 
to continue current work in most of the specific OIT industry 
areas, plus $19 million for a new industry-wide solicitation. 
IGT strongly recommends support for this very successful 
program and encourages emphasis on technologies that have 
cross-cutting applications within the whole targeted vision 
areas of the OIT programs.
    Second, under the transportation and buildings program, in 
the proton exchange membrane, or PEM fuel cell subprogram, IGT 
is developing a new material and manufacturing process that can 
reduce the cost of the most expensive single element in the PEM 
fuel cell, namely the separator plate and related components. 
And the cost reduction can go from the current $190 per 
kilowatt down to $10 a kilowatt.
    To date, our laboratory tests have run in excess of 5,000 
hours under a full load and have achieved consistent excellent 
performance.
    IGT is also developing a fuel processor specifically for 
PEM fuel cell applications that will produce the low carbon 
monoxide levels necessary for PEM operation. This could be a 
significant boost for bringing PEM fuel cells to the market.
    Mr. Nethercutt. What's the power capacity of those fuel 
cells? How much power can they generate?
    Mr. Lee. They're pretty small, they are typically a few 
kilowatts.
    Mr. Nethercutt. Like a household type?
    Mr. Lee. Yes, household types, 5 kilowatts are 
typical.They're not meant for very large power plant, baseload power 
plant generation.
    Mr. Nethercutt. How low do you go? Below 5?
    Mr. Lee. That's it, 3 to 5 kilowatts is about the home 
size, yes.
    Mr. Nethercutt. Okay.
    Mr. Lee. Any improvements in the cost reductions that we 
develop in this program is available to all PEM developers, 
helping to bring this exciting technology closer to the market 
place. For fiscal year 1999, DOE has asked for an increase in 
these component R&D programs under the fuel cells for 
transportation and buildings program. IGT strongly urges your 
support for that request.
    Finally, we urge your support for an increase above the DOE 
fiscal year 1999 request for the stationary fuel cell program 
in fossil energy. You will hear much more about this program 
and its strong merits in the testimony to be offered by M-C 
Power and the Alliance to Commercial Carbonate Technology.
    Thank you very much for giving me the opportunity to 
testify, and I'll be happy to answer questions.
    [The information follows:]

[Pages 805 - 808--The official Committee record contains additional material here.]


    Mr. Nethercutt. Delighted to have you here, Dr. Lee.
    Mr. Yates. See you, Mr. Lee.
    Mr. Lee. Thank you, Mr. Yates.
    Mr. Nethercutt. Mr. Taylor.
    Mr. Taylor. Mr. Chairman, I was curious, on the Kyoto 
conference, since that was a treaty that Congress has to 
ratify, when will we get that treaty, do you know? Does 
anybody?
    Mr. Nethercutt. It won't come here.
    Mr. Lee. It will come to the Senate.
    Mr. Nethercutt. Yes, but we may have some implementation 
legislation or something.
    Mr. Lee. The way I understand it, sir, well, you know more 
than I do, there is going to be a generation of consensus 
across the country before the treaty will be brought to the 
Senate for ratification.
    Mr. Taylor. Maybe we should hold the appropriations dealing 
with anything that was taken up then until we have a generation 
of money together with the consensus. I hope we can either get 
a consensus or not before we start spending the money for those 
matters that we're taking up, or maybe they've just decided by 
bypass Congress on those matters.
    Mr. Lee. I think any effort that improves the efficiency of 
energy utilization is good for our Nation. And in the process, 
it helps reduce the emission. Whether one takes a very drastic 
approach to try to scale back industrial operation in the 
interest of reducing emissions, that may have to wait until the 
country has developed these things.
    Mr. Taylor. I would share your concern. I chaired the 
conservation committee many years ago in North Carolina. We did 
a lot of things that made a lot of sense and saved a lot of 
fuel. Anything we can do in that area not only lessens our 
dependency and prolongs out finite resources, but it makes us 
more efficient.
    Mr. Lee. Absolutely.
    Mr. Taylor. And all that is positive. I hope that we don't 
tie that to whatever some of the less stable ideas that came 
from that conference, I hope we can move ahead. I would share 
your feeling in that area.
    Thank you, Mr. Chairman.
    Mr. Nethercutt. Thank you, Dr. Lee.
                              ----------                              

                                          Wednesday, March 4, 1998.

                 FOSSIL ENERGY/CONSERVATION/EFFICIENCY

                                WITNESS

LEE CAMARA, PRESIDENT AND CEO, M-C POWER CORPORATION
    Mr. Nethercutt. Our next witness is M-C Power Corporation, 
Lee Camara, President and Chairman. Welcome.
    Mr. Camara. Thank you very much, Mr. Chairman, members of 
the subcommittee.
    M-C Power Corporation is on a clear path for delivering a 
clean, highly efficient and cost competitive molten carbonate 
fuel cell power generator in a size and at a price that will be 
highly marketable both in this country and for export. I want 
to thank the subcommittee for your willingness during 
conference consideration of your fiscal year 1998 bill to the 
things important for the entire DOE stationary fuel program.
    M-C Power strongly believes that there will be solid and 
expanding markets for the current fuel cell developers, both 
for stationary and transportation applications. The fuel cell 
technologies target diverse markets and each product's mix of 
power production, environmental exciting characteristics will 
continue to differentiate it among buyers.
    The broader of range of fuel cell products will lead to a 
broader range of users who will be economically able to gain a 
fuel cells advantage.
    Your continued support for our efforts in fiscal year 1999 
is extremely important to our continued success and the success 
of our technology. M-C Power's task is to resolve the technical 
manufacturing, assembly and integrated power plant packaging 
challenges necessary to reach our goal.
    At this stage in our development, however, we remain 
reliant on Congressional and DOE support. Congressional 
expressions of uncertainty about continued support and DOE 
assumptions of delayed funding seriously hamper out ability to 
raise outside capital.
    Last year at this time, M-C Power was operating a 250 
kilowatt fully integrated power plant at Naval Air Station 
Miramar in Southern California. The Miramar demonstration 
proved a number of significant successes, and helped clarify 
the remaining priorities in M-C Power's DOE program.
    We have quickly identified sound, workable solutions to our 
remaining development issues and we have reached an agreement 
with DOE for a plan to achieve those remaining goals. That plan 
will result in several demonstrations of the fuel cell stack 
and integrated power plant that will produce the final 
prototype for what will then be our commercial product.
    Because of a variety of changing market forces, we have 
also refined our fusion market entry target to a smaller size 
than originally intended at the beginning of our DOE contract, 
shifting to smaller units below 1 megawatt in size. We have 
also reoriented our cost targets life cycle cost. The average 
cost of power produced, rather than just capital costs, to 
better reflect future market demands.
    We will continue to use the Miramar site to take advantage 
of the existing proven equipment there, and then supplement it 
with new components and improved fuel cell stacks. Parallel 
tracks of fuel cell stack and balance-of-plant improvements 
each contain a series of important steps that will lead us to 
success.
    Each step in this series is scheduled and designed so that 
the lessons learned at each phase can be integrated into the 
next step, so that each iteration can help further refine our 
product.
    This past year has also been significant for our 
development outside of the DOE program. With strong support 
from members of the Washington State Congressional delegation, 
we have secured funds through EPA to begin a project that will 
culminate several years from now in the demonstration of a 1 
megawatt M-C Power unit at the Renton wastewater treatment 
plant in King County, Seattle, Washington. The project will use 
the methane gas produced by the solid waste digester tanks at 
the facility and generate power for internal consumption.
    King County and the local electric utility, Puget Sound 
Energy, will both be strongly supporting this project through 
significant cost-sharing and will be active developers in the 
development of the project.
    We have also continued to advance our developments in Latin 
America, where we went forward with discussions with energy and 
utility leaders in several countries, and that is beginning to 
provide some fruit now.
    We look forward to continuing to work with the subcommittee 
and the Department of Energy to see that continued funding and 
commitment are available from both Federal and private sources 
to ensure that our progress can stay on track, and the 
environmental benefits of molten carbonate fuel cell power 
generators can be delivered to increasingly eager customers.
    So thank you very much. I would be willing to answer any 
questions.
    [The information follows:]

[Pages 812 - 815--The official Committee record contains additional material here.]


    Mr. Nethercutt. Thank you very much, sir. I'm aware of your 
work in our State, in my State. And we appreciate your coming 
here today to testify. Thank you.
    Mr. Camara. Thank you.
                              ----------                              

                                          Wednesday, March 4, 1998.

                      MOLTEN CARBONATE FUEL CELLS

                                WITNESS

JOHN T. NIMMONS, MANAGING DIRECTOR, ALLIANCE TO COMMERCIALIZE CARBONATE 
    TECHNOLOGY
    Mr. Nethercutt. The next witness will be the Alliance to 
Commercialize Carbonate Technology, John Nimmons. Welcome, sir.
    I might just say to you, sir, and the other witnesses who 
are scheduled to testify between now and noon, we have a vote 
on, I'm happy to go vote and then come back. I'll give myself a 
little more time and we'll try to finish everybody who is 
scheduled to testify here by the noon hour, then we'll take a 
break for lunch and start again at 1:30. We're delighted to 
have you here, sir.
    Mr. Nimmons. Do you want to proceed now?
    Mr. Nethercutt. We'll go ahead with your testimony, and if 
we can stay to the five minutes, that will give me time to 
hustle over and vote, and then we can get your testimony taken 
care of.
    Mr. Nimmons. My name is John Nimmons. I'm the Director of 
the Alliance to Commercialize Carbonate Technology, which is 
headquartered in Olympia, Washington.
    The purpose of my testimony this morning is to urge support 
for DOE's fiscal year 1999 molten carbonate fuel cell program 
at or above the level requested by the Administration, and in 
any case, in an amount sufficient to support M-C Power's 
request for funding for the next year's program and to keep it 
on track.
    ACCT is a working alliance of industry and utilities. We 
have utilities from all over the country, from Canada, from 
South America and Europe now involved. We also have natural gas 
pipelines, producers, Northwest Pipeline has been a member and 
is now Williams Interstate through ACCT.
    The purpose of the organization is to work closely with M-C 
Power to support molten carbonate fuel cell development that 
they're doing and get these things into the market. Many of our 
members are interested in other fuel cell technologies, as 
well. But the principal focus of that is on the molten 
carbonate technology that M-C Power is developing.
    You have the written testimony, so I won't repeat it, but I 
would like to just highlight a couple of points from it. 
Because we know that the Congress is under considerable 
pressure for funding every year, and because we were here last 
year and had quite a colloquy with Mr. Regula, we wanted to 
point out again that all fuel cells are not the same, that 
there are a variety of fuel cells and the question comes up, 
and understandably, why should we be funding all these fuel 
cells.
    The answer is that they are very different animals, that 
they are for different uses, different purposes. They differ in 
terms of size and application and so on. I would just refer you 
to a quote that I have in the written testimony, from Chairman 
Keese of the California Energy Commission. Last week, Chairman 
Keese spoke at the dedication of theNational Fuel Cell Research 
Center in Irvine, California. And urged, in his speech, that there be 
continued funding for all the fuel cell technologies, and recognize 
that there is a range, they have very different uses, very different 
applications.
    So for the benefits of fuel cells to be available to as 
many sectors as possible, it's important to whatever extent 
it's possible to keep funding several technologies.
    The second point I wanted to highlight is one that Mr. 
Camara just mentioned, which is that ACCT members are very 
pleased that last year, M-C Power took what we think are some 
very significant steps toward shifting their product to one 
that will be responsive to newly restructured electricity 
markets. They are now looking at a smaller size unit.
    Our members are very much in favor of that. We think 
that's, for the kind of unit this is, it's a much better match 
with our members' needs and with a lot of other peoples' needs.
    So we're delighted to see that, we think it's the right 
direction and we think it enhances their chances for success in 
the market.
    The third point I want to make and this is also, I guess, 
to echo something Mr. Camara just said, is that from the point 
of view of our members who are also potential investors in the 
technology, it is critical that there be clear signals from the 
Federal Government, from DOE, as to the continuation of funding 
for these projects through the next couple of years. Last year, 
when it looked as though there be a down-select among the 
contractors, that was very unsettling to the market, to 
investors. Everything basically stopped for several months 
while people tried to figure out what was going on and who 
would survive and so on.
    That didn't occur, but each time that uncertainty comes up, 
it makes it very, very difficult for the developers to raise 
the private capital they need so that the Federal Government 
can stop funding them.
    So we would, the bottom line on that is that from the 
industry's point of view, it's very, very important to have 
clear signals that this will be continued through the next 
couple of years until the market is reached.
    The final thing I would say on that is that this is an 
especially critical time, not only for M-C Power but for other 
developers because they are now, as they approach the market, 
they're going out for private capital, private investment, and 
they need to be able to present some degree of certainty to 
their investors. When you couple it with the uncertainty that's 
been created by electricity restructuring, it's made it a very 
difficult matter for them, for any of the developers, to raise 
money until some of these uncertainties can be ironed out.
    So we would very much appreciate it if the committee 
understands what kind of impact it has when there are doubts.
    [The information follows:]

[Pages 818 - 821--The official Committee record contains additional material here.]


    Mr. Nethercutt. We understand very well, frankly, we do. 
Speaking as one, certainly.
    Thank you, Mr. Nimmons, for your testimony.
    Mr. Nimmons. Thank you very much.
    Mr. Nethercutt. We'll do our best this year to make it all 
fit. Thanks for being here.
    Ladies and gentlemen, I'm going to recess the hearing, a 
short recess, while I go vote and then I'll come back and we'll 
finish up those witnesses, we have about five to go.
    Thank you.
    [Recess.]
    Mr. Nethercutt. The hearing will be in order.
                              ----------                              

                                          Wednesday, March 4, 1998.

                            BITUMINOUS COAL

                                WITNESS

FRANK DERBYSHIRE, DIRECTOR, UNIVERSITY OF KENTUCKY CENTER FOR APPLIED 
    ENERGY RESEARCH
    Mr. Nethercutt. We'll reconvene here and finish up as fast 
as we can.
    The next witness will be the University of Kentucky Center 
for Applied Research, Frank Derbyshire, Director. Welcome, sir.
    Mr. Derbyshire. Today I'm representing both the University 
of Kentucky Center for Applied Energy Research and the Kentucky 
Coal Export and Marketing Council, which is a body advisory to 
the Governor of Kentucky.
    In testimony that I gave to this committee last year, I 
described an initiative we'd put forward that was intended to 
speed up the commercialization of advanced technologies for 
coal-fired power generation. What I'd like to do today is give 
a brief update of the initiative, the progress that we've made, 
and to explain our current needs. We've got needs, which is why 
we're here.
    Just briefly, by way of background, because of the clean 
coal technology program, we do now have available advanced 
technologies based on integrated gasification combined-cycle, 
or IGCC, that will allow coal to be used cleanly and 
efficiently to provide low-cost electrical power. In spite of 
these being available, and the advantages well recognized, 
they've not been adopted, these technologies have not been 
adopted to any significant extent, especially using private 
funds. That's because the private sector, and the field 
ofderegulation is reluctant to make any new investments that affect 
their competitive position, and also because there's a risk associated 
with any first of a kind process.
    Our solution that we've proposed to advance the entry of 
these technologies into commercial use essentially involves 
gasifying coal to produce a synthesis gas that's then used to 
co-produce electrical power together with added value products. 
We feel quite strongly that co-production can be an attractive 
proposition for investment by an industrial consortium.
    In following this up over the last year, we've had I 
suppose what you describe as something of a windfall in that an 
independent power producer has come forward with the intention 
of constructing a 400 megawatt coal-fired power generation 
plant in Kentucky, based on IGCC technology. The name that's 
proposed is the Kentucky Pioneer IGCC project.
    The cost, which is about $400 million, will be financed 
absolutely entirely by the private sector. The plant is 
estimated to produce electricity at a very competitive price.
    On top of that, the company embraces this concept of co-
production, where the intention is that a sidestream of coal 
synthesis gas will be used to produce fuel and chemical 
products by Fischer Tropsch synthesis. Having arrived at this, 
the timetable for the whole project, which we'd seen as about 
eight years from start to finish, if we were successful in 
different stages, has been reduced by as much as three or four 
years.
    Just the summary of the main elements of the plan, the 
plant will be constructed as part of a larger scale development 
to establish an environmental energy complex in Kentucky. It's 
intended to serve as a model for similar ventures throughout 
the U.S. and overseas. And a particular component is, the plant 
will be fueled by a mixture of coal and waste materials, such 
as municipal solid waste. This makes a large impact upon the 
economics.
    Particularly important features are that because of the 
advanced technologies, the emissions of air pollutants are 
close to zero. The emissions of greenhouse gas, carbon dioxide, 
will be reduced by going to IGCC over a conventional plant by 
about 35 percent. But are further reduced to about 60 percent 
by using renewable waste materials. So there's a very large 
saving in CO<INF>2</INF> emissions there.
    On top of that, the consumption of waste materials is going 
to provide something of a solution to other environmental 
problems.
    We feel this project is a unique opportunity to realize the 
Department of Energy's goals and strategies through being able 
to successfully accelerate the implementation of these new 
technologies that will ultimately allow coal resources to be 
used cleanly and efficiently both for power generation, but 
also as a chemical feed stock.
    So the current status is that there is already a design for 
the power production component. And there are already 
standalone plants that have been built to produce fuels and 
chemicals from synthesis gas.
    However, these processes have not yet been integrated, and 
there are a number of questions there that should be addressed 
in order to realize the maximum potential. Because of this, 
we're asking that the DOE fossil energy budget be increased to 
provide the support that's needed to make a success of this 
really ground-breaking industrial venture, and one that can 
pave the way to widespread adoption of these advanced 
technologies.
    So specifically, we're asking for a portion of this budget 
to be used in a three year program to support this private 
venture to the tune of $.5 million in the first year, $1 
million in the second year, and $1.5 million in the third, 
where these funds will be used to look at technical aspects of 
the synthesis that are peculiar to an integrated plant 
operation, rather than standalone, to conduct an appropriate 
survey to identify the optimum spectrum of synthesis products, 
because these generate a wide range that are now appropriate 
for U.S. markets.
    To look at the byproduct slag or vitreous frit that's 
produced by the gassy fire from the mineral constituents of the 
materials going in, and to answer questions there relating to 
can they be used in non-hazardous landfills, or do they have 
better products for utilization in other industries.
    That in summary is the position that we're at, and I'd be 
happy to answer any questions. Thank you for your time.
    [The information follows:]

[Pages 825 - 828--The official Committee record contains additional material here.]


    Mr. Nethercutt. Thank you for your time and your testimony. 
It sounds like an interesting project. We'll do the best we can 
with regard to funding this year for DOE.
    Thank you, sir.
    Mr. Derbyshire. Thank you.
                              ----------                              

                                          Wednesday, March 4, 1998.

                     FOSSIL ENERGY AND CONSERVATION

                               WITNESSES

RICHARD A. BAJURA, DIRECTOR, WEST VIRGINIA UNIVERSITY NATIONAL RESEARCH 
    CENTER FOR COAL AND ENERGY
GEORGE FUMICH, PROGRAM ADVISOR
    Mr. Nethercutt. Next witness is West Virginia University 
National Research Center for Coal and Energy, Richard A. 
Bajura, Director, and George Fumich, Program Advisor. Welcome, 
gentlemen.
    Mr. Bajura. Thank you, Congressman Nethercutt. Mr. Fumich 
and I appreciate the opportunity to testify.
    Five weeks ago, the Governor of our State, Cecil Underwood, 
appeared before the committee. He asked your support for some 
technology assistance to help us address some of the problems 
facing the State. Particularly, we're concerned about the 
effect of the new regulations from EPA concerning particulate 
emissions and NO<INF>X</INF> control with regard to smog 
formation in the northeast.
    Studies that we have seen and I'm sure you have seen also 
indicate that we're going to continue to use fossil fuels in 
the future, and coal will be an important part of that future. 
We ask your continued support for a national policy that will 
support increased funding for research, development and 
demonstration programs for coal.
    The Vision 21 program that the Department of Energy has is 
a system of energyplexes that will produce power, 
transportation fuels with minimal emissions of NO<INF>X</INF>, 
O<INF>X</INF> and things of that sort, including carbon 
dioxide. Under that program, we would appreciate your continued 
support for issues such as the capture and sequestration of 
carbon, production of particulates, PM2.5, all of which are 
important for West Virginia as we continue to burn coal.
    Some specific projects I want to comment on are as follows. 
Methane is released from mining as a result of the mining 
process and vented to the atmosphere. It's 25 times more potent 
as a greenhouse gas than carbon dioxide. Using EPA's figures, 
we believe that a Department of Energy program to address coal 
mine methane emissions can remove about 2 percent of the 
emissions that we need to reach our 1990 levels, about 8 
million tons of carbon per year.
    We believe that this can be done at a zero net cost, 
because we will be generating electricity, compared to the 
current technologies of $4 a ton for trees to remove carbon. So 
we'd appreciate your support for $75,000 in funding to continue 
a program of research undertaken by five different teams in 
four States.
    The Department's budget also includes funding for emission 
control of byproduct utilization. The activity here we're 
concerned about is using the waste products from coal 
combustion for applications as mine land reclamation, filling 
of mine voids and things of that sort. We'd appreciate 
continued support for that program, and I believe the funding 
level is $1.5 million.
    My colleagues will be appearing shortly to talk about our 
interests in producing transportation liquids from coal and 
natural gas under the Consortium for Fossil Fuel Liquefaction 
Science. And I'll let them speak with you more about the 
technology. We'd just like to go on record for support of 
increase of the Administration's request to a total of $1.5 
million for that program.
    The Governor, when he was here, talked about industries of 
the future. Our energy-intensive industries would benefit from 
working closely with the Office of Industrial Technologies 
program on Industries of the Future. The Governor mentioned 110 
projects that he thought we could implement over 7 energy 
sectors, and mentioned a request for $1.75 million for that 
program. We'd like to again recommend your support for that 
activity and say that by implementing a State-run program 
industries of the future, we believe this will be a model for 
application to other States.
    Mr. Chairman, in the interest of time, I'll conclude my 
testimony and ask if you have any questions.
    [The information follows:]

[Pages 831 - 834--The official Committee record contains additional material here.]


    Mr. Fumich. Mr. Chairman, can I make a remark?
    Mr. Nethercutt. Yes, Mr. Fumich, please.
    Mr. Fumich. I want to support Bernie Lee's comments. I 
testified before Chairman Yates, he'll always be a chairman, 
for many years. I know he's a great loss to his district, but 
he's a much greater loss to his country. The country's a much 
greater place to live in, it's a lot safer because of his 
support to national programs. I just hate to see him retire.
    Mr. Nethercutt. I understand. We all do. He's been such a 
gentleman and contributed, in my short time of three years here 
on this subcommittee, he's been a great friend, and a friend to 
all of us, Republicans and Democrats.
    Mr. Fumich. I have a lot of mental scar tissue because of 
him.
    [Laughter.]
    Mr. Nethercutt. I understand. Well, you wear it well.
    Thank you both for your testimony and for your kind 
comments.
                              ----------                              

                                          Wednesday, March 4, 1998.

                        RESEARCH AND DEVELOPMENT

                                WITNESS

BILL STENZIL, COUNCIL ON ENGINEERING, AMERICAN SOCIETY OF MECHANICAL 
    ENGINEERS
    Mr. Nethercutt. The next witness is the American Society of 
Mechanical Engineers, Bill Stenzil. Welcome, Mr. Stenzil.
    Mr. Stenzil. Thank you, Mr. Chairman and members of the 
subcommittee.
    Thank you for this opportunity to appear before you today. 
My name is Bill Stenzil. I am pleased to present the views of 
the Energy Committee of the Council on Engineering of the 
American Society of Mechanical Engineers.
    Our testimony today is directed to the Department of Energy 
Research and Development programs related to the use of fossil 
energy and energy conservation. The 125,000 member ASME is a 
worldwide engineering society focused on technical, educational 
and research issues. The testimony represents the considered 
judgment of the Energy Committee and is not necessarily a 
position of ASME as a whole.
    The Energy Committee represents eight ASME divisions who 
address energy issues, technologies and resources. Energy R&D 
was the most important topic of concern for our members, 
according to a recent survey addressed to all ASME members. 
Energy Committee members recommend that an energy policy, 
number one, maintain competitiveness in the national and 
international marketplace, protect our national energy 
security, seek technological solutions to concerns about global 
climate change and the emission of criteria pollutants.
    And number four, protect the environment in all phases of 
the energy cycle, from the extraction of fuels to the ultimate 
disposal of the products and byproducts of combustion.
    Towards these goals, the Energy Committee supports the 
Administration request for increases in the fossil energy and 
energy conservation R&D budgets. The Energy Committee believes 
that an immediate priority for increased funding for research 
programs should be given for programs in fossil fuel 
technologies, programs which improve increased efficiency in 
industrial and transportation sectors, and programs to reduce 
the emission of greenhouse gases to the atmosphere.
    Increased research funding is necessary if our Nation is to 
meet the challenges of global climate change outlined in the 
Kyoto treaty and the newly-mandated requirements from the EPA 
for lower emissions of pollutants. Increased funding should 
also be allocated to basic research which very importantly 
stimulates development of both innovative technologies and 
educational opportunities to provide the resources needed for 
future energy technologies.
    The Energy Committee supports the responsible use of all 
energy resources and renewable sources for generating 
electricity, transportation fuels and use in the industrial, 
commercial and residential sectors. Our assessment of energy 
use projections, such as those presented in the EIA annual 
energy outlook for 1998, lead to the conclusion that the U.S. 
must continue to maintain a diverse mix of energy supplies.
    Fossil energy, however, will continue to carry its 
predominant share of providing energy for electric power 
generation and transportation into the foreseeable future. 
Internationally, fossil fuels play a similar dominating role in 
electric power generation and transportation.
    Because of the importance of reducing particulate emissions 
in the utility industry, in fiscal year 1998, Congress added $3 
million to the budget to support programs to promote a better 
understanding of the science involved in developing cost-
effective control technologies.
    Advanced clean coal technologies will be needed in the 
future as the replacement of the present fleet of fossil-fired 
plants is required. These plants have low operational costs, 
but their age will require replacement. This will require a 
large capital investment needed to replace approximately 300 
gigawatts of coal-fired capacity.
    We recommend continued strong support for programs such as 
the clean coal technology and other applications which will 
ensure that environmental, economical, friendly technologies 
are ready for replacement of these plants and for new plants 
needed to meet increased power needs.
    Although many advances have been made in the development of 
energy efficient technologies, such as electric powered 
vehicles, our transportation systems for near and mid-term will 
remain dependent on fossil fuels as the primary energy source. 
Liquid fuels will continue to dominate.
    We support the goals of the Department of Energy to 
introduce alternative transportation fuels and technologies 
into the marketplace. These technologies will have the benefit 
of both reducing emissions and reducing our dependence on 
imported petroleum.
    In summary, as engineers, we confidently come before you to 
recommend that investments in technology are essential for 
enabling our Nation to meet its needs for inexpensive energy 
that is produced and consumed in an environmentally friendly 
manner. Thank you for this opportunity to offer testimony 
regarding this upcoming bill.
    Thank you.
    [The information follows:]

[Pages 838 - 845--The official Committee record contains additional material here.]


    Mr. Nethercutt. Thank you very much for being here, Mr. 
Stenzil. We appreciate it.
                              ----------                              

                                          Wednesday, March 4, 1998.

                          DEPARTMENT OF ENERGY

                               WITNESSES

GERALD P. HUFFMAN, DIRECTOR, CONSORTIUM FOR FOSSIL FUEL LIQUEFACTION 
    SCIENCE IRVING WENDER, UNIVERSITY OF PITTSBURGH
JOHN OWENS, AUBURN UNIVERSITY RON PUGMIRE, UNIVERSITY OF UTAH
    Mr. Nethercutt. The next witness is the Consortium for 
Fossil Fuel Liquefaction Science, Gerald P. Huffman, Director.
    Welcome to all of you. Thanks for your patience in going 
over the noon hour. I'm sorry you had to wait.
    Mr. Huffman. No problem.
    Mr. Nethercutt. If you want to introduce yourselves for the 
record.
    Mr. Wender. I'm Irving Wender, from the University of 
Pittsburgh, Pennsylvania.
    Mr. Huffman. I'm Gerry Huffman, Director of the Consortium, 
from the University of Kentucky.
    Mr. Owens. John Owens, Auburn University.
    Mr. Pugmire. Ron Pugmire, University of Utah.
    Mr. Nethercutt. Welcome, all of you.
    Mr. Huffman. Mr. Chairman, staff members, we appreciate the 
opportunity to testify. We're a research consortium of five 
universities. West Virginia is the other university, Dr. Bajura 
testified before you just a few minutes ago.
    The focus of our research program over the past 10 years 
has been developing methods of converting domestic fossil 
energy resources into transportation fuel. And right now, we're 
focusing on an area called C1 chemistry. C1 chemistry refers to 
the reaction of simple carbon containing feedstocks, such as 
natural gas, carbon dioxide and synthesis gas, which has been 
mentioned by a couple of the previous speakers, into valuable 
hydrocarbon products, particularly transportation fuel and 
chemicals.
    We believe that because of new environmental regulations 
that are being promulgated, C1 chemistry is going to be a major 
source of transportation fuels for the United States early in 
the next century. And at the current time, there's really no 
coherent basic research program on this important topic. So 
that's the area that we are tackling.
    We've identified four critical areas that we think are 
going to be very important. One is the conversion of natural 
gas into syn gas, or synthesis gas. We would propose to do this 
by reacting it with carbon dioxide.
    This would be a productive use of carbon dioxide. It's been 
in the news a lot lately, they're talking about pumping it into 
the ocean and other things. This would be a way of recycling it 
and making a valuable product.
    Secondly, we would look at the conversion of synthesis gas 
into transportation fuel, particularly ultra-clean high 
efficiency or high cetane diesel fuel. This is going to be very 
important because of the increasing production of sport utility 
vehicles and light trucks in this country.
    We would also be investigating the conversion of synthesis 
gas into hydrogen, which will be very important for the fuel 
cell industry and the direct conversion of syn gas into a 
number of value added chemicals.
    This program, we feel, can have ultimately significant 
economic and environmental benefits to the country if widely 
implemented. The potential reduction in U.S. emissions of 
carbon dioxide and particulate matter and sulfur and nitrogen 
could be as high as 10 percent. The economics, the amounts of 
transportation fuels that we're talking about, easily could 
reach $50 billion to $60 billion.
    We're requesting $1.5 million to support this program in 
fiscal year 1999. Our five universities will put up 50 cents 
for every dollar that the Department of Energy puts into the 
program.
    I'll be happy to try to answer any questions you might 
have.
    [The information follows:]

[Pages 848 - 852--The official Committee record contains additional material here.]


    Mr. Nethercutt. What are your capital costs?
    Mr. Huffman. Well, the way we would propose to do it is 
through the methanol route. Right now, there is readily 
available technology to build methanol plants. Our approach to 
transportation fuels would be to first convert syn gas to 
methanol, then react the methanol with syn gas to make 
oxygenated diesel fuels.
    This is different from the Fischer Tropsch approach, and we 
think ultimately, it could give better economics and hopefully 
a better product.
    One place that this could obviously be applied would be 
with the Alaskan natural gas.
    Mr. Nethercutt. Gentlemen, we appreciate your being here. 
Thank you very much for your testimony. Your written statement 
will be a part of the record and we'll consider it carefully.
                              ----------                              

                                          Wednesday, March 4, 1998.

  INSTITUTE OF MUSEUM AND LIBRARY SCIENCES/NATIONAL ENDOWMENT FOR THE 
               ARTS/NATIONAL ENDOWMENT FOR THE HUMANITIES

                                WITNESS

EDWARD H. ABLE, JR., PRESIDENT AND CEO, AMERICAN ASSOCIATION OF MUSEUMS
    Mr. Nethercutt. The final witness for this session will be 
the American Association of Museums, Edward H. Able, Jr., 
President and CEO. Welcome, Mr. Able.
    Mr. Able. Good morning, Mr. Nethercutt.
    I feel in my place in the lineup this morning I'm between a 
rock and a hot place.
    Mr. Nethercutt. I hope we haven't caused you any 
inconvenience by extending over.
    Mr. Able. Not at all.
    I'm here representing the American museum community, and 
specifically the American Association of Museums. I ask that my 
written statement be included in the record.
    Mr. Nethercutt. Without objection, it certainly will be.
    Mr. Able. To begin, a quote, Mr. Nethercutt. A museum can 
be a place to gather and debate community problems and 
community based solutions. It can train leaders, break down 
isolation, reinvigorate civic commitment. In short, it can do 
the kinds of things neighborhoods did before the suburbs 
fragmented them, the League of Women Voters did before its 
potential recruits became lawyers and CPAs, and the heads of 
locally owned businesses did before the out of town 
corporations bought them.
    This is a quote, and I couldn't say it better myself, from 
the Peoria Journal Star from December 1996. For over 30 years, 
the Federal cultural agencies have provided invaluablefinancial 
assistance to museums of every kind and size as they strive to make 
public service the focal point of their missions. We urge you to fund 
the National Endowment for the Humanities, the National Endowment for 
the Arts, at the modest levels requested in the President's budget.
    In addition, we encourage you to fund the Office of Museum 
Services within the Institute of Museum and Library Services at 
an amount significantly higher than the President's budget 
request.
    As my time is limited, I would like to focus in my oral 
testimony on only two themes, the roles of museums in education 
and cultural tourism, and only on one agency. I could easily 
speak on other themes and go on for hours about the other 
agencies, but as time is limited, I will focus on the Office of 
Museum Services general operating support grants.
    The last two decades have transformed museums. USA Today 
recently described them as the new public square. And the 
editorial from the Peoria Journal Star is an eloquent 
description of museums at their best. No doubt because museums 
try hard to ensure that what they do is both understandable and 
accessible to the broadest public.
    The New York Times recently reported that museums are 
setting one new attendance record after another. However, our 
success in serving the public places tremendous demands on 
museums' infrastructure. The main reason the Office of Museum 
Services was established, that is to ease the financial burden 
borne by museums as a result of their increasing use by the 
public, has never been more relevant than today.
    OMS general operating support grants are more important 
than ever. According to a recent AAM survey, 90 percent of 
museums believe that funds to meet basic commitments is a 
critical need for the coming years, with 70 percent ranking 
this issue first among their needs.
    The Office of Museum Services has structured the general 
operating support program to stretch limited funds as far as 
possible. For example, grants span two years, cannot exceed 15 
percent of a museum budget, are capped at $112,500 and must be 
matched. In the 1997-1998 grant round, only 202 of 1,061 
applications received grants.
    The budget cuts of 1995 have resulted in a cumulative loss 
of $20 million or an additional 245 grants over three years. 
This year, the Office of Museum Services was funded at $23.28 
million. By contrast, the Office of Library Services within the 
IMLS received $146.3 million, a $10.3 million increase above 
fiscal year 1997.
    Unfortunately, general operating support funds for museums 
are difficult to obtain from foundations or corporations which 
generally prefer to fund higher profile programs. For example, 
the Director of the Center for Creative Photography in Tucson, 
Arizona, tells me that GOS funding is a God-send.
    It allows the museum to assemble public programs which are 
not sexy, elaborate or expensive enough to raise money for, 
such as the museum's family day, the three-hour event which 
draws over 400 people with innumerable activities, including 
story telling, poetry reading, an art exhibition by third grade 
students and a high school photography competition was not 
``big enough'' for a local funder. The museum used $1,000 of 
its general operating support grant instead.
    Museums are actively engaging students in educational 
experiences which transcend the stereotypical one-time field 
trip. GOS grants have enabled the Museum of Art at Washington 
State University in Pullman to afford better exhibits, improve 
exhibit presentation, offer more open hours to the public and 
promote the use of the museum exhibitions in local schools.
    In addition, general operating support grants have funded 
free art workshops for school children who are given the 
opportunity to visit the museum and work with a professional 
artist.
    Museums have developed extensive curricula for use in the 
classroom and on-line with the Internet. For example, at the 
Children's Museum of Oak Ridge, Tennessee, general operating 
support funds support the museum's art educator, who brings art 
programs and projects into the schools, and works with teachers 
and provides them with the tools to continue art education in 
the classroom.
    Another example is the Health Adventure, Asheville, North 
Carolina, which uses GOS funds to help it reach 95,000 children 
a year. According to the museum's director, without the funding 
from the general operating support grants from IMS, 
approximately 12,000 disadvantaged children would not attend 
important health education programs.
    Unless a museum is strong, it cannot fulfill its potential 
in education. Again, the general operating support grants from 
the Office of Museum Services allow museums to really realize 
their potential.
    Let me turn for a moment to tourism. I would simply note 
that this is a $473 billion industry in this country. Museums 
and other cultural organizations are primary contributors to 
its success.
    According to the Travel Industry Association, and I quote, 
cultural and historic tourism is one of the most popular 
sectors of travel industry. A recent survey found that 53.6 
million adults say they visited a museum or historical site in 
the past year.
    Cultural tourism means economic impact. The 1996 three 
month Cezanne exhibition in Philadelphia injected an estimated 
$86.5 million into Philadelphia's economy. The 1997 two month 
Faberge in America exhibition in Cleveland had an economic 
impact of nearly $11 million in the eight county regional area.
    And while all the details are not yet in, the Picasso 
exhibition in the Arts Center in Atlanta is expected to have an 
economic impact of at least $30 million.
    The American Association of Museums has taken a leadership 
role in this area. Last year, we conducted a series of regional 
leadership forums to initiate local, State, regional and 
national strategies for promoting cultural tourism, 
particularly with a point of producing greater attendance in 
cultural tourism and in tourism in general in this country from 
abroad to make us more competitive.
    I have here the report called Partners in Tourism: Culture 
and Commerce, based on the findings of that forum. I'd like to 
submit it for the record.
    Mr. Nethercutt. Without objection, it will be made part of 
the record. Thank you.
    Mr. Able. I would simply add parenthetically, Mr. 
Nethercutt, that one of the reasons we feel that Federal and 
State and local governments are so interested, should be so 
interested in this, is that out of that $483 billionindustry, 
it generates over $67 billion in Federal, State and local taxes.
    I would also point out that the Office of Museum Services, 
the National Endowment for the Humanities, and the National 
Endowment for the Arts, in collaboration with the President's 
Committee on the Arts and Humanities, provided the seed money 
for the national production of these forums, and helped 
disseminate the report that you're now reviewing.
    In closing, we'd like to underscore that OMS, the Office of 
Museum Services, is of enormous consequence to the museum 
field. Beyond general operating support, other programs provide 
much-needed funding for conservation and professional 
development. The Office of Museum Services also supports a 
program that helps individual museums reach their potential 
through the museum assessment program, an activity which is 
produced by the American Association of Museums.
    This year, the Office of Museum Services will inaugurate a 
leadership program for joint programs between museums and 
libraries.
    For all these reasons, we urge you to fund the Office of 
Museum Services as generously as possible. We appreciate the 
opportunity to testify and would be glad to answer any 
questions.
    [The information follows:]

[Pages 857 - 865--The official Committee record contains additional material here.]


    Mr. Nethercutt. Thank you very much, Mr. Able. I correct my 
statement, this won't be part of the record, but it will 
certainly be part of the file. We appreciate your being here 
today and presenting this.
    Mr. Able. My pleasure.
    Mr. Nethercutt. Thanks for your testimony.
    The hearing will stand adjourned until 1:30 today. Thank 
you.
                              ----------                              

                                          Wednesday, March 4, 1998.

           NATIONAL COALITION FOR ABANDONED MINE RECLAMATION

                                WITNESS

DAVID WRIGHT, VICE PRESIDENT SOUTHERN OHIO COAL
    Mr. Wamp [assuming chair]. Let's go ahead and begin this 
afternoon's hearing.
    Hopefully, the National Coalition for Abandoned Reclamation 
is prepared. Are they here?
    Mr. Wright. Yes, sir.
    Mr. Wamp. Good. Thank you. We will get a little bit of a 
head start so we can hopefully stay on time. I know my friend 
L.H. Burnett from East Tennessee will be glad you're here and 
is very supportive of your efforts.
    Please go ahead and identify yourself. You're Mr. Wright?
    Mr. Wright. Yes, I am.
    Mr. Wamp. Thank you.
    Mr. Wright. Mr. Chairman and members of the committee, the 
comments presented on behalf of the National Coalition for 
Abandoned Mine Reclamation are directed towards Title IV of the 
Surface Mine Control and Reclamation Act of 1977. In 
particular, the comments address the need for continuing and 
funding the Abandoned Mine Land Program administered by the 
Department of Interior and the Rural Abandoned Mine Program 
administered by the Department of Agriculture.
    I would like to thank the Committee Chairman, Ralph Regula, 
and members of the appropriations subcommittee for providing 
this opportunity to speak on behalf of the National Coalition 
for Abandoned Mine Land Reclamation. My name is David V. 
Wright, and I am currently Vice Chairman of the Coalition. I 
have worked in the Ohio coal industry for over 26 years, and I 
am currently President of the Ohio Mineland Partnership, the 
organization representing citizens of Ohio and those impacted 
by past mining problems.
    The National Coalition for Abandoned Mine Reclamation 
proposes that Congress fund 100 percent of the reclamation fees 
collected on coal in 1998 for the Abandoned Mine Land and Rural 
Abandoned Mine Land programs. This will provide $25 million for 
the Rural Abandoned Mine Land program, and an additional $50 
million for the Abandoned Mine Land program. This will not 
negatively impact the goal of zero balanced budget by only 
spending the fees collected.
    The National Coalition and Ohio Mineland Partnership are 
nonprofit organizations made up of individuals representing a 
variety of interests with a single solitary objective--to 
improve the quality of our environment through the restoration 
of abandoned mine lands. We stand ready to work hand-in-hand 
with Congress and the Administration to achieve our goal by the 
year 2004, the year the tax on coal and SMCRA are scheduled to 
expire. During the past 20 years, many accomplishments have 
been made towards correcting the scars on the land created by 
past mining practices. But the fact remains that we still have 
in excess of 6,000 miles of streams directly polluted by acid 
mine drainage and onlyabout 50 percent of the identified 
abandoned mine lands have been reclaimed.
    We propose to you, members of the committee, Congress, and 
the Administration, that we start now by fully using the funds 
collected by the tax on coal for the purpose for which the 
funds were collected. It is time to appropriate the funds for 
both the Abandoned Mine Land and Rural Abandoned Mine Program.
    The local citizens can, and will, work together with both 
programs to get the job done. The Office of Surface Mining and 
Natural Resources Conservation Service have demonstrated that a 
partnership can be developed at all levels to ensure that no 
duplication of efforts occur. In fact, by working together we 
have proven that we can be more efficient and effective than 
working separately.
    Two good examples. Oklahoma State AML entered into an 
agreement with NRCS and the local conservation district to 
reclaim four hazardous mine sites in Rogers County. Three of 
the sites are RAMP projects and one is an AML site. Both 
agencies are working together to share technical and financial 
resources. And the Ohio AML has entered into numerous 
agreements with NRCS to partner in appropriate reclamation 
projects. Most recently, the two Ohio agencies are entering 
into a General Memorandum of Understanding which will include 
the Ohio Mineland Partnership, outlining the cooperative 
relationship of the agencies and the desire to avoid 
duplication efforts. This type of cooperation is, and can be, 
repeated across the country.
    Congress needs to appropriate in fiscal year 1999 the funds 
collected in 1998. It is estimated that this will result in 
additional money for reclamation in the amount of $50 million 
for AML and $25 million for RAMP. As a private citizen, I will 
make a contract with you. If Congress will agree to fully fund 
these programs as we have outlined, I will personally return to 
this committee and provide a fair and unbiased report on the 
success of your actions.
    With this commitment, we can eliminate the negative social, 
environmental, safety, and health hazards impacting communities 
and, to a lesser degree, all society.
    If you have any questions, I would be glad to try to answer 
them.
    [The information follows:]

[Pages 868 - 871--The official Committee record contains additional material here.]


    Mr. Wamp. Mr. Wright, personally, I am certainly very aware 
and sensitive to these concerns. What is the total amount then 
that has been collected in these funds that has not been put 
back into the reclamation of these mines?
    Mr. Wright. I believe the fund right now is approximately 
$1.2 billion.
    Mr. Wamp. And for the record, when was the last time the 
Congress appropriated monies?
    Mr. Wright. There has been monies appropriated. This past 
year, for instance, we had about $144 million appropriated. But 
with full funding, we would be looking at somewhere around $220 
million.
    Mr. Wamp. I know in East Tennessee we have Corps of 
Engineer studies now underway identifying acid mine runoff and 
real severe environmental problems. I've physically witnessed 
the North Chickamauga Creek stream, for instance, where the 
fish are gone and, in large part, it is because these mines go 
unidentified and uncared for. So it's a real problem.
    I appreciate your bringing your concerns and your request 
to the committee today. We will certainly take it under 
consideration. Thank you for coming, Mr. Wright.
    Mr. Wright. I appreciate it.
                              ----------                              

                                          Wednesday, March 4, 1998.

                  AMERICAN SOCIETY OF CIVIL ENGINEERS

                                WITNESS

DANIEL S. TURNER, PRESIDENT-ELECT, UNIVERSITY OF ALABAMA
    Mr. Wamp. American Society of Civil Engineers. I think Dr. 
Daniel Turner is next and is here to talk about the U.S. 
Geological Survey.
    Mr. Turner, welcome to the committee. And thanks for being 
early.
    Mr. Turner. Thank you, sir. Gentlemen, subcommittee 
members, I am Daniel S. Turner, the President-elect of the 
American Society of Civil Engineers. On behalf of the 125,000 
members of the Society, thank you for allowing us to express 
this support for the U.S. Geological Survey and for its basic 
water data collection and assessment activities. We're pleased 
to participate.
    I would point out that the basic water data that is 
collected by the USGS is the vital foundation that engineers 
use for all sorts of calculations affecting our Nation. 
Principally, it is involved in flood prediction and flood 
control studies; it is used for engineering of the 
infrastructure that not only controls floods, but that provides 
drinking water and does all sorts of things. Without accurate 
data and good engineering, we would not be able to get our 
citizens out of harm's way to the extent that we're now able 
to. We would not be able to in the future more accurately 
predict floods. We would not be able to more efficiently 
utilize our waters.
    My main point is that we strongly support the USGS 
appropriation that's contained in your fiscal year 1999 bill, 
and we're expressing that.
    Money can be leveraged to help units of government at all 
levels of the United States. That's unusual. It is already used 
by States, by cities, by county governments, by regional 
planning commissions, by watershed councils, and by civil 
engineers. The data are very useful and we have a good program. 
We wish to see it extended as an assistance method to the 
United States citizens.
    ASCE, in particular, supports the Hydrologic Networks and 
Analysis program that is included in this bill. That is a 3 
percent increase that moves that particular category to $25.8 
million. I would point out that money is being used to collect 
and assess water data involving our national parks and, in 
particular, selected watershed that are targeted and that need 
this.
    The second major point I would like to address is that the 
overall cost of this data is not great and, in particular, the 
increases in the coming fiscal year are not great, but that the 
impact of that data is far-reaching. Civil engineers use that 
data to study the quality of water, to identify water supplies, 
flood control, to size bridges and culverts, we even use it 
when we must discharge treated wastewater because we must know 
the quality and the amount of water in the receiving stream. 
Engineers that do not havecomplete and impartial data simply 
cannot reach optimum designs.
    I would point out that the Federal cost of this data is not 
great compared to the results of designs that are not optimum. 
If you were to try to balance, on one hand, the amount of money 
it takes to collect this data and, on the other hand, the 
usefulness, the improvements in designs that we can make, 
there's an overwhelming positive balance to that. Simply put, 
we must have perpetual and accurate data if we are to have 
optimum designs. That's necessary.
    We are particularly concerned about extreme events. I would 
point out the recent floods in California. Without a continuous 
record of rainfall as opposed to runoff, we cannot assess the 
consequences of those floods and we can't predict for the 
public the eventual magnitude of the damage. The data is 
essential.
    I would also point out the El Nino effect where we have 
extreme and rare events and rapid changes in climate and 
rainfall. Unless we have continuous data on the amount of 
rainfall and the results, we can't assess what the effects are. 
We can talk about it, but we can't assess it.
    The third point, very quickly, involves the National 
Weather Service. They depend upon the data from streamflow 
gauging stations in order to forecast stages of river and total 
flows when floods occur. There are other users, other agencies 
in the Federal Government besides State and local agencies.
    I'll close very simply. ASCE endorses and believes in the 
U.S. Geological Survey Water Data Collection and Assessment 
program. We think three points have to be made. The data are 
essential, and the value of that data increases with the length 
of time it is collected and with the continuity of the record. 
We have very good records and we don't want to jeopardize that 
by not fully funding the program.
    Secondly, this is logically the responsibility of the 
Federal Government. Local Governments and State Governments 
cannot collect data on interstate water systems, and that is 
where our major flooding and water use problem might lie.
    The third thing is that it is very cost-effective at the 
current time. The money is leveraged to a great extent. The 
effort is coordinated; there are no gaps, there are no 
overlaps, and we're doing an effective job.
    I would like to close by saying that in my civilian job I 
am the head of the Civil and Environmental Engineering 
Department at the University of Alabama. State institutions do 
not have large budgets, but our professors have devoted a large 
portion of hours to installing a gauging station that we use in 
cooperative fashion with the USGS. Our students take data, they 
learn to assess water quality, they learn to measure rainfall. 
Our research professors over time are gauging the effects of 
nonpoint solution on the development of a watershed. We're 
delighted with the results. We've only begun. We would hate to 
see the program jeopardized and a major productive thrust 
disappear.
    Thank you for your time. I will be glad to answer 
questions.
    [The information follows:]

[Pages 875 - 881--The official Committee record contains additional material here.]


    Mr. Wamp. Mr. Turner, I detected no accent from you, so I 
wondered about the Alabama connection. [Laughter.]
    Both of my parents were born in Culman, Alabama.
    Just for my knowledge, this is just my second year on this 
subcommittee, does ASCE come annually, is this an annual 
pilgrimage for you to support USGS?
    Mr. Turner. That's an excellent question, sir. We strongly 
endorse this program and we're glad to come whenever we can 
reinforce its value.
    Mr. Wamp. I didn't know if the recent extreme weather and 
the extreme events and conditions, as you said, had anything to 
do with your appearance this year, because it is extraordinary. 
I certainly would concur with your evaluation of the importance 
of the U.S. Geological Survey to all of these different 
agencies. And I also agree that the national security of our 
country was the first Constitutional responsibility, but right 
behind it were these activities. So as one committee member 
here, I very much agree with you and I appreciate the Civil 
Engineers coming in support of what I believe is one of our 
best examples of the Federal Government meeting its 
responsibility to the people.
    I don't have any further questions, but I appreciate your 
testimony and I'm sure it is going to be taken to heart by both 
the members and the staff of the Interior subcommittee. Thank 
you for coming.
    Mr. Turner. Thank you, sir, very much.
                              ----------                              

                                          Wednesday, March 4, 1998.

        INTEGRATED BUILDING AND CONSTRUCTION SOLUTIONS (IBACOS)

                                WITNESS

MICHAEL DICKENS, CHIEF EXECUTIVE OFFICER
    Mr. Wamp. Mr. Michael Dickens, the CEO of IBACOS. Welcome. 
We look forward to your testimony in support of energy 
efficiency and fossil energy programs at the Department of 
Energy.
    Mr. Dickens.
    Mr. Dickens. Thank you. It is a pleasure to be here. And 
thank the committee and Chairman Regula for allowing me to 
appear today. I am the CEO of IBACOS, which stands for 
Integrated Building and Construction Solutions. It is an 
alliance that I set up in 1991 working inside General Electric 
and we brought in Carrier Corporation, US Gypsum, Owens-
Corning, and several of the large product and materials 
manufacturers with a common vision of helping the building 
industry create efficient, quality, affordable homes and really 
play an integration role working with builders and developers.
    We have worked closely with the Department of Energy since 
1992 helping to create what is now called Building America. 
There are actually four such consortiums like ours working with 
over 70 members from industry; builders, developers, 
manufacturers, big design houses. The common vision, again, is 
to bring technology all the way through to the marketplace and 
create a better home for America with energy efficiency, indoor 
air quality, durability, thermal distribution, materials waste, 
and the whole energy aspect of the materials that go into a 
house, passive and active solar technologies, and then a way to 
bring them through to the builder from research, development, 
and then into full demonstration.
    I don't know how much you know about the building industry, 
but there are about 100,000 and close to 1 million trades 
contractors. It is incredibly complex and fragmented like no 
industry we've seen in America. So the ability to truly try and 
raise the quality and performance of a home is a role that no 
one takes on. And DOE I think has done an excellent job in 
actively taking that on and working with industry.
    We work with DOE in a cost-shared way. Every dollar of 
DOE's is matched by more than one dollar from industry. And we 
have been working heavily the last few years with builders, 
saving up to 50 percent of the energy use in the home which 
transfers into much more affordability for the buyers. 
Obviously, much environmental responsiveness for the Nation at 
no extra cost to the builder. That, again, is one of the 
issues; anyone can design a better home but when it truly 
doesn't cost the builder any more, that's the goal of the 
alliances.
    The next step within the Building America program is to 
take it up now from prototypical homes in 10, 20, and 100 homes 
here and there into full communities of hundreds of homes with 
the goal over the next four years with all of the builder-
developers to impact up to 100,000 homes, saving $50 million of 
energy costs per year from the people within the homes, and to 
truly demonstrate the wins and transfer that then to all of the 
other builders in the industry.
    In closing, coming from industry, whether it be a GE, or a 
Carrier, or a large builder of 10,000-15,000 homes a year, they 
cannot play the integrating catalyst role of doing what I've 
just described. DOE has played an excellent role in that. We 
are excited that they are looking to reorganize and tighten 
their focus around the residential end, to actually close to 
double the budget request for fiscal year 1999. I think they 
can truly further help this fragmented industry do something 
special that ultimately helps the American housing stock.
    So those are my comments. I think it has been an excellent 
three or four year program, but I think it has an excellent 
three or four years more to come. Thank you.
    [The information follows:]

[Pages 884 - 885--The official Committee record contains additional material here.]


    Mr. Wamp. Mr. Dickens, given your accent and your name, I 
thought you might start by saying ``These are the best of times 
and the worst of times.'' [Laughter.]
    In Oak Ridge, Tennessee, the area I serve, the Department 
of Energy does an extraordinary job with these programs. 
Actually, our two key staff people came just months ago and 
physically saw in anticipation of this appropriations cycle the 
programs that are underway there. We've had several hearings in 
my time on this subcommittee with regard to this.
    I just have one question directed at the $50 million you 
said in savings potentially. We also have had hearings that 
have exposed that the lion's share of the loss of energy 
efficiency is among our poorest people because of the quality 
of construction for stick frame housing units. I did grow up in 
the construction industry and know an awful lot about it. I do 
think it is an area where the Government has to play a role.
    I just want you to address the regressive structure of 
that, since it does come down on our fixed income folks and 
people in our Government housing projects for the most part who 
are most in need of lower energy bills, and why it is important 
for our Government to fund these programs.
    Mr. Dickens. You're absolutely right. Every home inAmerica 
is actually a sieve. The amount of energy costs that are going through 
the window, through every nook and cranny in the house is tremendous. 
It is fairly easy to save 50 percent of that energy cost.
    It does get more critical in the lower priced homes, the 
proportion of the rent very often going into heating and 
cooling bills. Our view in this industry, the more you can 
truly demonstrate through systems integration what can be 
possible within all homes though, we advocate the mid-size 
builder building 500 homes and up, very often those homes are 
$50,000 and $100,000 each, they are not the large grand homes, 
the benefits are in the high volume. And the manufactured 
housing industry is another targeted opportunity to improve 
because that's an ideal product that helps the buyers you are 
talking about. Typically, that has been a very poorly 
engineered product.
    Mr. Wamp. Kind of hard to understand that yesterday Bill 
Gates testified on that end of the Capitol on such high tech 
issues of his technology in competition with other 
technologies. If we have those capabilities, we certainly have 
the technology in place. We just need to get it to the 
marketplace to make our homes more efficient. So, you're doing 
good work.
    Mr. Dickens. Thank you.
    Mr. Wamp. But it is an uphill struggle. Certainly, with 
increased funding requests, we're going to have a difficult 
time balancing all of these. But I think you will come upon a 
certain sensitivity at this subcommittee for these programs. So 
thank you for coming in support of them, Mr. Dickens.
    Mr. Dickens. Thank you very much.
                              ----------                              

                                          Wednesday, March 4, 1998.

                AMERICAN INSTITUTE OF CHEMICAL ENGINEERS

                                WITNESS

PETER B. LEDERMAN, DIRECTOR OF THE CENTER FOR ENVIRONMENTAL ENGINEERING 
    & SCIENCES, NEW JERSEY INSTITUTE OF TECHNOLOGY
    Mr. Wamp. Dr. Peter Lederman, Director of the Center for 
Environmental Engineering and Sciences, New Jersey Institute of 
Technology, coming in support of fossil R&D and conservation 
R&D.
    Mr. Lederman. Good afternoon, Mr. Chairman. My name is 
Peter Lederman and I'm the Director of the Center for 
Environmental Engineering and Science at the New Jersey 
Institute of Technology. I am appearing on behalf of the 
American Institute of Chemical Engineers.
    The American Institute of Chemical Engineers is a nonprofit 
professional association of 58,000 members that provide 
leadership in advancing the chemical engineering profession. We 
are proud of our contributions to the creation of low-cost, 
efficient, and clean technologies that fuel industry, energize 
our economy, and provide for our way of life. We believe that 
the Federal Government must maintain a strong and effective 
investment in energy R&D to further U.S. economic 
competitiveness, job growth, environmental protection, and the 
quality of life.
    Mr. Chairman, we support the administration's fiscal year 
1999 request of $383 million for DOE's fossil energy R&D 
program. We recognize that is a small increase, but we think 
that's important. Fossil fuels are in many ways the lifeblood 
of our economy. Low-priced fuel fosters job quality, economic 
growth, and exports. And in that light, it is an important area 
for the Government.
    Congress should provide strong funding for that program 
given the widespread benefits that technological advances in 
fossil fuels can contribute to our economy and environment. Any 
meaningful Government strategy that addresses global climate 
change must include support for many elements of DOE's fossil 
energy program, which creates knowledge and innovative 
processes to minimize carbon dioxide and other types of 
emissions from fossil fuels.
    Within that fossil fuel R&D program, we believe that coal 
R&D should receive priority. We recommend that Congress provide 
the $130 million requested for coal R&D. That is a significant 
increase but an important one. In addition to providing for 
national security, economic, and environmental benefits that 
new coal technologies can produce, they offer significant 
export potential as well.
    We support the increased funds for coal R&D to develop 
innovative, higher-efficiency power generating technologies 
that can lower our costs and further reduce environmental 
emissions, such an important thing. DOE engineering research on 
cleaner combustion technologies and advanced coal-fired power 
plant concepts can significantly reduce emissions, which is 
always in our interest. Breakthrough research on carbon 
sequestration deserves support, that's a new area, because it 
offers significant potential to reduce greenhousegases, and 
that, of course, is a global climate problem.
    DOE coal-based fuel R&D should also be enhanced. Coal 
offers significant advantages in producing chemicals and liquid 
fuels which are competitive to petroleum. That is high-risk 
research, it has been done but not economically. We think in 
the future that is going to be where the U.S. has to go in 
order to have independence from foreign fuel sources. Its 
potential payoff is in the distant future so private investment 
isn't going to work in that particular area. We need to get to 
that.
    While Federal support for coal has drawn opposition because 
of its carbon intensity, we recognize that DOE-supported R&D 
has made coal significantly cleaner, and continued advances are 
important in reducing its environmental impact.
    Mr. Chairman, we also support strong funding for DOE's 
energy conservation R&D program in fiscal year 1999. 
Considering the growing demand for energy, the increasing 
attention to the environmental impact of energy production and 
use, and the potential to increase productivity in many 
industry sectors, the need for DOE-supported energy 
conservation is important and evident.
    We think the program that is in the Office of Industrial 
Technologies is the sector that needs support. It has requested 
$167 million for its R&D directed research, and we think that 
is appropriate. That office has the Industries of the Future 
program that always gets high marks. It is an industry 
supported program, it is an industry cooperative program. It 
provides roadmaps for increasing energy efficiency in energy-
intensive industries, such as the chemical industry, the pulp 
and paper industry, and the steel industry. Since this is 
driven by industry and it is such a collaborative effort, we 
think it will enable industry to take advantage of this in 
technology transfer and quicker deployment of energy efficient 
technologies, again, an important thing in our greenhouse.
    In conclusion, we feel, Mr. Chairman, that meeting our 
growing energy needs while improving the environment and 
sustaining economic growth requires long-term commitment to 
fossil fuel energy and energy conservation. Thus, we think 
while energy efficiency R&D is important, it must be balanced 
by a long-term national energy strategy of increased efficiency 
as well as fossil fuel R&D.
    Thank you for your time. I'll be happy to answer questions.
    [The information follows:]

[Pages 889 - 895--The official Committee record contains additional material here.]


    Mr. Wamp. Thank you, Dr. Lederman. I would love to talk to 
you for thirty minutes about this, but I've got to try to keep 
us on schedule. I do have one quick editorial comment. Not only 
do we need this research in cleaner coal technologies and more 
advancement on fossil in general, but, editorially, I think we 
need to revisit the advanced light-water reactor and have a 
nuclear capability for power production in order to fight 
greenhouse gases as well.
    I also have a question. I heard last week from a very 
educated person that in a city like Bangkok, for instance, that 
the number one emitter of CO<INF>2</INF> emissions is actually 
not fossil power plants or any of the usual suspects, but is 
two-cycle motor scooter engines. Is that true?
    Mr. Lederman. That's true in Bangkok. It is not true in the 
United States, Mr. Chairman. We do have two-cycle in mowers and 
even they are going out of style. But in Bangkok, you have a 
lot of two-cycle engines. If you've been in Bangkok, it is a 
miserable place to walk in.
    Mr. Wamp. Okay. Thank you, Dr. Lederman.
                              ----------                              

                                          Wednesday, March 4, 1998.

               INTERSTATE OIL AND GAS COMPACT COMMISSION

                                WITNESS

CHRISTINE HANSEN, EXECUTIVE DIRECTOR
    Mr. Wamp. Interstate Oil and Gas Compact Commission, Ms. 
Christine Hansen, the Executive Director, is here. Welcome. We 
look forward to your testimony on oil and gas research and 
development.
    Christine.
    Ms. Hansen. Thank you, Congressman Wamp. I do represent the 
governors of 29 oil and gas producing States. We're one of the 
oldest compacts in the country and the largest, having 29 State 
members. I represent the governors and some day I'm going to 
calculate how many citizens they represent just to make the 
numbers as impressive as these other organizations were big.
    We have for many years supported not just the oil and gas 
budget submitted by DOE, but a larger budget. I've given you 
some detailed comments about that and I will just highlight a 
couple points.
    Research has pushed the domestic production to really 
vastly increased efficiency levels. It has helped push the 
price of gas and oil in this country down. Research has dollar-
for-dollar more than paid for itself. Yet, Federal support for 
applied energy research has fallen 81 percent since 1978. It is 
the fuel that we rely on as a country, it is the fuel we rely 
on to get around in this country, and there is a lot of it 
left.
    Any assumptions about this being a dying industry aresimply 
wrong. There's a lot of oil left under our soil. Oklahoma, for 
instance, where I live, has two-thirds of the known oil resource yet to 
produce. It is the hardest two-thirds to produce and that is why 
research is just so essential. It is not the Exxons and the Texacos 
that are producing those last barrels of oil from these older wells; it 
is independents, mom and pop operations, sort of the family farmer of 
the petroleum industry and they do not have research budgets.
    The governors feel strongly that adequate Federal research 
spending is in the national interest so that we don't abandon 
these resources prematurely.
    There are very few ways besides raising taxes that the 
Federal Government has to increase revenue. Spending on oil and 
gas research is one of those ways. It absolutely more than pays 
for itself many times over.
    The governors, of course, support renewables. It is 
certainly in their political best interests to do so. But when 
you compare the budgets of the petroleum resources and the 
renewables, there is just such a huge difference based on what 
the country actually uses.
    I have a briefing paper of the governors' position on oil 
and gas research and the governors' oil and gas policy. We have 
a study paper. We commissioned Coopers and Lybrand to do an 
assessment of research spending by industry and by governments, 
and I will leave with you.
    I have another short issue that I want to raise because 
Congressman Istook suggested that I take this opportunity to 
call it to the attention of the subcommittee. We have been 
working with the Bureau of Land Management for three years to 
try and get the responsibilities for inspection and enforcement 
of wells on Federal lands taken over by the States and have had 
such difficulty in doing this. It was a recommendation of Vice 
President Gore in Reinventing Government three years ago.
    We did an analysis that shows it costs the States $72 to do 
the same function, we feel strongly we do it better, that BLM 
spends $891 on. I've talked to some of the subcommittee 
members' staffs about this. I think Congressman Istook might be 
talking to you in the future. Thank you.
    [The information follows:]

[Pages 898 - 905--The official Committee record contains additional material here.]


    Mr. Wamp. As a member of the full committee, I'm sure we'll 
hear from him. I want you to know that two of my Washington 
housemates, Dr. Tom Coburn and Steve Largent from your Oklahoma 
delegation, keep me informed on our oil and gas supplies in 
this country.
    We appreciate you summarizing your testimony. Everything 
that you have submitted will be taken into full consideration. 
We thank you for your testimony today, Ms. Hansen.
    Ms. Hansen. Thank you, sir.
                              ----------                              

                                          Wednesday, March 4, 1998.

       NATIONAL ASSOCIATION FOR STATE COMMUNITY SERVICES PROGRAMS

                                WITNESS

WILLIAM BEACHY, PROGRAM ADMINISTRATOR, VIRGINIA DEPARTMENT OF HOUSING 
    AND COMMUNITY DEVELOPMENT
    Mr. Wamp. Bill Beachy, for the National Association for 
State Community Services, to talk about weatherization 
assistance programs.
    Mr. Beachy, welcome.
    Mr. Beachy. Thank you, sir. I appreciate the opportunity to 
be here this afternoon before this committee. I am here to 
testify in support of the Weatherization Assistance Program and 
the State energy program, both funded through the Department of 
Energy's Office of State and Community Programs. I am here on 
behalf of the National Association for State Community Services 
Programs whose members are the State directors of the 
Weatherization Assistance Program and also the Community 
Services Block Grant. I speak with over 21 years of experience, 
7 of those years are at the local level in actually operating a 
program, and 14 years are at the State level in managing the 
Weatherization Assistance Program. I currently do that in the 
State of Virginia.
    I was pleased to hear your comments earlier about the 
problems with energy inefficiency in residential settings. I 
would suggest, as you suggested I think, that that's even more 
of a problem when it comes to the low-income population. We're 
talking about 14 percent of their income being used for this 
purpose. And this program has the capability of reducing that 
expense and that cost by as much as one-third. And that, by the 
way, is evidenced by a more recent evaluation that was done by 
Oak Ridge National Lab in Tennessee.
    That same evaluation showed that the benefit-cost ratio for 
the program is something in the neighborhood of 2.4. In our 
State alone, I can give you all the reasons why the program 
should continue to be funded and even at higher levels, not the 
least of which includes that in my State alone we're able to 
leverage something in the neighborhood of $2 for every $1 of 
DOE funds that are spent for the program.
    I would also suggest to you that with recent events with 
welfare reform and with the electric utility restructuring, in 
the case of welfare reform, while we do have a concern about 
its impact on the low-income families, on the positive side 
there are States out there that are both training and employing 
former welfare recipients in the weatherization program and 
other energy assistance programs. Electric utility 
restructuring, that, too, is a concern for us. The history of 
utility support for energy conservation programs, that along 
with just the fact that the high level of energy costs and a 
typical low-income household and whether the cost with 
restructuring would be passed on to residential consumers, 
particularly low-income folks.
    The capacity of the program was cut approximately 47 
percent several years ago. The capacity nationally has dropped 
from roughly 138,000 households to something in the 
neighborhood of 63,000 households.
    I guess I would close my comments today by saying that I 
recognize that the Weatherization Assistance Program and the 
State energy programs are both very small fish in a very large 
pond, which is precisely the reason why we've made it our 
mission in weatherization to do more than we should be expected 
to do with those limited funds. It is a cliche, but 
weatherization is a program which needs to have a face to put 
on it. In my case, that face came about 21 years ago with an 
elderly widow who had been burned out of her home, was 
literally living in a chicken coop when she came to our 
attention. The community came together, provided her with a 
mobile home; unfortunately, the mobile home didn't have all the 
necessities, to include a source of heat. And 21 years later 
and 94,000 households, that vision is still burned in my 
memory.
    Harley-Davidson has a saying, ``If I have to explain, you 
won't understand.'' If you've not been to the home of a low-
income weatherization recipient to see the work, to feel the 
difference, and to hear the testimony and the appreciation by 
that household, it's something that would be difficult to 
explain or understand.
    Finally, I hope you have been, or will be, afforded the 
opportunity to visit a low-income weatherization site. I know 
Congressman Moran's energy staff assistant, Ms. King, has been 
to one in our State. My impression was that she was both 
surprised and a little educated in the process. So, if you've 
not been afforded that opportunity, I certainly hope you will 
be. Thank you.
    [The information follows:]

[Pages 908 - 911--The official Committee record contains additional material here.]


    Mr. Wamp. Great testimony, Mr. Beachy. With regard to the 
Harley-Davidson, it was my wife that wouldn't understand. 
[Laughter.]
    Mr. Wamp. Thanks for your testimony.
    Mr. Beachy. Thank you.
                              ----------                              

                                          Wednesday, March 4, 1998.

                         GAS RESEARCH INSTITUTE

                                WITNESS

DAVID O. WEBB, SENIOR VICE PRESIDENT, POLICY & REGULATORY AFFAIRS
    Mr. Wamp. David Webb, senior vice president for Policy and 
Regulatory Affairs for the Gas Research Institute, talking 
about fossil energy and conservation. Welcome, Mr. Webb.
    Mr. Webb. Thank you, Mr. Chairman. The Gas Research 
Institute appreciates the opportunity to testify today before 
the Interior and Related Agencies Subcommittee to present GRI's 
views and recommendations on fiscal year 1999 funding for the 
Department of Energy's gas-related research programs in energy 
efficiency and fossil energy.
    GRI supports the administration's request of approximately 
$220 million in these gas-specific programs. We also have a 
specific recommendation to strengthen the natural gas supply 
research program by restoring funding for the environmental 
restoration project to the fiscal year 1998 level of $3.3 
million.
    GRI is the R&D management organization of the natural gas 
industry. With over 320 member companies, we jointly plan and 
cofunded with the Department of Energy and their Fossil Energy 
and Conservation programs approximately $20 million per year. 
Therefore, congressional action on the DOE budget does impact 
our joint programs.
    In looking at the role of the Federal Government in energy 
R&D policy, we think the Federal Government's role is critical 
because industry, as it competes in an ever-increasing 
competitive world market, cannot fund research at the level 
required because many of the benefits are societal benefits 
that cannot be captured. Therefore, in times of declining 
budgets, Government funds should be used primarily for 
investments that are expected to yield broad public benefits. 
We think that translates into two policy positions.
    The first would be that the government must continue to 
have the primary role and responsibility for funding and 
managing fundamental long-term basic research in energy because 
these benefits cannot be captured by the private sector. 
Therefore, the Federal role and involvement is critical.
    On the other hand, both Government and industry have a 
joint responsibility for funding, planning, and managing what I 
would call applied energy R&D. These partnerships of private 
industry and Federal-sponsored R&D programs can accomplish 
several goals. One, the research will be aimed at the top 
priorities of industry; therefore, industry will be willing to 
provide cofunding. Second, industry uses rigorous cost-benefit 
analysis to prioritize the R&D, so we will be sure that the 
research will be getting the most bang for the buck. Once 
again, if industry participates in the cofunding and the 
management, then the path to commercialization is much closer 
because industry has a vested interest being sure the research 
is commercialized. And finally, duplicative costly research is 
eliminated.
    Congress in the past has recognized, and we would encourage 
you to continue to recognize, the role of both Government and 
industry in cofunding applied energy R&D. To illustrate, the 
gas industry has proposed to DOE that the Federal Government 
cofund a comprehensive gas industry-Government R&D program of 
$100 million per year for four years. In that proposal, GRI 
proposes that $74 million of the $100 million program be 
managed by GRI as a joint cofunded 50-50 program with Federal 
funds of $37 million annually and gas industry funds of $37 
million annually. Included in this recommendation are cofunded 
programs in critical technologies such as high efficiency 
industrial and boiler equipment, advanced high efficiency gas 
turbines, natural gas cooling technology to replace peak period 
electricity use, very high efficient fuel cells, turbines, 
additional gas supply research, and other technologies to 
improve the efficiency of energy use.
    While most of this programs will be in the fiscal year 2000 
budget, GRI and DOE are in the process now of discussing it. 
And if some of the funds are available in fiscal year 1999, the 
gas industry is prepared to put up $37 million of cofunding to 
get this joint program underway.
    I would like to discuss one other real important thing to 
me. Last year Congress extended the research and experimental 
tax credit for one year. The tax credit, therefore, will be a 
topic of consideration again this year. The tax credit as 
currently structured provides a disincentive for collaborative 
research. We would encourage Congress to take a look at that 
this year and to remove the disincentive for collaborative 
research and to provide an actual incentive for collaborative 
research because you get more bang for the buck the more 
companies you have jointly funding important research.
    We would propose two things. One, that the tax credit 
recognize 100 percent of the funding to 501(c)(3) and 501(c)(6) 
not-for-profit organizations to qualify as a tax credit. 
Secondly, to provide a nonincremental 20 percent tax credit for 
companies' contributions to collaborative research. While not 
in this subcommittee's jurisdiction, GRI encourages Members to 
support legislation to correct the current disincentives for 
collaborative research under the current R&E tax credit.
    In summary, GRI encourages the subcommittee to support the 
administration's request for gas-related research of 
approximately $220 million of which $207 million is in this 
subcommittee's jurisdiction. GRI is committed to continue to 
work with DOE and Congress to help us accomplish our mutual 
goals of Government and industry in energy policy. Thank you 
very much.
    [The information follows:]

[Pages 914 - 918--The official Committee record contains additional material here.]


    Mr. Wamp. Thank you very much. Very good testimony, well 
submitted on behalf of the Gas Research Institute. We're going 
to have difficulty with the amount of money that is handed down 
from above on these programs. But you certainly have 
articulated your position very well. Thank you for your 
testimony, Mr. Webb.
                              ----------                              

                                          Wednesday, March 4, 1998.

                           STATE OF LOUISIANA

                                WITNESS

HON. JACK C. CALDWELL, SECRETARY, LOUISIANA DEPARTMENT OF NATURAL 
    RESOURCES
    Mr. Wamp. Jack Caldwell, Secretary of the State of 
Louisiana. Mr. Secretary, we're honored by your presence and 
look forward to your testimony.
    We are now joined by the distinguished Chairman of this 
subcommittee. I don't know if I'm getting the ax here or not. 
[Laughter.]
    Mr. Caldwell. Mr. Wamp, I first want to thank you for the 
promotion to Secretary of State. I'm the Secretary of Natural 
Resources. I'm Jack Caldwell, the Secretary of Natural 
Resources for the State of Louisiana. It falls within the 
jurisdiction of my department to administer Louisiana's oil and 
gas reserves including the reserves that we're fortunate enough 
to have underlying the Gulf of Mexico.
    As you know, Louisiana has always supported Federal 
operations in offshore Louisiana. We have always cooperated 
fully with the Federal Government. And as a result of those 
efforts and the efforts of the Federal Government, its lessees, 
the current revenues to the Federal Government are now running 
$3 billion a year solely from the Louisiana offshore. That 
amount is expected to increase in coming years.
    In general, the Federal Government has responded very well 
to our support. I'm pleased to report that today the relations 
between the State of Louisiana and the Mineral Management 
Service have never been better. That is something that both 
Louisiana and the Mineral Management Service can be very proud.
    However, in the one instance before the committee today, 
back in 1985, the Mineral Management Service intentionally and 
deliberately allowed its lessees to drain reserves from a 
reservoir largely underlying Louisiana waters. This is the only 
time it was ever done. In every other instance before and 
since, the State and the Federal Government have properly 
unitized the reservoirs that lie both sides of the State 
boundary line, which is the modern way to handle oil and gas 
production. We have abandoned the old days of pirating oil and 
gas under the rule of capture where it was every man for 
himself, and we used to have oil wells stacked 1,000 per square 
miles in the old days. But in this one instance, the Mineral 
Management Service permitted the drainage, and it was done on 
the theory that Congress intended for the 8g funds to 
compensate the State for such drainage past, present, and 
future. That was the theory on which they allowed the drainage.
    Since that time, Congress has rejected this notion and has 
passed a bill authorizing that Louisiana be reimbursed for the 
reserves that were drawn from under its water bodies.
    Mr. Regula [resuming chair]. That includes the lessees on 
your property though, too.
    Mr. Caldwell. Yes, sir. The total amount including interest 
is about $31 million. Of that amount, Louisiana is entitled to 
44 percent which is the royalties payable under the State 
leases; that is Louisiana's share of the excessive drainage by 
the Federal lessees. So, we're not asking for taxpayer funds. 
This is basically a restitutionary claim that has been 
authorized by Congress. The problem is that up to now we simply 
have not been paid. We need an authorization for payment to be 
made by way of restitution.
    Mr. Chairman, I might also mention that it is within my 
jurisdiction, and my honor incidentally, to administer 
Louisiana's Coastal Restoration Program. Our coast is presently 
bearing the brunt of offshore operations in terms of adverse 
impact on our coastline. This is due to pipeline landings, 
wave-wash, heavy road use, all of the offshore waste comes 
ashore in Louisiana and we have never been compensated for 
this.
    Mr. Regula. Don't you get some of the lease money from the 
Federal wells?
    Mr. Caldwell. No, sir. 8g funds are now down to about $15 
million a year which is supposed to cover a whole lot of things 
and not specifically directed to offshore impact.
    Mr. Regula. I'm sorry to interrupt you. But in terms of 
wells, are there more Federal wells or more State wells on 
these offshore waters?
    Mr. Caldwell. Well, the State wells are all fairly close 
in. That was from the early days when they drilled a lot of 
shallow oil wells. As you go into deeper water, the number of 
wells get less. And Louisiana has a boundary of only three 
miles and then the Federal acreage begins and goes out two 
hundred miles. So you have a vastly larger number of wells in 
the deep water on the Federal land. But we have hundreds of 
little bitty wells along in the bays but those are old wells 
and don't really count.
    Mr. Regula. They are still producing?
    Mr. Caldwell. Some of them are. The State began offshore 
production in 1947.
    Mr. Regula. When did the Federal leases start?
    Mr. Caldwell. It began in the late 1950s. After the 
boundary line began to be fixed and was settled up, we went 
deeper and deeper offshore.
    But my point of the impacts on the coast is that Louisiana 
is presently spending $25 million a year out of its own oil and 
gas reserves to preserve the coast which is disappearing at a 
rate of 25 square miles a year. This claim, if it is 
recognized, would go into calculating and paying part of our 
coastal restoration fund and would help us overcome the adverse 
impact of the offshore operations which we submit is an 
additional ground for honoring this claim because it would be 
well spent on the Louisiana coast.
    Mr. Regula. But you would only get 44 percent of it. The 
balance of it would go to----
    Mr. Caldwell. Yes, 44 percent of the $31 million, yes, sir.
    Mr. Regula. Yes. The balance would go to the people that 
had a well out there.
    Mr. Caldwell. To the lessees, yes, sir. That was the terms 
of the lease, of course. They are entitled to it under our 
lease contract. We're entitled to 44 percent and they are 
entitled to 56 percent. That is to compensate them for their 
capital and risk and so forth.
    So, Mr. Chairman, I thank you for your consideration.
    [The information follows:]

[Pages 922 - 925--The official Committee record contains additional material here.]


    Mr. Regula. Well, I'm aware of the problem.
    Mr. Caldwell. Yes, sir. And you are also a noted 
conservationist and I know you share my concern for the 
Louisiana coast. Thank you, sir.
    Mr. Regula. Okay. Thank you.
                              ----------                              

                                          Wednesday, March 4, 1998.

                NATIONAL ASSEMBLY OF STATE ARTS AGENCIES

                                WITNESS

MARGARET S. NEWMAN, CHIEF EXECUTIVE OFFICER, AND CHAIR, NORTH CAROLINA 
    ARTS COUNCIL
    Mr. Regula. Next, National Assembly of State Arts Agencies, 
Margaret Newman. Welcome.
    Ms. Newman. Good afternoon, Congressman Regula. It is my 
pleasure to be here with you today. I am very sorry that 
Congressman Wamp just stepped out because he made a comment on 
familiar accents earlier and he might find this accent just a 
little bit familiar. I come from a neighboring State of his.
    Mr. Regula. I knew it wasn't Southern Ohio. [Laughter.]
    Ms. Newman. I'm here, Congressman Regula, on behalf of the 
National Assembly of State Arts Agencies. I am pleased to have 
this opportunity to testify in support of the National 
Endowment for the Arts in fiscal year 1999.
    My name is Tog Newman, Margaret is my formal name. I chair 
the North Carolina Arts Council and I'm here today representing 
the collective voice of all the State arts agencies in the 
country. I consider that a privilege and an awesome 
responsibility.
    I want to begin by saying thank you for your very earnest 
appreciation and support in recognizing what value the Federal 
arts funding can do for the arts. I want you to pass on our 
appreciation to the other members of the committee for their 
support in the past. I have to add, Mr. Chairman, that many of 
us in the State arts agency movement took notes on the model 
state-of-the-arts, Ohio, when we met in Cleveland this past 
fall. It is a richly endowed State and it was exciting to take 
notes on what you have done in your State.
    Mr. Regula. They've been generous, the legislature, with 
our State funds.
    Ms. Newman. Indeed they have. We've come here this year in 
support of the administration's budget request of $136 million 
for the National Endowment. We believe that Federal arts 
funding has already taken by far more than its share of cuts in 
contributing to the balanced budget with a 40 percent reduction 
in fiscal year 1996 and a smaller cut last year.
    As you would expect, we categorically oppose any further 
spending cuts and any measures to phase out this really 
important agency. And we urge the committee's consideration of 
this modest increase.
    Mr. Regula. Mr. Wamp is back.
    Ms. Newman. Mr. Wamp, I'm glad you're back. I wanted you to 
hear a familiar accent.
    Mr. Wamp. That's no accent. [Laughter.]
    Ms. Newman. I just commented to Chairman Regula that we 
from the State arts agencies took notes when we met in Ohio 
last fall. I would like to add, since Congressman Wamp is back, 
we took notes from the rich State of Tennessee when we met in 
Memphis the year before last. Both States taught us a great 
deal.
    Mr. Regula. Are you happy with the increased share for the 
States that we've provided?
    Ms. Newman. Yes, we are. We're very happy with that. Thank 
you.
    Because we have found that there has been widespread 
support for the arts in recent years, despite what is seen as 
the cultural wars, there has been widespread support from the 
State legislatures. We're on the top of about a five-year 
increase. The States have experienced a lot of support from 
their local legislatures. We think that is a good barometer of 
how the communities and people are feeling out there as to 
public support for the arts. Both the legislatures and the 
governors alike have brought about a lot of bipartisan 
commitment to public support for the arts.
    But, on the other hand, let me point out that this is not 
consistently true. Although many States have received an 
increase from their own State legislature, depending on their 
own particular economic situation, some States have remained 
even, some have even had a decrease. So this is yet another 
reason why the support from the National Endowment is critical, 
to keep the flow even, the flow steady.
    The most critical three things that the National Assembly 
of Arts Agencies advocates for through National Endowment 
partnerships are: (1) to provide access, to bring the arts 
truly to every person in the country; (2) to provide better 
education opportunity, to use the arts as the education tool 
that it is to improve our quality of education for people of 
all ages; and (3) to contribute to economic and community 
development.
    There are a lot of different ways that the NEA partnership 
with the States achieves these three things.
    Mr. Regula. Did you notice the changes that we put in last 
year's bill?
    Ms. Newman. Yes.
    Mr. Regula. They fit with what you have said.
    Ms. Newman. They fit very much with what we're saying. They 
help us to achieve our priorities.
    Mr. Regula. Mr. Wamp, do you have any questions?
    Mr. Wamp. No questions.
    Mr. Regula. Okay. Thank you very much. We're on a very 
tight time schedule here.
    [The information follows:]

[Pages 928 - 931--The official Committee record contains additional material here.]


                                          Wednesday, March 4, 1998.

                             OPERA AMERICA

                                WITNESS

RICARDO C. MORRIS, DIRECTOR, ARTS IN EDUCATION FOR ALLIED ARTS OF 
    GREATER CHATTANOOGA
    Mr. Regula. Next, Opera America. Mr. Ricardo Morris.
    Mr. Morris. Good afternoon, Mr. Chairman, Mr. Wamp. It is 
an honor to have the opportunity to testify in support of the 
National Endowment of the Arts on behalf of OPERA America and 
American Arts Alliance. My name is Ricardo Morris, and I live 
in your district, Mr. Wamp, in Chattanooga, Tennessee. I am an 
arts lover and supporter with all my heart and mind. In fact, 
without the arts, I would not be the person you see here before 
you today.
    I would like to tell you a bit about my life. I was born 
and raised in Chattanooga and graduated from Howard High 
School, which is located next to Poss Homes which is a housing 
project. I attended Tennessee State University where I majored 
in speech communication and theater. I received some 
scholarships, some grants, and lots and lots of loans in order 
to go to the Yale School of Drama where I graduated with a 
master's degree in arts administration.
    That's the short version of my story. To fill it out, let 
me tell you about growing up poor and black in Chattanooga. Let 
me paint a picture for you of how the arts helped me dream and 
move beyond my challenging circumstances. And let me assure you 
that the arts, with the support of the National Endowment, can 
continue to help kids realize their own hopes and dreams.
    I grew up on the south side of Chattanooga, mostly in Alton 
Park where the projects are. My family moved around quite a 
bit. My mother worked on Lookout Mountain as a maid. My father, 
who only finished the tenth grade, was a foundry worker. Some 
of the kids in my neighborhood grew up to be famous, like 
Samuel Jackson and football star Reggie White, you might 
remember. But you can be sure that most of the kids did not or 
were not as fortunate.
    Outside of what was going on in my own school, there wasn't 
a whole lot I knew about. If you've been to Chattanooga, as Mr. 
Wamp could probably attest, you would know that the south side 
is cut off from the rest of the city, geographically and, more 
importantly, psychologically. It's very hard to cross those 
boundaries.
    It was through the arts that I discovered a whole new 
world, a world that did not limit me by my circumstances. My 
first exposure to the arts came from television: The Sound of 
Music, Danny Kaye, Gene Kelly, and, of course, public 
television. My family didn't understand why I was so interested 
in the arts. I can assure you that it was a struggle trying to 
watch The Nutcracker with three brothers and one television. 
[Laughter.]
    Later on in high school, I play in the band. My band 
teacher was Mr. David Sharp, who encouraged me very much to go 
to college. In fact, he took a very personal interest in me 
and, because of genuine interest, I did finish college.
    After college, and eight years of teaching in high school, 
I applied and was accepted at Yale School of Drama. Being a 
student at Yale School of Drama was a once in a lifetime 
experience. While at Yale, I saw my first opera, La Boheme. I 
was immediately hooked on opera and enthusiastically attend 
Chattanooga opera today.
    Although my Yale education opened up a whole world of 
opportunity, I held in my heart the dream of returning back to 
Chattanooga and getting more inner-city students excited about 
the arts as I was. Across the street from the Yale School of 
Drama is the Dwight-Edgewood neighborhood. It is a 
predominantly black, low-income area. Many of the children in 
that neighborhood face some of the same problems that I did 
growing up.
    The Yale Repertory Theater, a working laboratory for the 
Yale School of Drama, designed a program called the Dwight-
Edgewood Project. I was asked and immediately accepted to 
manage the program. The Dwight-Edgewood program is unique in 
that it allows kids to create their own plays and have those 
plays produced at the drama school.
    I'm lucky now to be able to continue my interest in kids 
and working with kids. I was just appointed as the Arts in 
Education Director for Chattanooga. One of the things I hope to 
do is to make sure that all the kids know that arts is 
something that can help them change their lives.
    Thank you, Mr. Chairman. If you have any questions, I'd be 
pleased to try to answer them.
    [The information follows:]

[Pages 934 - 937--The official Committee record contains additional material here.]


    Mr. Regula. Mr. Wamp.
    Mr. Wamp. That's just a great story. Thank you for coming 
and giving that real example of how arts can impact you. I know 
the area, the lifestyle, the story so well. I'm sorry that our 
paths haven't crossed, but I'm glad they did today.
    Mr. Morris. Thank you.
    Mr. Regula. Is the Greater Chattanooga Allied Arts a 
nonprofit city-wide agency?
    Mr. Morris. It is and it raises money for all the cultural 
organizations in the city.
    Mr. Regula. And you depend a lot on private contributions 
then?
    Mr. Morris. We do get some, yes.
    Mr. Regula. I might ask you, do you get some public money, 
too?
    Mr. Morris. Yes. We get funding from a lot of different 
sources and the NEA is one of those that we're counting on as 
one of those sources.
    Mr. Wamp. Mr. Chairman, let me just add that last year 
during the hearings, we all had difficulties with different 
constituencies in the debate here, I reported that the Allied 
Arts of Chattanooga had experienced a reduction in its funding 
even though many were professing that arts funding would 
increase from the private sector as it potentially decreased 
from the public sector. But we've experienced in the State of 
Tennessee and particularly Chattanooga, which is one of the 
most philanthropic communities in the country, we've 
experienced reductions across the board.
    Unlike public television, where we saw the private sector 
come to the rescue as Government funding was reduced, arts 
funding, to the contrary, actually experienced a reduction from 
the business community during corporate downsizing and budget-
cutting and it was very onerous to our agencies, to which I 
have personally not only contributed, but have worked to raise 
money for Allied Arts in the past. So I know it firsthand. It 
continues to be a struggle.
    Mr. Regula. Very good. Thank you.
    Mr. Morris. Thank you.
                              ----------                              

                                          Wednesday, March 4, 1998.

                      COUNCIL ON CHEMICAL RESEARCH

                                WITNESS

RANDOLPH J. GUSCHL, CHAIR, GOVERNMENT RELATIONS COMMITTEE DIRECTOR, 
    CORPORATE TECHNOLOGY TRANSFER, E.I. DUPONT DE NEMOURS
    Mr. Regula. Council for Chemical Research, Mr. Randolph 
Guschl.
    Mr. Guschl. I'm going to have a slightly different topic. 
[Laughter.]
    My name is Randy Guschl. I am the current Chair of the 
Government Relations Committee for the Council on Chemical 
Research. I am also the Director of Corporate Technology 
Transfer for the DuPont Company. I appear before you today to 
urge Congress to fund the Department of Energy's Office of 
Industrial Technologies at the request level of $166.6 million 
for fiscal year 1999. This amount represents a significant 
increase of $30.4 million over fiscal year 1998, including a 
$19 million appropriation for reducing greenhouse gases, and is 
a reflection of the value of the OIT's Industries of the Future 
program.
    Mr. Regula. Do you believe that global warming is real?
    Mr. Guschl. Personally, yes. I think it is something that 
needs more study to see what the rates are and what is really 
happening. But I think a lot of work is still being done on 
that. We do believe that the carbon dioxide levels are 
unquestionably going up and there are impacts there. And 
whether that is singularly or in combination what is causing 
global warming is what is still open for study.
    Our CCR membership includes most of the major companies, 
universities, and Government laboratories that do conduct 
research in the chemical sciences and engineering areas. And it 
is this relationship with the three components of our 
enterprise that is so effective and we think these programs 
support.
    Technology roadmapping and implementation efforts by 
Government entities, like the Office of Industrial 
Technologies, provide opportunities for the highly skilled 
scientists and engineers residing in our Nation's universities 
and industrial-based research parks to learn and use their 
expertise to work on these processes. Long-term research has 
got to be done in order to enable these technologies to be 
available for our future industries.
    We as an organization, CCR, are particularly interested in 
energy R&D because the chemical industry and its related 
industries are major users of energy in the United States 
today. Our chemical industry we feel is a cornerstone of our 
economy.
    Mr. Regula. You represent the broad sweep of the chemical 
industry?
    Mr. Guschl. Yes, and the emphasis on the research part of 
the chemical industry.
    The chemical industry represents 10 percent of the whole 
U.S. manufacturing, more than one million Americans are 
employed in it, and we are the top U.S. exporter in terms of 
commerce with $69.5 billion in exports in 1997. So we feel 
we're a significant part of the economy and significant users 
of energy.
    Mr. Regula. Do you think the progress of development in the 
developing countries will give you more difficulty in the 
future in selling our products overseas?
    Mr. Guschl. If I can speak for my company, which is a 
global company, we think that working together with this 
development is a very important factor, that these issues are 
global issues and we need to be handling them in a combination 
with national policies and global policies. Global companies 
are definitely addressing these issues.
    Mr. Regula. That's one of the problems in the global 
warming issue, and that is the developing nations do not want 
to participate. I was in Kyoto and we met with some of them and 
it is very clear they don't want any part of it.
    Mr. Guschl. In fact, we think the development of new 
platforms of technology which lead to the reduction of the 
gasses and are better energy efficient are going to go around 
the world if there are more competitive technologies. The 
problem is it takes a long time to change the basic 
technologies. Even companies like my own are focusing on short-
term programs. And who is going to sponsor energy research when 
energy is as cheap as it is right now? That's exactly why this 
program is so important and why we're all here talking about 
it.
    Mr. Regula. Okay. Thank you very much.
    [The information follows:]

[Pages 941 - 943--The official Committee record contains additional material here.]


                                          Wednesday, March 4, 1998.

                          UNIVERSITY OF TULSA

                                WITNESS

KERRY SUBLETTE, SARKEYS PROFESSOR OF ENVIRONMENTAL ENGINEERING, 
    UNIVERSITY OF TULSA; DIRECTOR, INTEGRATED PUBLIC/PRIVATE ENERGY & 
    ENVIRONMENTAL CONSORTIUM (IPEC)
    Mr. Regula. Next, the University of Tulsa.
    Mr. Sublette. Thank you, Mr. Chairman. My name is Kerry 
Sublette. I am here wearing two hats, representing both the 
University of Tulsa and the Integrated Public/Private Energy & 
Environmental Consortium, which is made up of University of 
Tulsa, University of Oklahoma, Oklahoma State, and University 
of Arkansas.
    I would like to begin by strongly endorsing the budget 
request of the fossil energy for critical R&D research in oil 
and gas programs. I would like to also endorse Christine 
Hansen's earlier comments from the Interstate Oil and Gas 
Compact Commission.
    I'm here today primarily to report on two exciting 
initiatives in the State of Oklahoma. Mr. Chairman, damage from 
past oil production can be found historically throughout oil 
and gas-producing States including my home State of Oklahoma. 
As an example, perhaps one of the most persistent problems is 
contamination resulting from spills or produced water. The 
sites of these spills are today seen as scars on the land, 
devoid of vegetation and highly eroded.
    In many cases, the parties responsible for these brine 
spills can no longer be identified. In fact, we have aerial 
photos of Northeast Oklahoma from 1937 that show brine scars 
that are here and with us today. But these brine scars not only 
represent a loss of land, but they also represent a continuing 
source of pollution of valuable surface waters and ground 
water.
    Many of these brine scars are located on or adjacent to 
tribal lands and near public and private drinking water 
sources. These drinking water sources are jeopardized by runoff 
and drainage from these brine scars. The only way to prevent 
pollution from these scars is to remediate them. However, local 
tribal authorities rarely have the environmental know-how to 
remediate these problems, although the remediation of crude oil 
spills and brine spills is not high technology. It does not 
require a lot of expensive instrumentation or highly trained 
environmental professionals to do it.
    Members of tribal organizations with high school educations 
can be easily trained to perform these remediations and to 
train others. The major equipment that's required is just 
earth-moving equipment, and most of these tribes have this kind 
of equipment already that they use for municipal programs and 
road maintenance. The tribal personnel simply need to be 
trained and, once trained, they can train others.
    The University of Tulsa is seeking approximately $500,000 
in Federal participation in fiscal year 1999 to provide this 
much needed training in remediation and spill response to the 
tribal organizations.
    Mr. Regula. How much should the University provide?
    Mr. Sublette. The University of Tulsa? The University of 
Tulsa is right now working as much as we can with tribal 
organizations in the State of Oklahoma with faculty donating 
their time to help train right now the Osage Agency of the 
Bureau of Indian Affairs, and the Osage tribal council, and the 
Seminole Nation. We would like some assistance to greatly 
expand this program throughout the State of Oklahoma and to be 
able to train Native American trainers so that we can reach 
more people than we can gather in a classroom or at a site to 
provide training. We would train these people to train others 
and in that way we can extend our reach throughout the State of 
Oklahoma.
    As I said, the ultimate goal is to train these Native 
Americans in this know-how so they can train others.
    On a related topic, Mr. Chairman, I would like to give you 
a report on the Integrated Public/Private Energy & 
Environmental Consortium. In fiscal year 1998, after a three 
year campaign and strong support from the Oklahoma Secretary of 
Energy and the Oklahoma delegation, Congress did provide $1.5 
million in dedicated funding for IPEC to develop cost-effective 
real solutions to environmental problems in the domestic energy 
industry which consists primarily of small independent 
companies, the mom and pop operations that Christine Hansen was 
referring to earlier.
    The funding was provided in the fiscal year 1998 
appropriations bill for the EPA. And as envisioned, we have 
also obtained significant State level matching funds, $375,000 
from the State of Oklahoma for this program.
    IPEC officers have met with the agency and we're currently 
working to satisfy all internal EPA requirements for funding as 
a research center. Although it will be some months before our 
grant is finalized with EPA, we are in the process now of 
soliciting and evaluating proposals so as soon as the grant is 
finalized we will be in a position to fund those proposals.
    One of the important elements of this solicitation and 
evaluation process is the formation of an Industrial Advisory 
Board which consists primarily of members of the independent 
sector of the domestic industry. We have formed our board, they 
have already reviewed 36 proposals and, out of those 36 
proposals, have judged only 5 to be relevant to our mission. So 
you can see that they are taking their job very, very 
seriously.
    I know of no other academic research center which involves 
any industry so deeply in its research evaluation process. We 
have created I think a true public/private partnership. For 
example, of the five projects our Industrial Advisory Board has 
approved for funding thus far, they amount to a request of 
Federal dollars of $490,000; however, they bring to the table 
over $500,000 in matching funds directly from the industry.
    Because of IPEC's close ties to the independent sector, we 
have also developed a strong working relationship with the 
National Petroleum Technology Office of the Office of Fossil 
Energy, which is why I appear here today to give you this 
progress report. But I would also like to stress that IPEC 
continues to have broad applicability across the Department of 
Energy. For example, IPEC is in its second year of a major 
three year effort to support risk-based regulatory decisions at 
hydrocarbon contaminated sites.
    Mr. Regula. I'm sorry, but we're out of time. Thank you.
    Mr. Sublette. Okay. Thank you, sir.
    [The information follows:]

[Pages 947 - 963--The official Committee record contains additional material here.]


                                          Wednesday, March 4, 1998.

            AMERICAN COUNCIL FOR AN ENERGY-EFFICIENT ECONOMY

                                WITNESS

HOWARD GELLER, EXECUTIVE DIRECTOR
    Mr. Regula. Next, American Council for an Energy-Efficient 
Economy.
    Mr. Geller. Thank you, Mr. Chairman. I'm Howard Geller, the 
Executive Director of the American Council for an Energy-
Efficient Economy. It's a pleasure to appear before you again.
    I'm here today in support of DOE's funding request for 
energy efficiency programs. DOE has requested a substantial 
increase in these programs for fiscal year 1999. But I first 
want to point out that with this increase, the programs would 
simply return to the funding level they were at in fiscal year 
1995 adjusted for inflation.
    DOE has a proven record of helping turn engineering 
concepts into viable energy efficiency technologies. I'm sure 
you're aware of the many successes that have come from the DOE 
program and due to the shortage of time here I won't go into 
the details.
    The reasons for increasing these programs today I think are 
well-stated by the research PCAST report, the Advisory 
Committee to the President on Science and Technology. They 
stated, ``R&D investments in energy efficiency are the most 
cost-effective way to simultaneously reduce the risks of 
climate change, oil import interruption, and local air 
pollution, and to improve the productivity of the economy.'' 
The programs can be justified solely on their economic 
benefits, the environmental benefits are icing on the cake.
    Let me use the remainder of my time to go over some of the 
areas we think are of highest priority for increases should 
there be funds available for increases this coming year.
    The first area is the codes and standards program. This is 
the equipment efficiency standards as well as the building 
codes work that DOE supports. These programs provide enormous 
benefits for consumers and for the Nation. The appliance 
standards that were issued in 1997 are expected to save 
consumers over $10 billion over the next 20 years or so. DOE is 
working on additional rulemakings that could save in excess of 
$30 billion.
    There is a new process in place that private sector is 
supporting. Things seem to be going relatively well. There is 
increased openness, more consultation with industry. But this 
process does require additional funding. There are additional 
steps, meetings, evaluations and so forth. DOE is falling 
behind schedule. They do need additional resources to keep from 
falling further behind schedule.
    Mr. Regula. You have only a minute left.
    Mr. Geller. Okay. The second area I want to highlight is 
the lighting program. DOE has a fairly modest R&D program, 
under $3 million per year. The lighting industry is very 
interested in expanding its collaborative efforts in 
partnership with DOE and its contractors. We urge that serious 
consideration be given to the increase of about $1.7 million 
that has been proposed there. A lot of benefit can come from 
it. Companies like GE Lighting in Cleveland are very supportive 
of the program these days.
    Another area I want to highlight is the Industries of the 
Future program, particularly the crosscutting work that's done, 
the advanced turbine system, the ceramics and advanced 
materials program. There actually isn't an increase proposed 
here but we would strongly recommend that you consider 
providing an increase in this area in order to keep the ATS 
program on schedule, to fund the Combined Heat and Power 
Challenge program that's proposed, and also the very beneficial 
work in ceramics, advanced materials. A lot of new products are 
coming out of that program and even more could come out with a 
funding increase next year.
    Mr. Regula. I'm sorry, we're out of time. Thank you.
    Mr. Geller. Thank you very much.
    [The information follows:]

[Pages 966 - 970--The official Committee record contains additional material here.]


                                          Wednesday, March 4, 1998.

                               DANCE/USA

                               WITNESSES

BRETT D. BONDA, COMMUNITY RELATIONS DIRECTOR OF THE RICHMOND BALLET
SALLY MILLER, SCHOOL TEACHER, WILLIAM FOX MODEL ELEMENTARY SCHOOL, 
    RICHMOND, VIRGINIA
    Mr. Regula. Dance USA is next.
    Mr. Bonda. Thank you, Mr. Chairman. My name is Brett Bonda 
and I am here to testify in support of the National Endowment 
for the Arts on behalf of Dance/USA and the American Arts 
Alliance. I am the community relations director at the Richmond 
Ballet in Richmond, Virginia. I organize Minds in Motion, an 
educational outreach program for fourth grade children that 
teaches the values of discipline and self-worth through 
movement. Here with me today is Sally Miller, a fourth grade 
teacher at William Fox Model Elementary School in Richmond, 
Virginia and a Minds in Motion academic advisory.
    Richmond Ballet received NEA grants in past years which 
helped support our educational programs. The $50,000 matching 
grant we received this year to establish a cash reserve has 
helped the ballet maintain and improve all of its programs.
    Mr. Regula. Is your ballet an amateur or professional 
program?
    Mr. Bonda. Professional. It is the fourteenth year of the 
company.
    Mr. Regula. So you pay your people?
    Mr. Bonda. Yes, we do. We have a company of 16 paid 
professional dancers.
    Mr. Regula. One of the things we changed in the 1998 budget 
is the condition it be paid to be eligible for a grant is gone. 
So we think the objective of NEA should be to help amateurs, if 
you will, as well as paid.
    Mr. Bonda. It has also helped us in the past for 
educational programs.
    Mr. Regula. Well, sure.
    Mr. Bonda. That's one of the things that I'm in charge of 
is this new Minds in Motion program. I would like to tell you a 
little bit about that if that's all right.
    Mr. Regula. If you can make it pretty brief, go ahead.
    Mr. Bonda. Okay. After 10 years of dancing professionally 
with the company, I became the ballet's first community 
relations director in 1995. In order to deepen the impact of 
dance in Richmond, we created an educational program called 
Minds in Motion that not only teaches dance, but self-respect, 
confidence, discipline, and cooperation as well.
    Now in its third year, Minds in Motion is flourishing at 
six Richmond area elementary schools. Fourth graders take one 
Minds in Motion class each week during the academic year. As 
their coordination and movement skills improve, so does their 
confidence, attentiveness, and enthusiasm.
    Richmond Ballet understands the need to forge relationships 
in the community and works closely in partnership with such 
teachers as Sally Miller.
    Mr. Regula. You've got about two minutes, are you going to 
share some with your teacher?
    Mr. Bonda. I would be glad to.
    Mr. Regula. You are in a public school?
    Ms. Miller. Yes.
    Mr. Regula. Okay. And you get benefit from this program I 
take it?
    Ms. Miller. Definitely. Great benefit. As a fourth grade 
teacher at William Fox Model Elementary School in Richmond, 
Virginia, I've been an academic advisor to Minds in Motion 
since its inception. I've seen some of my students truly 
transformed by their experiences in the program.
    During Minds in Motion, my students were focused, excited, 
and full of determination to reach the goals set for the hour. 
They are taught much more than just movement. Dance is used as 
a framework to teach students to look at academics in new ways. 
Since skills taught are demonstrated immediately, instant 
assessment, encouragement, and assistance are possible. Even 
those not excelling develop into more confident individuals 
when they are provided with immediate evaluations of their 
progress.
    One of my students last year had Attention Deficit Disorder 
and had trouble communicating, making friends, keeping up 
academically with other children. But despite his limitations, 
he excelled in Minds in Motion. While he could not always grasp 
concepts verbally, he found a way to understand concepts 
through physical movement. He took the skills he learned in 
Minds in Motion--discipline, repetition, and problem-solving--
and applied them to math and science. His academics, self-
confidence, and social skills have improved dramatically and he 
has made several friends. Each student learns in his own unique 
way. I had never expected that dance would be the key to this 
child's success in school.
    Teaching is more of a challenge today than ever before, 
with computers, video games, cable channels demanding 
children's attention. Conventional means of teaching, such as 
lectures, are not adequate anymore to stimulate children's 
minds. Schools need more interactive programs like Minds in 
Motion. It is the only way to reach some students. How 
privileged I feel to be part of this outstanding program.
    As you consider funding for the NEA, please remember the 
impact NEA-supported programs like Richmond Ballet's Minds in 
Motion have on our children. Federal support is a critical 
component to the funding structures of not-for-profit arts 
organizations like Richmond Ballet and cannot be replaced by 
the private sector. I urge you to appropriate the full $136 
million requested for this worthy agency.
    Thank you for the opportunity to testify today.
    [The information follows:]

[Pages 973 - 975--The official Committee record contains additional material here.]


    Mr. Regula. I assume you send out some of your professional 
people to work with the schools. Is that correct?
    Mr. Bonda. Yes. I teach as well and have some other 
professional dancers that have been trained to teach the 
program.
    Mr. Regula. And you got a grant for specifically going into 
the schools?
    Mr. Bonda. No. The program is rather new. We received the 
cash reserve to support all of our programs, one of which is 
Minds in Motion. This is only the third year of the program.
    Mr. Regula. Was some of this NEA money?
    Mr. Bonda. It went into the cash reserve, not directly to 
the Minds in Motion program.
    Mr. Regula. No, no. I know it went into the cash reserve 
but the cash reserve in turn financed this.
    Mr. Bonda. Supports all of our programs including Minds in 
Motion.
    Mr. Regula. So, in effect, the Federal money is indirectly 
getting to your schools; am I correct?
    Ms. Miller. Indirect.
    Mr. Bonda. It goes to the Richmond Ballet to support the 
program at her school, yes.
    Mr. Regula. Without it, you wouldn't do it.
    Mr. Bonda. Well, we would have a difficult time, yes.
    Ms. Miller. And a lot of children are benefiting.
    Mr. Regula. Do you get private money, too?
    Mr. Bonda. We get some, yes.
    Mr. Regula. Do you get any State money?
    Mr. Bonda. We get some also, yes.
    Mr. Regula. And how about the city or community?
    Mr. Bonda. Not much in the city, some community support.
    Ms. Miller. PTA.
    Mr. Regula. Okay. Thank you very much.
    Mr. Bonda. Thank you.
    Ms. Miller. Thank you.
                              ----------                              

                                          Wednesday, March 4, 1998.

             NATIONAL ASSOCIATION OF STATE ENERGY OFFICIALS

                                WITNESS

CHESTER B. SMITH, CHAIRMAN OF THE BOARD, NASEO DIRECTOR, MISSISSIPPI 
    ENERGY OFFICE
    Mr. Regula. National Association of State Energy Officials. 
How are you?
    Mr. Smith. Very good. Thank you, Mr. Chairman. I am Chester 
Smith, Director of the Mississippi Energy Office and Chairman 
of the National Association of State Energy Officials, NASEO, 
as we call it. NASEO is comprised of energy officials from 53 
of the 56 State and territory energy offices. Today I am here 
to testify on behalf of NASEO in support of funding for the 
energy conservation programs of the Department of Energy's 
Office of Energy Efficiency and Renewable Energy.
    Specifically, I am testifying in support of funding at a 
level at least equal to the President's fiscal year 1999 budget 
request for State Grant programs, which include the State 
Energy Program and the Weatherization Assistance Program.
    Mr. Regula. How much money does the State put in these 
programs?
    Mr. Smith. Sir, that varies from State to State. But in our 
State of Mississippi we match our State energy program 1-to-1 
and then there is leverage from other programs that become 
available.
    Mr. Regula. Do you get at least one State dollar for each 
Federal----
    Mr. Smith. One dollar for each in my State. I can't speak 
to other States. Our executive director would compile that 
information for you.
    Mr. Regula. Okay. Thank you.
    Mr. Smith. But it is a very good leverage.
    There is also something which we support this year called 
the Competitive Energy Partnerships which allows DOE to make 
their funding available to more grassroots local organizations 
for energy programs. Additionally, we support the President's 
request for the building sector to implement the building codes 
provisions of EPAC. We also support the proposed budget for the 
Energy and Information Administration.
    Mr. Regula. Do you have a building code in your State?
    Mr. Smith. Not yet.
    Mr. Regula. Do any counties have building codes?
    Mr. Smith. Not in my State, no. But there are many of our 
States that have building codes.
    Mr. Regula. Wouldn't it help in getting energy efficiency 
if you had some kind of building code at least for new 
construction?
    Mr. Smith. What we have done, sir, in our State and other 
States that don't have codes is use the Home Energy Rating 
program which is a more market oriented approach to induce the 
lenders, builders, and other participants in the housing market 
to build up to code, and we've had some success in that regard. 
Back in January of this year some of my colleagues from Ohio, 
New York and California testified to your subcommittee on what 
they think would be some of the priorities for this year's 
budget, and we appreciate the opportunity to have spoken before 
your committee. We look forward to any opportunity in the 
future to speak on these matters.
    I know you've heard before the impact our programs have 
made nationwide. With such a small amount of money I think we 
have been very effective in leveraging some programs that have 
provided tremendous benefits to all energy sectors.
    In Ohio, for example, AMPCO Metal Manufacturing System, the 
State of Ohio's energy program there, helped them to develop an 
electric induction heating process, which increased their 
energy efficiency by 98 percent and reduced all the pollution 
and maintenance costs that they had.
    In Arizona we have a program that offers a unique 
partnership combining energy and water conservation with social 
service information. Senior citizens who volunteer are trained 
by the program administrator to install energy conservation 
measures, and this has resulted in some utility bills by 
seniors having saved up to $120 to $240 a year. Since this 
program started in 1985 over 20,000 homes have been serviced.
    We have many examples of this, but, in conclusion, I would 
like to remind the subcommittee of the successes that we 
deliver to the taxpayers in spite of the relatively small 
Federal investment. Our success is based upon our ability to 
meet directly with the needs of the taxpayers, which include 
homeowners, small business, farmers and manufacturers. The 
Administration has asked for $37 million for this program for 
1999, and we feel it's a very small price to pay for such great 
success.
    Thank you very much.
    [The information follows:]

[Pages 979 - 983--The official Committee record contains additional material here.]


    Mr. Regula. You provide professional help to builders that 
might come to your agency?
    Mr. Wright. Yes, sir.
    Mr. Regula. You give them suggestions on their buildings' 
energy efficiency?
    Mr. Wright. Yes, sir. In fact, in Louisiana we have a 
program that not only provide that service to builders, but 
also we bring it into the vocational and technical schools for 
the trades, for plumbers and for electricians so that they can 
have a guide on how to install and make buildings more 
efficient.
    Mr. Regula. Well, that makes sense. Thank you very much.
    Mr. Wright. Thank you, sir.
    Mr. Regula. The Association of Performing Arts presenters.
                              ----------                              

                                          Wednesday, March 4, 1998.

             ASSOCIATION OF THE PERFORMING ARTS PRESENTERS

                                WITNESS

DONALD BYRD, ARTISTIC DIRECTOR & CHOREOGRAPHER OF DONALD BYRD/THE GROUP
    Mr. Byrd. Good afternoon, Mr. Chairman.
    I would like to thank you for this opportunity testify in 
support of the National Endowment of the Arts, and on behalf of 
the Association of Performing Arts Presenters and the American 
Arts Alliance.
    My name is Donald Byrd, and I am the Artistic Director, 
Choreographer and Founder of a contemporary dance company in 
New York called Donald Byrd/The Group.
    Mr. Regula. That's in New York City?
    Mr. Byrd. Yes, in New York City.
    Today I am here to share with you a little bit about my 
life as an artist and about the NEA's contribution to my 
company's continued success in bringing my work into 
communities throughout the country.
    You know, I've been thinking after sitting here listening 
to other people--and you have the written testimony here and 
you can read that whenever you want to--but I would like to 
kind of tell you on a more personal level what the NEA has 
meant to me and what the arts have meant to me.
    When I was listening to Mr. Morris, I was kind of reminded 
of when I was a child. I went to one of those young people's 
orchestra concerts, and I was sitting there--first of all, 
being in the theater and watching these people. I mean, I grew 
up in Jacksonville, Florida, in the segregated south, and this 
was the first time I had been in a building, or in a room, 
where there were white, as well as black children. I'm sitting 
there and I'm watching all these people with these strange 
things--I didn't know what they were--and they're sawing away 
on them and all this incredible sound is coming out of these 
instruments. What it did for me is kind of opened up this 
incredibly wide experience for me. I thought, oh, my God, 
everything is possible. The world is not the world that I grew 
up in--it's a much larger reality than that.
    That was kind of the beginning, you might say, of my love 
affair with the arts. It took me another 20 years before I 
became a practitioner, but what it did was--it was not about 
the arts, per se, but it was about viewing the world in a much 
wider way than it had been for me before.
    One of the things I wanted to talk about, which is in the 
written testimony, is about a project that I've done called the 
Harlem Nutcracker, which is a jazz version of the Tchaikovsky 
Ballet, The Nutcracker, and it received its initial funding 
from the NEA. It was conceived in 1989, and it has toured, 
since it had its premiere in 1996, to about eight cities and 
next year it will be another eight cities. What we've done----
    Mr. Regula. Are these professionals?
    Mr. Byrd. The company is a professional company, but what 
it does is that in each one of the communities where it 
performs it takes children from that community, as well as a 
local gospel choir and they are integrated into the performance 
in each community.
    Also, when the work was being created, one of the things 
that I did was create dialogue because--By Clara in the 
production, which in most Nutcrackers it's an eight-year old 
child, but in this case was an elderly grandmother. So one of 
the things I wanted to do was to have conversations with people 
who had actually lived, who had long lives, so that the piece 
was not about a child that was looking forward, but about a 
person looking back at their life and assessing what role they 
had played in their communities and their families. So we had a 
bunch of community sessions at some senior citizen centers and 
at local churches around the country--mostly in Brooklyn; New 
York; Harlem; Austin, Texas; Houston, Texas and places like 
that.
    What the piece did was give an opportunity to really have 
the community have input into what the professional dance 
company was doing. One of the things that I would like to talk 
about a little bit----
    Mr. Regula. About one minute.
    Mr. Byrd [continuing]. Okay, was this idea that some of the 
concerns that have come up over the years about the National 
Endowment and about it not being responsive to the communities 
outside of New York City, and so what I wanted to do was to say 
that, yes, artists have certain concerns but they also are 
members of a community and are responsible citizens and want to 
play a role in terms of the health and well-being of their 
communities. So the Harlem Nutcracker, I think, has been 
extremely successful at doing that--engaging communities, 
engaging young people--and that work would not have been 
possible without the NEA.
    Mr. Regula. You do what's positive, and, as you know, we've 
had some negative things that we have to deal with in this 
whole question of funding.
    Mr. Byrd. Yes, well, I think--personally, I think that some 
of the negatives that have come up about the NEA are legitimate 
questions that need to be on the table, that we need to talk 
about those things, but I don't think you should throw the 
whole thing out.
    Mr. Regula. Hopefully, with the guidelines we put in last 
year that won't happen again. We need to get off these negative 
feelings that seem to be out there.
    Mr. Byrd. Yes.
    Mr. Regula. Thank you very much for your testimony.
    [The information follows:]

[Pages 987 - 991--The official Committee record contains additional material here.]


    Mr. Regula. The Interstate Mining Compact Commission.
                              ----------                              

                                          Wednesday, March 4, 1998.

                  INTERSTATE MINING COMPACT COMMISSION

                                WITNESS

GREGORY E. CONRAD, EXECUTIVE DIRECTOR
    Mr. Conrad. Good afternoon, Mr. Chairman.
    I'm Greg Conrad and I'm the Executive Director of the 
Interstate Mining Compact Commission. I'm here today 
representing 14 co-producing States that operate regulatory 
programs under the Surface Mining Control Reclamation Act, and 
I would like to briefly address the fiscal year 1999 budget 
proposal for the Office of Surface Mining. That budget contains 
two critical funding programs for State program 
implementation--one is the Title 5 grants for permitting 
inspection and enforcement at active mining sites, as well as 
Title 4 grants for the remediation of abandoned mine lands.
    Even though the primacy States have been tasked with the 
responsibility for these two programs, the cost of running the 
programs have increased for finding that the Federal funding 
for both of them has plateaued over the past several years--and 
we've talked about that each year that we've appeared before 
you--and on the Title 5 side that's beginning to catch up with 
the States' ability to operate the effective programs that 
they've had in the past. As you know, there is a 50 percent 
match where the States have to put forth a 50 percent match to 
the Federal funding that's put forward.
    With some of those their ability to meet that matching 
amount of money becomes constrained due to State budgets, and, 
in particular, those States where permit fees are used to 
provide the money for that State becomes the ability to 
generate the necessary funds to operate the same level of 
programs is becoming increasingly difficult. This year, for 
instance, the States estimated the need for about $56 million 
for those grants and OSM has proposed $50 million, so we've got 
a $6 million shortfall.
    We are requesting today that we begin to bump those grants 
back up to what those States are requesting in order for them 
to be able to operate the effective programs that they've had 
throughout the past, particularly in these areas of permitting 
and enforcement. Without grant levels being at that point, the 
effectiveness of those programs is jeopardized. That will 
become increasingly more so as we're looking at enhancements to 
things like OSM's applicant violator system, which is under the 
process of revision and renewal, and looking at new areas like 
acid drainage control, remining and some new initiatives like 
electronic permitting.
    All of these things require additional resources in order 
for the programs to meet the challenges that are ahead of them.
    Another area that we want to continue to encourage funding 
for, and an area that has been very valuable to us, is the 
technical assistance and training that OSM has provided to the 
States. That is a critical aspect of the States staying ahead 
of technology developments and that type of thing, so we are 
encouraging that that amount of money that has been budgeted 
remain intact. It's a very valuable asset to the States.
    I'm going to leave the discussion for Title 4 funding for 
abandoned lands to Mr. Giovannitti, who follows me. He will 
address that from the States' perspective. I second the 
comments that he will make. We would like to see that 
increased, as well.
    At our recent meeting last week the Commission adopted two 
resolutions regarding funding for Title 5 and Title 4 programs. 
If it would be permissible, I would like to provide those two 
resolutions for the record.
    Mr. Regula. Thank you.
    Without objection.
    Mr. Conrad. Thank you, Mr. Chairman.
    [The information follows:]

[Pages 994 - 997B--The official Committee record contains additional material here.]


    Mr. Regula. Thank you very much.
    We'll suspend for a minute.
    [Recess.]
    Mr. Regula. Let's see, the National Association of 
Abandoned Mine Land Programs--you're next.
                              ----------                              

                                          Wednesday, March 4, 1998.

           PENNSYLVANIA BUREAU OF ABANDONED MINE RECLAMATION

                                WITNESS

ERNEST F. GIOVANNITTI, DIRECTOR
    Mr. Giovannitti. Good afternoon, Mr. Chairman.
    I'm Ernie Giovannitti, and I'm here representing the 
National Association of Abandoned Mine Land Programs.
    My association members are deeply concerned that the 
proposed fiscal year 1999 budget for OSM continues to reduce 
the amount of reclamation that can be accomplished by State and 
tribe reclamation programs. The annual appropriation from the 
Abandoned Mine Land Trust Fund for State grants has been flat-
lined since about 1986. The chart I have here compares the 
annual income with the annual appropriations. As you can see, 
the annual appropriation has been less than the annual income 
since about 1986, and the balance in the fund is over $1.2 
billion. The unappropriated balance continues to grow by more 
than $110 million every year.
    Mr. Regula. That looks like the Social Security Trust Fund. 
[Laughter.]
    Mr. Giovannitti. Well, good. I'm getting to the age where I 
might need it.
    There are three items in the proposed budget that are of 
specific concern to our Association. First, is the overall 
funding levels for the ML programs. The States and tribes are 
able to undertake more reclamation projects than are currently 
funded, but the appropriation limits how much we can spend. If 
the Congressional goal set forth is to be achieved, a major 
revamping of the funding needs to be considered.
    Right now the States have $150 million in projects above 
and beyond the 1998 appropriations that could be bid within a 
year if the funds were available. The Association has developed 
a concept plan to revamp the AML Trust Fund, and a copy of that 
management plan is included with my testimony. I would like to 
be able to include that in the record, if you would.
    Mr. Regula. Yes, without objection. We would be interested.
    Mr. Giovannitti. The second area of concern is the 
Appalachian Clean Streams initiative. In the late 1980s acid 
mine drainage was a priority three for abandoned mine 
reclamation. At that time the States recognized that AMD was a 
problem, and we appealed to Congress to provide more priority 
for acid mine drainage. Congress changed the law by 
establishing the 10 percent set aside program, which had two 
benefits--it not only gave the priority that was needed for 
acid mine drainage, but it put the money in the hands of the 
States where we could establish priorities and make the 
decisions, and manage the funds in accordance to the States' 
needs.
    The proposed budget calls for an increase in the Clean 
Stream initiative of about $7 million. The result is that 
there's going to be less money available for non-ASIS projects.
    Now, the real issue here in these budgeting decisions is 
balancing the expenditures among these competing priorities, 
and can best do the work considering that a decision to fund 
one project means that we don't fund another one. An example of 
this decision making is whether we reclaim a water-filled pit 
where we had a fatality or whether we support an area that is 
subject to subsidence and homes are threatened, or whether we 
supply water to a community that has lost its water because of 
mining, or whether we do an acid-mine drainage abatement 
project. The Association feels that the balancing of these 
decisions is best left to the States who know the problems.
    Mr. Regula. You're saying send the money back in block 
grants?
    Mr. Giovannitti. I'm saying that we need to work with OSM 
in developing a better way of dealing with the Clean Streams 
initiative and----
    Mr. Regula. Basically, you're saying let the States do it.
    Mr. Giovannitti. I'm saying let the States make the 
balancing decisions because they're best capable of doing that.
    Mr. Regula. That's what it means--establish the priorities.
    Mr. Giovannitti. Yes.
    We recommend while we're working these things out with OSM 
to fund the ACSI at the 1998 expenditure level because it is a 
good program.
    Mr. Regula. You're going to have to----
    Mr. Giovannitti. The final issue--pardon me?
    Mr. Regula. One minute.
    Mr. Giovannitti. Okay.
    The final issue has to do with the minimum program State 
funding. Congress, back in the late or early 1990s, decided 
that the minimum program States should be funded at the $2 
million level, and there's no reason to believe that the 
problems in the minimum program States are any less important 
than those in the other States, and we would like to recommend 
that the minimum program States be funded at the $2 million 
level.
    There are a couple of attachments to my testimony----
    Mr. Regula. This will all be in the record.
    Mr. Giovannitti. Okay, thank you.
    Mr. Regula. Thank you very much.
    [The information follows:]

[Pages 1000 - 1003L--The official Committee record contains additional material here.]


    Mr. Regula. I realize it's a problem because I live in an 
area where it's been mined, and there's a lot of unreclaimed 
land. A lot of it was before the law, maybe some of you, and my 
guests here have the same problem in their counties. There's 
not enough money to do it, and so you have to make priority 
judgments based on what's having the greatest negative impact 
on the topography.
    Thank you.
    Solar Turbines, Mr. Carroll.
                              ----------                              

                                          Wednesday, March 4, 1998.

                             SOLAR TURBINES

                                WITNESS

PETER A. CARROLL, VICE PRESIDENT, GOVERNMENT AFFAIRS, SOLAR TURBINES
    Mr. Carroll. Mr. Chairman, my name is Peter Carroll, Solar 
Turbines and Industrial Turbine Company, and I appreciate the 
chance to come before you today and request that my written 
testimony be made a part of the record.
    Mr. Regula. Without objection.
    Mr. Carroll. I also would like to thank you for giving 
Howard Geller an extra minute or two to make that additional 
pitch for the turbine program because we need all support----
    Mr. Regula. That comes off of your time. [Laughter.]
    Mr. Carroll. I never learn but I commend you.
    I wanted to talk a little bit about that and give you a 
very quick update on the ceramics program, and then talk a 
little bit about climate change and the budget process. I just 
completed my State and Federal income tax, and I added up what 
I paid the Government and it gets more than 50 percent of my 
money. My boss says that that means I only work a half a day 
for him, and that may be right. So I think we need to spend 
money on energy programs--that's an appropriate thing--but I 
think we need to be more thoughtful about it.
    Mr. Regula. Well, we're trying--believe me. That's one of 
the challenges that I have. I don't think our allocation will 
be much larger than last year, and if we did everything 
everybody asked in the last three days, we would have to triple 
the budget.
    Mr. Carroll. And I'd be broke.
    Mr. Regula. You'd be broke--that's right. We would get 75 
percent of what you make, and you don't want that I don't 
think.
    Okay, but these are important programs.
    Mr. Carroll. Let me give you a quick update:
    This is a turbine nozzle for the hut section of a turbine. 
If you look at that, it's very complex. It's made out of very 
expensive materials, and this is a ceramic replacement. This is 
an elegant piece of engineering, and this has happened because 
through DOE leadership we took all of the ceramic companies 
that operate in the United States, pooled their resources and 
out of this came the best technology possible.
    Mr. Regula. And it's cheaper than that.
    Mr. Carroll. Oh, yes, and in performance it's better.
    Mr. Regula. What's that material? Is that metallic?
    Mr. Carroll. Yes, this is a----
    Mr. Regula. It's an alloy?
    Mr. Carroll. That's correct.
    Mr. Regula. It's ceramic?
    Mr. Carroll. That's correct, it's ceramic.
    Mr. Regula. And that will withstand the heat?
    Mr. Carroll. Better.
    Mr. Regula. Better?
    Mr. Carroll. Better; oh, yes, much better, and we get 
increased performance because this engine requires cooling air 
to pass through all those passages, and that cooling air comes 
off the compressor and two-thirds of the energy of the turbine 
goes to running that compressor.
    Mr. Regula. There's a company in my district that makes the 
blades for the jet engines. I've visited them, and I can 
understand what you're saying. I don't know if they've gone to 
ceramics yet or not.
    Mr. Carroll. I think everybody is working that way, and 
we're encouraging them to do that, and Oak Ridge is playing a 
great role in this, by the way.
    Now, when you look at this, we've got test engines running 
at ARCO facility in California. We will be putting ceramics----
    Mr. Regula. Isn't the key to making the turbine more 
efficient the higher heat you can operate under, the more 
efficient the turbine is?
    Mr. Carroll. That's correct, the higher the temperature 
theoretically--there are other factors, but that's kind of the 
key.
    Mr. Regula. But, in essence, I said. In other words, if you 
can develop the material to withstand an extra 500 degrees, 
let's say, you're going to get a more efficient turbine?
    Mr. Carroll. That is correct.
    Mr. Regula. And the----
    Mr. Carroll. And turbines are the cleanest way to make 
energy today.
    Mr. Regula. You'll have less emissions, I assume----
    Mr. Carroll. That's correct.
    Mr. Regula [continuing]. Because the greater the heat the 
more you burn.
    Mr. Carroll. The ceramics combuster that we have operating 
at the ARCO facility--and it's in my written testimony--is 40 
percent lower in emissions than the best available technology 
today, and it's all because of that material.
    Mr. Regula. Now, is this commercial?
    Mr. Carroll. No, but it's going into that----
    Mr. Regula. You're still doing the experimental work.
    Mr. Carroll. Now is this going to get into the market 
place? That's your question, and let me answer that--maybe yes 
and maybe no, and that's part of what I would like to talk 
about today. I believe not only do we need to invest in 
technology, but the Government needs to spend more time looking 
at the regulatory and administration and procedure process to 
make sure that those rules and regulations that provide for the 
permitting of this kind of technology keep up with the 
technology and make----
    Mr. Regula. What about any objection from the Government if 
that works?
    Mr. Carroll. Well, there is, and I would like to give you 
some examples.
    Today, if you want to put in----
    Mr. Regula. We don't have a lot of time.
    Mr. Carroll. I'll be very quick.
    Mr. Regula. Okay.
    Mr. Carroll. To put in a gas turbine today if everything 
went perfectly on a small gas turbine, you'll spend $119,000 on 
just the permitting process. I have a list here of 49 co-
generation projects--you talked about combining heat power--and 
with these 49 projects the companies wanted to install, but 
because of regulatory impediments these projects did not go 
forward.
    Mr. Regula. What regulatory impediments? Is it on the EPA?
    Mr. Carroll. Yes, it's EPA and----
    Mr. Regula. They're more efficient.
    Mr. Carroll. Yes, but it's also that we live in a world 
that has old rules for new technologies.
    If those 49 projects would have gone forward, we would be 
saving 355,000 tons of carbon a year just from those 
49projects. So my appeal to you, sir, is, yes, fund technology but also 
go to DOE and the EPA and ask them to help more on changing the rules 
and the regulations so that these technologies can get into the market 
place without costing the taxpayers money.
    Mr. Regula. Well, perhaps we should put language in our 
bill, and you ought to testify over in VA HUD where they fund 
EPA.
    Mr. Carroll. I will do that. I've talked to Congresswoman 
Morella about this, and I have a more complete resuscitation on 
this subject.
    Mr. Regula. Congressman Jerry Lewis would be the Chairman 
over there, but I understand what you're saying. You're simply 
saying that the Government is an impediment to a more efficient 
piece of equipment.
    Mr. Carroll. And my wife is a CPA, sir, and she complains 
about that tax bill every year. [Laughter.]
    Mr. Regula. Well, stick around because what we're going to 
do here won't help it any.
    Mr. Carroll. Thank you very much for the opportunity to be 
here.
    Mr. Regula. Thank you.
    [The information follows:]

[Pages 1007 - 1012--The official Committee record contains additional material here.]


    Mr. Regula. We're talking about your electric bill. These 
folks are from my District and they're here on agriculture 
issues, but anybody in agriculture knows what energy means--
tractor fuel, milk and machines, you name it. Basically, your 
turbines would be designed to lower the kilowatt cost of 
electricity, among other things, wouldn't it?
    Mr. Carroll. Yes, sir. If you use gas turbines and combined 
that with the heat resources required for agricultural 
processing of all kinds, textile processing, wood and pulp 
processing, we could take 40 million tons of carbon out of the 
atmosphere. Now, that's setting an example for the rest of the 
world, and that's done without taxing people. The concern for 
global warming is not whether global warming is real or not, at 
least in my view. The concern is what is it going to cost us?
    Mr. Regula. Yes, oh, absolutely--big numbers from what 
people say.
    Since they're here I think somebody testified yesterday 
that the day would come when you could have a fuel cell driven 
turbine that would be inexpensive enough that you could put it 
on a farm, for example, and produce your own electricity at a 
lower cost than you buy off of the line.
    Is that feasible?
    Mr. Carroll. Yes, you could do that with today's 
technology. If the EPA would get out of the way and if FERC in 
the Utility Restructuring Bill, in the Rule 888, would say four 
things instead of two. The two things it now says is ``protect 
the rate payer and protect the stockholder.'' It should also 
say ``find more efficient ways and cleaner ways to produce 
energy.''
    We could provide gas turbines from 10 kilowatts for a farm 
up to whatever the size doing co-generation and provide cheaper 
electricity, and heat and air conditioning than they could buy 
today, and it would be cleaner.
    Mr. Regula. I understand in California even if you do that, 
they make you pay a fee to help pay for stranded costs of 
plants that are of no value whatsoever to the rate payer.
    Mr. Carroll. I don't like to be critical of the utility 
industry because I don't want my lights turned off, but the 
utility industry is the only business that you can be in where 
you could wall paper the CEO's office and get a profit on it. 
We need to change that. [Laughter.]
    Mr. Regula. That's true. Thank you, that's interesting. 
Maybe you can go home and put in some turbines.
    Okay, ARCTECH, Mr. Walia, President, Coal Technology.
                              ----------                              

                                          Wednesday, March 4, 1998.

                     DEPARTMENT OF ENERGY RESEARCH

                                WITNESS

DAMAN S. WALIA, PRESIDENT AND CEO, ARCTECH, INC.
    Mr. Walia. Mr. Chairman, I thank you very much for this 
opportunity to testify. This my first time so I may be a little 
bit nervous, but I'm here to talk about DOE's fiscal year 1999 
quote in the research budget.
    As I was trying to prepare, I looked at the historical 
record of the COLA and the budget, and my company is involved 
in creating innovative solutions and implementing the solutions 
to productive users of coal and I would like to share----
    Mr. Regula. You deal with productive uses. That deals with 
the emissions problems?
    Mr. Walia. Yes, a number of these problems.
    Mr. Regula. The clean coal type of technology?
    Mr. Walia. What I will share with you is mind-boggling, and 
I hope you will consider those.
    As I looked at that, I found that the Federal Government 
has invested since World War II upwards of $20 billion in coal 
R&D, but the fundamentals in the coal industry have not 
changed. We're still here today with very high unemployment in 
the coal industry; we still have high--much more capacity of 
the coal, and there are high numbers of coal mines that are 
being shut down. We're continuing to face more and more 
problems with coal from all different directions.
    I believe that--in fact, if you look at the whole coal 
industry, it's annual revenues of the total coal 
industry'sannual revenues in the U.S. is $25 billion, less than 
Microsoft, less than Exxon, and there's something wrong with what we 
are doing with our coal R&D.
    Now we are faced with dealing with this global climate 
control. You have a fossil energy budget in front of you that, 
again, lists a 21st Century challenge, but these are all the 
same old programs, the same old teams of----
    Mr. Regula. I just read this article. The innovative MI gas 
and technology is based on applying natural micro-organisms 
adapted to convert coal into clean fuel under anaerobic 
conditions.
    Mr. Walia. Right.
    Mr. Regula. Tell me in about one minute how that works.
    Mr. Walia. What we are doing, Mr. Chairman, for the last 10 
years we have developed an approach to take coal and use the 
natural microbes. We took these organisms from the termites and 
we tricked them into living off coal, and isolated the 
organisms out of those. We take this and produce clean fuel, 
clean gas----
    Mr. Regula. Do the organisms clean up the sulphur?
    Mr. Walia. What they do is convert the coal carbon into gas 
and the residue coal is converted into humic acid, and the 
humic acid is then--we have shown. I've come here after 10 
years, after going and promoting and showing its applications--
--
    Mr. Regula. How do you get the microbes?
    Mr. Walia. These microbes come from the termites, and these 
termites were obtained from----
    Mr. Regula. You put them in a pile of coal?
    Mr. Walia. No, we isolated the organisms out of the 
termites, and if you see the bottom picture it shows what these 
organisms look like. As you know, the termites are Mother 
Nature's full conversion plant. It takes alternate materials 
and converts them into methane gas, but the most eclectic part 
of the coal is that the residue coal, which is not converted 
into gas, is converted into humic acid, and this humic acid is 
the most valuable commodity we have for our human needs on this 
planet earth for agriculture applications, for environmental 
applications where we have converted this into a polymer, which 
can be used for----
    Mr. Regula. How close are you to a commercial application?
    Mr. Walia. We are commercial. Currently, we are taking coal 
and we are producing the humic material. We are not operating a 
full integrated system, and half of the golf courses locally 
use this product for creating vegetation. We are shipping this 
product all over the world into gulf countries too. Here's an 
example here in the Virginia agriculture fields where we are 
showing the applications for increasing the productivity in the 
soybean----
    Mr. Regula. You are getting some Department of Defense 
money, is that right?
    Mr. Walia. Yes, we are also showing its applications for 
recycling munitions into a fertilizer, and we are conducting 
this demonstration project at----
    Mr. Regula. You use the same technique on munitions?
    Mr. Walia. Right, and recently we have been selected by the 
Army to show the applications of this humic material for the 
safe destruction of chemical agents.
    The point I'm making is there's a whole new way of looking 
at the----
    Mr. Regula. You need to turn these loose in Iraq. 
[Laughter.]
    Mr. Walia. But the two things this technology approach will 
do is that--see, with our current approach of taking coal--we 
mine it, we burn it----
    Mr. Regula. I understand.
    Mr. Walia [continuing]. $25 billion, but with this approach 
we have the potential to turn the coal industry into a one 
trillion dollar industry.
    Mr. Regula. Would the cost be per BTU or per kilowatt for a 
power company using this technology be less or more?
    Mr. Walia. It would be a lot less because we could produce 
the fuel almost at a 50 cents per million BTU, so they can 
produce their electric power cheaper. The most value would be 
derived from the humic acid.
    Here is the impact on the global--you know, there has been 
several discussions about this global climate control. See, 
currently, we take a ton of coal, we burn it and we put out two 
tons of CO<INF>2</INF> for every two megawatts of power. Now we 
keep talking about this energy efficiency--I'm all for it. We 
will make more power but we still will put out two tons of 
CO<INF>2</INF>. In effect, we will have to reduce the usage of 
the coal, but with this approach we will make enough gas which 
will then only put out half a ton of carbon into CO<INF>2</INF> 
and many will go into the humic acid.
    Mr. Regula. This is fascinating, but, unfortunately, we're 
out of time. Where do we play into this?
    Mr. Walia. What I believe is--what I've offered here is I 
think your committees are at the crossroads to decide whether 
we should continue with the same old coal R&D programs. I 
think--I'll give you my perspectives.
    We've been still fighting Hitler. We're still trying to do 
what Hitler did in World War II----
    Mr. Regula. Converting coal to gasoline.
    Mr. Walia [continuing]. And they will not work as long as 
Arabs have a way to produce oil for about 50 cents to $2 per 
million BTU.
    Mr. Regula. I understand.
    Mr. Walia. We need a new strategy, we need a new approach 
and we need a redefinition of this funding so that the 
Department can start developing a holistic technology approach, 
not just to energy production but at the same time----
    Mr. Regula. I assume you presented your information to the 
DOE?
    Mr. Walia. I have presented a business plan to Pat Godley, 
and I've shown that by making a modest investment we can not 
only deal with this global climate control, but we can change 
this whole industry and we can show leadership to the 
developing countries so that they will deal with this global 
climate control----
    Mr. Regula. I will read this with interest. Thank you very 
much.
    [The information follows:]

[Pages 1017 - 1020--The official Committee record contains additional material here.]


    Mr. Regula. Okay, Americans for the Arts.
    One thing about this Committee is we have an eclectic group 
of topics to work with. We've gone from microbes to the arts. 
[Laughter.]
                              ----------                              

                                          Wednesday, March 4, 1998.

                         AMERICANS FOR THE ARTS

                                WITNESS

KEN FERGESON, CEO, OKLAHOMA'S NATIONAL BANK OF COMMERCE
    Mr. Fergeson. Mr. Chairman, thank you.
    I'm Ken Fergeson from Altos, Oklahoma, a country banker, 
and I also serve on the Board of the American Banker's 
Association and the Americans for the Arts.
    Mr. Regula. There are still country bankers? You haven't 
been taken over by the big ones?
    Mr. Fergeson. But 40 times earnings and I might.
    Mr. Regula. Bankers are doing well, but now the credit 
unions are going to take over. [Laughter.]
    How big is your bank?
    Mr. Fergeson. In my hometown we're about $70 million, and 
we have an affiliate bank that's about $80 million. So we're 
really just a country bank.
    Mr. Regula. In today's world that is definitely a country 
bank.
    Mr. Fergeson. I live 150 miles from town so I'm way out 
there. Oklahoma City is the closest city and we're 150 miles 
southwest.
    Mr. Regula. Okay.
    Mr. Fergeson. I'm here today to talk in support of the NEA. 
I'm not an artist, but I'm an audience, and, of course, I've 
benefitted from seed monies from the NEA throughout my lifetime 
in terms of performances, and plays and books and every thing 
else. But I want to talk about something that the NEA funded 
that is not really nationally known, and that's Survivors' 
Weekend. I'm also Chairman of the Oklahoma Arts Institute and 
we do some youth camps and things, and the Presbyterian Church 
came to us and wanted to do something for the survivors and for 
the families of the survivors of the bombing of the Myrtle 
Building in Oklahoma City. The NEA was able to fund that 
quickly, and I think that came out of Jane Alexander as 
Chairman, and so we had a survivors' weekend. We had no 
counseling--we just said come and do art--and we did Cherokee 
basket weaving, mask making, memory boxes----
    Mr. Regula. These are people whose families were impacted 
by the bombing?
    Mr. Fergeson. They were either survivors or families of 
survivors--or families of victims, I'm sorry.
    Mr. Regula. Okay.
    Mr. Fergeson. So there were about 120 of them, and we bused 
them down to Court's Mountain, which is close to Altos, 
Oklahoma to a State lodge, and we did all those things. These 
were truly not artists either. They were amateurs or they were 
just families, and they came down--the two that I remember when 
I went out on a Sunday morning when it was concluding, and they 
had memory boxes. One person made a memory box of contents of 
her daughter's purse; another person did a memory box of things 
that she picked up on the trail that weekend, but the one I 
remember was the lady who had a memory box of just little 
pieces of paper and the one I picked out said $100. It said, 
``I lost my husband for $100. He could have retired six month 
earlier but he wanted to work those six months to get $100 
increase in his retirement,'' but during that time he lost his 
life.
    Mr. Regula. He was killed in the bombing?
    Mr. Fergeson. He lost his life.
    The other guy I remember is Emmitt. Emmitt is as tall as I 
am, had hands this big and fingers that big around, and he was 
weaving these intricate little Cherokee baskets. I said, 
``Emmitt, you're going to do this when you get back home?'' He 
said, ``No, they would call me a sissy,'' and so he didn't do 
that anymore.
    The other thing that I like about arts being from rural 
Oklahoma is the economic development. Of course, every dollar 
that you guys put into the NEA is matched $10 by State and 
local governments, and every dollar that they put in is matched 
by $10 out in the field for non-profits. I wish my bank had 
that kind of return because I might not be here today.
    Oklahoma has more people working in non-profit arts than 
Wal-Mart employers in Oklahoma, over 16,000 people. OK Mozart--
a lot of people heard of it in Bartlesville, Oklahoma--started 
with some seed money from the NEA and now draws thousands of 
people that spend thousands of dollars in Bartlesville. It 
truly is a success story, but the one I like the best is our 
Lieutenant Governor every year invites titans of industries in 
Oklahoma to go turkey hunting just to show them hospitality, 
and the environment, and all these gorgeous pictures.
    While they were in Woodward, Oklahoma, 180 miles from town, 
a little town of 12,000, the Chairman of the Mutual of Omaha 
didn't have anything to do so he went into town and went to a 
community theater--a little theater that they had that was 
almost demolished and the town put it together, put on a play 
and he thought if a town this far out could do that well, then 
he could open a service company there and today the Mutual of 
Omaha employs 180 people in Woodward, Oklahoma.
    The creative work force--I also serve on the Board of the 
Americans for the Arts Policy Board along with soft drink 
people and software people, and mass communications, and, of 
course, bankers. But the one thing we all share is a lack of 
talented creative individuals that we need to hire. In fact, I 
think yesterday I read where the software people are asking for 
an increase of 40,000 immigrants to come in that they can hire 
because they don't have the talented people here. I think 
that's a crime and a shame that we have to do that. I think the 
arts can help us create those creative people that we can hire.
    In fact, my bank has added arts experience and arts 
training on our job applications, which indicates a 
creativeproblem-solving working with the----
    Mr. Regula. It's part of the qualifications?
    Mr. Fergeson. Yes, it's part of qualifications. Now, I 
don't want them too creative in the money part. [Laughter.]
    The other thing I wanted to talk about----
    Mr. Regula. You have about a minute left.
    Mr. Fergeson [continuing]. The best $100 I've ever had is 
when I bought a life-size charcoal painting of a high school 
basketball player, Michael Richards, at a local arts show. 
Michael was a star basketball player, but every year after 
basketball season he would tend to drop out of high school. 
Well, he enrolled in our class thinking that would be an easy 
grade, and he got hooked and he realized that he couldn't make 
art if he didn't keep his grades up.
    Today, Michael is in the Army and as soon as he gets out 
he's using his G.I. Bill to go back to college--arts saved him.
    I think it's a wonderful time. Yesterday I just heard about 
Marty--I can't think of her last name but she runs a little 
bitsy school close to Muskogee, Oklahoma. She used the arts to 
take an at risk school that was almost written off, turned 
around and increased her test scores 33 percent--only using the 
arts.
    Mr. Chairman, thank you, and let me encourage you to fully 
fund the arts.
    [The information follows:]

[Pages 1024 - 1030--The official Committee record contains additional material here.]


    Mr. Regula. Thank you.
    You said that this place is 180 miles from town. Town is 
what?
    Mr. Fergeson. Oklahoma City.
    Mr. Regula. So that's the base and it's so many miles from 
Oklahoma City?
    Mr. Fergeson. And there's not much in between. [Laughter.]
    Mr. Regula. You'll like the new director. He came from the 
country music field.
    Mr. Fergeson. Yes, that's true. I think square dancing and 
country singing will go good in Oklahoma.
    Thank you very much.
    Mr. Regula. Okay.
    The Gas Turbine Association, United Technologies.
                              ----------                              

                                          Wednesday, March 4, 1998.

                        GAS TURBINE ASSOCIATION

                                WITNESS

WILLIAM DAY, ASSOCIATION CHAIRMAN, GAS TURBINE ASSOCIATION, UNITED 
    TECHNOLOGIES CORPORATION
    Mr. Day. Mr. Chairman, thank you very much for the 
opportunity to be here.
    My name is Bill Day. I work for Pratt & Whitney, but I'm 
here in my capacity as Chairman of the Board of the Gas Turbine 
Association, which is a----
    Mr. Regula. You've heard all the testimony about gas 
turbines.
    Mr. Day. Yes.
    Mr. Regula. I assume you'll agree with all of it.
    Mr. Day. Yes, basically. We're here to promote the gas 
turbine industry in general. We represent the manufacturers of 
gas turbines and the suppliers of goods and services of those--
--
    Mr. Regula. Would that include air craft engines?
    Mr. Day. No, we're specifically staying away from that. 
There is another trade association called the Aerospace 
Industry Association that deals with that.
    Mr. Regula. Oh, you're Pratt & Whitney. Do you make gas 
turbines for stationary applications?
    Mr. Day. Yes, we do.
    So that's the capacity in which I'm here--not representing 
Pratt but representing the industry as the Gas Turbine 
Association. We have provided--I see you have the written 
testimony, which I would like be made part of the record.
    Mr. Regula. I think all the testimony has been that this is 
an efficient and clean way to produce power.
    Mr. Day. That's right. Basically, you have the attributes 
of being clean and efficient, but also low-cost, which some of 
the more exotic ones can't claim and also able to be deployed 
quickly. The infrastructure is in place for manufacturing gas 
turbines in large numbers.
    Mr. Regula. Do you see the day when maybe farmers or 
homeowners will just have a little power plant and make their 
own electricity?
    Mr. Day. Probably not all of them; it probably wouldn't 
make sense for everyone, particularly in rural areas.
    Mr. Regula. No, in the city it wouldn't work.
    Mr. Day. In fact, one of the things I will be talking about 
is microturbines, which go down to very small capacities. Peter 
Carroll mentioned a little bit about this. Again, you can buy 
it today, some small gas turbines, but in the micro field, 
which is really a new direction for DOE, we would like to see 
more work being done there. And, yes, in many places I think it 
will make sense for small gas turbines of that small size----
    Mr. Regula. They would be hooked onto a generator?
    Mr. Day. Yes, a turbine generator.
    Mr. Regula. It would be hooked onto your power grid?
    Mr. Day. For example, right now there's one about the size 
and shape of a beer keg that puts out 25 kilowatts of power and 
100 gallons an hour of hot water, and that's the kind of--
that's really too much for an individual homeowner, but for a 
small business it might make sense.
    Mr. Regula. Twenty-five kilowatts in what period of time?
    Mr. Day. That's just the power level.
    Mr. Regula. That's the power level. That would provide the 
power for what?
    Mr. Day. I would assume a small business, not too much for 
a home.
    Mr. Regula. For a small business or a farm?
    Mr. Day. Yes.
    Mr. Regula. It's that close, and especially as we talk 
about de-regulating electricity.
    Mr. Day. That's true.
    Mr. Regula. That's probably done and puts a lot of 
impetus----
    Mr. Day. I'll be covering that in the next few minutes.
    Mr. Regula. Okay, well----
    Mr. Day. Without further adieu, we've advocating five key 
actions in the fiscal year 1999. We advocate funding the ATS 
program for $85 million, which is $9 million more than the 
current Administration request; we advocate funding the 
development of flexible mid-size gas turbines for an immediate 
loan and quick response to loan demand at $10 million; the 
microturbine that I mentioned before at $8 million; and 
continuing the planning effort for gas turbine fuel cell 
combinations and launching a planning effort for development of 
combustion technology for non-standard fuels.
    Mr. Regula. Do you have any problems with these programs if 
we require at least a 50 percent match from the private sector?
    Mr. Day. Well, that's, of course, happening right now.
    Mr. Regula. I know it is.
    Mr. Day. We would expect the same type of cost sharing----
    Mr. Regula. So that's not a problem?
    Mr. Day. That's right--the same as the ATS requirements. We 
recognize that. That's a very appropriate requirement.
    Mr. Regula. Very well.
    Mr. Day. But to the point about the way the industry is 
changing this chart that's attached to the script that I'm 
using--the power generation industry is changing from a 
regulatory monopoly that's vertically integrated here, 
consisting mostly of large central station plants to one of 
horizontal integration where a different range of gas turbine 
power plants, or power plants in general, are bidding on a 
short-term basis for power contracts. That has already happened 
in the U.K.; it's the model of what's likely to happen here, 
and the transmission system has open access.
    So what's needed--and this need has come out in recent 
years after the ATS program started, in fact--is a whole 
portfolio of gas turbines that can meet the needs across the 
range and be able to respond quickly to the demands in power.
    Mr. Regula. So the whole field of delivering electricity is 
going to change enormously. There will be one set of companies 
doing the generating, and another set of companies 
transmitting.
    Mr. Day. Right, horizontal integration instead of vertical.
    Mr. Regula. And some development of personal power plants 
that will free you from use of the high line.
    Okay, thank you. This information will be interesting.
    [The information follows:]

[Pages 1034 - 1037--The official Committee record contains additional material here.]


    Mr. Regula. Americans United to Save the Arts and 
Humanities.
                              ----------                              

                                          Wednesday, March 4, 1998.

               AMERICANS TO SAVE THE ARTS AND HUMANITIES

                                WITNESS

 JUDITH ANN BUTLER, AMERICANS UNITED TO SAVE THE ARTS AND HUMANITIES
    Ms. Butler. Mr. Chairman, nice to see you again.
    I represent Americans United to Save the Arts and 
Humanities, which is a bipartisan organization made up of about 
110 businesses from across the country who publicly support 
Federal funding for the NEA.
    Mr. Regula. Are these----
    Ms. Butler. Our group is mostly large, big companies----
    Mr. Regula. Sports companies?
    Ms. Butler. Boeing, AMOCO, Sun America, companies of that 
built primarily and it's quite a coup I think for these CEOs to 
come out and say that arts funding is right up there in a 
priority list for them with tax, trade and global policy that 
they have to worry about, but they have put this on their 
priority list because they see that it's good for their 
companies.
    Mr. Regula. That's interesting that you would get this from 
people who are supposedly tough on the use of a dollar.
    Ms. Butler. Absolutely, absolutely, but because of the 
great benefits that they see to the arts--some of them outlined 
by one of our previous witnesses. What it does for arts 
education and humanities education as well to the job skills of 
the employees--flexible thinking, creative thinking, team work 
capacities, as well as analytical abilities and writing 
abilities too when you get into some of the humanity skills 
that get developed. Those are the skills that we need to 
compete, so they recognize that.
    They also recognize when it comes to recruitment of top 
personnel. It's nice to have a vibrant, cultural community 
where you can talk about quality of life issues.
    Mr. Regula. We'll let Mr. Wamp have the last three minutes. 
I've got to go and meet the Chairman of the Full Committee, 
along with my colleagues, to see how much money we're going to 
have, but I don't think it will be much more than last year.
    Ms. Butler. Well, we wish you well and that you're very 
persuasive. [Laughter.]
    Thank you.
    Mr. Wamp [assuming chair]. Please continue.
    Ms. Butler. Mr. Wamp, I'm with Americans United to Save the 
Arts and Humanities. It's a group of about 110 large companies 
and the CEOs of those companies who support Federal funding for 
NEA and NEH. It's a fairly non-typical group that would come 
before you, and that's exactly why they've come together--to 
make sure that you understood that it was a wide range of our 
community and country that support that arts and humanities for 
the job skills that it helps to generate and the people that 
they're able to hire for recruitment capabilities of top 
personnel that they can recruit to their home headquarter 
areas, and partly because they think that it's really good for 
the economy as a whole. It helps with downtown revitalization. 
If you're building exhibit halls and facilities that will house 
performing arts, it helps because of those constructions and it 
helps the tax base overall. A number of cities are getting into 
sort of the business of partnering with companies to help with 
their downtown areas and providing some tax incentives to do 
so, which is helping not only the arts organizations, artists 
themselves and the local tourism economy as well.
    Having said that, you can't expect that the private sector 
is going to take up the entire bulk of cultural funding. They 
use the endowments as a source of information and research of 
support of the seal of approval, if you will, and because NEA 
and NEH require matching funds, it's a good way to help 
leverage the funds, which encourages more of the corporations 
to give.
    So, unfortunately, as you are well aware with downsizing, 
as you mentioned earlier, and mergers that are happening, there 
are fewer corporate foundations that are available, and their 
numbers and availability of dollars is dropping. So we really 
need the NEA and the NEH to be around to help encourage newer 
growth companies to come forward and have the confidence to 
help fund some of these programs that help so many of our 
people across the country.
    I just wanted to add sort of the business point of view to 
this debate and make sure that you were well aware that we were 
very, very committed. I'm sure that a number of them will be 
coming through your offices to make sure that that argument is 
not lost.
    Mr. Wamp. Certainly, grassroots support needs to be built 
around these programs, which hasn't existed in the last few 
years, and, as I said to some people earlier today, the folk 
festivals in our part of the world, in the southeast, for 
instance, are not identified in people's minds as arts funding 
or arts needs, and only the bad examples of the past are 
brought to mind. So, certainly, grassroots support is going to 
be built and to see organizations like yours come together 
around this need certainly will help the effort of the arts and 
humanities.
    So thank you for your testimony today, and best wishes to 
you.
    Ms. Butler. Thank you.
    [The information follows:]

[Pages 1040 - 1044--The official Committee record contains additional material here.]


    Mr. Wamp. Dr. Maxine Savitz, AlliedSignal Ceramic 
Components, R&D for Ceramics.
    Dr. Savitz.
                              ----------                              

                                          Wednesday, March 4, 1998.

                 RESEARCH AND DEVELOPMENT FOR CERAMICS

                                WITNESS

MAXINE SAVITZ, GENERAL MANAGER, ALLIEDSIGNAL CERAMIC COMPONENTS
    Ms. Savitz. Congressman Wamp, I'm pleased to be here to 
give you an update of some of the recent successes we've had as 
a result of collaborative efforts between industry, the 
Department of Industry and the National Laboratories, 
particularly Oak Ridge--that's in your home area.
    Mr. Wamp. I got here just in time, didn't I, ma'am?
    Ms. Savitz. Yes, we're very active in the ceramics 
technology area, and one of the areas we want to see continued 
support under the budget.
    One of the things that has come up in some of those 
meetings was about the commercialization. Some of these parts 
are actually commercialized and I have a few parts here to show 
you that are actually flying in airplanes:
    This is a field runner that is on linear jets, falcon 
citations that have solved a reliability problem. The metal 
would eat up the seal and it would last only 700 hours; they 
were warranted for 2,000 hours, so over 1,800 engines have been 
replaced with four seals each and 500,000 hours of flight time. 
The entire fleet of 7,000 will be retrofitted over the next 
three years. The materials developed have spun off from things 
developed under the Government's programs.
    These are three parts that are part of pumps that are on 
hydraulic pumps that are on the Boeing 777 and 737x and also on 
all air buses that allow for easy starts, and there have been 
over 5,000 of those parts put into service in the last four 
years. It has enabled the cost of this new technology to come 
down, and also to get experience with good quality. None of 
them have been returned, none of them have failed in service, 
and it gets credibility with the users and designers.
    We're continually making progress under the DOE program in 
the efficiency area, and our Phoenix division has been working 
on an APU that is on the 757 and 767 and have been making some 
ceramic nozzles that have just gone under FAA certification. 
This is a more complex part that has been in thick parts and 
will be entering endurance testing. Also, looking at various 
blades--you can see this little part here is a blade and you 
can make 28 of them, but if you can make it as one integral 
wheel, you've very much simplified it. The way we would make 
this in production is using gel casting, which is a technology 
we've licensed from Oak Ridge, and, in fact, the co-inventor of 
Oak Ridge is spending a two-year assignment with us at 
AlliedSignal to really help to transfer the technology and 
scale it up. It's been an excellent example of good 
cooperation, and, in fact, we have a program with Boeing/
Rockedyne under DOD Air Force to further take the gel casting 
technology for other applications.
    Then on the advance turbine program, solar is running these 
blades in Arco field testing now. They will undergo 2,000 hours 
of field testing, and you want to be able to evaluate what are 
the mechanical properties of these before and after, and Oak 
Ridge developed this little tinsel bar test as a way to cut it 
right out of the material and test it at the beginning and at 
the end to show that the properties hold up so you can, again, 
have confidence that these are going to last for 30,000 hours. 
And, as a result of that, and a result of Oak Ridge testing, 
the Allison Engine Company went and selected us to make the 
nozzles for their part, and these will be delivered to them 
next month for actual running in their machines.
    So there's been a very good collaboration, and what we 
really would like to see is the ceramic technology program 
funding continued. It was in the 1998 budget as part of the 
transportation program for $3 million, but as a result of a 
decision not to continue turbines in the partnership for the 
new generation of vehicles, there is no funding for ceramic 
technology in the 1999 budget, even though it was also being 
used by the industrial program. So there's sort of a glitch in 
the funding there.
    In addition, the ceramic technology will support the new 
microturbine initiative, the small power plants, that you are 
getting that are 50 kilowatts to 500 kilowatts that would be 
used for small business hospitals. Ceramics will make them much 
more efficient and help on the emissions level also.
    Again, I want to thank you and the Committee for your 
support.
    [The information follows:]

[Pages 1047 - 1052--The official Committee record contains additional material here.]


    Mr. Wamp. Excellent testimony. Obviously, this is a huge 
challenge since last year the request was for $3 million; the 
Committee funded the $3 million. This year the request is for 
zero and you're requesting $5 million, and so it will take 
quite a bit of magic to try to arrive at a successful 
conclusion here, but we certainly appreciate your position and 
we'll take it into consideration.
    Thank you for your testimony today.
    Ms. Savitz. Thank you. I'm afraid I'll take my ceramic 
parts I brought to show you. [Laughter.]
    Mr. Wamp. Thank you.
    Dr. Bernie Baker, Energy Research Corporation, Fossil 
Energy Fuel Cell Program.
    Dr. Baker, welcome.
                              ----------                              

                                          Wednesday, March 4, 1998.

                        ENERGY FUEL CELL PROGRAM

                                WITNESS

BERNIE BAKER, ENERGY RESEARCH CORPORATION
    Mr. Baker. I appreciate the opportunity to be here.
    The Energy Research Corporation is a U.S. owned corporation 
operating as a small business and publicly traded.
    Last year we successfully completed the largest fuel cell 
plant ever built and operated in the United States, and the 
largest advanced fuel cell power plant in the world. This 2,000 
kilowatt plant operated in Santa Clara, California, and the 
project was 60 percent funded by the private sector and 40 
percent funded by DOE. There were many participants in the 
project, including a number of municipal utilities.
    The project was very successful. We demonstrated the 
highest efficiency ever operated for any type of fossil fuel 
device, and we demonstrated minimum emissions of 
SO<INF>x</INF>, NO<INF>x</INF> and CO<INF>2</INF> ever 
demonstrated anywhere in the world.
    By comparison, similar projects in Japan are scheduled for 
1999. It's being 100 percent funded by their Government and the 
cost of that project will be 13 times the cost of the project 
to our Government.
    In earlier projects we demonstrated the ability to operate 
our fuel cells on coal gas. We're the only company in the world 
that has ever operated fuel cells on gasified coal. We did that 
in both Louisiana and in Germany.
    We now need to demonstrate a pre-commercial fuel cell power 
plant for building on the success of our Santa Clara plant. The 
direct fuel cell directly contributes to the goals of the U.S. 
DOE's energy strategy by substantially improving generation 
efficiency while reducing carbon dioxide and acid rain 
emissions, and offering a much anticipated new option for the 
restructured U.S. utility markets.
    Lastly, non-traditional interests are building upon the DOE 
fuel cell work that this Committee has enabled. This includes 
Marine fuel cell power plants for the military and farm scale 
generation systems.
    Since 1995 ERC has been operating on a cooperative 
agreement with the Department of Energy. The original agreement 
called for DOE to fund 55 percent of the project and the 
private sector 45 percent. To date ERC has funded 57 percent of 
the project and DOE only 43 percent of the project. I appeal to 
the Committee to provide the DOE funds needed to complete this 
very successful project and help us keep the American 
leadership in this important energy technology area.
    The required DOE funding for 1999 is $25.5 million to get 
this project back on schedule. Thank you.
    [The information follows:]

[Pages 1055 - 1060--The official Committee record contains additional material here.]


    Mr. Wamp. Thank you for your testimony, sir. Thank you for 
your time.
    Next is the Associated General Contractors of America, Matt 
Garland is providing the testimony.
    Mr. Garland, thank you for coming today, sir.
    You're here for Abandoned Mine Reclamation.
    Mr. Garland. That's correct.
                              ----------                              

                                          Wednesday, March 4, 1998.

                       ABANDONED MINE RECLAMATION

                                WITNESS

MATT GARLAND, VICE PRESIDENT, THE ASSOCIATED GENERAL CONTRACTORS OF 
    AMERICA
    Mr. Garland. My name is Matt Garland, and I'm Vice 
President of a small company in Gillette, Wyoming. I'm co-owner 
with my brother. I'm also President of the Wyoming Contractors 
Association and a member of the National Association of General 
Contractors.
    In the past 13 or so years I've been very involved myself 
in actually doing reclamation sites with AML funds that were 
provided to the State of Wyoming. These included some coal, 
uranium and mines. It gave us a real sense of accomplishing 
something because the first ones that were tackled in the State 
was the number one priority sites that posed a real threat to 
the safety and health of the surrounding community.
    Being from Campbell County, right now it's the large coal 
producing area in the nation, so I've had a first-hand view of 
how reclamation is going on now compared to how it was prior to 
1977. I have to salute the Congress for having the foresight to 
not only funding the AML programs to fix the old problems, but 
to establish new laws so that the reclaimed land is actually 
better today than what it was prior to mining. We at the 
Association salute them.
    In Wyoming we have a unique problem. We are suffering right 
now from lack of economic development. We would like to see the 
AML program funded to its full extent not only to maintain the 
fund to clean up the sites, but also to provide employment.
    Usually, the areas where the reclamation goes on is in 
areas that are remote so that the unemployment rates are high 
there, and the AML money does help promote jobs. We figured for 
every one million dollars in AML money spent 59 jobs are 
created.
    The AGC of America supports the increased funding for the 
AML program to the full well environmental impact of mining. 
The AML is a trust fund and it's also an interest-bearing 
account. We kind of feel out there in Wyoming there's a little 
difference in trust funds. Wyoming itself has some trust funds 
that we all as taxpayers pay into. The only difference between 
that and the funds that we see here in Washington with the 
trust fund is that Wyoming actually has money in their trust 
funds, so we kind of support that the trust funds should come 
off the budget--just as a side note.
    On the average, $260 million is collected annually from the 
mining industry for the trust fund. For fiscal year 1998 only 
$140 million was allocated to the State and tribal grants. For 
1999 $143 million of the $260 million is all that is 
appropriated. This program works to protect the public health 
and environment and creates job opportunities. This is not like 
the Super Fund Program. The money is actually spent on cleaning 
up acidified streams instead of paying for lawyers, and it's 
spent for reclaiming waste sites and it's not chasing innocent 
parties.
    Without abandoned mine land programs, dangerous conditions 
would go unaddressed. This program reclaims clogged streams, 
dangerous piles, hazardous equipment and facilities, through 
these efforts the ones that have already been done have led to 
very new development of new technologies that has been very 
successful in the new ways that mines are reclaimed.
    Twenty-three States and three Native American tribes 
currently participate in this program. Last year AML worked 
with and performed in seven States represented by members of 
this subcommittee. This program is needed and everyone seems to 
agree on that. Companies are taxed to finance this program; the 
Federal Government is collecting $260 million per year to carry 
out the program, and it only spends $140 million. So it is our 
contention that what we would like to see is the spending limit 
set to around $200 million, which would not break the trust 
fund but just send more money back that would do economic good 
for all of the States involved, and, basically, that's all I 
would like to say at this point.
    [The information follows:]

[Pages 1063 - 1066--The official Committee record contains additional material here.]


    Mr. Wamp. Excellent testimony. We face great challenges 
here, but I'll tell you that the logic and common sense is 
certainly on your side. So thank you for bringing this before 
us today, Mr. Garland.
    American Iron and Steel Institute, Lawrence Kavanagh on the 
DOE budget.
    Good afternoon, Lawrence, thanks for coming.
    Mr. Kavanagh. My pleasure.
                              ----------                              

                                          Wednesday, March 4, 1998.

                 COLLABORATIVE RESEARCH AND DEVELOPMENT

                                WITNESS

LAWRENCE W. KAVANAGH, AMERICAN IRON AND STEEL INSTITUTE
    Mr. Kavanagh. I am representing the American Iron and Steel 
Institute, which is an organization that represents steel in 
North America. I would like to make two points today--one 
concerning collaborative R&D with the Department of Energy, and 
one concerning the partnership for a new generation of 
vehicles, the steel industry's response to it.
    Our history with the Department of Energy is with the 
Office of Industrial Technology, and that's recounted in detail 
in the testimony, and I won't repeat it. There's also been a 
lot of OIT related testimony here today, so let me just say 
that the steel industry has cooperated through the OIT steel 
team for a long time with a lot of success. We have just 
launched a new R&D program based on our technology road map, 
which is focusing on all aspects of the industry. In 
particular, in 1998 we're focusing on the environment and on 
steel's properties.
    The environmental projects are particularly important 
because we expect that they will underpin the steel industry's 
voluntary programs to reduce green house gases.
    I guess in the interest of brevity I would just summarize 
by saying that we really support your continued endorsement of 
the OIT steel budget at the level submitted by the President.
    My second point would be related to the partnership of the 
new generation of vehicles. Yesterday, the steel industry 
announced the ultra light steel auto body, which is a steel 
body structure which is 25 percent lighter than any made today 
while being safer, stronger and just as affordable. It's made 
with manufacturing practices available today, and new steels 
that are also available today. For example, half of the vehicle 
is made from steel that is less than a millimeter thick, which 
is about the thickness of your pencil point, and all of it is 
made with steel less than two millimeters thick--two pencil 
points. It's a stronger, lighter, safer vehicle, and it was 
unveiled today.
    I raise this point because the ultra light steel auto body 
is our industry's response to PNGV. We feel by demonstrating a 
practical light-weight steel vehicle that's 100 percent 
recyclable and has such a dramatic weight reduction, which will 
yield significant fuel savings, that makes it very practical 
and it makes it very green. The reason this is brought up 
because a lot of the PNGV activities are funded through DOE, 
and there are particular light-weight programs in this year's 
budget related to trucks. We also have many truck programs that 
we've done that I won't go into, but people don't tend to think 
of steel as a light weight material. We have physical evidence 
that it is. We've undertaken this $22 million program. The body 
is going to be here in Washington in two weeks at the Forrestal 
Building, and our request in this regard is that any report 
language dealing with PNGV-related funds recognize steel's 
viability as the platform of the car of the future, or at least 
not specifically excluded.
    With those remarks, I would like to conclude, and I would 
be happy to answer any of your questions.
    Thank you.
    [The information follows:]

[Pages 1069 - 1073--The official Committee record contains additional material here.]


    Mr. Wamp. I think that speaks for itself, and we appreciate 
your weighing in on behalf of your industry as we prepare the 
report language and the relative appropriations for DOE for the 
upcoming year, and I know that we are making progress on our 
alternative transportation vehicles and the funding there.
    So thank you for your testimony, sir.
    Mr. Kavanagh. I would like to give you this summary report 
of that ultra light program for the record please.
    Mr. Wamp. Well, consider it submitted.
    Thank you, Mr. Kavanagh.
    Anna Aurilio, with U.S. PIRG, Public Interest Research 
Group--nice to see you--DOE's 1999 budget request, and your 
input, ma'am?
                              ----------                                


                                        Wednesday, March 4, 1998.  

                     PUBLIC INTEREST RESEARCH GROUP

                                WITNESS

ANNA AURILIO, U.S. PUBLIC INTEREST RESEARCH GROUP
    Ms. Aurilio. My name is Anna Aurilio. I'm the staff 
scientist with the U.S. Public Interest Research Group. As you 
know, we're a non-profit, non-partisan environmental and 
consumer advocacy group active across the country, and I 
believe you've met with our southeast organizer on several 
occasions.
    Mr. Wamp. I grew up with him.
    Ms. Aurilio. Pardon?
    Mr. Wamp. I grew up with him.
    Ms. Aurilio. You grew up with him?
    Mr. Wamp. I've known him my whole life just about, go 
ahead.
    Ms. Aurilio. He said to say hi.
    As you know, we're part of the Green Scissors Campaign and 
the Stop Corporate Welfare Coalition, so we have ideas for this 
Committee to not only save money but also save the environment. 
Our report that we released called the Green Scissors 1998 
Report targets 71 programs that we think are bad for the 
environment and also waste taxpayers' dollars. If these were 
cut or reformed, we could save nearly $50 billion.
    The programs that I want to highlight today are fossil 
energy and timber, and I'll stick with mostly the energy 
programs since that's the focus of today's testimony.
    PIRG has worked for years to shift away from polluting 
sources of energy towards energy efficiency and renewable 
energy. We don't think that we should continue to subsidize the 
coal and the oil industry. We believe, especially given the 
current concern about global climate change, that these are the 
two industries that are primarily responsible for global 
climate change. They are mature industries and have received 
billions of dollars of taxpayers' subsidies over the years. We 
feel like our money would be best spent funding energy 
efficiency and renewable energy programs. These can lead us to 
a truly clean and affordable energy future.
    If I could just pick out the reasons why we object to a 
couple of the programs:
    First, is clean coal. I've often been asked as an 
environmentalist why don't I like clean coal. We call it an 
oxymoronic program. It's not clean and it doesn't work. It's 
been mismanaged. Some of the projects that have been picked by 
this program actually haven't worked as well as technologies on 
the market. Moreover, the coal industry already has an 
incentive to clean up their admissions under the 1990 Clean Air 
Act Amendments. This is the whole notion of tradeable pollution 
permits, so if people can develop technologies and clean up 
their emissions, that's fine. They can sell that and they have 
a market incentive to do so. We don't need a $2.3 billion 
program.
    We were very pleased to see that Congress rescinded $100 
million from this program last year. We feel if you really take 
a look at the projects and look at the ones that are 
floundering, that aren't going forward, there's up to $500 
million more dollars of additional savings, and we would urge 
this subcommittee to take a long look at that.
    In terms of coal research and development, I heard a 
previous witness testify about the fact that since World War 
II--that were basically looking at World War II technology when 
it comes to creating liquid fuel out of coal. This is an 
outgrowth of the failed syn fuels program. We don't think 
there's any merit to this. We could save lots of money, and if 
we're worried about dependence on foreign oil, well, let's save 
money at the gas pump. Americans could save nearly $600 a year 
per family if we increased fuel economy standards for cars and 
light trucks. The auto industry is already telling us that they 
can increase efficiency. Well, let's do it--we don't need to 
create petroleum out of oil to reduce our dependence on foreign 
oil.
    The petroleum programs--why are we subsidizing Chevron, 
Texaco and ARCO? They don't need our money, and we don't need 
to be subsidizing environmental destruction.
    Then, finally, if I can just touch on the U.S. Forest 
Service because I know this subcommittee also handles that. For 
the past two years we've come within one vote in the House of 
really taking a bite out of the outrageous Timber Road building 
subsidy. We would like to see that program eliminated. The CEO 
of Louisiana Pacific makes millions of dollars every years, and 
we don't need to be building roads for him or anybody else. 
Less than five percent of our ancient forest remain; most of 
those are on national forest lands and it's time to start 
thinking about protecting the public's interest when it comes 
to public forest management, not a hand full of special 
interests.
    That concludes my testimony.
    [The information follows:]

[Pages 1076 - 1080--The official Committee record contains additional material here.]


    Mr. Wamp. Great, thanks, Anna. Very well presented and very 
clear. We thank you for your input here today; yes, ma'am.
    Mary Margaret Overbey, American Anthropological 
Association. She is the Director of Government Relations. She's 
been sitting patiently in the rear.
    Good afternoon.
                              ----------                              

                                          Wednesday, March 4, 1998.

                  AMERICAN ANTHROPOLOGICAL ASSOCIATION

                                WITNESS

MARY MARGARET OVERBEY, DIRECTOR, GOVERNMENT RELATIONS, AMERICAN 
    ANTHROPOLOGICAL ASSOCIATION
    Ms. Overbey. Good afternoon.
    I'm Peggy Overbey, and I'm an anthropologist at the 
American Anthropological Association, and the testimony that 
I'm presenting today is on behalf of the--we call it the 
original AAA because we were founded in 1902--the Society for 
American Archeology and the Society for Historical Archeology.
    We are here to request $136 million for NEH in fiscal year 
1999, and we believe that that is a good investment. There have 
been pretty extensive cuts to NEH that have affected research 
there, and, in particular, we know for anthropology and 
archeology since fiscal year 1995 research has been cut 81 
percent in funding and 68 percent in the number of projects 
funded.
    We think if we get some additional funds to NEH that will 
put us back on the road to getting more knowledge, but not 
just--this would be new knowledge to also help reshape old 
knowledge because we think that's useful and also it will add 
to supporting Dr. William Farris' initiative on rediscovering 
America. That program is, again, creating regional cultural 
centers. We think that's a good idea because it will get more 
Americans involved in learning more about their culture and 
also participating in it too.
    So I just would like to take a few minutes to talk about 
three NEH funded projects and scholars, and the first one I 
would like to talk about is Jamestown, right down here in 
Virginia. NEH funding allowed Dr. Belkowso to discover the 
original fort of Jamestown, which was thought to be lost 
underwater, and he actually discovered the fort and they've 
been excavating the fort since I think 1996. This is really a 
fascinating find. The fort area that they've been excavating, 
all of the finds they have, are between the 1607 to 1609 
period. Probably the most impressive find I think was the 
burial of an original settler who had come over and was killed 
shortly after arriving at Jamestown, and they found the burial 
with a lead bullet in the back of his knee.
    One thing I brought for you--it's from the Jamestown 
rediscovery project, and I brought one also for Congressman 
Regula and also Congressman Yates--a brochure that describes 
what's going on there. And I also brought two--these are 
reproductions of a silver English sixpence that they found at 
Jamestown and there are a number of those. That's one of the 
few reproductions. They found over 2,000 objects to date--
400,000 people per year have been visiting the site. It's very 
popular for the public. They set up a web site last year, and 
it has had over 100,000 hits. School children are interested in 
it, teachers, the public and it's really a nice site. You can 
take a virtual tour of Jamestown.
    They've produced a 47-minute documentary that's going to 
appear on the History Channel in the spring, and on March 10th 
National Geographic is hosting an exhibit of 274 of the items 
from Jamestown at Explorer's Hall.
    The important thing about the NEH funding here is that it 
has really attracted a lot of other funding, private foundation 
funding, and also other government-State funding to this 
project so that this can really be carried out. This year the 
Virginia Assembly has a $200 million request for funding 
proposed for Jamestown, and now in Jamestown they're working 
with the National Park Service in the State of Virginia to 
develop that land for the public, for the public to see it and 
also for the year 2007, which will be the 400th anniversary of 
the founding of Jamestown.
    The other project I would like to mention is one by Dr. 
George Cowgill where he's been doing research down in Mexico in 
collaboration with Mexican scholars. He has been working in 
Teotihuacan, which is one of the earliest civilizations in 
MesoAmerica. It's not an Aztec site; it's a city that supported 
100,000 people 1,000 years prior to the Aztec. What he has 
found there is the first sign of human sacrifice in 
Teotihuacan, which was never thought to be war-like. There have 
been human sacrifices in Tenochtitlan, which is an Aztec site 
and in some other sites, but this is the first time they found 
anything of this kind in Teotihuacan.
    This is important because they want to find out who the 
victims were in this case, and what is the meaning of these 
sacrifices for Teotihuacan in that culture.
    So Teotihuacan is important for other archaeologists and 
anthropologists studying the near East and other areas where 
first civilization arose. It gives us more of an understanding 
of the rise and fall of civilizations and how human sacrifices 
may be related to that too.
    In addition, Dr. Cowgill has set up also a virtual web site 
on Teotihuacan and Tenochtitlan so that people can learn more 
about ancient life or pre-historic life in Mexico and 
MesoAmerica. This web site is going to be interactive. It's for 
scholars, but also for the public too and it's already received 
a number of awards, so we're very excited about that.
    Then the final case I would like to mention is one to just 
show how a small amount of NEH funding can really help round 
out a sense of knowledge about a culture and how that can 
translate into better public policy. Dr. Melvin Goldstein up at 
Case Western Reserve has been working in Tibet and Tibetan 
areas for over 30 years, and with NEH funding he has been 
looking at the history of Tibet, particularly up to 1959 when 
the Chinese overtook Tibet and the Dalai Lama left Tibet. And 
he has also put together an American Tibetan dictionary, and a 
lexicon of Tibet Government terms. He has also looked at the 
health with NIHfunding and Tibetan culture with NSF funding, 
and he has had National Geographic and other foundation funding too.
    He is really an expert on Tibet now with over 30 years of 
all of this research, and he is using his expertise to advise 
the State Department on China-Tibet relations. He served on the 
Tibet Fact Finding Team in 1991 with the National Committee on 
China-United States Relations, and now he's a current member of 
that Committee.
    I mention him too because he not only publishes books and 
journals and academic sources, but he publishes in public 
policy journals too. He just had an article in Foreign Affairs 
in the January-February edition called The Dalai Lama's Dilemma 
where he basically pulls all this information together in terms 
of an understanding of how the history and economic and public 
policy pressures there in Tibet and the relations between China 
and Tibet are unfolding and really what are the options of the 
Dalai Lama, and what is the role for the U.S. to play in this 
and helping to negotiate some kind of agreement between these 
two governments.
    So I just mention these three projects to show you the kind 
of work that is being funded by the NEH and to encourage you 
and the Committee to provide them that $136 million this year.
    Thank you.
    [The information follows:]

[Pages 1084 - 1097--The official Committee record contains additional material here.]


    Mr. Wamp. Fascinating testimony, and we appreciate your 
time on behalf of the AAA. I think you did an excellent job. Of 
course, this year the request is $26 million more than we were 
able to fund last year, so they're stressed there but I'm sure 
we'll do our very best to squeeze every penny out of it that we 
can as we evaluate our 1999 priorities.
    Thank you for your time, Mary Margaret.
    We will stand adjourned until 10:00 tomorrow morning.

[Pages 1099 - 1059--The official Committee record contains additional material here.]




                           W I T N E S S E S

                              ----------                              
                                                                   Page
Able, E.H., Jr...................................................   853
Agnew, William...................................................  1184
Ali, S.A.........................................................   621
Altmeyer, T.H....................................................   692
Alvey, Karen.....................................................   231
Apfelbaum, Sharon................................................   392
Applegate, David.................................................   782
Argow, K.A.......................................................   405
Arita, S.J.......................................................   546
Aunan, L.G.......................................................   447
Aurilio, Anna....................................................  1074
Bajura, R.A......................................................   829
Baker, Bernie....................................................  1053
Baker, D.B.......................................................   466
Banzhaf, W.H.....................................................   423
Barley, Mary.....................................................   596
Barnett, J.A.....................................................   454
Beachy, William..................................................   906
Beard, D.P.......................................................   346
Beck, J.A........................................................   178
Beetham, M.B.....................................................   170
Bezanson, Janice.................................................   519
Blaleccki, Hugh..................................................   512
Blum, J.O........................................................   701
Bonda, B.D.......................................................   971
Brand, Myles.....................................................   724
Britten, B.H.....................................................   575
Brouha, Paul..............................................481, 524, 559
Brown, G.N.......................................................   767
Brown, M.K.......................................................   574
Brown, Marvin....................................................   354
Brown, Molly.....................................................   160
Butler, J.A......................................................  1038
Byrd, Donald.....................................................   984
Caldwell, J.C....................................................   919
Camara, Lee......................................................   809
Campbell, F.T....................................................   280
Carlino, A.R.....................................................   602
Carroll, P.A.....................................................  1004
Chase, Mike......................................................   546
Clark, Les....................................................546, 1134
Clinton, M.J.....................................................  1253
Cockrell, Ernie..................................................  1126
Cole, Charlie....................................................   515
Collins, Kevin...................................................   339
Colnes, Andrea...................................................    25
Colvin, J.F......................................................   563
Comolli, A.G.....................................................  1130
Conrad, G.E......................................................   992
Cordova, Max.....................................................   398
Cosgrove, Sean...................................................   320
Cruickshank, Dr. M.J.............................................  1246
Cunha, Manual, Jr.............................................546, 1134
D'Arms, J.H......................................................   707
Darguzas, J.N....................................................  1178
Day, William.....................................................  1031
Dean, Henry......................................................   525
Deets, H.B.......................................................  1104
Derbyshire, Frank................................................   822
Dickens, Michael.................................................   882
Dixon, M.A.......................................................  1104
Duggan, Terry....................................................   295
Duncan, Roger....................................................  1180
Ebel, Dr. J.E....................................................   529
Enzler, Jerry....................................................   295
Espy, J.J., Jr...................................................   200
Evans, Don.......................................................   606
Faris, Jack......................................................   743
Fawley, Lou......................................................   510
Fazio, Hon. Vic..................................................   570
Fergeson, Ken....................................................  1021
Field, D.B.......................................................   334
Fitzer, Tim......................................................   572
Francis, M.A.....................................................   252
Frederickson, Jean...............................................   503
Fritts, C.H......................................................   686
Fumich, George...................................................   829
Gardner, C.H..................................................795, 1100
Garland, Matt....................................................  1061
Geller, Howard...................................................   964
Geringer, Jim....................................................   592
Gilbert, Kathy...................................................   571
Gilson, Susan....................................................   525
Giovannitte, E.F.................................................   998
Glenn, G.A.......................................................  1240
Golembeski, Michael..............................................   459
Gomez, Manuel....................................................   129
Gray, Gerry......................................................   476
Greenaway, Roy...................................................   572
Gunn, S.H........................................................   418
Guschl, R.J......................................................   938
Hakes, J.E.......................................................  1113
Hall, Jason......................................................  1220
Hansberger, Dennis...............................................   517
Hansen, Christine................................................   896
Havatone, Earl...................................................   553
Hays, Sam........................................................   606
Heissenbuttel, John..............................................   363
Henck, J.P.......................................................   516
Henley, J.S......................................................   386
Hertfelder, Eric.................................................   121
Hesemann, George.................................................   507
Hightower, G.J...................................................   145
Hocker, Jean.....................................................    80
Holmer, Steve....................................................   304
Houghland, Paul, Jr..............................................   103
Huffman, G.P.....................................................   846
Huntington, Gilbert..............................................   578
Imbergamo, Bill..................................................   354
James, Ted.......................................................   546
Janger, S.A......................................................  1236
Jenks, Bob.......................................................    20
Jorris, Peter....................................................   513
Judd, Joe........................................................   231
Kavanagh, L.W....................................................  1067
Kennamer, J.E....................................................    22
Kennedy, Bruce...................................................   573
Kenny, M.P.......................................................  1134
Kightlinger, Allen...............................................   267
King, J.A........................................................   408
Kirk, M.C., Jr...................................................  1118
Komar, Kristine..................................................   500
Kramer, Dan......................................................  1157
Lea, George......................................................   430
Lederman, P.B....................................................   887
Lee, Bernard.....................................................   802
Liston, Louise...................................................   586
Long, Michael....................................................   608
Longsworth, N.L..................................................   223
Lungren, D.E.....................................................  1161
Malone, Don......................................................  1215
Manking, Charles.................................................   795
Marcum, Deanna...................................................   730
Marquez, Jose....................................................   494
Marshall, Gwen...................................................    96
Marvin, M.L......................................................   674
Mason, Donald....................................................   680
Matsui, Hon. R.T.................................................   570
McCarron, D.J....................................................   484
Melvin, Cornelia.................................................   556
Merry, Liz.......................................................   577
Miller, Jerry....................................................   536
Miller, P.P......................................................   757
Miller, Sally....................................................   971
Morris, R.C......................................................   932
Mosena, D.R......................................................   259
Mosman, J.D......................................................  1163
Nash, Susan......................................................   504
Nemtzow, D.M.....................................................  1139
Nesin, Jeffrey...................................................   751
Newman, M.S......................................................   926
Niebling, C.R....................................................   244
Nimmons, J.T.....................................................   816
Norton, E.M., Jr.................................................   112
Nussle, Hon. Jim.................................................   294
Ott, Dr. W.R.....................................................  1150
Overbey, M.M.....................................................  1081
Owens, John......................................................   846
Pace, Felice.....................................................    89
Pacelle, Wayne...................................................   272
Paine, C.W.E.....................................................    32
Palisca, Al......................................................   606
Paque, Michael...................................................   680
Parson, J.W......................................................   490
Patrick, Barbara.................................................  1134
Pendergast, P.A..................................................   460
Peterson, R.M....................................................   185
Prosser, Norville.........................................369, 522, 542
Quaals, Ward.....................................................   259
Quink, Thomas....................................................   532
Reheis, C.H......................................................  1134
Rendell, Ed......................................................   326
Rice, D.M........................................................   216
Robbins, James...................................................   474
Robbins, Jenness.................................................   474
Rowell, Deborah..................................................  1171
Runnels, Bruce...................................................   139
Salisbury, Ralph.................................................   498
Sankpill, Conrad.................................................   568
Sargeant, Heather................................................   501
Savitz, Maxine...................................................  1045
Scalet, C.G......................................................   582
Schlender, J.H.................................................462, 538
Schneider, Bob...................................................   577
Sebastian, Carol.................................................   508
Seery, D.J.......................................................  1143
Sellors, M.G.....................................................   575
Siglin, Doug.....................................................   550
Sigmon, Neal.....................................................   153
Simpson, R.D.....................................................   511
Sloan, M.M.......................................................   312
Smith, C.B.......................................................   976
Smith, Sharon....................................................   496
Sparrowe, R.D....................................................     1
Speight, Dr. J.G.................................................  1167
Startzell, D.N...................................................   334
Steinbach, T.E...................................................   377
Stenzil, Bill....................................................   835
Stephenson, R.B..................................................  1208
Stevens, Christine...............................................   193
Story, Eugene....................................................   470
Styles, G.A......................................................   613
Sublette, Kerry..................................................   944
Sutherland, Scott................................................    42
Tijm, P.J.A......................................................  1196
Tindall, Barry...................................................   436
Tipton, R.J......................................................    51
Tobin, David.....................................................    12
Trent, Dr. R.H...................................................  1175
True, Diemer.....................................................  1126
Turner, D.S......................................................   872
Turner-McKibben, A.L.............................................   506
Volk, B.G........................................................   775
Waheed, Dennis...................................................   606
Walia, D.S.......................................................  1013
Walsh, Tom.......................................................   501
Webb, D.O........................................................   912
Weimer, D.D......................................................  1150
Werner, Gary.....................................................   207
Wilde, Harry, Sr.................................................   578
Williams, D.D....................................................   495
Wodraska, J.R....................................................   451
Wolf, N.A........................................................   286
Woolsey, Dr. J.R.................................................  1243
Wright, David....................................................   866
Wright, Rachel...................................................   598
Zimmerman, G.R...................................................   457
Zwirn, Randy.....................................................  1208







                               I N D E X

                              ----------                              

                    Organization Providing Testimony

                                                                   Page
Air Products and Chemicals, Inc..................................  1196
Air-Conditioning and Refrigeration Institute.....................  1110
Alliance for Community Trees.....................................   286
Alliance to Commercialize Carbonate Technology...................   816
Alliance to Save Energy..........................................  1139
Allied Signal Ceramic Components.................................  1045
Allison Engine Company...........................................   621
Alpine County, California Schools................................   490
American Anthropological Association.............................  1081
American Association of Museums..................................   853
American Association of Museums..................................  1221
American Association of Retired Persons..........................  1104
American Council for an Energy-Efficient Economy.................   946
American Fisheries Society--BLM..................................   561
American Fisheries Society--FS...................................   481
American Fisheries Society--FWS..................................   559
American Fisheries Society--USGS/Biological Resources............   524
American Forest..................................................   476
American Forest and Paper Association............................   363
American Gas Association.........................................   686
American Geological Institute....................................   782
American Hiking Society..........................................   312
American Institute of Chemical Engineers.........................   887
American Iron and Steel Institute................................  1067
American Lands Alliance..........................................   508
American Rivers..................................................   550
American Society of Civil Engineers..............................   872
American Sportfishing Association................................   369
American Sportsfishing Association...............................   522
American Symphony Orchestra League...............................  1232
Americans for Our Heritage and Recreation........................   418
Americans for the Arts...........................................  1021
Americans United to Save the Arts and Humanities.................  1038
Appalachian Mountain Club........................................   377
Appalachian Trail Conference.....................................   334
ARCTECH, Inc.....................................................  1013
Arrowhead Forest Preservation Alliance...........................   496
Association of American State Geologists--MMS....................  1100
Association of American State Geologists--USGS...................   795
Association of Home Appliance Manufacturers......................  1154
Association of Performing Arts Presenters........................   984
Brown, M. Kathryn, MD............................................   574
California Duck Days.............................................   577
California Independent Petroleum Association.....................  1157
California Industry and Government Coalition.....................  1134
California State Teachers' Retirement System.....................  1163
California, State of, Office of the Attorney General.............  1161
Caterpillar Inc..................................................  1212
Center for Marine Conservation...................................   544
Center for Plant Conservation....................................    32
Center for the Engineered Conservation of Energy, Alfred Univ....  1150
Children's Forest Association....................................   494
Close Up foundation..............................................  1236
Coachella Valley Mountains Conservancy...........................   392
Coal Utilization Research Council................................  1146
Colorado River Basin Salinity Control Forum......................   454
Colorado River Board of California...............................   457
Congressman Robert Matsui and Vic Fazio..........................   570
Cooperative Alliance for Refuge Enhancement......................    12
Council for Chemical Research....................................   938
County of San Bernardino, California.............................   517
Cummins Engine Company, Inc......................................  1200
Dance USA........................................................   971
Deep Creek Flyfishers............................................   510
Defenders of Wildlife............................................   170
Detroit Diesel Corporation.......................................  1257
Doris Day Animal League..........................................   557
Ducks Unlimited, Inc.............................................    42
Electric Transportation Coalition................................  1204
Energy Information Administration................................  1113
Energy Research Corporation......................................  1053
Federal Forest Reform............................................   519
Federation of Fly fishers........................................   515
Forest Water Alliance............................................   320
Friends of Back Bay/Save Our Sandbridge..........................   160
Friends of Carter Barron Foundation of the Performing Arts.......   145
Friends of the Columbia Gorge....................................   447
Friends of the Northern San Jacinto Valley.......................   506
Frontera Audubon Society.........................................   280
Garfield County, Utah Commissioners..............................   586
Gas Research Institute...........................................   912
Gas Turbine Association..........................................  1031
General Electric Power Systems...................................  1192
Gilbert, Kathy...................................................   571
Great Lakes Indian Fish & Wildlife Commission....................   462
Great Lakes Indian Fish and Wildlife Commission..................   538
Ground Water Protection Council..................................   680
Henck, J. Putnam.................................................   516
Homeowners Association of El Portal, California..................   606
Hualapai Nation..................................................   553
Hydrocarbon Technologies, Inc....................................  1130
Imperial Irrigation District.....................................  1253
Independent Petroleum Association of America.....................  1126
Industrial Assessment Centers--Western Region....................  1118
Inland Archeology/Calico Mountains Early Man Project.............   511
Institute of Gas Technology......................................   802
Integrated Building and Construction Solutions...................   882
International Associations of Fish & Wildlife Agencies...........   185
Interstate Council on Water Policy...............................   525
Interstate Mining Compact Commission.............................   992
Interstate Oil and Gas Compact Commission........................   896
Kane County, Utah Board of Commissioner..........................   231
Klamath Forest Alliance..........................................    89
Land Trust Alliance..............................................    80
Lindbergh Lake Conservation Committee............................   598
Louisiana, State of, Department of Natural Resources.............   919
Main Coast Heritage Trust........................................   200
Marathon Ashland Petroleum.......................................  1215
Massachusetts Foundation of Excellence...........................  1240
Mayor of Philadelphia, Pennsylvania..............................   326
Mayor, Kanab, Utah...............................................   241
M-C Power Corporation............................................   809
Metropolitan Water District of Southern California...............   451
Mission San Juan Capistrano......................................   536
Mississippi River Museum.........................................   294
Montezuma County Colorado Board of Commissioners.................   470
Museum of Science and Industry...................................   259
National Assembly of State Arts Agencies.........................   926
National Association for State Community Services Programs.......   906
National Association of Abandoned Mine Land Programs.............   998
National Association of Conservation Districts...................   532
National Association of Energy Service Companies.................  1122
National Association of State Energy Officials...................   976
National Association of State Foresters..........................   354
National Association of State Universities and Land--Grant 
  Colleges.......................................................   767
National Association of University Fisheries and Wildlife 
  Programs.......................................................   582
National Audubon Society--Connecticut Refuge.....................   460
National Audubon Society--Overall Budget.........................   346
National Coalition for Abandoned Reclamation.....................   866
National Conference of State Historic Preservation Officers......   121
National Coordinating Committee for the Promotion of History.....   757
National Fish and Wildlife Foundation............................   153
National Hardwood Lumber Association.............................   103
National Humanities Alliance.....................................   707
Association of American Universities.............................   724
Association of Independent Colleges of Art and Design............   751
Association of Research Libraries................................   730
Federation of State Humanities Councils..........................   743
National Institutes for Water Resources..........................   775
National Mining Association......................................   692
Polyisocyanurate Insulation Manufacturers Association............   701
National Network of Forest Practitioners.........................   398
National Parks and Conservation Association......................   339
National Recreation and Park Association.........................   436
National Research Council/National Academy of Sciences...........  1184
National Trust for Historic Preservation.........................   112
National Volunteer Fire Council..................................   267
National Wild Turkey Federation..................................    20
National Woodland Owners Association.............................   405
Northern Forest Alliance.........................................    25
Nuclear Energy Institute.........................................   563
Ohio & Erie Canal Corridor Coalition.............................   216
Opera America....................................................   932
Partnership for the National Trails System.......................   207
Petroleum Technology Transfer Council............................  1171
Preservation Action..............................................   223
Protect Biodiversity in Public Forests...........................    96
Public Lands Foundation..........................................   430
Rim of the World Interpretive Association........................   507
Robbins Timber, Inc..............................................   474
Sacramento Audubon Society.......................................   572
San Bernardino Mountains Land Trust..............................   513
San Bernardino Mountains Wildlife Society........................   495
San Bernardino National Forest Association.......................   500
San Bernardino Valley Audubon Society............................   504
San Diego Audubon Society........................................   568
Sargent & Lundy..................................................  1178
Save Our Forest Association, Inc.................................   512
.................................................................      
Seneca Resources Corporation.....................................   178
Sierra Club, Delaware Chapter....................................   556
Sierra Club, San Gorgonio Chapter................................   498
Society for American Archaeology.................................   408
Society for Animal Protective Legislation........................   193
Society for the Protection of New Hampshire Forests..............   244
Society of American Foresters....................................   423
Solar Turbines...................................................  1004
Southern Company Services, Inc...................................   613
Southern Timber Council..........................................   466
Steel Industry Heritage Corporation..............................   602
Stone Lakes Refuge Alliance......................................   573
The ``WildDancer'' Foundation....................................   459
The American Arts Alliance.......................................  1225
The American Society of Mechanical Engineers.....................   835
The Associated General Contractors of America....................  1061
The Business Council for Sustainable Energy......................   674
The Consortium for Fossil Fuel Liquefaction Science..............   846
The Deep Creek Open Space Coalition..............................   503
The Everglades Trust.............................................   596
The Garden Club of America.......................................   386
The Humane Society of the United States..........................   272
The Marine Minerals Technology Center--Univ. of Alaska Fairbanks.  1250
The Marine Minerals Technology Center--Univ. of Hawaii...........  1246
The Marine Minerals Technology Center--Univ. of Mississippi......  1243
The Nature Conservancy...........................................   139
The San Bernardino Mountains Group...............................   501
The Urban Consortium Energy Task Force...........................  1180
The Wilderness Society...........................................   252
U.S. Public Interest Research Group..............................  1074
United Brotherhood of Carpenters and Joiners of America..........   484
United Council for Automotive Research...........................  1188
United Technologies Research Center..............................  1143
University of Alaska Fairbanks, School of Mineral Engineering....  1175
University of Kentucky Center for Applied Energy Research........   822
University of Puerto Rico........................................   129
University of Tulsa..............................................   944
West Virginia University National Research Center................   829
Western Ancient Forest Campaign..................................   304
Western Interstate Energy Board..................................   608
Western Research Institute.......................................  1167
Westinghouse Power Generation and Siemens Power Corporation......  1208
Weston Observatory of Boston College.............................   529
Wildlife Management Institute....................................     1
World Wildlife Fund..............................................    51
Wyoming, State of--Colorado River Salinity Control...............   594
Wyoming, State of--FWS...........................................   592
Yolando Group--Sierra Club.......................................   575
Yukon River Drainage Fisheries Association.......................   578

                                <all>
</pre></body></html>
